<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 6
                                                                   Page
 Major Challenges Facing Federal Prisons Part I...................    1
 Major Challenges Facing Federal Prisons Part II..................  153
 Assessment of the Serious and Violent Offender Reentry Initiative  229
 Innovative Prisoner Reentry Programs, Part II....................  359
 ``What Works'' for Successful Reentry............................  397
 Justice Reinvestment.............................................  481

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
PART 6--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2010
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 6
                                                                   Page
 Major Challenges Facing Federal Prisons Part I...................    1
 Major Challenges Facing Federal Prisons Part II..................  153
 Assessment of the Serious and Violent Offender Reentry Initiative  229
 Innovative Prisoner Reentry Programs, Part II....................  359
 ``What Works'' for Successful Reentry............................  397
 Justice Reinvestment.............................................  481

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 51-247                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New 
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma           
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

                              ----------                              

                                           Tuesday, March 10, 2009.

                MAJOR CHALLENGES FACING FEDERAL PRISONS 
                                 PART I

                                WITNESS

HARLEY G. LAPPIN, DIRECTOR, FEDERAL BUREAU OF PRISONS

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing is now in order. And we are going 
ahead with your opening statement.
    Good morning. We are pleased to welcome Mr. Harley G. 
Lappin, the Director of the Federal Bureau of Prisons, who will 
be talking with us about some of the major challenges facing 
the Federal Bureau of Prisons.
    This is the first in a series of hearings this week that 
will broadly focus on the central challenges we face in 
facilitating the successful reentry of offenders into our 
communities.
    Last week, the Pew Center on the States released a report, 
One in Thirty-One, the Long Reach of American Corrections.
    According to that report, one in thirty-one American adults 
or 3.2 percent of the population is now under some form of 
correctional control, whether in jail or under supervision in 
the community. That is a staggering statistic and it calls upon 
us to reassess the path we have been taking when it comes to 
reducing both crime as a whole and recidivism.
    The thrust of the Pew Report is that we are not investing 
nearly enough in programs to help offenders avoid recidivism.
    There are a number of goals associated with offender 
reentry, not the least of which is to help these individuals 
transition to full and productive lives.
    We also have an obligation to protect our communities from 
threats posed by returning offenders, who are more likely to 
recidivate without support services.
    But this is an Appropriations Subcommittee and so we are 
also concerned about the direct connection between recidivism 
and the growing strains on the resources of the Bureau of 
Prisons and State Correctional systems.
    Mr. Lappin, you provided information in connection with 
last year's hearing indicating that 70 percent of those coming 
into the Federal Prison System have prior records of some kind.
    To the extent that the federal government can help develop 
and support successful reentry programs for state and federal 
prisoners, we can reduce the number of individuals being 
incarcerated in our state and federal prison systems.
    This morning's hearing will focus on the Bureau of Prisons 
reentry efforts, including the way they are affected by last 
year's enactment of ``The Second Chance Act,'' which imposes 
new responsibilities on BOP to prepare offenders for reentry 
into communities.
    In that context, we also will be discussing the broad range 
of challenges facing the prisons, including prison overcapacity 
and the adequacy of staffing, because they ultimately affect 
the ability of the Federal Prison System to focus resources on 
reentry.
    Since we do not have a Minority member here at the moment 
and it is okay for us to proceed with their permission, your 
written statement will be made a part of the record and you can 
proceed with your oral testimony. And we welcome you to the 
hearing today.
    Mr. Lappin. Chairman Mollohan, it is a pleasure to be here 
and I look forward to chatting with you and the other 
Subcommittee members about the Bureau of Prisons and our 
reentry efforts.
    I appreciate the opportunity to appear before you today to 
discuss the challenges we face in the Bureau of Prisons in 
meeting the reentry needs of federal inmates.
    Before I do so, I would like to thank you, Mr. Chairman, 
and if you would on my behalf thank the other Subcommittee 
members, for your assistance last year with the reprogramming 
and the supplemental funds that allowed our agency to avoid a 
deficiency and also the additional operating funds included in 
the fiscal year 2009 House passed Omnibus bill.
    Preparing inmates for reentry into the community is a high 
priority for the Bureau of Prisons. We are constrained, 
however, in our ability to attend to this priority.
    A combination of elevated crowding and reduced staffing has 
made it difficult to provide inmates with the programs they 
need to gain the skills and training necessary to prepare them 
for a successful reentry into the community.
    And we know through rigorous analysis that both the inmate-
to-staff ratio and the rate of crowding at an institution are 
important factors that affect not only program availability but 
also the rate of serious assaults on inmates.
    As an example of the problems we are facing, for the last 
two fiscal years, we have been unable to meet our statutory 
mandate to provide residential drug abuse treatment for all 
eligible inmates. We would need to hire additional staff, to 
open new units in order to reach all the inmates who are in 
need of residential treatment.
    Traditionally the Federal Bureau of Prisons has offered a 
wealth of inmate programs that provide work skills and impart 
essential life skills. We have found again through rigorous 
research that inmates who participate in Federal Prison 
Industries, vocational or occupational training, education 
programs, residential drug abuse treatment programs are 
significantly less likely to recidivate within three years 
after release.
    This is important because a study by the Washington State 
Institute for Public Policy demonstrated significant cost 
savings to the criminal justice system for residential drug 
abuse treatment programs, adult basic education, correctional 
industries, and vocational training programs.
    We have implemented a number of changes to the BOP policies 
and practices now required by ``The Second Chance Act.''
    For example, our Life Connections Program is a residential, 
multi-faith-based program that provides the opportunity for 
inmates to deepen their spiritual life and assist with their 
ability to successfully reenter the community upon release from 
prison.
    ``The Second Chance Act'' requires that our Life 
Connections mentors be permitted to continue to mentor inmates 
after their release from custody.
    The Inmate Skills Development Initiative is our targeted 
effort to unify our inmate programs and services into a 
comprehensive reentry strategy.
    The three principles of the Inmate Skills Development 
Initiative are: one, inmate participation in programs must be 
linked to the development of relevant inmate reentry skills; 
two, inmates should acquire or improve a skill identified 
through a comprehensive assessment; and, three, resources are 
allocated to target inmates with high risk of reentry failure.
    The Inmate Skills Development Initiative includes a 
comprehensive evaluation of strengths and deficiencies inmates 
have in nine skills areas related to reentry. We will update 
this information throughout incarceration to continually assess 
the skills inmates obtain and to guide them to participate in 
the programs they need.
    Finally, one of our most important reentry programs, 
Federal Prison Industries, is dwindling rather than expanding. 
This program is essential to the BOP because it provides 
inmates with marketable skills and keeps substantial numbers of 
inmates at our higher security institutions productively 
occupied; and it does so without receiving appropriated funds.
    Over the past six years, inmate participation in the 
Federal Prison Industries Program has dropped 30 percent due to 
various provisions in Department of Defense authorization bills 
and appropriations bills that have weakened FPI's standing in 
the federal procurement process. Absent any new authority for 
FPI to expand its product and service lines, we will need 
additional resources to create inmate work and training 
programs to prepare inmates for a successful reentry into the 
community.
    Before closing, I would like to address one additional 
issue. I am aware that some correctional professionals and 
others are insisting that it is necessary to purchase certain 
equipment to enhance inmate supervision and reduce assaults. 
Let me assure you that I have no higher priority than the 
safety of staff and inmates. And while I desire to purchase 
equipment towards that end, I am absolutely confident that our 
limited resources are best used to increase staffing at our 
institutions.
    The addition of line staff positions in BOP facilities will 
allow us to supervise and manage the inmate population more 
effectively and I believe it is our best use of resources to 
enhance safety and security both for staff and for inmates.
    Chairman Mollohan, this concludes my formal statement, and 
I look forward to answering any questions you or other 
Subcommittee members may have.
    [Written statement by Harley Lappin, Director, Federal 
Bureau of Prisons follows:]

[GRAPHIC] [TIFF OMITTED] T1247A.001

[GRAPHIC] [TIFF OMITTED] T1247A.002

[GRAPHIC] [TIFF OMITTED] T1247A.003

[GRAPHIC] [TIFF OMITTED] T1247A.004

[GRAPHIC] [TIFF OMITTED] T1247A.005

[GRAPHIC] [TIFF OMITTED] T1247A.006

[GRAPHIC] [TIFF OMITTED] T1247A.007

[GRAPHIC] [TIFF OMITTED] T1247A.008

[GRAPHIC] [TIFF OMITTED] T1247A.009

[GRAPHIC] [TIFF OMITTED] T1247A.010

    Mr. Mollohan. Mr. Bonner, I understand you are 
substituting. Do you have any opening remarks?

                      Mr. Bonner Opening Statement

    Mr. Bonner. Mr. Chairman, I will be happy to take this 
opportunity and apologize for being late.
    Director, thank you very much for being here. I on behalf 
of the Minority, we join the Chairman in thanking you for 
coming to present testimony to us today on the challenges 
facing the Federal Bureau of Prisons.
    Each challenge that you face obviously has a budgetary 
aspect. However, we recognize that you are somewhat limited in 
terms of the answers that you can give as the details of the 
fiscal year 2010 budget requests have yet to be finalized.
    Thanks to the statement that you have already provided, I 
know that the Committee, Majority and Minority, both appreciate 
having an opportunity to go forward with this discussion.
    In fiscal year 2008, it took a significant infusion of 
funds to reprogramming and a supplemental appropriations just 
to continue to fulfill your mission and preserve safety for 
prisoners and staff.
    And we appreciate your testimony.
    And, Mr. Chairman, with that, I think we will go to 
questions.
    Mr. Mollohan. Thank you, Mr. Bonner.


                        prison funding shortfall


    Mr. Lappin, as you know, the Bureau of Prisons had a 
shortfall of $287 million in fiscal year 2008 which was 
addressed through a reprogramming that Mr. Bonner referenced of 
$109 million and supplemental funding of $178 million. The 
shortfall was substantially attributed to higher than expected 
healthcare costs and growth in the inmate population.
    Assuming the enactment of the Omnibus appropriation bill, 
do you anticipate a reprogramming for the current fiscal year?
    Mr. Lappin. No, I do not.
    Mr. Mollohan. Have healthcare costs, inmate population 
growth, utility costs, and other variables adhered to your 
estimates?
    Mr. Lappin. I believe they have. You are talking about 
fiscal year 2009, I am assuming?
    Mr. Mollohan. Yes, I am.
    Mr. Lappin. Yes. We do not anticipate requesting a 
reprogramming if we receive the House mark which is in the 
Omnibus bill. And our estimates for inflation applicable to 
healthcare, to utilities, certainly the increased cost of staff 
are on track with what we had projected.
    Mr. Mollohan. Have you adhered to the estimates of 
healthcare costs, inmate population growth, utility costs, and 
any other variables that you track in your estimates?
    Mr. Lappin. We have adhered to the areas that we normally 
track and monitor. There will without a doubt be challenges in 
getting through the fiscal year, but we believe we can do that 
without requesting a reprogramming.
    So we are going to have to, as we have in the past, 
establish our priorities. As I mentioned, our highest priority 
with whatever additional funding we have is to hire additional 
people.
    Mr. Mollohan. Right.
    Mr. Lappin. But even given that, we are going to have to 
make some choices as to purchasing of equipment, vehicles, the 
number of positions we can fill. We are going to have to watch 
very closely what programs, if any, we add.
    One of which we do plan to add, I know will probably come 
up. We are going to add some additional drug treatment 
specialists based on funding that is in there, allocated for 
that, decrease our backlog.
    But beyond that, for us to add anything, we have to look to 
eliminate something else. And so we will just go through our 
normal assessment of the Bureau's priorities and determine what 
are the highest priorities and fund those first. And what 
remains will either have to wait until 2010 or look for other 
resources.
    Mr. Mollohan. Okay. Well, what I am trying to get on the 
record is where you may have problems and where you anticipate 
challenges. As you look at your budget coming into the new 
year, you must have estimates in all those areas.
    Mr. Lappin. Yes.
    Mr. Mollohan. And you must be anticipating some challenges 
somewhere.
    Mr. Lappin. We certainly do, without a doubt. The cost of 
healthcare continues to increase.
    Mr. Mollohan. Are you providing adequate healthcare to the 
inmates?
    Mr. Lappin. Yes, I believe that we are. And, again, we 
will----
    Mr. Mollohan. By what standard do you measure that?
    Mr. Lappin. Well, we look at the community standard on most 
issues. But there is a list that the medical staff have 
identified--those highest priorities of care we provide to 
inmates.
    We cannot provide everything and there are some things that 
one would question we should provide given the fact that some 
of these folks come to us having had these conditions long in 
the past, long before they came to the Bureau of Prisons.
    Mr. Mollohan. Sure. Everybody comes with a certain health 
status.
    Mr. Lappin. Absolutely. But certainly we are providing 
whatever immediate care is necessary and whatever preventative 
care we can provide.
    Mr. Mollohan. I think I read somewhere where dentistry was 
a real challenge in the Bureau of Prisons right now.
    Mr. Lappin. When you look at staffing, there is staffing in 
general and without a doubt in general, one of our highest 
priorities is to continue to add correctional staff. And let me 
explain why that is a target and then I am going to talk 
specifically about medical and the huge challenge we have 
there.
    We have taken three approaches. One, given the fact we have 
had to downsize in a number of other program areas and redirect 
that funding to correctional areas, correctional services, we 
have been able to hire a few more correctional staff. In lieu 
of--because what we were doing was taking people out of 
programs areas and out of support areas temporarily and having 
them work in correctional posts. We do not want to do that long 
term because they are providing services and programs that we 
want to continue to provide.
    Therefore, we have been trying to increase the number of 
correctional officers to reduce the amount of augmentation that 
we are having to do out of those program areas and 
administrative areas. And at most places, we have been 
successful in doing that.
    We have had a special initiative on healthcare across the 
board, although it is somewhat geographic. We are only staffed 
probably at about 70 percent in medical, maybe a little higher 
than that. Now, I have to look to find the exact number, but 
between 70 and 75 percent.
    Our biggest challenge is doctors, PAs, dentists, and 
nurses, somewhat more challenging at some locations than 
others. Without a doubt it is most challenging in our more 
rural communities where it is very difficult to attract these 
professional folks in addition to psychologists and chaplains.
    So we have implemented a recruitment and retention 
initiative to offer recruitment bonuses and retention bonuses. 
It has to come out of our salary budget. So when we do that, we 
realize we are spending more than we normally would to attract 
and retain that professional, but it is absolutely necessary.
    And so that is a special initiative. We have seen an 
increase in some areas with our ability to recruit and attract 
more of them.
    We work with the Public Health Service to attract more 
staff out of the Public Health Service, which is a little more 
expensive for us, but they bring to us a great addition in the 
way of staff and experience. We have about 700 Public Health 
Service staff working for the Bureau of Prisons, the majority 
of whom are in medical.
    But without a doubt, our biggest challenge is the 
recruitment and retention of medical staff, psychologists, 
chaplains across the board.
    Mr. Mollohan. Okay. I will follow-up.
    Mr. Aderholt.

                           SECOND CHANCE ACT

    Mr. Aderholt. Thank you, Mr. Chairman.
    Thank you for taking the opportunity to come and testify 
before our Subcommittee today.
    One thing I wanted to just ask you briefly about was on 
page three of your testimony, you had discussed ``The Second 
Chance Act.'' And, of course, you indicate that you have been 
able to implement changes, a lot of the changes that are 
required by ``The Second Chance Act.''
    And I just wanted you to talk a little bit more in detail 
about what aspects of that that you have not been able to 
implement and some of the things that maybe you are doing to 
resolve that.
    Mr. Lappin. Well, there is funding, I believe, proposed in 
the 2010 budget for further implementation of ``The Second 
Chance Act.'' However, I want to go back, I think, and give a 
lot of accolades to the folks who drafted this and they were 
working with the Bureau of Prisons and looking at what 
direction we were going, what we were planning to do, and 
building that into ``The Second Chance Act.''
    And I am going to speak specifically to Section 231A, B, C, 
D, E, F, G, which specifically deal with what we must do to 
prepare inmates for release.
    And years and years ago, we realized that we were not doing 
as good a job as we should be doing in identifying what skills 
inmates lack and then leveraging them into programs that 
improve those skills.
    I was a case manager--I started as a case manager back in 
1985. I sat at team meetings and we kind of guessed when we 
talked to the inmate. You know, ``what it is you think you need 
to do and here is what we have to offer.'' It really was not 
very scientific.
    So, the staff who drafted this legislation listened to our 
staff. And we had a work group at the time that was comprised 
of not only Bureau of Prison staff but U.S. Probation officers, 
other care providers in the community, people who we were going 
to hand these folks off to, to continue supervision; to 
identify what skills they see inmates lacking, why are inmates 
failing once they transition from the Bureau to the community, 
and build that into our program.
    And as a result, this group identified nine skill areas, 
daily living skills, I can provide a list with detail, mental 
health skills, wellness skills, interpersonal skills, academic 
skills, cognitive skills, vocational career skills, leisure 
skills, character skills.
    And upon an inmate's arrival, they will take an assessment. 
They will take a little test which is going to measure their 
skill level in each of those nine areas.
    Then when the inmate, within the first 30 days of 
incarceration, sits down with his unit team, they will have 
this assessment and we will be able to say to the inmate; ``you 
know, you really have good scores on interpersonal skills, 
this, this, and this--what you lack is vocational training or, 
what you lack is an acceptable level of literacy.''
    We need to focus on those areas so that we are leveraging 
those inmates, those willing inmates into those programs that 
they most need. And then through the course of that, we are 
measuring their performance. Are they actually learning 
something here that is going to assist them upon release?
    So although we have not been fully funded, we have been 
doing this type of work. We do look forward to that funding to 
allow us to fully implement this.
    In addition to that, the big benefit here is what we gain 
in our relationship with the United States Probation Service 
and other care providers in the community, the residential 
reentry centers, that this information will just not stay with 
the Bureau.
    Our objective is that this information would be passed on 
to those folks so that when they receive that person going to 
the halfway house or they receive that individual that they are 
going to supervise, they will be able to see as well what 
skills they performed well, what they did not perform well, 
what they volunteered to participate in, or what they resisted. 
Because that tells that probation officer a lot about that 
person they are going to supervise, if they have been 
resistant, if they have been unwilling to participate. It gives 
them a better sense of how much risk this person may be 
compared to somebody who is a willing participant.
    So, I think the other huge gain here is the transmission, 
the carryover of this information to halfway houses and to U.S. 
Probation staff as they continue to supervise this inmate.
    Some will return without a doubt. Our recidivism rate is 
about 40 percent, although, for example, last year, we had 
70,000 new admissions. Fourteen percent of them were prior 
federal offenders. So we saw about 14 percent come back that 
year. When they come back, we pick up where we left off and 
hopefully we can leverage that person into more programs.
    Our downside obviously is within this inmate population of 
202,000, you have got willing participants and you have got 
unwilling participants. I am confident the majority of them are 
willing, but you have got a percentage, 25, 30 percent, who 
continue to resist.
    Mr. Aderholt. And are you talking about in this assessment 
program.
    Mr. Lappin. Just in general.
    Mr. Aderholt. Oh, just in general.
    Mr. Lappin. When they come to prison, they are still 
unwilling to accept responsibility sometimes for their behavior 
and in doing so recognizing they need to change.
    Mr. Aderholt. Yes.
    Mr. Lappin. But I still think the vast majority are 
typically willing. Sometimes not early on. Sometimes that 
transition takes some time for them to begin to accept that 
responsibility.
    But our objective is to try to, one, make sure we reach out 
and we address the needs of those willing participants and we 
keep leveraging those unwilling participants. Trying to get 
them to accept more responsibility into these programs that we 
know will be helpful to them. So in that case, we have started 
that work.
    There is another program that we have started on which was 
the--I will not go into all the areas, but the enactment of the 
Elderly and Family Reunification for certain nonviolent 
offenders. These are the older folks who have been in custody 
for a certain number of years. We have initiated a pilot to 
identify those folks and consider giving them some time off 
their sentence if they meet the criteria established under the 
law.
    And we have also started the change of regulations, 
applicable to allowing inmates who have a need, up to 12 months 
in a halfway house.
    So, those are the areas that we have been focused on most 
aggressively.
    Mr. Aderholt. Of course, my understanding, you all know 
this much better than I, but ``The Second Chance Act'' allows 
up to 12 months to go into the halfway houses for all inmates.
    But the bottom line is, my information that I received, is 
that it is sometimes usually about six months. And I have 
actually had some constituents that have fallen in that 
category.
    And right now currently who would be eligible for that 12 
month and what percentage would you say that go to halfway 
houses go for that 12 month period as opposed to the six month 
period?
    Mr. Lappin. Well, right now I think all the inmates are 
eligible for up to 12 months because when the law passed, it 
went into effect. We have had to change the regulation.
    But all the inmates who are being considered for halfway 
house are being considered for up to 12 months. So they are 
being considered.
    It really comes down to the needs of the inmate. That is 
what it has always been and continues to be. We assess how long 
they have been in prison. We assess their community ties. We 
assess their skill level and their ability in advance of 
acquiring a job, finding a place to live. And based on all 
those factors, we determine, you know, how much time does the 
individual, on an individual case-by-case basis, need in a 
halfway house.
    We have found in the past that most inmates can do that in 
a six month period. Most inmates when they come out of there, 
unless it is a very unusual case, most of them can find a place 
to live and typically find a job.
    Now, again, we are in very difficult economic times. These 
factors that we have no control over are going to impact 
offenders' abilities to get jobs. So, that changes over the 
course of time depending on economic conditions.
    So, there are a lot of people looking for work now. And 
when these folks come out, they are going to find it more 
challenging to find jobs given the fact they are competing with 
more and more people who are out of work. Hopefully, as this 
turns around, it will be easier for folks as it has been in the 
past.
    But typically we have been able to rely on about a six 
month stay. We are currently sending inmates for more than six 
months. So, there are some inmates who have these needs that we 
believe require more than six months. And we have been allowing 
that to occur.
    I do not know the number. We can get the number for you. 
This is one of the priorities, though, I do not want to leave 
here misleading anyone. I mean, it costs us more money 
sometimes to house people in halfway houses than in our 
prisons. It is cheaper for us to keep an individual 
incarcerated in a low or a minimum security facility than to 
put them into a halfway house.
    Now, that is in part our fault because we have, and I think 
for the right reasons, we have wanted more and more service 
provided in the halfway houses. We want mental healthcare. We 
want drug transition. We want job placement assistance.
    So, we have asked the providers to build into their 
contracts those services. All of those things cost more money. 
We think it is money that is a good investment.
    On the other hand, when you are limited on funding, you 
have got to look at how much money we can invest in community 
corrections. We have a budget for that.
    And so, what we will try to do with the budget we have 
allocated for community corrections is address the needs of the 
inmates on a case-by-case basis, and within that budget have 
enough money to send those who need time in a halfway house of 
more than six months to the halfway houses, and those that do 
not to whatever time is recommended.
    But if we were just to turn around and push all of them for 
12 months, without a doubt, we would have to take money out of 
prison operations and put it over into community corrections to 
pay the difference. And right now we cannot afford to do that.
    So, again, it is really on a case-by-case basis. Those that 
we believe have a need we will try to get in for a longer 
period of time. But, again, with our experience, we have used 
halfway houses for 15, 20 years, probably one of the biggest 
providers, 85 percent of our inmates who return to our 
communities in the United States transition out through a 
halfway house.
    Many states, if you compare, are far less than that, 
because we believe this is critically important to transition 
to the community rather than just dumping that guy out on the 
street.
    So, we want to get them all some time and we will get them 
all as much as we can.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Bonner.

                     CHANGES IN PRISON POPULATIONS

    Mr. Bonner. Director, in looking over your biography, you 
have been with the Prison Service for 24 years roughly?
    Mr. Lappin. Yes.
    Mr. Bonner. Started out as a case manager----
    Mr. Lappin. Yes.
    Mr. Bonner [continuing]. Assistant warden, warden. If you 
were speaking, and you are effectively, to the American 
taxpayer today, tell us what you have learned in your 24 years. 
How has the prison population changed? How have the challenges 
changed?
    And specifically you talked about it costing more at a 
halfway house than mainline incarceration. Give us some feel 
for how much money on average it costs because the debate that 
we have year in and year out in Washington and in State 
Capitols as well is if you put money, say, in education at the 
front end, then you may have to spend less money on the back 
end in prisons.
    What does it cost to house an inmate on average today?
    Mr. Lappin. Well, let me go back and just tell you what we 
have seen in the change of the inmate population since 1985 
when I started at the Bureau.
    One, a much larger group of offenders. Back in 1985, we 
probably had about 35,000 inmates. We just hit 202,000 inmates.
    Without a doubt, the characteristics of those inmates have 
changed significantly. One, they are serving more time on 
average. Two, we see more violent, more aggressive, more gang 
oriented offenders coming into the Federal Prison System than 
in decades past given the fact that more laws, federal laws now 
are applied to drugs and firearms and sex offenders.
    And as a result of that, we are seeing a significant 
increase in younger offenders, many of whom are more gang 
oriented, more aggressive, more willing to confront the status 
quo, which, without a doubt, has forced us to change how we 
have operated the Bureau.
    Fortunately our classification system has kept up with 
those challenges. And I just want to speak to that for a second 
because I want to share with you how critically important the 
classification is to running safe and secure prisons.
    To identify inmates in advance of them coming into the 
Bureau, or soon after they are in the Bureau, that may lend 
themselves to be a threat to staff and inmates. And because of 
the evolution of that classification system, I think we have 
been able to manage this changing population quite well. And we 
continue to make adjustments to the classification system to 
address the changing characteristics of the inmates.
    So given that, even though we have seen a surge in the 
amount of violence, our assault rates have remained--well, 
actually have come down over the last 20 years, and the last 
five years have been relatively stable with the exception of 
assault rates on inmates in high security institutions.
    In the last few years, we have seen an uptick in assault 
rates on inmates by inmates. This concerns us, and I will give 
you an example of what we are doing to address that and then I 
will pick up with what it costs.
    Without a doubt, within those 203,000, 202,000 inmates, a 
group has evolved that has decided not to listen to us, to defy 
our authority, to say no when we tell them to stop, to the 
point that unfortunately in the last year or two, we have had 
to use lethal force for the first time in most of our 
recollection to resolve a conflict between inmates. And that is 
just unacceptable in running a safe and secure prison.
    So, we have done a couple of things. One, we have tightened 
down our high security institutions. I say our classification 
system works because most of this is occurring in 
pententiaries, which means our staff are identifying these 
inmates and, as they should, moving them up into more secure 
facilities, which is what we expect them to do. The problem is 
more of them now exist in our high security institutions.
    So, therefore, we put additional controls in place at our 
high security institutions to control inmates in smaller 
groups, to have more oversight, to have more custodial staff 
wherever possible. We have added some posts, so on and so forth 
to try to address that.
    I think most importantly is the next thing we are currently 
doing. That is, we are going to remove these two or three 
thousand inmates, that is my guess, two or three thousand 
inmates, who act this way and we are going to convert a 
penitentiary and two housing units at two other locations to 
special management units. And we are going to move those 
inmates out of these high security institutions, out of general 
populations into a more structured, controlled environment.
    We will have to work through phases of behavior 
modification, of them complying to work their way back out into 
a regular institution.
    We currently have modified those institutions to handle 
those inmates. We are working on increasing the staffing there. 
We are identifying the inmates. And we will shortly, probably 
this week, begin moving inmates into those facilities.
    When those are filled, we will step back and reevaluate--
have we reduced these incidents, are we having those types of 
conflicts, are inmates carrying weapons? And if they are, I 
guarantee you what we are going to do. We are going to go take 
another institution until we remove this small element from 
these high security institutions who are misbehaving and are 
not complying.
    Without a doubt, one of the biggest challenges to the whole 
thing are gangs and the increase in the percentage of gangs' 
members in our institutions, in particular the folks from 
Mexico and the Hispanic gangs. They are challenging folks, who 
play by different rules. And as a result, we are having to 
adjust what we do and how we will manage these types of 
offenders.
    I am not implying that it is only the Hispanic gangs 
because believe you me, if you go to the Special Management 
Unit once it is up and running, you are going to find Caucasian 
inmates, you are going to find African American inmates, and 
you are going to find Hispanic inmates, and probably a few 
others from around the world.
    But once this initiative is completed, I am hopeful we are 
going to see a decrease in those types of incidents.
    The cost of housing inmates on average, thank you, Bill, is 
$25,895 per year on average. Now, realize when you cut across 
the security levels, that varies significantly because a 
minimum security inmate is going to be much cheaper than that 
high security inmate or that inmate at ADX Florence.
    So this is the average $25,895 per year. And our cost, just 
to give you an idea of what it--let us see. That is----
    Mr. Bonner. That is overall?

                           COST PER-PRISIONER

    Mr. Lappin. Overall $70.75 a day. That includes every 
single penny that goes into running the Bureau of Prisons, 
training, administrative staff, movement of inmates. Everything 
goes into that.
    Our cost of putting someone in a halfway house, I think I 
have that here, is about $65.20 per day. That is our average 
cost per day for inmates in halfway houses.
    Mr. Bonner. Sixty-five?
    Mr. Lappin. Sixty-five twenty-five. So, for example, an 
inmate at a minimum security institution, it is about $53.65 a 
day. So, you can see for us to put that person in a halfway 
house, it is 12, 13, $14.00 more per day.
    So that is why you have got to adhere to a budget. You got 
to watch it. You have got to manage it. But I commit to you we 
are going to continue to put inmates in halfway houses for as 
much time as we can.
    Mr. Bonner. Do you know how these amounts compare with 
inmates at private facilities or at state run facilities?
    Mr. Lappin. Well, the state, it is a very difficult 
analysis because you can go into journals and you can look at 
the list of states in the Federal Bureau of Prisons. The 
problem is they all come to that conclusion with different 
numbers.
    For example, in some states, healthcare is provided out of 
the health services budget. In some states, the education 
funds, it comes out of the education funds. In some states, 
they have no cost for hiring employees because it is a 
centralized system for the entire state and they do not put 
those costs applicable to their prison system into those 
numbers.
    The State Directors of Corrections realize this and we 
actually have a committee that has been ongoing for about eight 
years to try to reconcile that so, that a more apples-to-apples 
comparison could occur. That is not possible right now.
    But we have 13 private contract facilities. Now, understand 
these are all low security inmates, the less risky offenders. 
So, it would be unfair to compare what it costs for us to house 
them in that low with our average cost necessary. We are going 
to need to compare more with what it costs us to house inmates 
in the lows.
    But our cost of private contracts is about $60.00 a day 
right now per inmate. Again, all low security inmates, less 
risky inmates, because that is all we contract are low security 
inmates. Most all of them are non-U.S. citizens. The contracts 
probably do not afford as much programming as we provide in our 
own institutions, so there is a little adjustment there as 
well. Our cost for a low security inmate is about $63.00 a day.

                            RECIDIVISM RATE

    Mr. Bonner. Correct me if I'm wrong, one of the statistics 
we were given states that about two-thirds of all the released 
prisoners go on to commit another crime.
    How does that percentage compare with those who have gone 
through your halfway houses?
    Mr. Lappin. Our recidivism rates are 40 percent. That was 
our last assessment a few years ago. So, the two-thirds number 
is applicable to the average of the states. Ours fortunately, 
and in part because to be honest with you, as we reflect on 
what has changed in the Bureau, I have to tell you that from 
the 1980s, from the time I became aware, until 2002, the Bureau 
was cared for and funded well. And through the course of that 
time, we added a lot of inmates, but we added a lot of prisons.
    In doing so, we added a lot of staff and we were able to 
provide a lot of programs, far more than what many states could 
afford. As well as the fact that we are structured a little 
differently than the states in that all of our staff are law 
enforcement staff.
    So our program staff--we can hire more programs folks 
because when we need them to be correctional staff, they can 
assume that responsibility. But when we do not need them in 
that capacity, they can be teaching, providing vocational 
training, providing counseling, and many other programs where 
in many states, there are two different groups of people. So 
that has been very beneficial to us.
    So we are seeing a recidivism rate of about 40 percent. And 
I do not know for sure, and I have asked Tom who handles our 
Research Department to reassess that we have been able to 
maintain that since 2002. In part because given the limited 
resources--and, again, I am not questioning that, I know there 
are many priorities, not only Department of Justice, but far 
beyond. But without a doubt, we have been unable to put as many 
people into those program areas and into the administrative 
areas which would support those types of functions. And, 
therefore, I kind of question that we are having quite as much 
success.
    We do, I believe, Tom, research on inmates who go to 
halfway houses and we do see a lower recidivism rate for them. 
I am not sure I have that number with me. I do not, but I think 
we can----
    Mr. Kane. We can provide it.
    [The information follows:]

   What Is the Recent Recidivism Rate for Inmates Who Go to Halfway 
                                Houses?

    The research study conducted by the BOP in 1994, confirmed that 
inmates who were released through an RRC are less likely to recidivate 
than inmates who were released directly from a correctional 
institution. According to the 1994 study, 31.1 percent of inmates 
released through a halfway house recidivated, compared to 51.1 percent 
of inmates released directly to the streets. The study further 
demonstrated that pre-release placements in RRCs result in higher rates 
of employment, which is also correlated with reduced recidivism.
    The BOP's Office of Research and Evaluation recently initiated a 
study to understand the effectiveness of residential reentry centers 
(halfway houses). The study is focused on evaluating post-release 
success, such as remaining crime free, and determining the length of 
time needed in a residential reentry center to improve the odds of 
successful outcomes. The Office of Research is combining the various 
data bases needed to perform the analyses and refining data 
definitions.
    The BOP expects to complete the new RRC study by the end of next 
year.

    Mr. Lappin. We can provide it. But certainly, every program 
we provide, whether it is GED, vocational training, Federal 
Prison Industries, residential drug treatment; we do recidivism 
research on that program.
    If we see it is not having the intended outcome, we ask why 
are we doing this? Why are we investing money in this program 
if, in fact, at the end of the day it is not reducing 
recidivism? And if it is not, we should do away with those 
programs.
    In fact, we did during our restructuring period. We found 
some programs that were not reducing recidivism. And I know 
one. I will give you an example. One that hit hard with some 
folks were the boot camps. We had known for ten years we were 
not seeing a reduction in recidivism. We were spending millions 
of dollars. And when money got tight, we said we should not 
continue to do this program above the protests of a lot of 
judges out there who believed it had to work, it just has to 
work. But for the targeted group, it was not working.
    And we had some vocational training programs, as good as 
they were, were far too expensive. And we are now targeting 
skills that I think more inmates need today, business skills, 
computer skills, things that we can provide at a cheaper cost 
to more inmates in a shorter period of time.
    So we have reorganized that to try to gear our vocational 
training to skills that we think inmates will need in the 
community, and also that we can get somebody through a class in 
six to nine months and get them a certificate. So that when 
they do go out to look for a job, they have got something to 
show someone rather than programs that took 18 months, two 
years, and sometimes people could not complete them before they 
were released.
    Mr. Bonner. Thank you.
    Mr. Mollohan. Thank you, Mr. Bonner.
    Well, I have got a couple of follow-up questions with all 
that good testimony.
    Mr. Lappin. I figured you would.

                   PRIVATE VS. U.S. BUREAU OF PRISON

    Mr. Mollohan. First of all, to help you out a little bit on 
this one, I think the private versus U.S. Bureau of Prisons' 
average comparing low security level inmates to low security 
level inmates, I think that is the appropriate comparison----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. As you point out in your 
testimony. Sixty dollars a day in the private prison, $63.00 a 
day in the average U.S. Bureau of Prison?
    [The information follows:]

   Cost Per Day of BOP Low Security Male Inmate vs. Contract Facility

    The daily cost to incarcerate a male low security inmate in a BOP 
facility was $62.41 in FY 2008, compared to $59.36 in a private 
contract facility. Please note that the BOP facilities offer a greater 
level of inmate programming and re-entry programs than private contract 
facilities.

    Mr. Lappin. Actually, I will have to come back to you with 
a number because the $63.00 includes female inmates. And 
believe you me, female offenders cost us, at the low security 
level, cost us more money to care for than males.
    So, what I would like to do is go back and get you a figure 
for the record of what it costs us to house a male low security 
inmate compared to a low security level male inmate in a 
private facility. I actually think it is going to be even 
closer because without a doubt, our female offenders, those 
institutions cost us more typically because of the additional 
healthcare and other needs.
    Mr. Mollohan. Okay. You do not have female offenders in 
private prisons period.
    Mr. Lappin. We do not.
    Mr. Mollohan. Yes.
    Mr. Lappin. We do not.
    Mr. Mollohan. Okay. So we need to compare obviously.
    Mr. Lappin. We will do that.
    Mr. Mollohan. So that is one variable that is more 
expensive in the U.S. Bureau of Prisons side. The other 
variables are programmatic as well, is it not?
    Mr. Lappin. Yes.
    Mr. Mollohan. And the private facilities are shorter term, 
and have fewer programs. I mean, there are a lot of things not 
provided for on the private side that if you teased out would 
probably impact that comparison dramatically.
    Mr. Lappin. I would agree with you. Okay, they do not 
provide as many programs nor do they, in our opinion, and I 
would say this if the private folks were here, I talk with them 
about this often----
    Mr. Mollohan. Well, of course you would.
    Mr. Lappin. They are partners with us.
    Mr. Mollohan. Of course you would.
    Mr. Lappin. Absolutely.
    Mr. Mollohan. Because it is correct.
    Mr. Lappin. It is correct in that----
    Mr. Mollohan. We are not trying to offend anybody.
    Mr. Lappin [continuing]. I think one of the, and I am going 
to tell you, people ask me this all the time, well, why are 
they struggling a little bit. I think their biggest struggle is 
their turnover rate. Their turnover rate is between 30 and 40 
percent.
    Mr. Mollohan. In private prisons?
    Mr. Lappin. In private prisons.
    Mr. Mollohan. Okay. I do not want to get into this.
    Mr. Lappin. That is fine.
    Mr. Mollohan. I just want to stick with my----
    Mr. Lappin. But you are right. If you assess the programs 
and the quality of programs and the number of programs----
    Mr. Mollohan. Yeah.
    Mr. Lappin [continuing]. Those are the softer issues that 
you would have to judge that we think----
    Mr. Mollohan. Well, it is a good question. Will you provide 
an----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. Analysis for the record?
    Mr. Lappin. Absolutely.
    [The information follows:]

    Comparison of the Programs Provided in BOP Facilities vs. Those 
                      Provided in Private Prisons

    All except one of the private prison contract facilities house 
sentenced criminal aliens. Therefore, these facilities do not provide 
Residential Drug Abuse Treatment (with the exception of one facility 
which houses D.C. Inmates). 59 BOP facilities provide Residential Drug 
Treatment Programming.
    In addition, BOP facilities require inmates without a high school 
diploma or General Educational Development (GED) credential to enroll 
in a literacy program. Therefore, BOP facilities offer a greater level 
of Education programming than private facilities where criminal aliens 
are exempt from the same requirements. The contractor may provide 
voluntary education programs like English-as-a-Second Language.
    Finally, the population at contract facilities (sentenced criminal 
aliens) are not released into U.S. communities. Therefore, release 
preparation programs and social education programs are not required by 
most of the contracts.

                               BOOTCAMPS

    Mr. Mollohan. You made an interesting comment about boot 
camps. I am a little taken back by the fact that boot camps did 
not work, do not work as well. And I am just wondering why they 
do not work because I think that, properly done, they would 
provide the structure. I am wondering, were there programmatics 
beyond the drill that went along with boot camp, like training, 
education, and psychological services?
    Mr. Lappin. I think in part. One, we had great programs. No 
question over the quality of programs that were provided, but 
we were targeting the most successful inmates in the Bureau of 
Prisons in those boot camps.
    So the inmates going in there typically were pretty 
successful because they were minimum security inmates.
    Mr. Mollohan. Okay.
    Mr. Lappin. And the law, the way it is currently laid out, 
the regulations do not allow us to put violent offenders in 
those programs.
    So if you want to target a riskier group for boot camps, we 
would have to go back and look at what laws apply to that and 
make some adjustments so that we could target a riskier group. 
And given that, we may see more impact in reducing recidivism 
on that group of riskier offenders.
    Mr. Mollohan. Let me ask, Director Lappin, how did you 
measure effectiveness?
    Mr. Lappin. Our recidivism research is pretty standard 
across the board.
    Mr. Mollohan. No. You said that boot camps did not work.
    Mr. Lappin. They did not reduce recidivism.
    Mr. Mollohan. Okay.
    Mr. Lappin. That was the key issue. We did not see 
reduction of recidivism of those inmates who participated in 
that program compared to a like group of inmates who did not 
participate in that program.
    Mr. Mollohan. Okay. All right.
    Mr. Lappin. But we can provide you a little analysis of 
what we found.
    [The information follows:]

Provide Analysis That Showed Boot Camps Did Not Reduce Recidivism When 
      Compared to a Like Group of Inmates Who Did Not Participate

    The attached summary of the Lewisburg Intensive Confinement Center 
(ICC) Evaluation dated November 15, 1996, indicates there was no 
significant difference in the recidivism rate between inmates who 
completed the ICC program as compared to similar inmates who did not 
participate in the program. Graduates of the ICC at Lewisburg who were 
transferred from a general prison population into the program were 
rearrested at a 13.0 percent rate during the first 2 years in the 
community. Graduates of the ICC who entered the program directly from 
the court were rearrested at a 13.9 percent rate. Rates for these two 
groups were not statistically different from the 13.8 percent rate for 
a group of similar inmates who did not participate in the ICC program.

[GRAPHIC] [TIFF OMITTED] T1247A.011

[GRAPHIC] [TIFF OMITTED] T1247A.012

[GRAPHIC] [TIFF OMITTED] T1247A.013

[GRAPHIC] [TIFF OMITTED] T1247A.014

[GRAPHIC] [TIFF OMITTED] T1247A.015

[GRAPHIC] [TIFF OMITTED] T1247A.016

[GRAPHIC] [TIFF OMITTED] T1247A.017

[GRAPHIC] [TIFF OMITTED] T1247A.018

[GRAPHIC] [TIFF OMITTED] T1247A.019

[GRAPHIC] [TIFF OMITTED] T1247A.020

[GRAPHIC] [TIFF OMITTED] T1247A.021

[GRAPHIC] [TIFF OMITTED] T1247A.022

[GRAPHIC] [TIFF OMITTED] T1247A.023

[GRAPHIC] [TIFF OMITTED] T1247A.024

[GRAPHIC] [TIFF OMITTED] T1247A.025

[GRAPHIC] [TIFF OMITTED] T1247A.026

[GRAPHIC] [TIFF OMITTED] T1247A.027

[GRAPHIC] [TIFF OMITTED] T1247A.028

[GRAPHIC] [TIFF OMITTED] T1247A.029

    Mr. Mollohan. In response to Mr. Bonner's question about 
how things have changed since you came into the Bureau, when 
did you come into the Bureau if I could ask?
    Mr. Lappin. In 1985.
    Mr. Mollohan. You are just a young guy here yet.
    Mr. Lappin. Thank you, sir.

                         GANG MEMBERS IN PRISON

    Mr. Mollohan. There are more gang members. They are more 
violent. They are more aggressive. Is that in absolute numbers? 
Of course. I mean, there is----
    Mr. Lappin. We can give you the numbers.
    Mr. Mollohan. Let me ask the question. In absolute numbers 
or is it in percentages?
    Mr. Lappin. Percentages.
    Mr. Mollohan. Okay.
    Mr. Lappin. We have a larger percentage of gang members and 
security threat group members than we did in the past.
    Mr. Mollohan. So when you came in, how many member--how 
many----
    Mr. Lappin. I would have to go back and look.
    Mr. Mollohan [continuing]. What was the population?
    Mr. Lappin. Oh, the population of the Bureau of Prisons?
    Mr. Mollohan. Yeah. See, it always works when they get to 
the end of my question.
    Mr. Lappin. About 35,000, I think.
    Mr. Mollohan. Okay. And what is it now?
    Mr. Lappin. Two hundred and two thousand.
    Mr. Mollohan. So my question is, obviously there are more 
gang members. There are more violent people there.
    Mr. Lappin. Yes.
    Mr. Mollohan. And you are suggesting there are more violent 
people there. Is that on a percentage basis? In other words, if 
out of 35,000, ten percent were violent, then out of the 
202,000, is it still ten percent violent? There are a whole lot 
more people, but have the percentages changed?
    Mr. Lappin. The percentages have changed.
    Mr. Mollohan. Okay.
    Mr. Lappin. And we can probably provide you a comparison of 
1985 to today. I think--well, I will wait and get it for the 
record-- I think it is like 27,000 gang members and security 
threat groups. But we will provide it to you in writing, so I 
make sure I got the numbers exactly. We will give the 
percentages as they compare to 1985.
    [The information follows:]

     Provide the Number and Percentage of Violent Offenders in the 
Population Now Compared to 1985 and the Number and Percentage in Gangs 
            and Security Threat Groups Now Compared to 1985

    In July 1986 (the earliest date for which data are available), 
there were 15,635 violent offenders in BOP's custody. This was 32.4 
percent of the total population of 48,272 inmates. In March 2009, there 
were 104,642 violent offenders in BOP's custody, or 53.2 percent of the 
total population of 196,547 inmates for which data is available. This 
represents approximately six-fold increase in the number of violent 
offenders and a 64-percent increase in the proportion of violent 
offenders in the BOP over this time period.
    Regarding security threat groups (which includes gangs) in February 
1994 (the earliest date for which data are available), there were 3,323 
inmates identified as affiliated with a security threat group. This was 
4.2 percent of the BOP population. In February 2009, there were 26,966 
inmates affiliated with a security threat group, which is 14.0 percent 
of the population.

                         THE SECOND CHANCE ACT

    Mr. Mollohan. Okay. Back to a budgeting question. Have you 
budgeted for ``The Second Chance Act''?
    Mr. Lappin. It is in the 2010 request.
    Mr. Mollohan. Did you budget for it in 2009?
    Mr. Lappin. We began implementation, but I am not--was 
there money requested in the budget?
    Mr. Kain. It came out of our base.
    Mr. Lappin. It came out of the base.
    Mr. Mollohan. I am sorry?
    Mr. Lappin. It came out of the base.
    Mr. Mollohan. Came out of the base, so----
    Mr. Lappin. What we have done so far, we----
    Mr. Mollohan. Go ahead. No, you go ahead.
    Mr. Lappin. What we have done so far came out of our base. 
There was not specific funding set aside in there for ``The 
Second Chance Act.'' So we kind of absorbed it.
    Mr. Mollohan. Yeah. Yeah. Darek tells me it was enacted 
last April, so you really did not have a chance.
    But this year, are you budgeting? I mean, we do not have 
the budget detail and whatnot, but are you budgeting for 
``Second Chance''?
    Mr. Lappin. Yes.
    Mr. Mollohan. Are you selectively budgeting program by 
program? Are you just asking for a number? Are you waiting for 
us to fund some of the provisions in ``The Second Chance Act''?
    Say you are supposed to do something subject to an 
appropriation. Are you going to be requesting an appropriation 
for all of those programs or are you just going to be asking 
for a lump sum for implementation of the Act?
    Mr. Lappin. Most of the time when there is a law passed, we 
ask for funding to provide staff or materials for that. So 
``Second Chance,'' although we have started it, we have asked 
for funding.
    Drug treatment, we have asked for several years for an 
increase in that. We are fortunate that in 2009, we are going 
to get that increase. And because of that, we are going to add 
more resources.
    So, if we see general increases in costs of programs, we 
try to build that in. Most of it comes through an addition of 
staffing. But on specific programs, we ask for a line item in 
the budget applicable to a law. Others----
    Mr. Mollohan. So what does that mean? Is that saying for 
the ``Second Chance Act,'' you are going to ask for a lump 
sum----
    Mr. Lappin. Correct. Correct.
    Mr. Mollohan [continuing]. For compliance with ``The Second 
Chance Act''?
    Mr. Lappin. Correct. And the same with drug treatment. We 
did the same with ``The Adam Walsh Act.'' We did----
    Mr. Mollohan. Okay. I am just asking about ``The Second 
Chance Act.''
    Mr. Lappin. Yes.
    Mr. Mollohan. Okay.
    Mr. Lappin. We are asking for a line amount, I believe.
    Mr. Mollohan. For complete compliance?
    Mr. Lappin. For the Inmate Skills Development Program, 
which is ``Second Chance.''
    Mr. Mollohan. Okay. But there are other programs in that 
Act.
    Mr. Lappin. There are, but I think it is a lump sum there 
that we have asked for.

                            OMNIBUS FUNDING

    Mr. Mollohan. Okay. Well, we will see. The appropriation, 
your appropriation in the Omnibus for S&E is $5.595 billion. 
What is your staffing level today?
    Mr. Lappin. Our staffing level is about 88 percent of the 
authorized positions we have. We are spending at a rate of 91 
percent of the positions because when you add the overtime in 
there, given that lower staffing level, we are probably 
spending at a rate of 90, 91 percent of the positions we have 
allocated.

                    HIRING AT THE BUREAU OF PRISONS

    Mr. Mollohan. How will that funding level impact the number 
of positions in the Bureau of Prisons?
    Mr. Lappin. 2009?
    Mr. Mollohan. 2009.
    Mr. Lappin. Very little.
    Mr. Mollohan. So based on the 2009 funding, we cannot 
expect very much hiring, if any?
    Mr. Lappin. Not much. And, again, we are so far into this 
fiscal year, by the time we----
    Mr. Mollohan. I would think that would give you an 
opportunity, maybe, because you are so far in.
    Mr. Lappin. Well, by the time we--if we go out and starting 
hiring now, it takes us three, four months to get somebody on 
board.
    Mr. Mollohan. I see.
    Mr. Lappin. Actually in the institution working. Because 
the hiring process, plus the training process, we are four or 
five months down the road. But even with that, you will not see 
a huge increase. And if you see an increase, what you are going 
to see is a decline in overtime, because what we are going to 
target are officers at locations where we continue to use lots 
of overtime.
    And we will offset some of that with the expectation they 
are going to lower overtime at those locations where we add 
correctional staff. So overall, you are still going to see 90, 
91 percent for salaries.
    Mr. Mollohan. During last year's hearing, we had a 
discussion about the Bureau of Prisons inmate-to-staff ratio 
and what the target ratio should be. I want to revisit that 
issue and ask you the question in a different way.
    You indicated last year that the Bureau of Prisons' inmate-
to-staff ratio was 4.9 to one compared with 3.57 to one in 
1997. When I asked what the appropriate ratio should be, you 
seemed to hesitate to offer a definitive answer.
    I would assume that the appropriate inmate-to-staffing 
ratio would vary according to the size and design of the 
facility, the security level or mix of the levels of the 
facility, population of the facility, and I am sure your other 
factors that you alluded to or mentioned earlier in your 
testimony about risk assessment or----
    Mr. Lappin. Right.
    Mr. Mollohan. Is that the right term.
    Mr. Lappin. Yes. Classification risk assessment.
    Mr. Mollohan. Classification. Given that, it would seem one 
could develop a facility-based staff allocation model that 
would identify a particular number of staff required for the 
safe operation of a particular facility.
    Is that assumption correct that it would be good to do or 
do you do that on a facility-by-facility basis?
    Mr. Lappin. We do not do that on a facility-by-facility 
basis, but it would be the appropriate way to do that because 
you are correct. Staffing, ratio of inmates to staff, varies by 
the types of people in there, which you mentioned, risk 
factors, as well as the design of the prison.
    So, at our more newly designed prisons, we can watch more 
inmates with fewer staff, given the design and the technology 
that is built into those with cameras and electronic locks and 
better perimeter protection.
    So you are right. It is very difficult across the board to 
do that.
    Mr. Mollohan. It is very difficult to generalize across the 
board?
    Mr. Lappin. Right.
    Mr. Mollohan. Yes.
    Mr. Lappin. It is very hard to do that. But we allocate 
positions by facility.
    Mr. Mollohan. Yes.
    Mr. Lappin. So we try to look at that. I cannot say that we 
have sat down and said this is the perfect ratio for every 
prison.
    Mr. Mollohan. Yes.

                            AGING FACILITIES

    Mr. Lappin. And I was hesitant last year on picking the 
ratio because I do not know exactly what it should be, given 
the fact we have such a mix of institutions that are as old as 
114 years and institutions that are brand new.
    Mr. Mollohan. Yes.
    Mr. Lappin. And varying characteristics on background. I am 
not shy about this. I think that 4.9 to one is far too high.
    Mr. Mollohan. What was it when you came into the Bureau of 
Prisons if you remember?
    Mr. Lappin. Well, ten years ago, it was 3.5 to one. My 
guess is we were probably close to that back in 1985. But 
realize that in the 1990s, and you may recall in the early 
1990s, when the growth was really rapid, the Administration and 
the Congress realized that we could not build prisons fast 
enough then. We had not learned how to build prisons fast 
enough. We are much better at it today.
    As a result, they gave us about 4,500 positions to spread 
throughout the prisons that were in operation at the time with 
the understanding that eventually those would have to help fund 
new institutions as they came on line. And that is what 
happened, in the 2000s, after the reorganization.
    But when people ask me, again, staffing is the highest 
priority. I would like to see us move towards hiring 3,000 
additional staff----
    Mr. Mollohan. Okay.
    Mr. Lappin [continuing]. Over the course of two or three 
years.
    Mr. Mollohan. All right.
    Mr. Lappin. Then we step back and reevaluate.
    Mr. Mollohan. Okay. You are getting ahead of me a little 
bit.
    Mr. Lappin. I am sorry.
    Mr. Mollohan. That is all right. But backing up.
    Mr. Lappin. Sure.

                              STAFF RATIO

    Mr. Mollohan. If you were to, and this is from our 
perspective, I think, to do a staff ratio on a prison-by-prison 
basis, it would seem to me to make your case more in 
relationship to the challenge that you have and I think perhaps 
make a better argument for those who are hesitant to provide 
the Bureau of Prisons with resources to begin with and even 
these obviously necessary staffing resources.
    Would there be a problem with doing that?
    Mr. Lappin. I do not have a problem giving that a try. And, 
in fact, you would find that we do not have to do every 
facility because we built many facilities that are almost 
exactly alike today, have like types of inmates, similar 
design.
    Now, granted, you have got a number of them out there that 
are very unique. Some of them were never intended to be 
prisons. Some of them were colleges. Some of them were 
monasteries that we have taken----
    Mr. Mollohan. No.
    Mr. Lappin. But you are right.
    Mr. Mollohan. I understand that. I am just saying would 
that be a chore to do?
    Mr. Lappin. We could certainly look at how we go about 
doing that and report back to you what, if any, challenges we 
would see as problematic in doing that assessment.
    [The information follows:]

Report on the Feasibility of Doing an Inmate to Staff Ratio Assignment 
by Prison or by Classification or Other Category so That a Proper Ratio 
                          Could Be Determined

    The BOP does calculate the inmate-to-staff ratio for a facility or 
a group of facilities (such as all institutions of a particular 
security level). The inmate-to-staff ratio varies by institution 
security level--institutions at higher security levels have lower 
inmate-to-staff ratios.
    Institution staffing is very much related to the BOP's emphasis on 
inmate programs and the agency's ``correctional worker first'' 
philosophy. Regardless of the specific discipline in which a staff 
member works, all BOP employees are ``correctional workers first,'' 
with responsibility for the security of the institution. All staff are 
expected to be vigilant and attentive to inmate accountability and 
security issues, to supervise the inmates working in their area or 
participating in their program, to respond to emergencies, and to 
maintain a proficiency in custodial and security matters, as well as in 
their particular job specialty. As a result, the BOP does not require 
the level of custody staff in program areas that exist in some 
correctional systems where non-custody staff are not responsible for 
security duties. In these other systems, classrooms, work areas, and 
recreation areas have a correctional officer assigned in addition to 
the teacher, work supervisor, or recreation specialist. Using the 
``correctional worker first'' concept has allowed the BOP to operate 
with fewer correctional services staff as compared to other large 
correctional systems. This reduced custody staffing allows the BOP to 
maintain a substantial number of other staff who provide inmate 
programs, giving offenders the opportunity to gain the skills and 
training necessary for a successful reentry into the community.

    Mr. Mollohan. Are you ready? Mr. Fattah.

                         OVERCROWDING IN PRISON

    Mr. Fattah. Thank you, Mr. Chairman.
    I was looking at your testimony relative to violent assault 
incidents within the prisons and your best analysis of the 
overcrowding and relationship thereto.
    So you are saying that you have this crowding problem, but 
that it clearly is correlated probably one percent over the 
population. There is a significant rise in incidents.
    Frank Wolf, Congressman Wolf and I and a number of other 
members over time have been concerned about incidents inside 
the prison, particularly prison rape and other things.
    And I notice the efforts that you use to combat some of the 
violent assault challenges do not include technology on the 
list. I am assuming you do use technology and it is just not on 
the list, you know, in the rush to get the testimony.
    But I want you to talk a little bit about the use of 
technology in present institutions and any ways we might as a 
Committee look at this going forward.
    Mr. Lappin. Clearly in our newer facilities, technology is 
built in as we build the facilities. So, you have got a wealth 
of cameras. We do not overrun it with cameras because you have 
to do your best to watch those cameras and record them. So, we 
identify what cameras can assist the most, as one example, as 
well as electronic doors, as well as enhanced perimeter 
security.
    So obviously in your newer facilities, as part of that 
contract to build that facility, we are building in those 
technologies that we believe are worth the investment. Not 
everything you see on the market is worth the investment.
    So, we actually have a group of people whose job is to go 
out there and assess what is on the market and tell us what is 
worth the investment and what is not worth the investment, not 
only in the way of physical things like cameras, but also in 
things that we use to detect what an inmate has on them, using 
metal detectors, x-ray machines, scanning machines. So, we are 
looking at all those types of technology.
    And certainly our newer facilities are better equipped than 
older facilities. It is on a case-by-case basis, because some 
of the technology like cameras are limited, given the design of 
the housing units, that you would have to have so many cameras 
and so many people to watch those that it would probably be 
unreasonable. Those are driven more by, you have got to have 
more staff, because of the older facilities, designs facilities 
that are not conducive to some of the new technologies that we 
see at our newer locations.
    But without a doubt, wherever we can take advantage of 
technology, whether internally or on the perimeter, we are 
making an effort to better utilize our staff.
    And, for example, we are currently putting in stun lethal 
fences in lieu of having as many staff on the perimeters 
because this is an enhancement that we are confident will 
maintain a safe community. It has been used for ten, fifteen 
years in the states.
    We kind of resisted for a long time, but I would much 
prefer to have more officers inside the prison watching inmates 
than on the perimeter if, in fact, there is something I can do 
to the perimeter to reduce that need, and do it safely and do 
it securely.
    So, there are a number of things that we are doing and will 
continue to do as new things come on the market.
    Mr. Fattah. Well, I just assumed it was left off the 
testimony. I am glad you have added to it.
    I assume you also looked at technology. Some of the 
technology that has been used to keep track of people on 
probation and parole outside of an incarcerated setting could 
also be used inside the setting to keep track of where inmates 
happen to be at any given time.
    Mr. Lappin. We have looked at that. It is not cheap. It is 
somewhat expensive. So we have been limited somewhat by our 
funding on certain issues, but we have piloted some of those 
technologies at some locations.
    Another area that you are probably reading a lot about is 
the introduction of cell phones into institutions, which is a 
huge, huge security challenge for us.
    There is technology out there to help detect cell phones. 
It is very expensive. The cell phone has got to be on. There is 
other equipment people say can block its use, but that is 
really illegal to block the cell phone transmission.
    So there is a lot of controversy in that area not just for 
the Federal System but for the states as well. But we work 
closely with the states and others to try to identify what 
works and what we can do to enhance security.

              EDUCATING, TRAINING AND DRUG REHABILITATION

    Mr. Fattah. Well, I served on the Homeland Security 
Committee and there are number of things that we were looking 
at and involved with in terms of technology that I think might 
have some application. And perhaps, you know, there is some 
processes in which various people could talk with each other 
about where there might be some applications that could be 
useful.
    And I am also very interested in what we are doing about, 
and I know there is no big applause to be heard from the 
public, but in terms of education and training and drug 
rehabilitation among inmates because I think that is where the 
biggest bang for the buck could really be in terms of cutting 
recidivism rates and so on.
    So if you would comment.
    Mr. Lappin. Well, we could not agree with you more. We 
believe inmates, we know that inmates who participate in those 
programs are less likely to come back to prison.
    For example, last year, we treated 17,523 inmates for drug 
and alcohol abuse in a residential type program. Unfortunately, 
we let about 1,700 leave prison who had volunteered for 
treatment, but for whom we did not provide that treatment.
    But on any given day, we have, oh, let us see here, 
education, I think like 52,000 inmates on any given day in GED 
or a vocational training program. Every general population, 
long-term facility, has an education program that includes GED, 
adult basic education, and in some places English as a second 
language.
    At those locations with a large population of non-U.S. 
citizens, typically from Mexico, we actually offer the primary 
and secondary, which is the equivalent of the GED in Mexico. 
Also, we offer drug treatment at 56 locations. We have 
factories at about 100 facilities where we can provide a 
productive work environment for inmates.
    I wish we could do more of that. But because of some of the 
issues I referenced in my oral testimony relative to FPI, we 
are actually seeing a decline in the number of inmates working 
in Prison Industries. But without a doubt has it always been 
part of our mission, not only providing a safe, secure 
environment, but also providing opportunities to improve inmate 
skills in anticipation that they are going to be more 
successful in the community. It has always been the mission of 
the Bureau of Prisons and an area that we try to continue to 
address with each and every offender who is willing to do that.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Bonner.

                           WEAPONS IN PRISON

    Mr. Bonner. Mr. Chairman, I have got a couple questions 
that since our Ranking Member is not here I would like to get 
in on the record.
    But before I do, let me admit I am the newest member of the 
Subcommittee, so this is going to sound very naive. But we all 
have town meetings in our districts and we go back and 
sometimes we will be asked a question from one of the taxpayers 
of this great country. It is a fair question and it is rare 
that I have a chance to ask it of someone who actually probably 
has a more informed answer than I have ever given.
    You have got problems with cell phones in prisons. You have 
got problems with weapons in prisons. You have got problems 
with drugs in prisons. I believe what, 50 percent or more of 
the inmates are drug offenders at the time they come in.
    I guess the question is, is that they get to a prison. How 
can weapons and cell phones and drugs make their way through 
the filtration system so that that creates added burden on you 
and your employees?
    Mr. Lappin. It is a good question. Most of the weapons, let 
us define weapons, most of them are homemade weapons. And, 
unfortunately, inmates are pretty skillful, some of them, at 
figuring out what they can make a weapon out of.
    Mr. Bonner. Make them at shop or take them----
    Mr. Lappin. Or even, you know, down in an area where we are 
not closely monitoring or you have got equipment in there where 
they can grind. Believe it or not, inmates have figured out 
ways to cut steel out of their bed frame with dental floss or 
with a little piece of a razor. It just takes them a long time. 
And unless staff are very attentive, they are able to do that.
    And so what we have had to do is go in and reinforce. You 
know, what in the past has been adequate in the way of a steel 
bed pan is no longer adequate. And we have had to go in and 
reinforce that with heavier steel, especially in our higher 
security institutions.
    So typically the weapons that are found are blunt, a lock 
in a sock. Okay? You hear those things referred to as weapons. 
You know, we have not had, fortunately guns, and knives of the 
type you buy in a store typically in our institutions. Mostly 
homemade, locks in socks, a broom handle, a sharpened 
instrument are typically the types of weapons. So most of those 
obviously come from within.
    Regarding drugs, there are a variety of ways to get drugs 
into prisons. We continue to encourage inmates to visit with 
their families and we want contact visits. And that lends you 
to being more susceptible to the introduction of drugs into an 
institution. It is a negative consequence.
    What we have done to limit that is to discipline inmates 
who get caught bringing drugs in, or using drugs, by not 
allowing them to have contact visits for a period of time. So 
that has had an impact.
    We have limited the amount of packages; really no packages 
can come in anymore. You cannot send a package to an inmate 
because packages and books are another way that easily allows 
someone to hide drugs in something that we cannot find. On the 
back of a stamp, may be LSD, you know. And we have volumes of 
mail coming into our institutions that would lend itself to 
that.
    Cell phones, believe you me, are a problem everywhere. I 
was talking with the Director of Corrections in South Carolina, 
and the folks on the outside actually had one of those potato 
guns. They were shooting cell phones over the fence from out in 
the forest. Now, that is a bit unusual.
    So, again, sometimes they come in through visiting rooms. 
They come in through packages. But I would be foolish if I did 
not address that sometimes we have staff who misbehave. We have 
a small percentage of staff unfortunately. Overall, I have got 
a great workforce, 36,000 honest, hard-working, dedicated 
people who would never consider doing anything that would 
embarrass themselves, their families, or the agency.
    But without denying, I have got a small group of folks who 
break the law and they unfortunately bring in cell phones and 
they bring in drugs sometimes. And today they bring in 
cigarettes, since we eliminated smoking in the Federal Prison 
System two years or so ago and sell them to inmates. And we 
have a pretty aggressive program to address that.
    A year ago in January, we instituted a search of all staff, 
everyone coming into the prison. At one time, we did not search 
our staff. Now we search our staff. And my guess is we have 
deterred some. We are catching a few. Some are pretty smart 
characters, and they are still beating us.
    So, it goes without saying that a small, a very small 
percentage of our staff bring some of these things in and sell 
them to inmates and that is how that occurs.

                        HIRING ADDITIONAL STAFF

    Mr. Fattah. The Ranking Member is here. But in order to 
give him a chance to get up to speed, let me--the Chairman 
focused a lot on manpower and staff-to-inmate ratio. And I 
think you indicated that your number one priority was hiring 
additional staff.
    But it is our understanding that another area of concern is 
the chronic shortfall in the budget for the modernization and 
the repair of facilities.
    The Federal Facilities Council recommends an M&R budget of 
about two percent of the replacement cost. Are you anywhere 
near that?
    Mr. Lappin. No, sir, we are not. Again, prior to the more 
recent challenges this country has faced, we were probably 
funded at about two percent of replacement cost. And at that 
time, it was probably in the 100, 125 million dollar range.
    I think today, over the last two or three years, we have 
probably gotten on average about 70 million for the M&R budget. 
We need closer to 250, 275 to really be two percent. Is that 
about right? I am sorry. Two percent is about 400 million.
    So, that is to repair 115 federal prisons, 37 of which are 
50 years of age or older and a large portion of those 37 are 75 
years of age or older, the oldest being Leavenworth at 110, 112 
years. So obviously the older they are, the more expensive they 
are.
    And so, this is again, an area where we are struggling a 
little bit and certainly are looking at ways that we can 
improve on M&R for the repair and the maintenance of our 
existing facilities.
    Mr. Fattah. What is the relationship between inadequate 
funds for facilities and your ability to supervise inmates?
    Mr. Lappin. You know, I think we would see more of a 
relationship over time because right now what we are doing is, 
with what money we have, we have identified the highest 
priorities. And the highest priorities have to do with safety 
and security. And those are the first priorities.
    And so it is not split up equally because you have some--it 
used to be we would split it up equally across the six regions 
of the Bureau, but some regions have more older facilities, 
that have greater needs than others. So, now there is one 
system where we have a prioritization of the very highest 
priorities, safety and security being the highest priority. And 
we certainly try to address those needs first.
    I would have to go back and do a little more assessment to 
tell you how we are doing on the highest priorities of that 
list. I know that we have like 200 and--we have got 100 major 
projects that total about 296 million. Which of those would 
fall into the safety and security category, my guess is many of 
them would, but that varies depending on the type of issues. 
But we can certainly give you a more detailed assessment of 
where we stand on that issue in writing.
    [The information follows:]

Describe How the BOP Compiles the Highest Security and Safety Items on 
          the M&R Waiting List and Determines Which Get Funded

    Each fiscal year, BOP institutions perform detailed annual 
inspections of all areas of their physical plant and provide a list of 
projects to their regional office for all items in need of repair/
modernization. The six regional offices individually consolidate major 
M&R project (typically those over $300,000) request lists from their 
institutions and forward the priority lists to the Central Office.
    After the budget is enacted and the M&R fiscal year funding level 
is determined, the unfunded priority list is reviewed by Central Office 
and the regional offices to identify the highest priority projects in 
most dire need of repair and ready for contract action. Security and 
safety projects are identified first for funding, with infrastructure 
needs following in priority. The BOP then allocates funds, based on the 
priority list, for as many projects as practical.

    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Wolf.

                           PRISON INDUSTRIES

    Mr. Wolf. Thank you, Mr. Chairman. I am sorry I was not 
here earlier for the whole hearing.
    And we just announced the signing of a full funded 
agreement for a rail to Dulles which is a project I have been 
working on for 20 years. And we just had to be there. But I did 
want to be here and I have a lot of questions for you.
    One, I want to thank you for the job you do and I want to 
thank your people.
    I want to ask you and maybe you covered it. I was opposed 
to what the Congress did on Prison Industries. If you covered 
that, I will not, but just tell me how much of an impact and 
what did you think of the idea that I had whereby we would 
begin to have prisoners work on, because you cannot put a man 
away for 15 years and give him no work, to work on products 
that are no longer made in the United States.
    We were trying to develop it so that you did not compete 
with American jobs. Tell me a little bit about Prison 
Industries, what the impact it has had on recidivism, et 
cetera, et cetera, the impact it has on your employees and just 
tell me a little bit about it.
    Mr. Lappin. It is good to see you again, Congressman. 
Thanks for being here.
    As you well know, inmates who work in Prison Industries 
over the years we have found are less likely to come back to 
prison and are more likely to get a job.
    Mr. Wolf. And is it fair to say Congress has just made it 
hard because--I know you might want to say that, but the fact 
that the Congress has weakened Prison Industries, when in 
essence in my mind would tell me that means that it has been 
harder to have----
    Mr. Lappin. I say, as I said in my opening statement, some 
things have been passed. There are two things occurring right 
now that are impacting Prison Industries. So let me try to 
clarify.
    We have seen without a doubt we are having to reduce the 
number of inmates in Prison Industries because Prison 
Industries must make a profit. There are no appropriated funds. 
It is a business. Although it is a program, it is run as a 
business and we must, as you well know, must make a profit to 
continue to operate that in the manner that we do.
    Currently we are employing about 17 percent of the eligible 
inmates in Prison Industries.
    Mr. Wolf. What was it ten years ago?
    Mr. Lappin. Well, I know that 1988 or so, we employed 50 
percent of the eligible inmates.
    Mr. Wolf. Fifty?
    Mr. Lappin. Fifty percent.
    Mr. Wolf. So we are down to 17?
    Mr. Lappin. We are about 17 percent. We are employing about 
21,000 inmates in Prison Industries each day.
    Two issues going on right now, well, one. As you mentioned, 
some legislation has been passed that has impacted our 
competing with products of the privates in selling to the 
government. And, again, there were some changes that impacted 
its Mandatory Source, a number of those initiatives.
    We really did not feel directly the impact of that as soon 
as it was passed because of the surge in the war. So what 
happened was those things were passed. We anticipated an 
impact. But because of the war surge, last year, Prison 
Industries grossed about 820 million. Four hundred million of 
that was with Department of Defense.
    And so it compensated for what negative occurred because of 
the passage of some of those regulations. Now what is 
happening, the war effort is beginning to decline. We are 
seeing fewer, or we are going back to a more traditional level 
from the military. Now we are seeing the impact of some of 
these initiatives. We are going to----
    Mr. Wolf. Do you think that will have an impact on the 
recidivism rate?
    Mr. Lappin. Well, I believe that it will because we are 
going to have fewer inmates gaining the work skills they 
normally would acquire.
    Mr. Wolf. Well, would you favor then if we could offer this 
as an amendment? Would you favor us setting up a Prison 
Industries Program that only manufactures products that are no 
longer made in the United States? Perhaps have the Trade rep or 
Commerce Department certify. I mean, we make no televisions 
here in the United States.
    Mr. Lappin. We like your idea. In fact, we are doing some 
of that now where authorities allow us to do that. And I just 
want you to know we have--I am going out on a limb a little 
bit, but here is the bottom line. We do not want to affect 
people's jobs in this country.
    Mr. Wolf. No. I understand. I do not either.
    Mr. Lappin. So, we are not opposed to eliminating FPI 
Mandatory Source over a period of years if, in fact, we can 
gain the authorities for doing some of the things that you 
suggest to compensate for what we might lose in Mandatory 
Source. Because at the end of the day, we want factories and 
prisons that run safer because those inmates are productively 
occupied and, two, we know that those inmates who work for as 
little as six, eight months in prison are more likely to get a 
job and less likely to come back to prison. So that is a huge 
benefit to this country.
    Mr. Wolf. Well, we are in favor. I will try to offer 
something that maybe we would have it certified by the 
Department of Commerce and the Trade Office that this product 
was no longer made in the United States. If we would be making, 
oversimplification, television sets, you cannot get a 
television made in the U.S.
    That way, we would almost--we had called it Operation 
Condor. Remember the Condor bird was being extinct and we 
brought the Condor back. We could bring some of these jobs 
back.
    I do not think you can put a man in prison for years and 
not give him work. I just do not think you can.
    Mr. Lappin. We would love to work with you on that issue.

                            PRISON RAPE BILL

    Mr. Wolf. Okay. I will try to offer something on that.
    And I do not want to take too much time of the Committee, 
but I was the author with Senator Kennedy on the Prison Rape 
bill. Where are we on the prison rape issue and where are we on 
that now?
    Mr. Lappin. Well, the Commission has not finished, specific 
to ``The Prison Rape Elimination Act.'' The Commission has not 
yet finished its work and provided its recommendations to the 
Attorney General. However, last week, I met with Judge Walton 
on this very issue along with a number of Directors from the 
states.
    So, I know that they are getting close to providing to the 
Attorney General their recommendation in the way of standards 
applicable to prison rape in our institutions.
    But I want to reassure you, many, many years ago, the 
Bureau of Prisons, as well as many states, were addressing this 
issue. We changed policy.
    Mr. Wolf. But I still see articles in the paper about it, 
though. You still see more at state and local prisons, but it 
is still----
    Mr. Lappin. I think, though, that I will defer to our folks 
in BJA who have actually done the survey.
    Mr. Wolf. Maybe for the record, you could list, give us how 
many----
    Mr. Lappin. Sure.
    Mr. Wolf [continuing]. Incidents have taken place this 
year, last year, and the year before, and maybe any information 
you have on both state and local.
    Mr. Lappin. We can do that. And you are going to find a 
very low incidence.

 Please Provide the Number of PREA Case Incident This Year, Last Year, 
  and the Year Before. Also, Information You Have on State and Locals

    Attached are four pages from recent reports prepared by the Bureau 
of Justice Statistics (BJS) that provide data on cases of sexual 
assault in Federal and State facilities for 2005 and 2006. The BJS 
report containing data for 2007 is due to be published later this year.
    For the BOP in 2007, there were a total of 28 reported inmate-on-
inmate sexual acts: 19 were non-consensual (all 19 were 
unsubstantiated) and 9 were abusive sexual contacts (all 9 were 
unsubstantiated). In 2007, there were 182 allegations of staff-on-
inmate sexual misconduct: 118 were unsubstantiated, 8 were 
substantiated, 2 were unfounded, and 54 continue under investigation. 
In 2007, there were 99 allegations of staff-on-inmate sexual 
harassment: 78 were unsubstantiated, 6 were substantiated, and 15 
continue under investigation.

[GRAPHIC] [TIFF OMITTED] T1247A.030

[GRAPHIC] [TIFF OMITTED] T1247A.031

[GRAPHIC] [TIFF OMITTED] T1247A.032

[GRAPHIC] [TIFF OMITTED] T1247A.033

    Mr. Wolf. Federal are you talking about or----
    Mr. Lappin. Federal.
    Mr. Wolf. Do you have any numbers on state and local?
    Mr. Kane. BJS does.
    Mr. Lappin. BJS does. We could probably gather----
    Mr. Wolf. If you could get that. Maybe just get it to me so 
I can look at it and also----
    Mr. Lappin. Sure.
    Mr. Wolf [continuing]. To the Chairman.
    Mr. Lappin. And I think you will be pleased with what they 
are finding. They are actually going out and surveying 
institutions as part of the PREA Commission, as you probably 
recall. They were getting the results from their interviews not 
only of staff but of inmates as part of that survey which gives 
some additional insight to the frequency. Again, I think you 
are going to find lower incidence.
    Mr. Wolf. And when do you think that is going to come out?
    Mr. Lappin. Well, actually, we have already got one year.
    Mr. Wolf. Their final report----
    Mr. Lappin [continuing]. Coming out.
    Mr. Wolf. What?
    Mr. Lappin. The one year statistic has already been 
published.
    Mr. Wolf. When will they do their final report?
    Mr. Lappin. Well, actually, this is an ongoing evaluation. 
Every single year----
    Mr. Wolf. Every single year?
    Mr. Lappin. Every single year, they will do this analysis.
    Mr. Wolf. When are the recommendations?
    Mr. Lappin. I do not know if they make recommendations.
    Mr. Wolf. I said when will the recommendations.
    Mr. Lappin. I am sorry. The PREA Commission's 
recommendations will be provided to the Attorney General by 
June.
    Mr. Wolf. By June?
    Mr. Lappin. And then the Attorney General has one year to 
make a decision on what would go forward in the way of 
standards.

                            PRISONER RELEASE

    Mr. Wolf. Okay. I spoke to a young prisoner. He got out. I 
am trying to sum up the facts so you cannot find out who it is. 
He was released from a halfway house at about seven-thirty or 
eight o'clock on a Saturday night. Wow. To release somebody 
from a halfway house on a Saturday night at seven o'clock or 
eight o'clock, that is really, I mean----
    Mr. Lappin. That is probably quite unusual.
    Mr. Wolf. Yeah.
    Mr. Lappin. If the guy was in a halfway house----
    Mr. Wolf. He was in a halfway house.
    Mr. Lappin. Again, on occasion, we get orders to release 
somebody and we really do not have a choice. But typically by 
the time an inmate is in a halfway house, that release is well 
planned.
    Mr. Wolf. But you should never ever do it on a Saturday. 
Should you not do it on a Tuesday morning or a Monday morning 
or a----
    Mr. Lappin. Well, again, if we get an order from a Judge, 
which is unusual but it happens, we get an order from a Judge 
reducing that sentence, immediately it is our job to release 
the inmate.
    Mr. Wolf. Wow. I mean, I think to release somebody Saturday 
night----
    Mr. Lappin. We do not like to do that. We try to work 
around that.
    Mr. Wolf. Could you just look into that to see? Maybe you 
should have a----
    Mr. Lappin. Do you have his name or----
    Mr. Wolf. Well, I do not know that I want to give you his 
name. Maybe I could give it to you privately.
    Mr. Lappin. Not today on the record, but we will talk----
    Mr. Wolf. Okay. Good.
    Mr. Lappin [continuing]. Because I will find out 
specifically what happened.

                            ISLAM IN PRISON

    Mr. Wolf. Third thing, and I do not know how my time is, 
Mr. Chairman, and this person also told me that in the prison 
he was in, there was pretty aggressive recruitment with regard 
to the Nation of Islam and others. And I want to ask you a 
question.
    There was a report in the Philadelphia Magazine, which I am 
going to give you, and then there was also a study. Let me read 
two things and you comment.
    This is an article from the Philadelphia Magazine, The 
Radicals Among Us, and it said, and then as a matter of money, 
specifically Saudi money, according to the Philadelphia police, 
the complexities of Middle Eastern religious politics are many 
and vast, but it is clear to authorities that Saudi extremist 
groups, namely Wahabis, are aiding groups in prisons.
    Is it true or false?
    Mr. Lappin. We are not seeing that in our institutions.
    Mr. Wolf. Would it be taking place in state and local 
prisons?
    Mr. Lappin. I would have to defer to them. Without a doubt, 
it is going to be more of a challenge----
    Mr. Wolf. But they are not together. Well, but you ought to 
look at this though. And also, let me discover, and I hope you 
will not duck this here, it says more recently, terrorism 
analysts at two schools, the University of Virginia, which is 
an accredited university, a pretty good one, and George 
Washington again, issued a broad report on prison 
radicalization in America.
    Their conclusions, UVA and George Washington, their 
conclusion in essence is that prison inmates in America are 
converting to Islam of one version or another faster than the 
prison system can keep up and the lack of oversight from 
literature entering the prisons makes prisoners a tempting 
target for militant clerics.
    So, I mean, it troubles me you do not know because you are 
at UVA and George Washington, so who would tell me for the 
state and local prisons?
    Mr. Lappin. Well, we can go to the Association of State 
Correctional Administrators, but I would have to look at the 
report.
    Mr. Wolf. We will give you a copy right after the hearing.
    Mr. Lappin. That will be fine. But let me just tell you we 
have 11,244 Muslim inmates in the Bureau of Prisons, 5.9 
percent. That has not changed in five years. But that does not 
mean that could not occur.
    Mr. Wolf. But I did see at one time, and if you would tell 
us what, I think you have made some changes, we did see some 
books that were paid for by the Saudi government. Do you 
remember that?
    Mr. Lappin. Yes, sir. Yes.
    Mr. Wolf. And for the Saudis that funded radical Wahabiism, 
that funded the madrassas up on the Afghan border that led to 
9/11, that is not very good. And so we are not talking about-- 
people should convert to wherever they want to convert, but to 
have the Saudi government who really I do not think is a very-- 
helped create the problem that we are facing.
    So are all those books now out? There is no more support 
from Saudis coming into the federal prisons?
    Mr. Lappin. We have done an inventory of all of our books 
and chapel libraries, the entire Bureau of Prisons, and we have 
removed those books that----
    Mr. Wolf. Were there a lot of them?
    Mr. Lappin. I will get you the numbers of what we removed 
and we will give you the names of what we removed.

   Provide the Number and Names of Books Removed From the BOP Chapel 
                               Libraries

    The BOP makes available to inmates a wide variety of religious 
materials, representing a broad spectrum of religions, through its 
chapel libraries. The agency is aware of the need to ensure such 
materials do not ``seek to incite, promote, or otherwise suggest the 
commission of violence or criminal activity'' as provided in the Second 
Chance Act.
    A proposed rule to implement the provision in the Second Chance Act 
that addresses chapel libraries was published in the Federal Register 
on January 16, 2009. The BOP will consider all comments submitted on 
the proposed rule. Currently, the rule is in proposed form and is not 
yet effective or applicable. As a result, the BOP has not removed any 
resources from its chapel libraries other than the item mentioned 
below, which was removed before the Second Chance Act was enacted.
    Several years ago, the BOP began to closely examine the holdings in 
its chapel libraries. The review identified some materials of concern. 
In this connection, the BOP removed from chapel libraries all copies of 
the Noble Quran published by Dar-Us-Salam Publications (1995). Other 
chapel library materials that have been identified as potentially 
problematic are currently under review. The agency will make a final 
determination on these materials after consideration of all comments 
received on the proposed rule and using the standard adopted at the 
time the BOP promulgates a final rule.

    Mr. Wolf. Okay.
    Mr. Lappin. There were not a lot given the size of those 
libraries. But here is what I will do for you, because I think 
since the last time we talked, we have put in place many, many, 
many more controls to not only monitor the inmates we have, but 
control over what comes into prisons. So I will send it in 
writing for the record those things we have done. I have no 
problem coming and giving you a personal briefing on these 
issues, some of which I may not want to put in writing because 
of the sensitivity----
    Mr. Wolf. Sure. Okay.
    Mr. Lappin [continuing]. But I assure you that I think we 
have addressed it. Is it impossible for it to happen between an 
inmate and another inmate in a cell? No. But we certainly, I 
think, have put in place many controls and put many resources 
towards preventing this from happening.
    Mr. Wolf. Okay. The last question I would have, and I beg 
the Chairman's time, what can we do, what can this Committee do 
to deal with the issue of recidivism? One, I think we can 
create jobs. What else can we do?
    I think it is an embarrassment that the United States has 
the largest per capita prison system now in the world. The 
whole issue, and I will not get into it here, we are going to 
ask the Attorney General, the crack cocaine issue, the 
sentencing.
    What can we really do? With your expertise, you probably 
have forgotten more than most people will ever know. What can 
we honestly do to reduce the recidivism and deal with this 
issue so that we are no longer a nation with such a large 
prison population? And what is the recidivism rate now? What 
percent?
    Mr. Lappin. Forty percent for us.
    Mr. Wolf. Forty percent. And what is it for other 
countries?
    Mr. Lappin. Well, the states on average are about 65 
percent.
    Mr. Wolf. Has that number gotten better or worse over the 
years?
    Mr. Lappin. Our number has actually come down from 44 
percent in the last ten years. But as I was sharing with the 
other group, I cannot say that we are there today because we 
without a doubt are not providing as much accessability to the 
programs. And let me just address that.
    One, staffing is an issue because we have got to have a 
safe and secure environment first. We cannot provide programs 
if prisons are not safe and secure. Once you have accomplished 
that, then the issue is, how do we leverage more people into 
these programs as willing participants, not us trying to force 
them in there because you all, from your experience, you know 
that if you try to force somebody to learn, it is an uphill 
battle.
    I will go back, to let us look at the drug treatment 
initiative where inmates who are nonviolent can get some time 
off of their sentence if they successfully complete this 
program. I still argue that we should consider a program of 
that type for other nonviolent offenders in our custody who are 
not drug and alcohol addicted.
    Mr. Wolf. Why don't we do that?
    Mr. Lappin. You are asking what we can do? I think that is 
an option we should consider.
    Mr. Wolf. Have a pilot program?
    Mr. Lappin. We certainly could look at that. But I think 
anything that we can do to leverage more folks into getting a 
GED, to getting a vocational certificate, to working, having 
the opportunity to work, to address the nine skill areas that I 
mentioned earlier, I think we are going to see more success 
upon those folks' release from prison.
    Mr. Wolf. Well, Mr. Chairman, could we try a pilot? Could 
we see if we could put the responsibility on the Bureau of 
Prisons to pick a group, a pilot group, and give them the 
authority and see if we could do that?
    How many people in America, federal, state, and local, are 
in prisons?
    Mr. Lappin. Two point three million.
    Mr. Mollohan. Well, we can and that is what these hearings 
are all about really to get to that, to what we can do in the 
appropriation bill in all these different areas. And that is 
precisely what we are actually looking at the end of----
    Mr. Lappin. Since he opened the door, can I say one other 
thing?
    Mr. Mollohan. Sure. Please.

                  THE COMPREHENSIVE CRIME CONTROL ACT

    Mr. Lappin. In 1998, the country passed ``The Comprehensive 
Crime Control Act.'' And I do not think everyone had the 
foresight at the time to realize the impact of eliminating good 
time and then vesting it, because on the other hand, what we 
have now is less leverage with inmates who are misbehaving.
    So, when an inmate misbehaves today, unfortunately, we are 
seeing them placed in isolation more than in the past. So our 
Segregation Units are filed to capacity if not beyond. That is 
not a good thing.
    Where, in fact, in the past, when we had the latitude to 
take more good time, it was better leverage to take good time 
away from that inmate than to put him in segregation.
    But because of the change, it is making it more difficult. 
So we would like to come back and discuss ways to reevaluate 
that aspect, as well as, I mean, the possibility of good time 
for folks who get into programs.
    Mr. Mollohan. Yes, the authorizers are looking at this very 
thing right now.
    Mr. Wolf. Well, let me just say--thank you, Mr. Chairman--
the authorizers, though, with all due respect have looked at 
this stuff for years and we have watched the prison system go 
up. We have tried to offer different things with regard to 
prison systems and the authorizers of some of the authorizing 
committees have taken away jobs from prisoners. And so maybe--
--
    Mr. Mollohan. The justice bill, ``The Second Chance Act,'' 
is really a pretty progressive piece of legislation. But we 
will certainly look at all that and that is what this series of 
hearings will take a look at.
    Mr. Wolf. This Congress for the last 15 years has not 
allowed one additional prisoner to have work.
    Mr. Mollohan. Yes. I know. Thank you, Mr. Wolf.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I apologize to you and Mr. Wolf and my colleagues for my 
tardiness. I had, as you know, three hearings at the same time 
or whatever, but I did not want to miss being with you for a 
while.
    Thank you, Mr. Director, for your testimony today.
    Mr. Lappin. Good to see you again.

                           PEW RESEARCH STUDY

    Mr. Serrano. A recent Pew Research Center report found that 
one-third of all federal prisoners are now Latino and that 48 
percent of Latino prisoners are in federal prison because of an 
immigration violation.
    I am concerned that this is not a wise use of our resources 
and I am particularly concerned that our federal law 
enforcement seems to be overly focused on Latinos in that 
particular area.
    Does this change in prison population have an effect on how 
you have to run the system and do you believe the imprisonment 
for immigration violations is overcrowding the federal system?
    Mr. Lappin. Well, it is really not for me to say, you know, 
what----
    Mr. Serrano. Incidentally, just one clarification. The 
report does show, of course, I had this question myself and I 
just found it in the Pew Report, that it is mostly for 
overstaying, in other words for being undocumented or some 
people call them illegal aliens and you end up in federal 
prison for that.
    Mr. Lappin. It is not for me to say what prosecutorial 
direction the Department pursues. We have little control over 
who comes to prison and how long they stay. But without a 
doubt, these two variables, how many inmates and how long they 
stay, both drive population. And without a doubt, in the last 
25 years, we have seen very substantial growth.
    Part of that has been an increase in non-U.S. citizens, 
probably the majority of whom are Hispanic. Today we have got 
64,352 Hispanic inmates in the Federal Bureau of Prisons. Some 
of them could be U.S. citizens. I think we have got, yes, 
52,000 are non-U.S. citizens.
    So, any of these initiatives, whether it is the war on 
drugs, the war on weapons, or the war on immigration 
violations, will drive our population given the fact that those 
are federal statutes.
    But the consequences, whether it is driven by drugs or 
weapons or immigration, are pretty much standard. It is more 
inmates, so we need to provide more programs, need more staff, 
so on and so forth.
    One challenge certainly is the communication, our ability 
to communicate effectively with some folks who do not speak 
English very well. Without a doubt, that is one area that 
continues to be a challenge for us, especially in rural areas, 
is bringing on staff who can talk directly to those inmates, 
rather than through an interpreter. So, without a doubt, those 
are challenges.
    Another challenge that I mentioned earlier was the increase 
in the gang members, especially from Hispanic groups, Paisa, 
Surenos, you know, whatever group. We are seeing----

                             MARIEL CUBANS

    Mr. Serrano. Say Surenos, not Serranos.
    Mr. Lappin. Surenos. Thank you, sir. Absolutely.
    Mr. Serrano. I quickly wanted to clarify that.
    Mr. Lappin. That is correct. And I could name some others, 
but you understand, they continue to present some challenges 
for us given their violent nature as well as their willingness 
to confront our staff and our inmates.
    So, there are challenges. But, again, most of these folks 
in our custody have committed a federal crime, probably in 
addition to an immigration violation. So some of these are 
strictly immigration violators who have been convicted of that 
and only that, but many of them are a combination of a couple 
of crimes.
    The number of those that are held beyond their sentence 
continues to be reduced. So at, one time, we held a lot of 
detainees, when we had the Mariel Cubans and so on and so 
forth. But today that number is getting smaller.
    We have 571 or so non-U.S. citizens who are now purely 
detainees because they have finished their federal sentence, 
but ICE has opted to leave them in our custody. So we continue 
to work with them on those issues.
    Mr. Serrano. That is interesting you mention the Mariel. 
There are still some being held, right? I mean, this is what, 
30, 20 years.
    Mr. Lappin. I know. The number is so small, they do not 
even put it on my little cheat sheet. But my guess is it is 
very small, if any, correct, Tom?
    Mr. Kane. Yes, it is.
    Mr. Lappin. Yes. We can find the number for you. But you 
are right. It is a long, long time ago, about 20 years.
    [The information follows:]

        Provide the Number of Mariel Cubans Still in BOP Custody

    The number of Mariel Cubans still in BOP custody is 12. Eleven are 
detained by order of ICE. One is held at USP Marion and has been 
certified as a sexually dangerous person.

    Mr. Serrano. Some of those folks are what, 10, 15 years 
past the sentence they were supposed to serve and they are 
still detained?
    Mr. Lappin. But I can tell you that a lot of those, towards 
the end, were very ill, had mental illnesses, or had other 
physical ailments, and some had a very violent background.
    Mr. Serrano. Right.
    Mr. Lappin. So probably towards the end they fell into one 
of those three categories, serious mental illness, you know, 
physical illnesses, and those others that it was very difficult 
for us to get released.
    Mr. Serrano. Very briefly on the challenges you meet on the 
language issue, you said especially in rural areas. First of 
all, do you have the resources to hire these folks? It is not 
about the idea of whether the population is what it is or not 
to have folks who speak more than one language. Do you have the 
resources or is it a recruitment problem, finding the folks?
    Mr. Lappin. Well, it is a problem. I cannot say it is not, 
because I go to our institutions. Even though we can run safe 
and secure institutions, without having a staff that looks like 
the inmate population, it takes a lot of work because we have 
to train our staff about the differences amongst these 
different cultures and races as well as make adjustments for 
their ability to effectively communicate with them. So 
sometimes, in some locations, we have to use other inmates as 
translators. Again, not the best of environments.
    We are fortunate, though, that we have institutions in 
locations where we have a lot of Hispanics applying for jobs. 
Our staff at the more rural areas sometimes will go to those 
locations to try to encourage those folks that really want to 
come to work for the Bureau of Prisons to consider coming to 
the more rural locations, in areas where they did not 
previously consider living.
    We have had some success with that. But recruitment 
continues to be a challenge. We have talked earlier about our 
challenges in the way of staffing in general. This just kind of 
complicates that a little bit, because we really cannot set 
aside additional money for those recruitment efforts given the 
fact we have been somewhat constrained on our ability to hire 
up in some of those areas.
    Mr. Serrano. One last comment, Mr. Chairman. Perhaps the 
Committee can be helpful in helping the Bureau meet with some 
of the folks that are concerned with recruitment.
    For instance, this morning, the Congressional Hispanic 
Caucus held a meeting with, oh, my God, 75 nationally known 
Hispanic community organizations. The number one issue 
obviously for them was some sort of comprehensive immigration 
reform which in many ways would affect you and your population.
    Two, which affects this Committee, is better census count 
for the whole country so that Hispanics get counted properly 
and, therefore, add federal dollars to those areas where they 
live and the states should like that.
    And, third, but the one that most people mention, third was 
the small number of Latinos working in the federal workforce.
    And so we certainly can have at the minimum, Mr. Chairman, 
the Hispanic Caucus put you in touch with those organizations 
that push for the workforce to grow because this is especially 
an area where we have to do it.
    Mr. Lappin. Well, I would look forward to that. We have a 
good relationship with LULAC. We go to their training yearly. 
They certainly have been of great assistance to us.
    Mr. LeBlanc here behind me is over our Human Resource 
Department and would enjoy meeting with anyone who can help us 
bring on more staff who are bilingual and can assist us in that 
capacity.
    Mr. Serrano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Director, I want to go through some questions here and 
I will be as brief in my questions as I would invite you to be 
with your answers.
    Mr. Lappin. Okay.

                          INCREASE IN STAFFING

    Mr. Mollohan. I just want to get some things on the record 
and we do not have a whole lot of time.
    We talked about staffing and what was needed or not needed 
to increase it. The Omnibus bill included an increase of 4.7 
percent for salaries and expenses. And you have indicated that 
you probably will not be able to increase hiring in 2009.
    Why doesn't that 4.7 percent increase in the Omnibus 
translate into additional staffing?
    Mr. Lappin. Again, you have got a pay raise. Part of that 
increase covers the pay raise, and adjusts for the inflation in 
other areas. Let us just take, for example, when a pay raise is 
not fully covered by the raise. Let us say it is a 3.9 percent 
raise and we get 2.9 percent funded. That means we have got to 
make up one percent. That is $40 million that has to come out 
of our base resources--
    Mr. Mollohan. And what is your----
    Mr. Lappin [continuing]. To do that.
    Mr. Mollohan. What is your goal for increasing staffing 
next year? I think in earlier testimony, you alluded to--you 
wanted to hire 3,000 additional employees in 2009 or with the 
2010 budget?
    Mr. Lappin. I think over the next two or three years, and, 
again, it varies on how long it would take us to do that, I 
would advocate that we add 3,000 employees to the base.
    That means in addition to new activations. That does not 
count those staff. New activations, that means new employees 
coming on to activate those new facilities. The 3,000 would 
bring our ratio of staff to inmates down to about one to 4.5.
    Mr. Mollohan. I am sorry. Say that again. It does not 
include what? It does include employment for activation?
    Mr. Lappin. That is correct.
    Mr. Mollohan. You are talking about----
    Mr. Lappin. In addition.
    Mr. Mollohan [continuing]. In addition to that----
    Mr. Lappin. That is correct.
    Mr. Mollohan [continuing]. You would like to increase by--
--
    Mr. Lappin. Three thousand.
    Mr. Mollohan [continuing]. 3,000? And you want to do that 
in what time frame?
    Mr. Lappin. Two or three years.
    Mr. Mollohan. Well, that is a long time----
    Mr. Lappin. It is.
    Mr. Mollohan [continuing]. Given at least some of the 
concerns we are hearing.
    The 2010 request, will it allow you to increase staffing 
levels?
    Mr. Lappin. We do not know for sure yet because we only 
have the overall number. We do not know specifically how that 
is split up. So, I think it is a little early for me to----
    Mr. Mollohan. I guess the question is, you hope so?
    Mr. Lappin. We hope so, yes, sir.
    Mr. Mollohan. Okay. So you cannot speak to whether the 2010 
budget will allow you to ensure that all mission critical posts 
are filled for the same reason?
    Mr. Lappin. Yes.
    Mr. Mollohan. I am not answering your question. Is that 
correct?
    Mr. Lappin. Until we get a better sense of what exactly is 
included in our----
    Mr. Mollohan. You do not know whether----
    Mr. Lappin [continuing]. Six billion, we do not know what 
all that includes.
    Mr. Mollohan. All right. Unless I can get back to these 
activation questions a little later, I will submit them for the 
record.
    Prison violence, that is of great concern to everybody. 
Directed at both prisoners and staff, it continues to be a 
serious problem at the Bureau of Prisons that is directly 
related to staffing levels and overcrowding, and the BOP has 
done an evaluation to make that clear.
    What statistics can you provide on the incidence of 
prisoner-on-prisoner assaults and prisoner-on-staff assaults 
over the last several fiscal years and to date for fiscal year 
2009?
    Mr. Lappin. I do not have them with me, but we can provide 
you----
    Mr. Mollohan. Would you provide those for the record, 
please?
    Mr. Lappin [continuing]. The rate of assaults on staff and 
inmates.
    [The information follows:]

Provide Statistics That Show the Incidence of Prisoner-on-Prisoner and 
Prisoner-on-Staff Assaults Over the Last Several Fiscal Years to Date. 
               Are There Increases? If So, in What Areas?

    The BOP has been able to prevent notable increases in the rate of 
serious assaults through many resource-intensive interventions, such as 
paying overtime to increase the number of custody staff available to 
perform security duties, locking down an institution after a serious 
incident and performing intensive interviews to identify perpetrators 
and causal factors, and performing comprehensive searches to eliminate 
weapons and other dangerous contraband.
    In order to assess the relative safety of BOP institutions today as 
compared to earlier points in time (when there were fewer inmates), it 
is most useful to evaluate the adjudicated rate of assaults per 5,000 
inmates (which controls for the increase in the population). The 
attached graphs depict the rate of serious assaults by inmates on other 
inmates and on staff over approximately the last 4 years. The data 
shows a relatively even ebb and flow of inmate assaults and no 
indication of an increase in the rates.

[GRAPHIC] [TIFF OMITTED] T1247A.034

[GRAPHIC] [TIFF OMITTED] T1247A.035

[GRAPHIC] [TIFF OMITTED] T1247A.036

[GRAPHIC] [TIFF OMITTED] T1247A.037

[GRAPHIC] [TIFF OMITTED] T1247A.038

[GRAPHIC] [TIFF OMITTED] T1247A.039

[GRAPHIC] [TIFF OMITTED] T1247A.040

[GRAPHIC] [TIFF OMITTED] T1247A.041

[GRAPHIC] [TIFF OMITTED] T1247A.042

[GRAPHIC] [TIFF OMITTED] T1247A.043

[GRAPHIC] [TIFF OMITTED] T1247A.044

[GRAPHIC] [TIFF OMITTED] T1247A.045

    Mr. Mollohan. Okay.
    Mr. Lappin. And any indication of increases and what areas.

                       CORRECTIONAL OFFICER DEATH

    Mr. Mollohan. If you submit that for the record, I would 
appreciate it.
    Last June, as you know, a correctional officer was murdered 
by two prisoners at the U.S. Penitentiary at Atwater in 
California. The officer who was murdered, Jose Rivera, was 
working alone at the time as he was stabbed by two inmates.
    After such an incident, was an evaluation conducted to 
determine whether staffing policies needed to be revised?
    Mr. Lappin. We did. And we did add some posts at 
penitentiaries.
    Mr. Mollohan. You did what?
    Mr. Lappin. We did do an assessment.
    Mr. Mollohan. Yes.
    Mr. Lappin. Not only because of that, but because of some 
other incidents that were occurring, especially in our high 
security institutions.
    Mr. Mollohan. Did you have a specific revision of policies 
as a result of that?
    Mr. Lappin. We added some posts at all the penitentiaries. 
We can provide you what we added. Was it enough? I personally 
do not think it is enough. I mean, but realize if you just add 
an employee to every housing unit in the Bureau of Prisons, 
that is a huge increase when you consider how many housing 
units there are. So----
    [The information follows:]

Number of Additional Posts Added at BOP High Security Institutions Over 
                             the Past Year

    High security institutions were authorized two additional staff (or 
use of existing resources where appropriate) for evening watch (daily) 
and day watch shifts on weekends and federal holidays. The staff 
working these posts will function as rovers to provide assistance to 
housing unit staff. Therefore, two additional evening positions were 
incorporated into the roster as well as two positions on the weekends 
and holidays.
    Additionally, an extra Special Housing Unit Lieutenant was 
authorized at high security facilities, and one Special Investigative 
Supervisor (SIS) technician at all secure facilities, if appropriate.

    Mr. Mollohan. How many housing units are there?
    Mr. Lappin. I would have to add them up for you.
    Mr. Mollohan. Well, just an----
    Mr. Lappin. We are talking hundreds of millions of dollars 
just to put another officer in every housing unit and----
    Mr. Mollohan. Is that necessary in order to----
    Mr. Lappin. Not at all security levels.
    Mr. Mollohan. Would that be necessary to be responsive to 
the conclusions of your evaluation after this stabbing?
    Mr. Lappin. You know, I would love to have another officer, 
especially in the housing units. However, let us be realistic 
here. Most of those housing units have 150 to 200 inmates. For 
staffing, there are two people in there. If some inmates wants 
to do something and they can plan the time, the place, and the 
method, all it takes is two diversions, or one diversion, and 
now you have one or two staff focused on something over here 
and something else is occurring in that same housing unit 
elsewhere.
    So let us be realistic here. I mean, inmates outnumber us 
significantly.
    Mr. Mollohan. Okay. Your testimony is you would like to 
have additional staffing?
    Mr. Lappin. Sure.
    Mr. Mollohan. And hopefully we are getting that in your 
request and----
    Mr. Lappin. But I think we could address some of that with 
that 3,000 increase. That is what I would recommend, sir, is if 
we would take that course of action, then if we look at the 
indicators. Let us then look at assault rates; let us look at 
serious incidents; let us look at lockdowns; let us look at the 
number of homicides; let us look at the number of how long our 
waiting lists are----
    Mr. Mollohan. Well, let us look at it----
    Mr. Lappin [continuing]. All types of issues.
    Mr. Mollohan. Let us look at it more generally. What 
policies have you instituted as a result of these incidents of 
violence to minimize the chances of such assaults?
    Mr. Lappin. At our high security institutions, we have 
increased the number of posts in all the penitentiaries. We 
have asked wardens consistently across the board to manage 
those inmates in small groups. Do not put all of them in the 
recreation yard at once. Do not put them all in food service at 
the same time, or large numbers of them. So we are doing a 
better job of controlling how many inmates are in a given area 
at a time.
    We have asked them to put in place more restrictive 
controlled movement. These high security institutions all 
operate on controlled movement. That is, when you say they can 
move, certain inmates can move to certain locations while 
others stay in place. That way, there are not as many inmates 
out in a common area at one time. So, we have asked them to 
make adjustments of that nature.
    I think one of the major issues is the one I mentioned 
earlier about the creation of these special management units 
(SMU). We are going to remove more violent offenders from other 
institutions and then manage them in an even more controlled, 
structured environment.
    Once that happens, I think we are really going to be able 
to see the effect, of both what we have done at those 
institutions in the way of management, as well as the removal 
of more aggressive, violent inmates from those general 
populations to SMU facilities in the hopes that we will see a 
decline or leveling off of assaults in those facilities.

                            STAFFING ISSUES

    Mr. Mollohan. Well, give us a general statement. Are these 
incidents of violence increasing as you have testified against 
staff? Is there an increase of violence against staff?
    Mr. Lappin. When you get our rates, I think you are going 
to find that you are not going to see a huge increase against 
staff. The increase we are seeing is inmate on inmate. But what 
we are seeing are more serious types of attacks too. I mean, we 
have seen an increase in the number of homicides.
    Mr. Mollohan. So what is the primary cause? Give us some 
sort of an idea of why this is happening and what do you think 
should be done to curtail it.
    Mr. Lappin. I think a big part has to do with the inmates, 
the types of offenders and their willingness not to comply, 
which is unusual in comparison to years past. Typically in 
years past----
    Mr. Mollohan. Okay. But you have to be responsive to that.
    Mr. Lappin. Absolutely.
    Mr. Mollohan. So what is not allowing you to be responsive 
to that?
    Mr. Lappin. Well, I am not sure.
    Mr. Mollohan. Staffing levels, not enough staff.
    Mr. Lappin. Certainly. More staff to address----
    Mr. Mollohan. Doing away with Prison Industries.
    Mr. Lappin. More staff to address those issues more quickly 
would be helpful, to respond faster to those incidents, to 
identify those inmates before they begin acting in that manner. 
All of those things are related to the number of staff you have 
assessing and managing those types of situations.
    Mr. Mollohan. What about the programmatics? For example, 
Mr. Wolf's questioning about Prison Industries or education or 
training opportunities. How do all the programmatics of the 
institution affect this violence?
    Mr. Lappin. Well, crowding in general affects all of those 
issues because the more inmates you have in a facility above 
what it was intended to house complicates your ability to 
provide work, education, or vocational training.
    As simply as I can put it, this formula is not a formula 
for success. More inmates and inmates with a more violent, 
aggressive history, and less to do, and fewer staff does not 
equal success. So, all of those variables. You know, we have 
got more inmates who are more challenging, and fewer staff.

                         PRISONS COMING ON LINE

    Mr. Mollohan. How are we addressing that in the Bureau of 
Prisons? You have a number of prisons coming on line here, 
three or four between now and----
    Mr. Lappin. We are opening one right now, Pollock.
    Mr. Mollohan [continuing]. Between now and 2010 or 2013, in 
that period. Don't you have three facilities coming on line?
    Mr. Lappin. Let us see. It's four. Pollock we are opening 
now, also Mendota, California, McDowell County, West Virginia, 
and Berlin, New Hampshire. So----
    Mr. Mollohan. How do you think those prisons will impact 
your overcrowding issue?
    Mr. Lappin. We can provide you what I think are, depending 
on how many inmates we have, our growth----
    Mr. Mollohan. Provide us that analysis for the record.
    Mr. Lappin. Yes. We anticipate adding about 4,500 inmates a 
year each of the next three years.
    Mr. Mollohan. And what we would like to know for the record 
is, what shape does that put you in after those prisons are 
completed and then what is the housing need subsequent.
    Mr. Lappin. We will provide that to you. But I can tell you 
now, if we are adding 4,500 inmates a year and we are only 
adding 6,000 beds, my guess is you are going to see a crowding 
increase of----
    [The information follows:]

                       Crowding FY 2009--FY 2013

Projected crowding is as follows:


----------------------------------------------------------------------------------------------------------------
             FY 2009                    FY 2010             FY 2011             FY 2012             FY 2013
Males                             Males.............  Males.............  Males.............  Males
----------------------------------------------------------------------------------------------------------------
High 54%                          High 58%            Males 51%           Males 55%           High 58%
Medium 55%                        Medium 51%          Medium 53%          Medium 54%          Medium 53%
Secure                            Secure              Secure              Secure              Secure
Females 44%                       Females 47%         Females 50%         Females 10%         Females 13%
BOP System                        BOP System          BOP System          BOP System          BOP System
    wide 37%                          wide 38%            wide 38%            wide 38%            wide 39%
----------------------------------------------------------------------------------------------------------------
The BPO continues to need additional capacity at the rate equivalent to two medium security and two high
  security facilities annually or approximately 4,300 beds in order to reduce crowding to a more manageable
  level by the end of FY 2018.

    Mr. Mollohan. Even with the addition of these prisons?
    Mr. Lappin. I believe it will remain the same or go up a 
little bit----
    Mr. Mollohan. Okay.
    Mr. Lappin [continuing]. Because, we are adding over 12,000 
inmates and we are only adding under 6,000 beds. So, we are 
going to squeeze another 6,000 inmates into the existing beds. 
So, we will provide our projection to you in writing.
    Mr. Mollohan. Mr. Fattah.
    Mr. Fattah. The three new prisons that are coming along, 
the average cost per cell?
    Mr. Lappin. Average cost per cell? I think I have that 
here. If not, I think it is about $150,000.
    Mr. Fattah. And the average cost per year per inmate across 
systemwide?
    Mr. Lappin. Average cost per year is $25,000 to $26,000 a 
year for cost of incarceration on average.
    Mr. Fattah. The increase in the number of female women 
prisoners----
    Mr. Lappin. We currently have----
    Mr. Fattah [continuing]. Over the last couple fiscal years?
    Mr. Lappin. I do not have the prior fiscal years. We have 
seen an increase. Today we have 6.6 percent of our inmates, or 
13,393 that are female. And we have seen an increase in the 
percentage of females over the last three or four years. We 
will get that and provide it to you.
    Mr. Fattah. I mean, is it a significant increase? Is it----
    Mr. Kane. It is the same as now.
    Mr. Lappin. Which is what, Tom?
    Mr. Kane. The rate of increase for women is about the same 
as now.
    Mr. Lappin. About the same rate. I do not know how many 
that is a year.
    Mr. Kane. About three percent.
    Mr. Lappin. An increase of about three percent, but we will 
put it in writing so you will get an accurate figure.
    [The information follows:]

  Provide Statistics on the Increase in Female Inmates Over the Last 
                          Three or Four Years

    FY 2006 increase of 196 inmates.
    FY 2007 increase of 558 inmates.
    FY 2008 decrease of 97 inmates.
    FY 2009 decrease of 286 through February 28, 2009.

    Mr. Fattah. And you have 200 plus thousand inmates?
    Mr. Lappin. Two hundred and two thousand.
    Mr. Fattah. And not to be overcrowded, you would have to 
have 160,000 or so, right, to deal with the Chairman's last 
question?

                             CAPACITY RATE

    Mr. Lappin. Let me help you with that one, because this is 
the confusing part and I do not want to confuse folks.
    There is a rated capacity and that is kind of ``how many 
can you actually hold and do it realistically.'' Our target, 
our goal is to be 15 percent to 17 percent over our--I am 
sorry--15 percent over our rated capacity.
    Mr. Fattah. Your rated capacity is?
    Mr. Lappin. Our rated capacity is probably about 130,000 
inmates.
    Mr. Fattah. Hundred and thirty thousand.
    Mr. Lappin. But we believe we can safely run these prisons, 
successfully run these prisons at about 15 percent over that 
rated capacity. I am going to tell you what that means.
    That means that every cell in the Bureau of Prisons is 
double bunked with the exception of about maybe a thousand 
cells, at the high security level, which would be single 
bunked. And given the nature of those inmates, we believe it is 
wise to have cells at that level to use for single bunking 
inmates.
    So, we are currently at about 35 percent over rated 
capacity.
    Mr. Fattah. Okay. So you would have to be adding new 
facilities at a significant rate to get to where you want to 
get to?
    Mr. Lappin. Or the other option is to reevaluate--``Do all 
those folks need to be in here?''
    Mr. Fattah. Decide differently about who needs to be in 
jail.
    Mr. Lappin. And for how long? That is another question to 
consider.
    Mr. Fattah. My last question. What percentage of these 
inmates across systemwide are violent versus nonviolent 
offenders?
    Mr. Lappin. It varies depending on how you define violent.
    Mr. Fattah. How the system defines it.
    Mr. Lappin. Yes. I will get the number for you. We will get 
it to you so we make sure we have the right number. I will get 
it for the record.
    [The information follows:]

 What Percentage of Inmates System-Wide Are Violent Versus Non-Violent?

    In March 2009, there were 104,642 violent offenders in BOP custody, 
or 53.2 percent of the total population of 196,547 inmates for which 
data is available.

    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lappin. You are welcome.
    Mr. Mollohan. Mr. Wolf.

                          FAITH-BASED PROGRAMS

    Mr. Wolf. Thank you, Mr. Chairman.
    Can you tell me a little bit about the faith-based program? 
I spoke to a person that was in Petersburg and they asked about 
the faith-based program. They never heard that there was one. 
And I understand that is a place where there used to be one or 
is one. Can you tell us how successful they are and what the 
status of them?
    Mr. Lappin. Yes, I can.
    Mr. Wolf. And how many people participate.
    Mr. Lappin. Let me find my notes here.
    We currently have five of what we call Life Connections 
programs, which is a residential-based program. They live 
together in a housing unit. It is staffed with a variety of 
staff of varying backgrounds, in addition to contractors who 
provide not only faith-based programming but other skills 
building initiatives.
    Mr. Wolf. And how many people participate?
    Mr. Lappin. We have had 994 people graduate.
    Mr. Wolf. And what is the recidivism rate of people that 
are out? Are you finding a difference?
    Mr. Lappin. It is a little too early to tell. It is kind of 
like----
    Mr. Wolf. What does the earliest things tell you though?
    Mr. Lappin. It takes a little time to----
    Mr. Wolf. Well, if it takes the earliest different, but 
what are you finding out? What are you----
    Mr. Lappin. Well, this we know for sure----
    Mr. Wolf. What does your gut tell you?
    Mr. Lappin [continuing]. They are better behaved in prison. 
So when they are in this program in prison, we see less 
disruption, less violence from those folks. It will be a few 
years before we get real recidivism results on this group.
    We have had 72 returned to incarceration of the 509 who 
have been released. Four hundred and seventy-one are still in 
our custody. We have had 72 return so far. But that is not yet 
a reflection on recidivism since it is too early to tell 
because we have not had the program long enough. But let me 
tell you we are encouraged by it.
    We have a number of residential programs that are skills 
based, that are cognitive behavior based. This one is faith 
based. We tend to find that inmates who participate in these 
programs, because along with faith-based initiatives, they are 
getting GEDs, they are getting vocational certificates, they 
are working on other skills that they lack, we see them being 
more successful.
    So, our assumption is, even though we do not have the 
research to support it, is we are going to see success here. 
But it will be a couple of years more before we can say this is 
the actual recidivism rate like we can for other programs. It 
is just a little too early for us to be able to do that.
    Mr. Wolf. Is there one at Petersburg?
    Mr. Lappin. There is one at Petersburg.
    Mr. Wolf. This fellow could not even find it at Petersburg.
    Mr. Lappin. I do not know who you asked.
    Mr. Wolf. Well, you know, I do not know how it is down 
there.
    Mr. Lappin. There are two facilities at Petersburg.
    Mr. Wolf. Yeah.
    Mr. Lappin. So some employees may work at the facility 
where this program does not exist, may not----
    Mr. Wolf. What is the backlog waiting to come in throughout 
the system?
    Mr. Lappin. I think we have got about 150 inmates awaiting 
placement.
    Mr. Wolf. And does each prisoner that comes in the prison 
system know that there is a faith-based program?
    Mr. Lappin. During the A&O Program, during admissions and 
orientation, they are informed of all the programs we have, one 
of which is Life Connections.
    Mr. Wolf. Okay. Well, just to make a comment, you know, I 
think it is great the Chairman is having these hearings. Maybe 
we ought to have a couple prisoners to testify also. I think it 
would be helpful to have a prisoner that is in the faith-based 
program and some other prisoners to kind of tell us.
    I find that the longer we go on, nothing really changes. We 
put a man away. The prisons are becoming training grounds for 
learning more crime, even the federal prisons. We do not give a 
man work. We do not meet their faith concerns.
    I met with a group of prisoners as I left a hearing 
yesterday that last week you had. They were a group that came 
in to see me from Chicago to tell me that is the only thing 
that made a difference in their life and then we expect these 
guys to come out and go straight. I just do not think it is 
possible.
    And I am going to offer this to see if we can--work is 
dignity. Without work, you just cannot make it. The labor 
unions will probably oppose this. Other groups will probably 
oppose this, but I think it is cruel and inhumane to put a man 
away for 15 years and not give him something to get up in the 
morning and go to and work whereby they can, one, put some 
money aside, whereby you could pay a minimum wage, whereby they 
can have some money when they leave; two, some form of 
restitution that they can pay back; and, three, send their 
family something. That is dignity.
    And so, you know, I think if we do not change these things, 
the next Bureau of Prisons Director will be testifying here in 
ten years, it will be a different set of players, and the 
conditions will be the same. And the only thing will be your 
numbers will have increased. So thank you.
    Mr. Lappin. Just so you know, there are jobs beyond Prison 
Industries. And most inmates do have a job. But, again, 
impacted by the number of inmates in each facility. So, the 
more inmates you have above what it can normally house, the 
more difficult it is for us to find those productive work 
assignments.
    Mr. Wolf. But I have been in where they tell me their jobs 
are ridiculous. They say they are picking up butts or they are 
just walking or they are doing nothing.
    Mr. Lappin. We are keeping them busy.
    Mr. Wolf. Thank you.
    Mr. Mollohan. Thank you.
    Mr. Serrano.

                           IMMIGRATION ISSUES

    Mr. Serrano. Mr. Chairman, let me just add something to Mr. 
Wolf's comments.
    Mr. Wolf has a reputation, as you well know, for being 
very, very strong on the issue of human rights throughout the 
world. And he is known as a conservative in the House but one 
with a real belief in respecting people.
    And his comments just now are just right on the mark and 
they bring an additional thought, which we brought up before. 
Because we have so many people that are being detained or 
incarcerated for immigration violations, we have now a 
situation, in addition to the immigration issue we have at hand 
that we have not resolved, where, in fact, we are putting 
people in prison who on the outside were ``illegally working in 
a restaurant,'' but now are in prison learning nothing. Nothing 
compared to what they were doing when they were working in the 
restaurant without proper documentation. And so, since we do 
not seem to resolve this immigration problem we are going to 
run now into yet another generation of people who were 
incarcerated and learned bad things while they were in prison, 
who when they were out here allegedly breaking the law for 
being in the country illegally were not creating a problem for 
society. But when they come out of there you do not know what 
kind of problem they will create for society.
    All that to say that at the top of our agenda has to be 
that we have got to determine what to do with this immigration 
issue. And then immediately after that talk to some countries 
on both borders to see how we can help people stay home. You 
know, deal with the ones that are here, and then people stay 
home.
    Now talking about people in homes, and this is not, I just 
thought of this. My next question is this whole issue that I 
have been dealing with for years as to how the census within 
the prison population is taken in terms of where they live and 
where they are now. And this has been a big issue for a while. 
In fact, some years ago through the good graces of the Chairman 
we asked for, we put language in the bill asking the Census 
Bureau to tell us why they could not count folks with their 
home address when they were incarcerated. And they said it was 
too expensive to do that. Of all the issues I deal with I find 
this one to be a difficult one to me to understand why that 
cannot be done. Why, when a person comes to you, you do not 
know that they came from Waukegan, Illinois, or from the Bronx, 
New York. And, you know I always pick on Waukegan, Illinois. I 
do not know why. Jack Benny was born there, I guess that is the 
reason. But I am from the Bronx, New York.
    So, you know, we do not seem to know that. We do not know 
it at the state level, although we are dealing here with 
federal prison, we do not know it at the federal prison. And 
what happens is, here is the issue. When the allocating of 
monies go to communities, as you know, some prison communities, 
for just having the building there, are getting extra dollars. 
However, eventually that incarcerated person will go back to a 
community that did not get any dollars because he was missing 
from that point. Yet in all other parts of society you have 
different situations. You have people in the military, those 
that do pay certain taxes that are not exempt, paying taxes 
back home to their state. You have members of Congress spending 
five days a week here, sometimes, still paying state tax back 
home. Yet the prison population is handled totally different.
    Mr. Lappin. I do not know the answer to that. I can tell 
you, we know where most inmates live. So if anybody is telling 
you we do not know where they live, that is not the case. I 
mean, for most inmates we know where they live. It is 
documented on their presentencing report (PSR). Now, that may 
not be--they may not say that is where they are going to 
return. That gets a little more complicated.
    Mr. Serrano. Right.
    Mr. Lappin. Because they may have been arrested in one 
location. And it may say that their home is this. But they may 
tell you, ``But when I leave prison, here is where I want to 
go.'' That gets a little complicated. But without a doubt, if 
somebody says, ``What is your last known residence?'' We know 
that on most inmates. It is documented right in their PSR. We 
have a PSR on probably 100 percent of the people that we have 
in federal prison. So the next step is, well, how does that 
comport with where you intend to go? Because sometimes that can 
change. But for most inmates we can identify where they are 
from. And for many of those inmates, they are going to return 
to the same community they came from. So, I am not sure how to 
solve the other issue.
    Mr. Serrano. Well, the Census Bureau claimed that they 
would have such a difficult time finding out where these people 
are from. I am not asking you to knock the Census Bureau.
    Mr. Lappin. I will not. I would not do that.
    Mr. Serrano. We do not allow people to knock agencies in 
the same Committee.
    Mr. Lappin. No. They do a great job.
    Mr. Serrano. But I guess, if you know where they are from--
--
    Mr. Lappin. We would be more than happy to work with them 
and see what we could do to assist them if that is what needs 
to be done.
    Mr. Serrano. Well, that is a great statement. Because that 
is a big issue, Mr. Chairman. And I thank you.
    Mr. Mollohan. Thank you, Mr. Serrano. Mr. Director, 
implementation of The Second Chance Act. I take it from your 
testimony up to this point that you are really just starting to 
get into it?
    Mr. Lappin. We are really starting to get into the part 
that costs money. Because the lead up to this was a lot of 
assessment, creation of the assessment forms, and a system, an 
electronic system that would allow us to gather that 
information and then share that information.
    Mr. Mollohan. Mm-hmm.
    Mr. Lappin. So there has been a lot of work that has led up 
to this. But now, the implementation part, where we bring the 
inmates in and we actually do the work, we are just getting 
starting on that.
    Mr. Mollohan. Do you feel prepared for that, if you get the 
funding?
    Mr. Lappin. Yes, I do.
    Mr. Mollohan. What about staffing levels? What are your 
needs with regard to staffing levels, from A to Z, and to fully 
implement The Second Chance Act.
    Mr. Lappin. We will have to add some staff at some 
locations. And my guess is, I do not know exactly what the----
    Mr. Mollohan. I would think you would have to add a lot of 
staff at a lot of locations.
    Mr. Lappin. And I am sure a portion of this 3,000 would 
address some of those issues.
    Mr. Mollohan. Will you for the record give us an assessment 
of that?
    Mr. Lappin. Yes.
    Mr. Mollohan. Total implementation.
    Mr. Lappin. Okay.
    Mr. Mollohan. Your budget justification for 2009 indicated 
that the Bureau of Prisons was changing its reentry model to 
better prepare inmates for release back into their communities, 
independent of The Second Chance Act, arguably. Last year 
Congress passed a Second Chance Act that imposed a number of 
new requirements on the Bureau of Prisons related to prisoner 
reentry activities. How do the Second Chance Act requirements 
fit into what you are already doing for prisoner reentry, 
including your vocational training, your education, your drug 
treatment programs, and anything else?
    Mr. Lappin. In many ways it is going to marry up quite 
nicely. Again, a lot of credit to the folks who wrote it and 
worked with our staff who were doing that.
    Mr. Mollohan. Right. Let us get to how are you----
    Mr. Lappin. But there are some program areas where we do 
not have a lot of experience. I mean, we have not had a lot 
of--let us take wellness initiatives. I know this sounds, some 
people will be critical of this, but leisure time activities. 
Now, the reason that is in the assessment is, a structured way 
of doing that, is because probation staff said, ``Here is our 
dilemma. Oftentimes we get them out there. We can find them a 
place to live and they can get a job.'' Let us assume that. 
Their failure, more often than not, is because they do not know 
how to manage their leisure time. They have never been taught 
what you do constructively with leisure time.
    Mr. Mollohan. Okay.
    Mr. Lappin. Whether it is go to church? So, there are some 
of these areas where we are going to have to add programs. We 
will build that into our estimate.
    Mr. Mollohan. Well, let me tell you. This Subcommittee is 
going to be very interested in working with you with regard to 
implementation of The Second Chance Act. I think that that is a 
very good starting point for reentry and hopefully dealing in a 
positive, progressive way with these recidivism issues. And so 
we want to work with you. We hope that your 2010 budget request 
addresses the resource needs for full implementation of The 
Second Chance Act. And we are really looking forward, with 
anticipation, to that budget request.
    Mr. Lappin. I look forward to that. Let me mention one 
other area that is a challenge for us, and I am not sure we can 
solve this. But it is an issue. We have too many communities 
around this country that say, ``No, I do not want the offender 
back.'' To the point they will not let us put community 
corrections centers, halfway houses, in those communities. So, 
I can give you any number of locations where the inmate is 
going to X location but we have to put him in a halfway house 
120, 150, 200 miles away. And this is a struggle for us.
    In fact, the contractors sometimes have to take them to 
court to force the zoning to allow that. We have a problem 
right here in Northern Virginia.
    Mr. Mollohan. Well, I am sure you are going to have a lot 
of challenges.
    Mr. Lappin. So, that is an area that is critical to reentry 
that I just want to make you all aware of in case there is 
something that we can think of to help encourage communities to 
take responsibility for inmates who are coming back.
    Mr. Mollohan. We are going to have some witnesses that are 
actually engaged in that activity later on in the week.
    Mr. Lappin. Good.

                           SECOND CHANCE ACT

    Mr. Mollohan. So we will look forward to addressing that 
issue with them. But obviously you are just going to have to 
work that as best you can. I mean, I am very familiar with that 
challenge.
    Indeed, will The Second Chance Act significantly change the 
way the Bureau of Prisons does prisoner reentry?
    Mr. Lappin. Not significantly. Because, again, they adopted 
in this law many of the things we were doing before. There are 
going to be some adjustments, there are going to be some 
changes, and there will be some enhancements.
    Mr. Mollohan. A lot of your recommendations were included 
in The Second Chance Act?
    Mr. Lappin. They were.
    Mr. Mollohan. So your biggest challenge is going to be the 
resources?
    Mr. Lappin. That is correct.
    Mr. Mollohan. Okay. Well, our biggest challenge is going to 
be funding it to get you those resources. And what is really 
helpful for us will be if that request includes Second Chance 
Act implementation funding. So we are going to, in the first 
instance, rely on you to advocate really aggressively for that 
to be included in the budget request, and then you can rely on 
us to do our best to try and fund it. And we will try to do our 
best to the extent it is not included in the budget request.
    Mr. Lappin. Thank you.
    Mr. Mollohan. What level of resources would it take to 
enable you to fully implement the Bureau of Prisons sections of 
the Second Chance Law?
    Mr. Lappin. Again, I will have to go back and do a 
calculation to be specific.
    Mr. Mollohan. Okay. Will you----
    Mr. Lappin. I will get that to you.
    [The information follows:]

  Resources Needed To Implement BOP's Section of the Second Chance Act

    Approximately $80 million is needed to implement the BOP's 
responsibilities under the Second Chance Act (of this amount $14 
million is included in FY 2010 budget request to fund the inmate skills 
development initiative). The total required funding of $80 million is 
for residential reentry centers and other inmate programs like inmate 
skills development, sex offender management, and the life connections 
program.

    Mr. Mollohan. Will you give us that for the record? And 
then when we see you next time we will talk a little bit about 
how you struggled with the OMB in order to get your request and 
recommendations approved? We hope you are successful with that.
    I have a question about the relationship between staffing 
requirements, which we are impressed is a struggle for you, and 
the realistic chances of successful implementation of the 
Second Chance Act. What is that relationship? And between your 
staffing needs and shortfalls, and a realistic chance of 
successfully implementing the Second Chance Act's requirements?
    Mr. Lappin. We are going to have a challenge at the current 
staffing levels. Because currently we are not providing every 
inmate the programming and treatment that they need. I am 
talking about just the willing inmates. I mean, that is 
reflected in our inability to get everybody through drug 
treatment.
    Mr. Mollohan. And you have testified that you want 3,000 
additional staff in the next year.
    Mr. Lappin. In a perfect world that is what I would like to 
have. I have a lot of wishes out there.
    Mr. Mollohan. Are you including staff that would be needed 
to successfully implement Second Chance in that 3,000?
    Mr. Lappin. I believe so. There would be some of those 
staff that would work, again----
    Mr. Mollohan. No, no. I am saying, are those 3,000, do they 
include the Second Chance Act implementation personnel?
    Mr. Lappin. I do not know.
    Mr. Mollohan. Okay.
    Mr. Lappin. I will check.
    Mr. Mollohan. Would you submit that for the record, please?
    Mr. Lappin. Yes.
    [The information follows:]

  Do the 3,000 Positions Targeted To Fill Over the Next Two to Three 
          Years Include Staffing for the ``Second Chance Act''

    The additional 3,000 positions that we have targeted to fill are 
primarily to address continued inmate crowding and to ensure continued 
safety and security at all BOP facilities (primarily the hiring of 
additional correctional services staff to maintain adequate inmate to 
staff ratios), with some increases in services and programming staff 
(food service, facilities, psychology, education, etc.).
    Additional positions will be included in the 2010 BOP Budget 
Request to expand the BOP Inmate Skills Development Program as it 
relates to the Second Chance Act.

    Mr. Mollohan. Thank you, Director. Community confinement. 
The Second Chance Act clarified that the Bureau of Prisons 
could place a prisoner in community confinement, including a 
residential reentry center, an RRC. It has also directed the 
Bureau of Prisons to issue regulations to ensure that 
preparation for their release is of sufficient duration to 
provide the greatest likelihood of successful reintegration 
into the community. And you have published interim rules or 
proposed rules with regard to fulfilling that requirement?
    Mr. Lappin. I think they are proposed rules. We will have 
to, I will find out. I know rules have been published. I 
believe, we are--they are still in the interim. So, we will 
give you an assessment of where we are on the publishing of 
those rules applicable to that aspect of The Second Chance Act. 
But I know----
    [The information follows:]

  What Is the Status of the Rules Publishing Concerning the ``Second 
   Chance Act?'' Are They Proposed, Published, Interim or in Effect?

    The BOP published an Interim Rule entitled ``Pre-Release Community 
Confinement'' in the Federal Register on October 21, 2008. A large 
number of comments were received during the public comment period, 
which ended on December 22, 2008. The Interim Rule was made effective 
and was applicable as of the date of publication, October 21, 2008.
    The BOP published a Proposed Rule entitled ``Religious Beliefs and 
Practices: Chapel Library Material'' in the Federal Register on January 
16, 2009. A number of public comments were received during the comment 
period, which ended on March 17, 2009. The BOP will consider those 
comments received during the comment period before developing a Final 
Rule document. Currently, the rule is in proposed form only and is not 
yet effective or applicable.

    Mr. Mollohan. Are they, even though they are interim, if 
that is the right characterization, does that mean that they 
are in effect?
    Mr. Lappin. Well, we are considering inmates for more than 
six months. So in a word, yes. We are considering inmates for 
up to twelve months even though the rules are not finalized.
    Mr. Mollohan. Okay.
    Mr. Lappin. We are currently doing that.
    Mr. Mollohan. Are they defining how you are using the 
residential reentry centers right now? If you do not know the 
answer to that then you can submit it for the record.
    Mr. Lappin. Yes, I would have to check to see exactly what 
is in there. But it is not going to be a lot different than how 
we have applied it in the past. It just gives us the authority 
to go up to twelve months. So beyond that, how one qualifies, 
what criteria we look at, pretty much stays the same. It is 
just that we can put people in an RRC for more than six months.
    [The information follows:]

 Are the Rules for ``Second Chance'' Defining How You Are Using RRC's?

    Yes. 28 C.F.R. 570.20 defines community confinement (i.e., 
residence in a halfway house, participation in employment or employment 
seeking activities, etc.). 28 C.F.R. 570.21 provides that inmates may 
be designated to pre-release community confinement ``during the final 
months of the inmate's term of imprisonment, not to exceed twelve 
months.'' 28 C.F.R. 570.22 provides that in considering inmates for 
such placement, staff shall consider 1) the resources of the facility 
being considered (i.e., a Residential Reentry Center); 2) the nature 
and circumstances of the inmate's offense; 3) the history and 
characteristics of the prisoner; 4) any statements or recommendation by 
the sentencing court; and 5) any pertinent policies issued by the U.S. 
Sentencing Commission. The regulation provides that all such decisions 
are to be made on an individualized basis; i.e., there are no 
categorical limitations. Finally, the regulation provides that all such 
decisions are to be made to provide the greatest likelihood of 
successful reintegration into the community.

    Mr. Mollohan. Okay. I have a series of questions here that 
relate to that, and I think probably the better thing to do 
would be to submit them for the record. Let me try one.
    Mr. Lappin. Okay.
    Mr. Mollohan. In terms of reducing recidivism, what is the 
ideal amount of time a reentered offender should spend in an 
RRC?
    Mr. Lappin. It will vary by offender, by how long they have 
been in prison, what their background is, what type of 
resources they have. So, it is hard to say what specific number 
is right for every inmate. We have an average. We can provide 
that. But it is really done on a case by case basis, applicable 
to each offender with their unique background, their 
characteristics, their resources. Obviously, an inmate who has 
only served six, eight months in prison is not going to have 
the resource needs of somebody that has been in prison ten, 
fifteen years. And so all those things are taken into 
consideration. So, I cannot say there is a specific number. It 
is going to vary by offender.
    [The information follows:]

 Ideal Amount of Time on Average a Re-Entered Offender Should Spend in 
                  an Residential Re-entry Center (RRC)

    In terms of reducing recidivism, we are unaware of any research 
that attempts to define an ``ideal'' amount of time an inmate should 
spend in an RRC. We do know that in-prison programs such as education, 
vocational training, and cognitive behavior treatment programs reduce 
recidivism. Therefore, we believe the amount of time an inmate spends 
in an RRC should be based on an individualized assessment that 
considers many factors, including the inmate's level of risk, reentry 
needs, in-prison conduct and programming, and BOP's resources.

                             DRUG ADDICTION

    Mr. Mollohan. How does drug addiction factor into your 
preparation for release? And the conditions of the release 
during a period of probation or oversight?
    Mr. Lappin. Overcoming the challenges of addiction is a 
huge, huge challenge for folks, in general, let alone 
offenders. That is why we have built into our contracts an 
expectation that all of our halfway houses have transition 
services for drug and alcohol addicted individuals. So, as part 
of the plan, if they have gone through the residential drug 
treatment program, the residential program, there is going to 
be a transition plan for those folks. Now, some inmates have 
issues with drug and alcohol but may not fall into the addicted 
category. There are still services available for those folks in 
those halfway houses if they desire to have them.
    So, the plan is for transition to occur from prison into 
the community, and then hand it off to probation. That is the 
beauty, I think, of what we have put together in the Inmate 
Skills Development Program, in that the probation officer will 
have all of that information now, unlike previously, which is 
going to be a huge advantage to them. But the issue is 
addressing those day to day needs, you know. Inmates, they are 
going to slip. People slip when they are trying to recover. And 
we----
    Mr. Mollohan. Indeed they will. Let me ask you, in 
incarceration, what is your program for addiction?
    Mr. Lappin. It is a cognitive behavior based program.
    Mr. Mollohan. A twelve-step program?
    Mr. Lappin. It is similar to that, that deals a lot with 
relapse prevention, making good decisions. So, it is a lot of 
prosocial value issues that are addressed, both in decision 
making, taking responsibility----
    Mr. Mollohan. For how long a duration is that program?
    Mr. Lappin. Nine months.
    Mr. Mollohan. Can any inmate who wants to get into that 
program readily do so?
    Mr. Lappin. You must meet certain criteria. We just do not 
put anybody in because they say, ``Well, I am addicted.'' There 
has got to be some basis for that.
    Mr. Mollohan. Mm-hmm.
    Mr. Lappin. Unfortunately, we have had waiting lists that 
exceed our capacity. So, we have had in the last two years 
inmates who have volunteered, who we agree are having addiction 
issues, who have not been able to get through. That had not 
been the case until the past two years.
    Mr. Mollohan. What is your waiting list to get into that 
program?
    Mr. Lappin. The waiting list I think is probably around 
7,000.
    Mr. Mollohan. How long does an inmate have to, if an inmate 
wants to sign up for such a program, how long does that inmate 
have to wait in order to get into the program on a typical----
    Mr. Lappin. It varies. Typically, we try to put them in the 
program in the later portion of their sentence. I mean if we 
had the, I would love to do it earlier because they continue to 
have those problems during that incarceration. But what it has 
come down to, because of the waiting list, you get moved up on 
the waiting list above other people because you are getting 
close to release, given the limited resources. So, it is 
happening towards the end of that offender's sentence. So, 
there is enough time allowed for them to get through the nine-
month program and then X number of months in a halfway house--
--
    Mr. Mollohan. Yes.
    Mr. Lappin [continuing]. X number of weeks or days on 
community confinement, and then release.
    Mr. Mollohan. What incentives are in place in order to 
induce an inmate to participate in that program?
    Mr. Lappin. Well, nonviolent offenders can get up to twelve 
months off their sentence. Violent offenders----
    Mr. Mollohan. That is quite an inducement.
    Mr. Lappin. It is. It is. But realize, of the 17,500 that 
we had in treatment last year, 40 percent were violent 
offenders and they still volunteered for the program. I think 
that is what is significant about this; 92 percent of the folks 
who we believe should receive drug treatment are volunteering 
for treatment.
    Mr. Mollohan. So assuming a prisoner does not have access 
to the substance of choice while they are in prison, you are 
dealing with addicted people who are, still have cravings.
    Mr. Lappin. We are. And there are, besides the residential 
program there is a nonresidential program. There is also 
counseling available. So beyond this----
    Mr. Mollohan. I am talking about the incarcerated.
    Mr. Lappin. Incarcerated.
    Mr. Mollohan. So what is a nonresidential program for the 
incarcerated?
    Mr. Lappin. There is the residential program where you are 
housed together in a housing unit. It is, it is kind of a 
therapeutic community.
    Mr. Mollohan. Right.
    Mr. Lappin. Well then we have other folks who do not meet 
the qualifications, or say, ``You know what? I have had some 
issues with alcohol.'' There is a nonresidential program that 
our drug treatment staff provide to that group of inmates. 
There is----
    Mr. Mollohan. I am sorry. I just do not understand 
``nonresidential.''
    Mr. Lappin. That means they are not together in a special 
housing unit for the treatment. They live in the other housing 
and they just go somewhere to get those services.
    Mr. Mollohan. Oh.
    Mr. Lappin. That is, in the institution. They will go down 
to the psychology section, or to a different area. They do not 
live in a therapeutic community.
    Mr. Mollohan. Oh. So----
    Mr. Lappin. They are just living in housing units with 
everybody else.
    Mr. Mollohan. So people who are in this program, or in a 
recovery program, a formal program, they live in a recovering 
community?
    Mr. Lappin. They live in a therapeutic community.
    Mr. Mollohan. Okay. Well, let me ask you this. We are going 
to have some testimony during this week about the use of 
medication----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. To treat----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. The craving aspect of addicted 
prisoners. Do you have a comment on that? Is that a policy that 
exists in the Bureau of Prisons? Is it a treatment that is 
being looked at for an incarcerated, prereleased inmate?
    Mr. Lappin. We are not using it right now but we are 
exploring those options. We think there could be some use for 
that for us. And we want to look at the research, we want to 
look at what is available. And so, it is something that we 
would consider.
    Mr. Mollohan. Who is looking at that?
    Mr. Lappin. Our medical staff and our drug treatment staff. 
So I have a medical staff, and public health service doctors 
and other medical staff, and our drug treatment folks are 
looking at that together.
    Mr. Mollohan. Do you have a research division in the Bureau 
of Prisons?
    Mr. Lappin. A great one.
    Mr. Mollohan. Of course it is. And are your research folks 
looking at this specific issue?
    Mr. Lappin. They looked, I do not know if you all have 
looked at the use of medication on this.
    Mr. Kane. No. I mean, the way we would work it is if we 
maybe would decide to pilot that. For example, if our medical 
and our drug treatment staff were to decide and recommended a 
pilot Program and the pilot began.
    Mr. Mollohan. Could you identify your name for the record? 
And excuse me for interrupting. I should have let you finish 
before I asked that.
    Mr. Kane. Then the research team would look at the extent 
to which that particular treatment affects the outcome for 
those individuals.
    Mr. Mollohan. Okay. Well, I would like to follow up with 
you after this hearing. Would you please identify the----
    Mr. Lappin. His name is Tom Kane. He is Assistant Director 
of Information Policy and Public Affairs.
    Mr. Mollohan. Thank you, Mr. Kane. You say that this is 
being looked at, though, at the Bureau of Prisons.
    Mr. Lappin. It is being looked at, yes.
    Mr. Mollohan. Do you know what product you are looking at?
    Mr. Lappin. I do not know for sure but I can find out.

                       Drugs To Control Cravings

    BOP inmates are detoxed upon entering a mainline institution per 
the BOP Detoxification Guidelines. Only pregnant women are maintained 
on pharmacological drugs such as methadone.
    The drugs which have been previously reviewed during the National 
BOP Formulary Meeting for inmates for drug abuse treatment include 
Naltrexone and Buprenorphine. Also, Acamprosate (brand name Campral) is 
another drug that the BOP is exploring for possible addition to the 
formulary.

    Mr. Mollohan. Okay. Well, we will follow up with regard to 
that. Do you know if any of the halfway house or the after 
release programs are using medication in the after release 
programs----
    Mr. Lappin. I am not sure.
    Mr. Mollohan [continuing]. For the craving aspect of the 
addiction?
    Mr. Lappin. And my guess is we probably are not at this 
point, given the fact that they are authorized under our 
contracts. But I will check to see if in fact they are. 
Hopefully, we have done a good enough job preparing them for 
release that that craving by this time has come down. But, 
again, we will check for the record.
    Mr. Mollohan. You are a real optimist.
    Mr. Lappin. I am an optimist.
    Mr. Mollohan. Well, that is too optimistic. Do you know if 
The Second Chance Act authorizes the use of medication in that 
way?
    Mr. Lappin. I do not know.
    Mr. Mollohan. I do.
    Mr. Lappin. We would have to look.
    Mr. Mollohan. Yes.
    Mr. Lappin. It does?
    Mr. Mollohan. Yes. Do you want to look at that?
    Mr. Lappin. Okay, I will certainly look at that.
    Mr. Mollohan. Mr. Wolf.

                EMPLOYMENT SERVICES IN BUREAU OF PRISONS

    Mr. Wolf. Thank you. Just two questions. Is there an 
employment service in the Bureau of Prisons for prisoners that 
are leaving, whereby if you are getting out there is an 
aggressive operation to help them find jobs? Not just, yeah, 
but a real one.
    Mr. Lappin. We actually have as part of the, built in as 
part of the Second Chance Act, and we have worked on this for 
years, a job placement initiative. And what is difficult for 
us, Congressman, as you can imagine, these inmates live 
oftentimes a long distance from where they are incarcerated. 
That is what makes it difficult in the federal system. Unlike 
in many states, especially the size of many states, they could 
be very close to home. Whereas our inmates are oftentimes much 
further from home which makes it much more difficult.
    But we have job placement responsibilities and staff assist 
inmates in job searching. They will gather information off the 
internet, without the inmate having access to the internet, so 
the inmate can begin to see what jobs are being advertised. 
They go through resume writing, they go through application 
processing. We do mock job fairs where we will bring in 
business officials from the local community and the inmate will 
write a resume as if they were going to go to work for them, 
and then they do an interview. So, every facility does mock job 
fairs.
    Mr. Wolf. Once they get out, what is their opportunity? 
Have you ever contracted with private employment services?
    Mr. Lappin. Well, the halfway houses, have that as part of 
their job.
    Mr. Wolf. Their job.
    Mr. Lappin. Is to assist that person in finding work. So, 
we hire that contractor, we make it part of that contract. Now 
again, as I go back to my other statement, because we have many 
locations where we cannot get the inmate close enough. So, it 
does not work as well when you cannot get the inmate in close 
enough proximity that they can actually go interview and pursue 
a job. That is why we would like to have halfway houses in more 
locations.
    Mr. Wolf. My last question. I had an inmate tell me that 
everything that is available on the street is available in the 
prison. Is that accurate?
    Mr. Lappin. In the way of what?
    Mr. Wolf. Everything.
    Mr. Lappin. Well, drugs?
    Mr. Wolf. Yes.
    Mr. Lappin. Are there drugs available in the institutions? 
Unfortunately, yes. I mean, obviously with our testing program 
we find a variety of drug use. But, let me give you an example. 
We tested, we did 109,000 random tests last year, where there 
were 498 positives. That is a .45 percent rate. We did 16,000 
additional suspect tests that is we suspected somebody had used 
drugs. There were 603 hits on that 16,000 for a rate of 3.67.
    Mr. Wolf. Okay.
    Mr. Lappin. So of the 188,000 tests in all categories we 
had about 1,100 positives. And our system is much better today 
because of the technology. You can now do a urinalysis check. 
You do not have to wait to send the test off. You actually can 
do a urinalysis test where it will give us an indication if a 
person has used something they should not have used. Then you 
do the laboratory test to confirm that. So, it is much more 
immediate. It works much better for us. All those types of 
things help us reduce the chances of that happening.
    Mr. Wolf. Okay. Thank you, Mr. Chairman. I have no other 
questions.
    Mr. Mollohan. Mr. Serrano.
    Mr. Serrano. I have no further questions.

                        DRUG TREATMENT IN PRISON

    Mr. Mollohan. Just a couple of follow up questions, Mr. 
Director. Going back to the number and percentage of prisoners 
that you are able to serve in your drug treatment program, your 
prerelease drug treatment program, what percentage of eligible 
inmates were you able to treat in 2008?
    Mr. Lappin. I have to find my numbers again. Just a second. 
I am going to, I will confirm for the record. But real quickly, 
we treated 17,523 in 2008. I believe we released about 1,700 
who should have received treatment. So, we got a very high 
percentage of those who we thought needed treatment and 
requested treatment.
    [The information follows:]

                       Drug Treatment in FY 2008

    In FY 2008, 93% of inmates who were eligible and who volunteered 
for treatment completed the Residential Drug Abuse Program before their 
release from custody.

    Mr. Mollohan. You released 1,700 who wanted treatment but 
did not get it?
    Mr. Lappin. Who wanted it and did not get it. So that must 
have been close to, what, 19,000 total. We treated 17,523.
    Mr. Mollohan. So that means those 1,700 did not get early 
release? Did not get a year off of their sentence?
    Mr. Lappin. I will have to go back and look. Because it may 
be that, it moves them up higher in the list if they are 
eligible for time off. So, it may have been those were violent 
offenders, I do not know, who would not qualify. But I cannot 
say that for sure. Because sometimes, Congressman, judges do 
not sentence people to long enough periods of time to allow for 
treatment.
    [The information follows:]

   Inmates Released Before Completion of the Residential Drug Abuse 
                        Treatment Program (RDAP)

    To earn an early release, a ``non-violent' inmate must complete 
each component of the RDAP. As a result, those who were unable to 
complete the treatment were unable to earn a sentence reduction.

    Mr. Mollohan. No, I understand that, unless they get in 
right away.
    Mr. Lappin. Right.
    Mr. Mollohan. They have to be sentenced for a year or so. I 
guess they go through, a year and a half----
    Mr. Lappin. Yes, they get at least two years on a sentence, 
to get that.
    Mr. Mollohan. What do you anticipate will be the percentage 
in 2009, assuming the enactment of the omnibus appropriation 
bill? Why do you not submit that for the record?
    Mr. Lappin. Okay.

                       Drug Treatment in FY 2009

    In FY 2009, the BOP anticipates that 100 percent of inmates who are 
eligible and who volunteer for the Residential Drug Abuse Treatment 
Program will receive treatment prior to their release.

              VOCATIONAL TRAINING AND EDUCATIONAL PROGRAMS

    Mr. Mollohan. Because I sense you probably will not be able 
to answer that. Vocational training and educational programs, 
and other services related to reentry. We have a program in 
West Virginia that is an educational program. It is actually a 
pilot program. It is taught at a college. It is being 
monitored. It is going to be judged and I am going to look and 
see if it meets the rigorous criteria that is necessary. But 
they have some really good people designing and following it. 
So I am kind of optimistic about that. But just anecdotally, 
they have had, I believe, to a couple of prisoners who had 
requested a transfer so they would be closer to home who said, 
``No, please let me stay here to finish my education.'' And 
that is college education. Or, it is either two years, 
certification, two years or four-year college education.
    Mr. Lappin. Yes.
    Mr. Mollohan. They have one prisoner there who will never 
get out of prison----
    Mr. Lappin. Yes.
    Mr. Mollohan [continuing]. And is taking that program. And 
he said, ``I know I will never be able to use this on the 
outside. But it is simply a self-esteem issue. I want to learn. 
I want to get a college education.'' Work training is obviously 
a self-esteem issue, of being able to get out and have a job. 
If your attitude is at all lined up and going in the right 
direction you obviously want to be able to train and get a job. 
But there are an awful lot of smart people. And I am wondering, 
have there been any studies about the relationship between 
education, and it would probably have to be education coming 
in, and success after release, and the impact on recidivism? In 
other words, is there some correlation between educational 
levels coming in and success in staying out of prison once they 
are released?
    Mr. Lappin. I do not know. We could get our great research 
department to look to see. And our statistics are relative to 
education in general. So, if you go to the 114 Federal prisons 
you are going to find at some locations we provide all those 
programs that we are legally allowed to provide. Whereas at 
other locations, we have partnerships with community colleges 
so we can provide those programs, two-year, not many four-year 
opportunities, and not violate the whole Pell Grant thing so, 
because they are getting credit for students. It does not 
matter if those students are in their classroom at the college 
or in our classroom in the institution.

Is There Some Correlation Between the Educational Level of Those Coming 
   Into the Prison System and Success in Staying Out of Prison Once 
                               Released?

    The higher the educational attainment of offenders entering the 
BOP, the lower their recidivism rate upon release from prison. This has 
been shown for both a 1987 Federal prison release cohort ( see Table 4 
on page 21 of the report titled ``Prison Education Program 
Participation and Recidivism'') and for a 1992 cohort of sentenced 
inmates (see Exhibit 10 on page 29 in the United State Sentencing 
Commission report titled ``Measuring Recidivism: The Criminal History 
Computation of the Federal Sentencing Guidelines''). Links to the 
reports are below: http://www.bop.gov/news/research_projects/
published_reports/recidivism/orepredprg.pdf http://www.ussc.gov/
publicat/Recidivism_General.pdf

    So, it varies from location to location. But I think our 
statistics are more generally based on education across the 
board. But I am not sure if there are specific studies, I do 
not think we have done any, that would reflect the example you 
have laid out. But we will certainly look to see if there are 
any.
    Mr. Kane. I am just going to, I think the Director already 
knows this, but we actually have a recidivism----
    Mr. Lappin. Yes. What we see is for inmates getting a 
vocational certificate is a 33 percent reduction in recidivism. 
So that means, with the average about 40 percent, it is 33 
percent less than that. So, you are down in the 20 percent 
range.
    Mr. Mollohan. Out of that subgroup?
    Mr. Lappin. Out of that group. Out of that subgroup.
    Mr. Mollohan. For people who have a GED?
    Mr. Lappin. A vocational training certificate.
    Mr. Mollohan. I am sorry, a vocational----
    Mr. Lappin. For GED it is 16 percent. We are seeing a 
reduction of about 16 percent. So, inmates that get a 
vocational certificate and a GED, you know, it's even more 
positive.
    Mr. Mollohan. Well, training and education seems, based on 
that testimony, to be a powerful driver in this.
    Mr. Lappin. It is. We unfortunately do not leverage it 
enough. We get a lot of inmates in the GED program. In fact, I 
had here, we had 5,878 inmates get GEDs last year. We are not 
getting as many inmates in vocational training programs as we 
would like.
    Mr. Mollohan. Is that a function of desire on the inmates' 
part or of the resources of the Bureau of Prisons?
    Mr. Lappin. I think more resources in this case, because 
without a doubt we sometimes let inmates go who do not get 
through the GED process. I think on the other side, their 
resistance to going into a vocational training program, is in 
part because they do not get paid for it. So what happens is, 
they get into an institution, they get some job, they are 
making a little bit of money. And if they go to vocational 
training that is time they are losing from getting paid. So, we 
are looking at ways we could do that to encourage more folks in 
there.
    But to give you an idea, we had about, let us see here, 
where is vocational training? Oh, about 7 percent of the inmate 
population in the last three years were involved in vocational 
training. I would like to see that number go up significantly.
    Mr. Mollohan. Okay. Well, if you would for the record, in 
the context of The Second Chance Act, analyze what are the 
educational opportunities that it authorizes. And then beyond 
that, if you have any statistics or analysis of different 
levels of education and how it impacts recidivism. There are 
lots of things going on here. I mean, it is not just education 
for the sake of education. I am not sure anybody is ever 
educated just for the sake of education. It always has an 
impact. And so if there is any insight that you can give the 
Committee with regard to that?
    We heard testimony on education--having nothing to do with 
the Bureau of Prisons except as education positively impacts 
that from happening, last week in which two witnesses in 
different ways made the point that you have to address the 
education issue from beginning to end. And you have to do 
everything at once. Because if you do not deal with craving 
somewhere along the line it is not going to work. And so I 
would like to see, and maybe have follow up discussions in my 
office, about what is the everything all at once. And then 
perhaps we can design prototype programs, perhaps in the 
context of The Second Chance Act, which provides for different 
kinds of prototype programs. But I would like to look very 
carefully at what those possibilities are and do it with the 
insight to be gained by the good people you have in the Bureau 
of Prisons generally, and of course, your excellent research 
department.
    Mr. Lappin. Well, I look forward to that discussion. And it 
comes down to little things like, the fact----
    [The information follows:]

   In the Context of the Second Chance Act, Analyze the Educational 
                      Opportunities It Authorizes

    Language Pertaining to Educational Opportunities:
    Section 231(a)(1)A: assess each prisoner's skill level (including 
academic, vocational, health, cognitive, interpersonal, daily living, 
and related reentry skills) at the beginning of the term of 
imprisonment of that prisoner to identify any areas in need of 
improvement prior to reentry.
    Section 231(a)(1)B: generate a skill development plan for each 
prisoner to monitor skills enhancement and reentry readiness throughout 
incarceration.
    Section 231(a)(1)C: determining program assignments for prisoners 
based on the areas of need identified through the assessment.
    Section 231(d)(1)(E): establish reentry planning procedures that 
include providing Federal prisoners with information in the following 
areas: health and nutrition, employment, literacy and education, 
personal finance and consumer skills, community resources, personal 
growth and development, and release requirements and procedures.
    Section 231(h)(3)(B) The Federal Remote Satellite Tracking and 
Reentry Training Program may be established to promote the effective 
reentry into the community of high risk individuals. The authorized 
program includes: Substance abuse treatment, and aftercare related to 
such treatment, mental and medical health treatment and aftercare 
related to such treatment, vocational and educational training, life 
skills instruction, conflict resolution skills training, batterer 
intervention programs, and other programs to promote effective reentry 
into the community as appropriate.

Provide any Statistic or Analysis You Have Concerning Different Levels 
               of Education and How it Impacts Recidivism

    This information and the analyses are included in the reports 
titled ``Prison Education Program Participation and Recidivism'' and 
``Measuring Recidivism: The Criminal History Computation of the Federal 
Sentencing Guidelines.'' Links to the reports are below: http://
www.bop.gov/news/research_projects/published_reports/recidivism/
orepredprg.pdf http://www.ussc.gov/publicat/Recidivism_General.pdf

    Mr. Mollohan. We are going to do it.
    Mr. Lappin. Yes, well, good, one example, because you hit 
it right on the head in part, is these folks have struggled 
educationally for decades. And so, now you have got a forty, 
fifty-year-old man that you want to put in GED class.
    Mr. Mollohan. Yeah.
    Mr. Lappin. And because of the wisdom of some of our 
educators they realize that, one, they have to overcome that 
embarrassment. So some of them have actually set up computer 
classrooms so some of those folks can work at their own pace, 
not be confronted by what they do not know in front of a group 
of other folks that may know more than they do. And so those 
types of strategies, to leverage more of those folks into those 
classrooms, I think will only help.
    But some of that is resource driven, because we may not 
have those types of scenarios at every location. But without a 
doubt our educators have identified some of those hurdles that 
might be there. We are not unique, we have kids in high schools 
that have the same struggle. But you have got to meet those 
needs or they are going to continue to struggle in an 
educational environment.
    Mr. Mollohan. Okay. And we have some specific funding for 
specific programs in the 2009 omnibus, if the Senate ever----
    Mr. Lappin. No comment.
    Mr. Mollohan. No, I am the one that says no comment. I am 
the one----
    Mr. Serrano. I am really sorry about that for holding that 
up.
    Mr. Mollohan. I know. Mr. Serrano.
    Mr. Serrano. No, I have no further questions, Mr. Chairman. 
But I am sorry for holding that bill up in the Senate.
    Mr. Mollohan. All right. Actually, he is holding it up in 
the Senate. You have to deal with Mr. Serrano's genuine and 
legitimate concerns about our foreign policy with regard to 
Cuba for many years to successfully navigate these pieces of 
legislation.
    Well, Director Lappin, thank you very much. You covered a 
lot of material here and with a lot of insight, and obviously 
expertise. We appreciate the job that you do, the good job you 
do and the time of all these professionals that you brought 
here today. We look forward to working with you in getting the 
resources that you need to do all the things that you have to 
do to be successful. Thank you for your testimony today.
    Mr. Lappin. Thank you for having us.
    Mr. Mollohan. Thank you.
    Mr. Lappin. It is a pleasure working with you.
    Mr. Mollohan. Yes, sir. It is a pleasure working with you.

    [GRAPHIC] [TIFF OMITTED] T1247A.046
    
    [GRAPHIC] [TIFF OMITTED] T1247A.047
    
    [GRAPHIC] [TIFF OMITTED] T1247A.048
    
    [GRAPHIC] [TIFF OMITTED] T1247A.049
    
    [GRAPHIC] [TIFF OMITTED] T1247A.050
    
    [GRAPHIC] [TIFF OMITTED] T1247A.051
    
    [GRAPHIC] [TIFF OMITTED] T1247A.052
    
    [GRAPHIC] [TIFF OMITTED] T1247A.053
    
    [GRAPHIC] [TIFF OMITTED] T1247A.054
    
    [GRAPHIC] [TIFF OMITTED] T1247A.055
    
    [GRAPHIC] [TIFF OMITTED] T1247A.056
    
    [GRAPHIC] [TIFF OMITTED] T1247A.057
    
    [GRAPHIC] [TIFF OMITTED] T1247A.058
    
    [GRAPHIC] [TIFF OMITTED] T1247A.059
    
    [GRAPHIC] [TIFF OMITTED] T1247A.060
    
    [GRAPHIC] [TIFF OMITTED] T1247A.061
    
    [GRAPHIC] [TIFF OMITTED] T1247A.062
    
    [GRAPHIC] [TIFF OMITTED] T1247A.063
    
    [GRAPHIC] [TIFF OMITTED] T1247A.064
    
    [GRAPHIC] [TIFF OMITTED] T1247A.065
    
    [GRAPHIC] [TIFF OMITTED] T1247A.066
    
    [GRAPHIC] [TIFF OMITTED] T1247A.067
    
    [GRAPHIC] [TIFF OMITTED] T1247A.068
    
    [GRAPHIC] [TIFF OMITTED] T1247A.069
    
    [GRAPHIC] [TIFF OMITTED] T1247A.070
    
    [GRAPHIC] [TIFF OMITTED] T1247A.071
    
    [GRAPHIC] [TIFF OMITTED] T1247A.072
    
    [GRAPHIC] [TIFF OMITTED] T1247A.073
    
    [GRAPHIC] [TIFF OMITTED] T1247A.074
    
    [GRAPHIC] [TIFF OMITTED] T1247A.075
    
    [GRAPHIC] [TIFF OMITTED] T1247A.076
    
    [GRAPHIC] [TIFF OMITTED] T1247A.077
    
    [GRAPHIC] [TIFF OMITTED] T1247A.078
    
    [GRAPHIC] [TIFF OMITTED] T1247A.079
    
    [GRAPHIC] [TIFF OMITTED] T1247A.080
    
    [GRAPHIC] [TIFF OMITTED] T1247A.081
    
    [GRAPHIC] [TIFF OMITTED] T1247A.082
    
    [GRAPHIC] [TIFF OMITTED] T1247A.083
    
    [GRAPHIC] [TIFF OMITTED] T1247A.084
    
    [GRAPHIC] [TIFF OMITTED] T1247A.085
    
    [GRAPHIC] [TIFF OMITTED] T1247A.086
    
    [GRAPHIC] [TIFF OMITTED] T1247A.087
    
    [GRAPHIC] [TIFF OMITTED] T1247A.088
    
                                           Tuesday, March 10, 2009.

               MAJOR CHALLENGES FACING FEDERAL PRISONS, 
                                PART II

                               WITNESSES

PHIL GLOVER, NATIONAL LEGISLATIVE DIRECTOR, AFGE COUNCIL OF PRISON 
    LOCALS
BRYAN LOWRY, PRESIDENT, AFGE COUNCIL OF PRISON LOCALS

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order. I would like 
to welcome our witnesses for our second hearing today. Bryan 
Lowry, the President of AFGE's Council of Prison Locals, and 
Phil Glover, the National Legislative Director for the Council 
of Prison Locals. Gentlemen, welcome. We appreciate your taking 
time to be here, we look forward to your testimony, and we 
appreciate the good work you do for your membership. Thank you 
for being here. Mr. Lowry will be offering his testimony this 
afternoon, and both gentlemen will respond to questions from 
the Subcommittee.
    Because AFGE members are the correctional offices on the 
front lines and supervising offenders in our federal prisons, 
it is critical that we hear from them about the challenges they 
face every day. Those challenges are centered on the 
overcrowding and understaffing issues we discussed during this 
morning's hearing, but are also related to the overall prisoner 
reentry focus of this week's hearings.
    Managing our prison population is a matter of adequate 
resources, but it also depends on how we prepare offenders to 
reenter their home communities so that they do not return to 
prison in the future. Correctional officers play an important 
role in ensuring that those reentry efforts are successful. In 
a moment, I will ask Mr. Glover to briefly summarize his 
written testimony. But first I would like to recognize Mr. Wolf 
for any introductory comments that he would like to make. Mr. 
Wolf.
    Mr. Wolf. Welcome.
    Mr. Mollohan. All right. Mr. Lowry.

                      Mr. Lowry Opening Statement

    Mr. Lowry. Yes, sir.
    Mr. Mollohan. You are going to make----
    Mr. Lowry. I will make the opening.
    Mr. Mollohan. You are going to make the opening?
    Mr. Lowry. Yes, sir.
    Mr. Mollohan. I am sorry, I misspoke.
    Mr. Lowry. That is okay.
    Mr. Mollohan. Mr. Lowry, your written statement will be 
made a part of the record and you can proceed as you wish. 
Thank you.
    Mr. Lowry. Mr. Mollohan, Chairman Mollohan, Ranking Member 
Wolf, and members of the Subcommittee. My name is Bryan Lowry, 
president of the American Federation of Government Employees 
Council of Prison Locals and with me is our National 
Legislative Coordinator, Phil Glover. On behalf of all of the 
Federal Bureau of Prisons bargaining unit staff who work in our 
nation's federal prisons, we want to thank the Committee for 
asking us to testify today on the challenges facing the Federal 
Bureau of Prisons. We also want to thank the Committee members 
for their effort to increase funding to the Bureau of Prisons 
that would make a difference to the health and safety of our 
staff who work in the nation's federal prisons.
    Last year our Council through the Legislative Coordinator 
Phil Glover testified on the difficult funding problems the 
Bureau of Prisons was facing. He discussed the alarming assault 
and disturbance trends occurring in the federal prison system. 
Not long after his testimony on June 20, 2008, I received one 
of the most horrendous phone calls I have ever received. We had 
an officer down. Not just injured this time, but murdered. A 
young, new officer who had only worked for the Federal Bureau 
of Prisons for ten months. His name was Jose Rivera. He was an 
Iraq War veteran and was only twenty-two years of age. Because 
of staffing issues mainly associated with budgetary cuts in the 
last few years and changes to Bureau policy associated with 
funding problems, he was working in a high security housing 
unit alone. He was murdered by two inmates and had no equipment 
to stop them. It is tragic and we in our Council think about 
his death everyday, and the officers who face the same dangers 
in our federal prison system daily. We are hoping to come to 
Congress and change the circumstances we face daily working in 
the federal prison system, to go back to a time when our 
staffing ratios were sufficiently higher to accomplish our 
mission.
    As you know, we are short almost 15 percent in the amount 
of staff working in our nation's prisons. Budgets always seem 
to be tight while other law enforcement agencies, such as the 
FBI, Border Patrol, ICE, and others have grown. Funding for the 
Bureau of Prisons has stayed relatively flat in the amount of 
staff to handle the increasing number of inmates. While it may 
be difficult, it must be done. We need full funding. We need to 
go back to reasonable staffing levels. We need two officers in 
high security housing units and at least one officer in every 
housing unit, on every shift, in every medium and low security 
prison. These are just examples of our mission needs. We need 
the equipment necessary to handle aggressive inmates in life 
and death situations which are becoming more and more common.
    Because the Bureau of Prisons will not change its policies 
or change what they call the culture, we need your help to do 
it. The administration of the Bureau of Prisons has in the last 
several years coined the cliche ``isolated incident'' to 
include violent acts by inmates in almost every situation which 
now occurs. When the same institution has assault after 
assault, and lock down after lock down, something is not 
working and changes have to be made. Our prison system used to 
function very well. Many of you have been on this Committee for 
some time. You hardly heard from us and/or the Council of 
Prison Locals we represent. However, our people are crying out 
for change to our dysfunctional and understaffed agency which 
has placed staff and the inmates they are charged with 
protecting in a very vulnerable position. On behalf of all the 
employees of the Bureau of Prisons we are asking for the 
necessary funding increase that will provide more staff and the 
reasonable policy requirements to manage today's increasing, 
more aggressive inmate population. In our testimony as well as 
the written summary overview which we have supplied contains a 
great deal of information on our appropriations, on our 
crowding levels, and our safety. We are hopeful you will move 
energetically to add staff and much needed safety equipment 
while also providing much needed oversight to the BOP's 
spending.
    In our written testimony we discuss private prisons and 
their costs. We talk about the two 2007 GAO Report that shows 
BOP does not even monitor the private companies in the right 
areas to compare public and private costs. We believe funds can 
be found in this area which can be transferred back to BOP 
operational funding.
    We think you should look at the revolving door of BOP 
management to the private sector when you look at costs. We are 
becoming similar to the Department of Defense revolving door.
    When you look at the laws you are passing, The Second 
Chance Act, The Prison Rape Elimination Act, and The Adam Walsh 
Act, these are very important issues. However, the programs do 
not receive any additional funding mechanisms regarding 
implementations which forces the agency to absorb these costs 
when staffing and training requirements are necessary for 
compliance. When they are not funding, or do not comply in 
essence, who suffers? The people that expect the Acts to work.
    Again, we thank you for having us here today and hope we 
can answer your questions on operations in the Bureau of 
Prisons and its major challenges. Thank you.
    [The written statement of Mr. Bryan Lowry and Mr. Phil 
Glover follows:]

[GRAPHIC] [TIFF OMITTED] T1247A.089

[GRAPHIC] [TIFF OMITTED] T1247A.090

[GRAPHIC] [TIFF OMITTED] T1247A.091

[GRAPHIC] [TIFF OMITTED] T1247A.092

[GRAPHIC] [TIFF OMITTED] T1247A.093

[GRAPHIC] [TIFF OMITTED] T1247A.094

[GRAPHIC] [TIFF OMITTED] T1247A.095

[GRAPHIC] [TIFF OMITTED] T1247A.096

[GRAPHIC] [TIFF OMITTED] T1247A.097

[GRAPHIC] [TIFF OMITTED] T1247A.098

[GRAPHIC] [TIFF OMITTED] T1247A.099

[GRAPHIC] [TIFF OMITTED] T1247A.100

[GRAPHIC] [TIFF OMITTED] T1247A.101

[GRAPHIC] [TIFF OMITTED] T1247A.102

[GRAPHIC] [TIFF OMITTED] T1247A.103

[GRAPHIC] [TIFF OMITTED] T1247A.104

[GRAPHIC] [TIFF OMITTED] T1247A.105

    Mr. Mollohan. Thank you, Mr. Lowry. Mr. Glover.

                          MR. GLOVER STATEMENT

    Mr. Glover. Mr. Chairman, I do not have a written statement 
for the record. However, I would like to say that we have 
appreciated the fact that the Committee has fought to put $545 
million into salaries and expenses in the last fiscal year. 
$203 million more into the B and F funding. We still think the 
M and R funding needs to come up more than $110 million because 
we have thirty-seven facilities that are over fifty years of 
age. And places are falling apart.
    When you have research facilities and other places being 
funded for building and facility funding we really believe that 
prisons should get a priority. We have to house these inmates. 
We have to house them securely and humanely. And when the 
ceilings are coming down and the pipes are not working, 
plumbing is not working, it causes stress inside the entire 
system. So we are hoping that eventually we can get to a 
correct M and R number as well.
    A couple of things that Mr. Lowry touched on. We have about 
eighteen penitentiaries in the system. They have between six to 
eight housing units each. For us to have a two to ten officer, 
2:00 p.m. to 10:00 p.m. at night while the evening watch is 
going on at the high security prisons would take about eighty-
four evening watch positions. That is about $7.8 million if you 
look at an average of $93,000 per staff member, which I think 
is the number we have gotten. We have asked in talking points 
papers, and of course we were on the Hill just a few weeks ago 
and we were asking for 3,000 staff to staff it up for this 
fiscal year. That would be a total of about $279 million 
additional dollars. We think that is not a lot, a huge amount 
of money compared to what is being spent in the federal budget 
in order to bring us in line. That does not bring us in line 
with the 1990s but it would at least be a down payment.
    The Adam Walsh Act, I talked to a case manager the other 
day who said that due to the victim witness requirements she 
had one inmate move and she was required to do 200 warning 
letters out to different groups who associate with that inmate. 
I think when the act was written I do not think anybody 
anticipated some of those types of numbers. And so, if you do 
not add case managers to the field, and you do not add 
counselors to the field to handle those types of notifications, 
then they are just swamped with more and more work. And we have 
a concern with that.
    The Second Chance Act has a big role for teachers, 
vocational trainers, mechanical services personnel, those 
personnel that train inmates. However, those people are being 
used as correctional officers throughout the system. And not on 
just a, you know, a one day every three months basis. We are 
talking, I have correctional rosters here that show the use of 
non-correctional officers on a daily basis. And so they are not 
doing their jobs. They do not have time to do their jobs.
    The Prison Rape Elimination Act that was passed. Very 
supportive of that Act. However, when you have three units 
handled by one officer to walk around three separate pods, 
there is no way they can keep an eye on what is going on in all 
of those inmate areas. And we have a real concern about that, 
and about the role that the correctional officers have to play 
in the reduction of that Act.
    The Gang Prevention Intervention and Suppression Act, which 
is on the agenda for the Judiciary Committee, does not mention 
federal prisons one time, except how many inmates are going to 
be arrested. They do not talk about what is going to happen at 
the end of the food chain, when all of these people get 
apprehended for RICO-type gang related crime. They are not 
talking about how many inmates that means coming into the 
federal system, once you federalize gang activity.
    So those are things that we think the Committee, we hope 
the Committee will focus on. And that is, that would be my 
opening, Mr. Chairman. Thank you.
    Mr. Mollohan. Well, it is a good one.
    Mr. Glover. Thank you.

                       STAFFING AND OVERCROWDING

    Mr. Mollohan. I think we hear you loud and clear about 
staffing. In addition to that, I want to give you a chance to 
elaborate on the biggest concerns you see facing the federal 
prison system, staffing and otherwise.
    Mr. Lowry. I think one of the biggest things that we see 
these days is overcrowding. It was touched on earlier when 
Director Lappin had spoke about creating these new units called 
special management units. There have been four institutions 
identified, one to have a full special management unit, it is 
going to be encompassing the whole institution. And then you 
have three other locations that will have, like, housing units 
with these type of units.
    But the trend that we are seeing is in many locations 
throughout the country to have a cost savings of money the 
Bureau of Prisons has started creating what they call a 
transitional unit inside of regular housing units, taking 
disruptive, combative, aggressive inmates who normally would go 
into the jail inside the prison, which is called a special 
housing unit. And now since it is overrated capacity they have 
inmates living in day room areas inside of the special housing 
unit. They have them now in the medical area, in isolation 
cells. They have them in receiving and discharge areas, another 
location in the prison. Inmates all over the place because 
there is no place to house them. And these inmates are going 
straight into these units and they are only staffing them with 
one officer as opposed to five on day watch which would be 
normal, three or four on evening watch, and one or two on 
morning watch. And it is putting the staff and inmates in grave 
danger. There have been incidents, more than one, probably 
close to five, that have occurred recently in these 
transitional units. Bad management policies. Irresponsible 
decision making placing our staff in harm's way because we have 
too many inmates now to control this population that are 
aggressive. The Director testified earlier about how the 
population he believes has become more combative, more 
aggressive, more gang oriented. It has. Our staff see it on a 
daily basis. That is one of my biggest concerns, there, is the 
overcrowding.
    And number two, not having the equipment necessary to 
defend ourselves. As correctional officers, no matter what 
security level you work in, the only thing you really have to 
protect yourself is a body alarm or radio that has a red button 
on top. And should you get assaulted or attacked by inmates you 
can push that and it is going to send a signal to main control 
for staff response. You can be alone as long as thirty seconds 
to five minutes by yourself with inmates twice your size who 
lift weights, do other things, are a lot bigger and stronger, 
that could attack you. And you have nobody there to help you 
for a few minutes. Or a set of handcuffs. If you are lucky 
enough to get them, one, two or three inmates that attack you, 
you got one set of handcuffs to handcuff one of them.
    We think it is time for the Bureau to move in a proactive 
area like some of the states do and provide our staff some 
nonlethal means of equipment, whether it be pepper spray 
canisters, which is nonlethal, which only will stun the inmate 
in the beginning and give you the ability to respond or get 
away until help arrives. Or something like a Taser, which is 
used in some state and county and local systems. Or a baton 
that is used in one of our institutions, the ADX. So something 
that gives staff the means, because the inmate population has 
got aggressive. We are working more alone than we ever did 
before. We are just asking for that to be considered since our 
Director does not want to implement this. Phil?

                           TRANSITIONAL UNITS

    Mr. Mollohan. Let me ask you, before you pass it on. 
Transitional unit, that is a category of necessity because 
there is not a special housing unit available? Is that what you 
are referencing there?
    Mr. Lowry. There is. And most of them will hold, depending 
on location, about 120 to possibly 225 inmates, depending on 
where it is. They are overcrowded. There is no more bed space 
in these places.
    Mr. Mollohan. What is a transitional unit?
    Mr. Lowry. That is a coined term the Agency created 
recently. When I tried to call them down to get information on 
this one of the Assistant Directors actually called it a 
modified transitional. And I wanted to know, is this a special 
management unit? Is it a special housing unit? We never got an 
answer other than it is a modified regular housing unit. And 
what it is is the same inmates, if I was to attack Mr. Glover 
and I was an inmate, or attacked another inmate, I would go to 
the special housing unit. Now when it is overcrowded they will 
take that inmate and throw him in a transitional unit, 
aggressive, assaultive, combative, and there is only one 
officer as opposed to at most times during rec and others you 
have five, six officers.
    Mr. Mollohan. Transition suggests that it is a transition 
to someplace. Where would one go after being in a transitional 
unit?
    Mr. Lowry. In our opinion, it was only created to try to 
reduce the overcrowding and to come up with a solution to keep 
aggressive inmates off of the general compound.
    Mr. Mollohan. Segregated, okay.
    Mr. Lowry. But they are not staffing it appropriately.
    Mr. Mollohan. Okay.
    Mr. Glover. Some of the other challenges, obviously, Mr. 
Chairman, with Federal Prison Industries under extreme attack 
from some folks we have seen the numbers go down from almost 
23,000 inmates down to about, I think we are down to between 
19,000, somewhere in there working in our Federal Prison 
Industries programs. This has become an issue.
    Obviously with the economy, people do not want to hear 
about inmates working, inmates holding jobs and being 
productive. However, to us it is more of a life and death 
issue. If you do not have these inmates occupied and working in 
a productive setting what happens is they get very agitated. 
They have a lot more time on their hands, idle, to cause 
difficulties within the system. At our facility where I work, 
Federal Prison Industries at Loretto, Pennsylvania, for 
instance, we laid off about, we are in the process of laying 
off about 200 inmates right now. We had about 500 working. 
These were doing nonmandatory source military work on cables. 
As the draw down to the military has occurred we of course have 
gotten less orders and the contracting rules from the 
Department of Defense are now starting to kick in. And so what 
is happening is, we are having to lay those inmates into normal 
housing units because there is not enough work in the Prison 
Industries Program.
    Now, what that did is we had a number of inmates get into 
fistfights in the housing units because one decided he should 
not have been laid off and the other one should have been laid 
off. And so now we are starting to see a competition for those 
jobs in a much more, to us, in a much more unfavorable way. 
Prior to that, of course, we had waiting lists for inmates who 
had applied to work in the Industries Program. And that list 
has just now exploded. And so we really hope that the Congress 
can find a way to give us some form of repatriation, of work, 
that is clearly defined. That allows, that gives us the ability 
to bring back work that is no longer made here in the United 
States. I believe there was a bill quite some time ago that the 
Ranking Member wrote and filed on this same issue. And in there 
there would be a certification from Commerce Department or from 
the DOL to assure that we were not taking jobs from here in the 
United States. And so as a safety matter for us, the Prison 
Industries Program is very important.
    The other concern I guess that we have that is happening is 
the, obviously, the assault rates. We feel they are up. I 
cannot remember a time, I do not know how the statistics are 
being looked at or how they are being presented. All I know is 
this. When I was in his seat as the Council of Prison Locals 
President I did not get a call everyday about somebody getting 
punched in the face, or getting drug out of the institution, or 
getting stabbed. I did not. And that was in 2005. So I cannot 
imagine. I do not work at a high security facility, but we are 
already, we have more fights in the last two months than we 
have had, I do not know, probably in two years. And obviously 
your home, in your district, Hazelton has just been a mess. 
Every time they open the thing back up there is an assault. 
They have to lock it down again. And something has got to be 
done to control the population in those facilities that do not 
want to function under the rules.
    We are not talking about the majority of inmates here. And 
I do not think the union is saying that we want to go back to 
some sort of Attica-type system. That is not what we are 
talking about here. But there has to be some protections for 
staff that are built in. There has to be the appropriate 
funding.
    Obviously, through the last eight years we have taken, 
although the numbers have increased, every year the numbers 
increase, the Bureau of Prisons, OMB tell us you still do not 
have any money to hire. Now, we added just this fiscal year 
$545 million to S and E. From fiscal year 2008's enacted amount 
to 2009, what hopefully will pass in the Senate today or 
tomorrow. And we have not been able to add, basically, to the 
staffing needs at the facilities.
    In the early 1990's, the late 1980's, we had disturbances 
at Talladega and Oakdale. Right after those disturbances there 
was a commission, or there was a group of people that got 
together and looked at what was going on. And they decided that 
we needed to hire 6,000 correctional staff. And we did. And it 
was between the end of 1988 and the beginning of 1990, because 
I was hired during that time. And that is something that we 
think has to be done. We know that, you know, budgets are 
tight. We hear it all the time. And I do not want to offend 
anybody, but when we see something like a building at the 
National Science Foundation gets $400 million to be retooled, 
our officers call us and say, ``Hey, why can we not come up 
with $400 million to staff prisons?'' I mean, that is a 
legitimate, we think a legitimate question.
    And so that is why we have been up here more and more. I 
mean, obviously you guys have heard from us more than probably 
ever. And we are very hopeful with the way the Committee is 
moving. The budget for the Obama budget started out at $6 
billion. We believe that probably was before the appropriators 
here put forward the $6.1 billion in the House and Senate bills 
for the final 2009 package. And so we are hopeful that they 
will recognize that and make some adjustments.

                     EDUCATION PROGRAMS IN PRISONS

    Mr. Mollohan. Okay. Thank you. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. And welcome to the 
Committee. On page ten you make the case for basically the bill 
that we had. And it later was in the discussion draft. Can you 
really both expect the prisons to get any safer? Or can you 
expect there to be legitimate rehabilitation without work?
    Mr. Glover. Absolutely not. If we do not have productive, 
number one education programs, and number two, the Prison 
Industries Program, or some form of it, we cannot possibly 
ensure that inmates learn how to work. The biggest thing with 
an inmate working inside the prison system, as I am sure you 
are aware, is that many of them come to us without holding 
jobs. And so what they learn in the Industries Program is to 
come to work everyday, work for a supervisor, take directions, 
look at plans, how to build something, how to put something 
together. And that is where we gain a lot. And those inmates 
generally do not cause you any issues inside the facility. We 
have actually had riots go on and the Prison Industry inmates 
will actually cordon themselves off because they do not want to 
lose their positions in the Industries Program. We have had 
that happen. And so, no, you have to have some sort of viable 
program that will work.
    Mr. Wolf. Well, I hope AFGE, which I have been always very 
supportive over the years, I would hope you would come up here 
and help us. There are no lobbyists for prisoners. There just 
are not. But I think with the economy being what it is, I think 
we may see an increase in crime with the whole aspect of 
dignity to the individual from almost a biblical point of view, 
work, and to be involved in something. I am going to ask my 
staff to contact the Department of Commerce and the Library of 
Congress to put together a list of industries that we used to 
be very dominant in, where we are no longer. So that when I 
offer this amendment we are able to show, whether it be, and I 
do not want to just give men work where they are breaking 
concrete, or something like that. We want to give it to where 
there is dignity, so when they get out, if it is wiring a 
television set they can then learn to wire something else. Or 
if it is doing something that can be transferred in. But I 
think that can really, really make a big difference.
    So what we are going to do is, we will be in touch with 
both of you, if we can. Tom Culligan will be working on it for 
me. We will try to draft the amendment and then we will have 
some industries. So if you have any ideas of different areas. 
The only other question I would have to ask you is, what do 
most other prisons do in foreign countries? Are there any 
examples of where country X or Y has a very aggressive work 
program, and their recidivism rate is down? Or is there any 
model that you know around the world that is working very, very 
well with regard to work?

                            OVERSEAS PRISONS

    Mr. Glover. I do not have any information on what they do 
overseas.
    Mr. Lowry. I have talked to some of the guys in Canada who 
work for their prisons there. And they believe they do have an 
industry. So I do not have enough information to provide, but I 
believe they do have one there.
    Mr. Wolf. And you, lastly, you think by doing this, and you 
have said, but for the record, it would make your employees, 
the prison employees, the guards and the administrative staff 
safer by having people to work?
    Mr. Glover. I think the more the inmates are not idle will 
make us always safer.
    Mr. Wolf. And if you were, if we were really, let us say we 
created a television manufacturing industry, that money could, 
and you were selling whatever you were making, which you would 
have to have a market, the prison system could certainly use 
that money that came from that.
    Mr. Glover. The way it functions currently it would have 
to, I guess there would have to be some changes made. Because 
currently, it is a nonappropriated fund effort in Prison 
Industries. And so generally they do some welfare type, I guess 
they are allowed to spend some of that money back into the 
system. But they cannot use it to fund the S and E side of the 
system. So that would have to be looked at, how you are 
explaining.
    Mr. Wolf. What is it used for?
    Mr. Glover. Well, I mean, the inmate recreation programs. I 
think the Unicorp, Prison Industries can donate so much to 
those. They can have special programming. I think they can use 
some of the money for that kind of thing. But generally, they 
cannot get into the S and E side and, like, reimburse the 
Bureau's S and E side. Although I am not an expert on that part 
of it. But I have been around the system quite a while.
    Mr. Wolf. Okay. Well, thank you both. If you could be in 
touch with my office and we can see how we can push this. Thank 
you very much.
    Mr. Glover. Absolutely.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Ruppersberger.

                      Mr. Ruppersberger Questions

    Mr. Ruppersberger. Well, first, you made a comment you do 
not want to offend anybody. I think you have a right to be as 
mad as hell that we cannot provide security for our prison 
guards. And that has to be a priority. It is unfortunate that 
when you are talking prisons you are probably at the bottom of 
the list because nobody really wants to deal with it, whether 
it is federal, state, or local.
    I noticed that in the budget from a security point of view 
that you had intelligence officers and the ability to gain 
intelligence, and that was cut from the budget. What impact 
have you seen with that cutting? And what do you think the 
intelligence group, how it helped you in security in your 
prison or generally prisons everywhere?
    Mr. Glover. Well, as we were gearing up to monitor more 
phone calls of inmates and to check more letters, do things of 
that nature, they set up intelligence officers as a merit 
promoted position. That was, you applied for it as a 
correctional officer. You stayed in it permanently. You got 
trained. There were a whole range of things that you did. We 
had two at our facility at one time. We also had two other 
staff that worked in what we call an SIS Shop, a Special 
Investigative Supervisor Shop, that does investigations on 
inmates and staff and other things.
    The intelligence officers generally did only inmate 
products, basically looking at gangs, looking at terrorist 
groups, those kind of things that we had within the system. 
They were taken off of our, what they called a mission critical 
roster plan that the Agency did in 2005. They had to save about 
2,300 positions at that time. And so they moved forward to 
eliminate those off of the correctional roster. What happens is 
the last, the other two SIS people in that shop, ended up with 
those duties. They did not add anything. We have a phone 
monitor position that is supposed to monitor inmate phone 
calls, either live or prerecorded, and that position gets 
pulled----
    Mr. Ruppersberger. Well, let me say this. I do not know of 
any law enforcement agencies or military that does not do well 
unless you have intelligence. There is not a lot of money, so 
if you do not have the money sometimes you have to do things 
smarter or maybe use technology. You know, intelligence is not 
just about gathering intelligence. It is analyzing 
intelligence. And I think that maybe we should focus on trying 
to get more intelligence, and good intelligence. Which would 
include, could include, technology, monitoring, developing 
sources within the system.
    And one of the ideas I have, and I know that Chairman 
Mollohan is working very closely with me, and it all started 
with Congressman Wolf who had a serious gang problem in 
Virginia. And then he left the Committee, and he kind of showed 
me where to go. And the Chairman and I were able to put 
together a task force from Philadelphia to North Carolina, 
including West Virginia, Virginia, all these different states, 
to add real time technology, to really know who is where, and 
who is in the leadership.
    And, you know, we might be able to find a way to fund, get 
you more money through that gang task force. Because one of the 
major issues, I mean we have to deal with gangs outside. But we 
have a serious problems, as you know, with gangs within the 
prison. And they are communicating with outside gangs. So Mr. 
Chairman, I think maybe we can work with our staff here to see 
what we can do to take that task force that you and I kept 
putting in, and really Congressman Wolf helped start, and see 
what we can do, and take it to another level with the prisons. 
So we might want to do that.
    Any, do you have any, do you feel your management would be 
open to that type of plan or system, as far as getting better 
intelligence? Even though intelligence officers are cut, they 
might not have been doing what they need to do to begin with. 
Because you need sophistication in that area.
    Mr. Glover. I would think they would be supportive of 
something like that. I am sure the Chairman can get with the 
Director on it.
    Mr. Ruppersberger. Okay.
    Mr. Glover. I cannot, obviously cannot speak for him, 
Congressman.
    Mr. Ruppersberger. But, I mean, you observe, right? You 
represent the guards.
    Mr. Glover. Absolutely.
    Mr. Mollohan. Thank you, Mr. Ruppersberger. Mr. Bonner?

                          Mr. Bonner Question

    Mr. Bonner. Thank you, Mr. Chairman. I meant to ask this 
question of the Director earlier, but I would like to take 
advantage of your collective years of experience. By my math 
you have got about thirty-eight years in the service. One, I 
think, worked for state prison system at one time. Prior to 
that you both were in military service, serving your country in 
the Army and the Air Force. So you all have a lot of experience 
that we can draw from. And so the question I did not get to ask 
Director Lappin, but I will pose to you is, given the fact that 
he and you both have mentioned the intense problem with 
overcrowding, and I guess my question is, on behalf of the 
employees that you represent, some 34,000 men and women, do you 
think there should be some room for reconsideration of the 
maximum sentence guidelines that have been imposed? For 
instance on crack cocaine offenses, with regard to mandatory 
federal sentence guidelines?
    Let me give you an example. We had in my district a first 
time offender who was sentenced in the early 1990's to life in 
prison without parole because he illegally conspired to sell 
crack cocaine with a codefendant. In the sixteen years that he 
has been incarcerated there have been no incident reports. He 
has completed several programs, from drug rehab, to financial 
responsibility. He has taken college correspondence courses. 
And by all accounts, including the warden at his prison, he has 
been a model citizens. He is classified as medium security and 
has had exemplary behavior. And yet, under the current laws as 
they are written, there is no opportunity to move him out of 
the system, relieving the overcrowding problem.
    I do not know if this is an isolated case or if this is 
widespread. But do either of you have a personal opinion about 
whether this would help with regard to the overcrowding issue?
    Mr. Lowry. I think proactively, I think things need to be 
looked into for the prison system. Number one, you either are 
going to have to come up with something creative like The 
Second Chance Act, getting it implemented in all phases instead 
of mandatory sentencing. If you are not going to have parole 
then you have to look at maybe was this guy when he was locked 
up, was it an assaultive crime? Was it a sexual crime? If it 
was not, a nonviolent criminal that is locked up in prison for 
a drug related crime, then something has to be looked at or you 
are going to have to continue funding the construction of new 
prisons.
    I think somewhere, we are kind of at that head right now as 
to where the bow is breaking one way or another. Either we are 
going to continue, you know, bringing in somewhere between 
4,500 and 7,000 inmates, additional inmates, into our system a 
year, and we are going to have to build prisons, or we are 
going to use all these tools that have been created like Second 
Chance Act, you know, you have drug rehabilitation to inmates 
with the DAP Program, and other things. I think Congress has to 
come up with something creative where, you know, we lower the 
sentencing. Or we are going to have to continue building 
prisons. That is my take on it. Phil?

                        DRUG PROBLEM IN PRISONS

    Mr. Glover. The crack and powder problem has been an issue 
since 1995 when massive, we had riots in I think about 50 
percent of facilities when they did not equalize crack and 
powder. And so we had a big problem there. You have a guy 
serving with powder cocaine for five years, where you have the 
same amount of crack twenty years. It is a disparity and it 
ought to be cleaned up. I mean, that is my own personal 
opinion.
    We had parole up until I think 1987. They started to phase 
it out from 1987 to 1990. And frankly, parole at least gave the 
corrections system, it is a complicated process. It is 
difficult. It requires a lot of man hours. But it at least gave 
inmates the ability to get better and come to the staff. And if 
the staff thought they were they could recommend them for 
parole. And the only ones we do that with now I think are the 
D.C. sentenced offenders. Because they are under that system 
but we are housing them. So we do have, I think, some aspects 
of parole left.
    Yes. We think there should be, first time drug offenders, 
nonviolent, we think should be something that you could look at 
to transfer them, like the states are starting to have to do 
because they cannot afford this. So they are moving them into 
treatment, into the drug courts, those kind of things. And 
hopefully keeping some of the crowding down in the system. But, 
yeah. We think that that kind of stuff should be, all that 
should be looked at.
    Mr. Bonner. Shifting subjects. Given that the Director 
indicated earlier, and I think you would, trust you would 
confirm with our knowledge, that there is a growing rate of 
non-U.S. citizen inmates in our prison systems. How, what 
special challenges does that statistic present to the members 
of your union?
    Mr. Lowry. As a whole I think one of, probably the major 
challenge is, is that a lot of these inmates that come in, not 
being U.S. citizens for the most part, not speaking English. Of 
course, they do have educational programs and sooner or later 
most of them pick it up. But not speaking it right away, we 
have had to try to over the years have a cultural type change 
to get our staff acclimated. There has been a big move because 
the population, Hispanic population in our prison system has 
grown at such a huge rate probably over the last ten years. At 
one time, most of the Hispanic inmates mainly were in prisons 
in California, Arizona, Texas, Louisiana. And now we see that 
trending up more to the Midwest and the northern prisons. As 
the population grows where you really did not see that many 
Hispanic inmates before now you have them. And in these higher 
security level prisons, where you have taken pretty large 
numbers and moved them in, the inmates that have been there who 
feel like, you know, they are going to run the contraband, 
drug, gambling rings inside the prison, it has caused some 
disturbance situations.
    One place that has experienced that is in the Chairman's 
district, Hazelton. And there are other penitentiaries that are 
facing that same thing with combining the inmate gangs 
together. Because as the Director testified earlier, some of 
these Hispanic gangs are now some of our most violent gangs in 
the prison system. And he named some of them off, being the 
Surenos, they are some of the most violent.
    Mr. Glover. Language has been the most difficult part, 
although we do some immersion training for staff to try to get 
them trained up a little bit to speak some Spanish. That is the 
major one. We do have some Chinese gangs that we received from 
New York. And that is a very difficult language for staff to 
pick up and to understand. So monitoring them is difficult. The 
same with telephone monitoring, letters, it is a very difficult 
thing. And what we have to do is basically record that and send 
it out to other translation, like the FBI or somebody, to 
translate those letters and those things to make sure that the 
prison system is safe. So that is probably the hardest thing, 
is the language barrier.
    Mr. Bonner. I guess the last question I would have is, I 
posed the question to the Director earlier because many times 
we have an opportunity to go home and do town meetings with our 
constituents and they ask us question that sometimes are better 
than the ones we come up with. I asked the Director a question 
about how do the prisons actually have so many problems with 
gangs and with drugs, and weapons, and things of that kind? 
Because many people, in the minds of many American taxpayers 
they would think if there was one place where you could keep 
drugs or weapons out of possession it would be in a prison. To 
this point, do you, do you believe that we are being as 
innovative as we could be with our rehab programs? So that when 
a prisoner, for instance, that has come in with a drug 
conviction, that, are we going to the lengths that we need to 
go to to make sure that when they go out, back into society, 
that we have given them every opportunity to leave the bad 
behavior of the past behind them. So that they can become a 
model of what not to do as opposed to going back to an old bad 
habit?
    Mr. Lowry. I think the law is there in some of these cases, 
as far as, like, DAP Programs, other programs to get inmates 
involved. I think the policies are there behind that to do 
that. But I do not think, and it can go with a lot of areas, 
that the funding has been there to fund these things. You take 
staff who are currently in place who are performing other 
functions, and then you create these new functions, procedures, 
processes, that are going to put more inmates on a caseload, or 
that there are additional procedures and work that staff have 
to be performed. And although our staff are professionals, and 
follow policy, and do the best they can with the numbers they 
have, it is, if you continue to add things and you do not 
continue to staff them, in other words what would encompass a 
full time job or additional full time positions, and you keep 
putting things on your current staff. Then sooner or later 
things are not done the way they should be to give enough 
emphasis or time on that program. And that has happened in the 
Bureau of Prisons because we have not increased in, probably, 
in staff. We decreased the number of positions that we had 
probably about five years ago. There was about 2,300 paid 
positions that were eliminated. And at that point, other than 
maybe additional, not very many additional staff have been put 
in place.
    The Bureau of Prisons constantly uses cost savings 
initiatives, such as holding positions open for six months, not 
filling this, not filling that. There is a priority to bring 
correctional officers on, but it is usually between 85 and 92 
percent depending on the location, depending on what type of 
security level it is. But there are so many positions that are 
vacant, or that are not filled, outside of the correctional 
services department. Correctional officers make up a third of 
the staffing at any given institution and the rest are 
correctional workers, we consider them as. They are law 
enforcement but they are like your DAP coordinators for drugs, 
your case managers, and these people continuously get things 
put upon them. And there is no additional positions for that. 
They are not getting hired behind. So, I mean, they are 
performing all the work. And I think the things are there. The 
law is there. The procedures are there. We just need the budget 
so that we can have the staff to put there to make it more 
effective.
    Mr. Bonner. Thank you, Chairman.
    Mr. Mollohan. Thank you, Mr. Bonner. Mr. Kennedy.

                      SELF-HELP GROUPS IN PRISONS

    Mr. Kennedy. Thank you. To follow up on that question, how 
frequently do many of these federal prisons allow self-help 
groups to come in on the drug and alcohol self-help groups? As 
you just acknowledged, basically you do not have enough funding 
to have these case coordinators have these programs funded and 
the like. How accessible do you make the prisons to outside AA 
groups, NA groups and the like, to come in and, you know, 
fellowship with prisoners who have drug and alcohol problems, 
or things of that sort?
    Mr. Glover. Through our chaplain services, Congressman, we 
have a number of volunteer groups that come in and work. 
Generally, it is on weekends. But we have a chaplain group that 
comes in, all of the, probably six or eight people that they 
get from the local community churches. And they come in and 
work with some of the inmates. It is certainly probably not 
enough. I am not sure that we have an AA chapter that comes up 
and works with any of the inmates. We have a paid drug 
treatment that runs programming for that. It is a difficult 
mix. Because anybody that we bring in has to go through a 
background check. And so, if they are going to come in and work 
with inmates, if they have had past experiences with, if they 
have had issues in their past, then they may not even be able 
to be screened to come in and work with inmates.
    Mr. Kennedy. Right.
    Mr. Glover. And so that is a, that is a concern. Whether 
they reoffend, whether connections that they might make. So we 
have to be very careful, obviously, on who comes in to work 
with them. But I know our chaplain service works a lot to bring 
outside groups in. And our recreation departments try to bring 
people in to work with inmates. And provide some quality 
programming, too. I am not sure if that answers----
    Mr. Kennedy. Okay, that is good. Maybe if you could get us 
a sampling of various prisons or some of the work that they are 
doing. As you mentioned, I think it is anemic. But it would be 
really good to be trying to send a charge out to management to 
do more. And I think there is an interest on the community's 
part to do more if they are given the right direction. I know 
that there are a lot of activist groups that want to be 
participating if they are given those chances to sign up and 
the like.
    Let me ask you, with respect to the turnover between public 
correction officers and the private sector, the staff turnover 
per your 16 percent for public corrections facilities versus 
the private sector, which is 53 percent. So in less than two 
years the entire security force in a private prison turns over. 
What concerns do you have regarding the turnover and experience 
rate of staff of private vendors?

                         PRIVATE SECTOR PRISONS

    Mr. Glover. Just real quickly, we would like you to do away 
with private sector prisons, frankly, Congressman. We have been 
arguing about this for, since 1996, when Taft was put in as a 
private prison that was built by the United States government, 
and handed over to a private contractor to run because they 
said they could run it cheaper and better.
    It is clear from most studies that there is no real cost 
savings. There is less oversight. And now we have run into a 
real interesting situation, where we have Reeves County, Texas, 
that went up into a riot, 2,400 inmates. And we sent bargaining 
unit, Bureau of Prisons law enforcement staff down there, about 
fifty of them, to help the private prison. They want to run it 
on their own, they want to run it better and cheaper, then they 
can find their staff from their private prison somewhere else 
to come down and help. We would like it to be defunded, to 
allow us, bargaining unit employees, to be sent to help private 
contractors, who are basically trying to take our jobs. It does 
not make a lot of sense to us.
    A 2007 GAO Report, I believe it was, says that we do not 
even keep the statistics anymore to make a comparable cost 
analysis of a low security prison run by the Bureau and a low 
security prison run by the private sector. Now that is what the 
GAO says. I saw the rebuttal to it. And that is fine. But we do 
not believe, number one, for the oversight purposes, 
programming, all of those types of things, that this Committee 
should even fund them.
    Mr. Kennedy. Well, it is certainly clear that it is, the 
turnover in staff has got to be a real issue here with respect 
to safety.
    Mr. Glover. We have a line of people. We have a private 
prison in Clearfield, Pennsylvania. We have had a line of 
people from Clearfield, Pennsylvania applying at Loretto, 
Pennsylvania and Allenwood, Pennsylvania trying to get out of 
that private prison. Now, I do not know why. I mean, I do not 
work there. But obviously, there is some reason that those 
staff want to get out. Now, I will say this----
    Mr. Kennedy. Do we have some of the profit margins that 
some of those for profit prisons are garnering?
    Mr. Glover. Well, I know what they are paying some of their 
executive staff, if that will help.
    Mr. Kennedy. Okay. If you could submit that for the 
Committee that would be helpful.
    Mr. Glover. Absolutely.
    Mr. Kennedy. And give us some examples if you have some of 
them.
    Mr. Glover. Well, here is a former BOP warden who now made, 
according to the Forbes.com, total compensation $771,000 was 
reported for him. A former Director of the Bureau who now works 
for private sector contracts, $854,000.
    Mr. Kennedy. As a manager of one of our prisons?
    Mr. Glover. Well, these are over GO Group and Corrections 
Corporation of America, which are contracting----
    Mr. Kennedy. Contracting for the prisons?
    Mr. Glover. Correct. Here is another former Deputy, or 
Assistant Director in the Bureau, whose reported total 
compensation was $1,400,000 working for Corrections Corp. Of 
America.
    Mr. Kennedy. Let me just ask you, is there not also some 
disparity in sentencing? Was there not a great deal of lobbying 
by Corrections Corporation of America for stiffer drug 
penalties and the like in order to raise the amount of 
sentencing. It is good business for them, obviously.
    Mr. Glover. We have a report from last year that they spend 
approximately in a two-year period $2.5 million on lobbying 
activities. We certainly do not know what they, what their 
message is. Except if you go to their websites. But that 
definitely is, they have spent a lot of money on lobbying.
    Mr. Kennedy. Well, Mr. Chairman, I would just say, I think 
it is worth this Committee's time to look at what they are 
spending that lobbying money on. And particularly, whether this 
whole issue of them advocating for, you know, harsher 
sentencing on drug laws is one of the those things that they 
have been spending money on in the years past.
    There is a terrible situation in Pennsylvania recently 
where a couple of judges, juvenile court judges, have been 
sentenced for kick backs in a private contract, for a private 
contract prison in Pennsylvania to a private prison for 
sentencing kids to a prison in exchange for bribes. This is an 
unfortunate situation that is happening because of the profit 
nature in prisons, and that I think is not part of the 
correctional nature that we should be engaging in in terms of 
our government playing profit with the prison. And it also 
makes no sense in terms of security, which should be our 
paramount issue here. So I thank both of you for being here.
    Mr. Mollohan. Thank you, Mr. Kennedy. Gentlemen, there will 
be some questions for the record, I am sure, that members will 
want to submit. But I wanted to give you an opportunity to sum 
up. If there is anything that you would like to say that you 
did not cover in your opening statements, or was not covered in 
questioning, I want to give you an opportunity to get that on 
the record now. And, of course your written statement is made a 
part of the record. And if you want to submit anything 
subsequent to the hearing we welcome you to do that as well.
    We have requested, or if we did not we are going to, 
request some of the comparisons between private prisons and 
those operated by the Federal Bureau of Prisons. We had a bit 
of a discussion about that, as you know, this morning. And to 
the extent we do not feel like we have enough information on 
the record we will ask the Bureau of Prisons to submit that.
    So if you have anything else to add before we close this 
panel, I invite you to come forward now.

                           Mr. Lowry Summary

    Mr. Lowry. Okay, I will make this real brief. I appreciate 
the opportunity to be here today to be able to speak to this 
Committee. It is really an honor for me. In just a closing 
brief here, all I would say is our agency has spiraled out of 
control. Our staff that work in these prisons everyday are 
being put in grave danger, here, because of the understaffing.
    I will sum it up by saying that we are no longer a 
proactive agency. We are reactive to what goes on. You have to 
have bodies out there supervising these inmates. If we cannot 
prevent the manufacture of weapons we cannot control or contain 
them from being made inside of our prisons and used against 
each other. Last year, there were eighteen inmate homicides 
inside of our federal prisons, the highest in any year that I 
know of. There were only twelve in 2007, seven in 2006, six in 
2005, and three in 2004 and 2003. That number alone shows the 
severity of the increase of violence inside the prisons. And 
there has been many staff also that have weapons used against 
them.
    Of course, I mentioned that one of our officers lost his 
life who was brutally attacked by two inmates. It could have 
been prevented by many things that occurred, too many to say 
today. But many things could have prevented that loss of life 
as well.
    But I would like to say something has to be done. To look 
at our agency, how our administrators are conducting their 
business. The policies that they are putting out are not sound 
anymore, because we do not have the staff to operate or to keep 
these prisons as safe as we should. Not only for our staff, but 
we are charged with ensuring the safety and humane the 
treatment of inmates as well. That is our jobs. And we have to 
have the staff out there to supervise to keep these inmates 
from making this contraband and then using it against one 
another.
    And we are only going to do that. Cameras do not do that. 
Cameras are oversight at the end of the day. If you ask 
honestly of our Director or anybody that worked in our prison 
system, the majority of the cameras are only viewed if there is 
an incident that occurs. But nobody is sitting there watching. 
It plays twenty-four hours all over the place, but for the most 
part there is nobody watching that camera. It is the staff 
members and the inmates. If something occurs, it is nice to 
have it, and go back and review and see why it happened or how 
it happened. But we have to have the staffing to keep our 
prisons safe. Staff and inmate alike.
    Mr. Mollohan. Before we go to Mr. Glover, an issue has come 
to my attention here recently, and I meant to ask you about it. 
It was manning towers versus relying upon cameras perhaps, but 
also electrified----

                              STUN FENCES

    Mr. Glover. Stun fences?
    Mr. Mollohan [continuing]. Electrified fences, stun fences, 
which I understand stuns a person in the first instance, but 
then if they go at it again it electrocutes.
    Mr. Glover. Correct.
    Mr. Mollohan. Would you talk about that issue a little bit?
    Mr. Glover. We have spent $200 million on towers. I can 
speak for Canaan, Pennsylvania in particular, but I know 
Hazelton is the same way. We spent about $200 million to build 
a tower. Now we are not manning the towers because we do not 
have the staff to man them, and we need to find places to put 
those staff. They are working in units and other places.
    So they came up with this idea of a stun fence. Now, 
apparently some states had played around with this idea. I have 
been told from staff at Hazelton, for instance, and from Canaan 
that the stun fence goes down in adverse weather, or can go 
down in adverse weather.
    Now, I am sure that the Lieutenant who is on duty probably 
sends a staff member and puts him in a vehicle with a firearm, 
and then makes him drive around in circles if that stun fence 
goes down. Because you have to have some sort of last resort.
    But the towers were not just for inmate escapes. The towers 
are to observe the recreation yards, to observe back into the 
yard as much as possible. And if something happens that is 
where a staff member would run, to the base of the tower, to be 
protected. If a staff member is out on the yard with 800 
inmates and they start to riot, you would run to the underside 
of the tower so that the tower officer can put a firearm or a 
nonlethal weapon. The first thing they try is nonlethal from 
the tower. If that does not work they may have to change to 
lethal at some point if they cannot get a handle on the 
disturbance.
    But we are opposed to these stun fences. We think the 
Congress should review them. We believe the towers are the way 
to go with staff working in them, not empty ones. But again, I 
know that some of these decisions are made because of the 
funding levels. And so when you are, you know, trying to 
determine build this housing unit or fill this tower, well let 
us find a way not to fill the tower if we can.
    Mr. Mollohan. Did you have any other comments, then? I 
think Mr. Wolf has a question.
    Mr. Glover. My only other comment, Mr. Chairman, was that 
we appreciated the A-76 language that was put in last year and 
that is put in this year. We believe that we should be 
inherently governmental. The Justice Department in 2002 changed 
us from inherently governmental to I think governmental 
function, but not to be contracted. We would like that 
determination to be reversed.
    There are a number of things, obviously we just got into 
the private prison issue a very small amount. But I do not 
understand how it takes $700 million for a ten-year contract to 
California City for low security, criminal alien inmates that 
do not require programming. $700 million was what that contract 
was. And it makes no sense to us. We do not, I do not know of a 
prison in the system that runs at that rate per year. I do not 
know of one. I mean, the Supermax may, maybe some of the pens.
    Mr. Mollohan. We will look at it. We will look at it.
    Mr. Glover. That would be my only thing. Bryan covered 
everything else on the health and safety issues.
    Mr. Mollohan. Okay. Mr. Wolf.

                           Mr. Wolf Questions

    Mr. Wolf. Thanks, Mr. Chairman.
    Just quickly two questions. And without going into detail 
on the first, are there a lot of things that go on in prisons 
that the Congress and the public just don't really know about?
    Mr. Lowry. On a daily basis. There are many things that 
occur on a daily basis. And I hate to frame it this way, but we 
have as a union tried to get some of these things out to our 
Congressmen, to our Senators, to the media on a daily basis 
things that just occur.
    That is like these stun-lethal fence that was brought up a 
second ago. This project has been in place for several years 
now. And in the meantime of bringing this project up, they 
unmanned the towers at a penitentiary in Terre Haute, Indiana 
at a high-security prison and just put extra perimeter zone 
patrol.
    Like Phil testified a second ago, these are safe harbors 
for not only staff but inmates. If a riot or disturbance occurs 
on the yard, the first reactionary thing is a dispersion round 
to try to get inmates to separate and lay down. If they don't, 
three times last year our staff member had to take the lives of 
inmates from there to prevent further serious bodily injury or 
loss of life.
    And so those kind of things are occurring. I mean, there is 
many things that happen that we try to get all this out. It is 
just there is a lot of things that occur.
    Mr. Wolf. And I never knew what a stun fence was until the 
Chairman mentioned it. I had never heard of it. Would it make 
sense to put together a high-level panel task force to take a 
year to do an in-depth study of the prison system in the 
country and report back to the Congress?
    Mr. Lowry. We absolutely believe so. As a matter of fact, 
Phil, I think has asked or tried to request hearings. And I 
don't know who you requested them through. But we have 
requested hearings on some of these issues through Congress. 
And I think he has mainly done that through his Pennsylvania 
delegation.
    Mr. Glover. We would certainly welcome any kind of study on 
the system.
    Mr. Wolf. Thank you very much.

                            JUVENILE JUSTICE

    Mr. Kennedy. Excuse me, Phil, since you are from 
Pennsylvania, do you know that story about the juvenile 
justice? Could you just fill us in briefly on that?
    Mr. Glover. There were two judges that were apparently--I 
think they pled guilty to 60-month sentences each I believe and 
were disbarred. They had been taking juvenile offenders and 
instead of giving them probation or giving them some sort of 
treatment if they were--if they had anger issues, things like 
that, and this was in all the papers--I mean, this was in a lot 
of papers in Pennsylvania, they were sentencing them to the 
harshest penalty and sending them to a private juvenile 
contractor for incarceration. And they were getting money back 
from the contractor.
    Now it said in the papers and in some of the other stories 
that came out that they haven't identified--I guess they 
haven't identified who in the contractor companies that they 
are going to go after. But apparently there is going to be some 
further investigations on that.
    And now I can get the articles and send them in for the 
record if you would like.
    Mr. Kennedy. I would appreciate that. Thank you.
    Mr. Mollohan. Okay. Thank you, gentlemen, very much for 
your appearance here today, for your hard work on behalf of 
your membership and the Bureau of Prisons, and for protecting 
society generally. It has been excellent testimony. We would 
appreciate maybe following up in certain areas, but thank you.
    Mr. Glover. Thank you for having us.
    Mr. Lowry. Thank you.
                              ----------                              --
--------

                                           Tuesday, March 10, 2009.

                OFFENDER DRUG ABUSE TREATMENT APPROACHES

                                WITNESS

FAYE TAXMAN, PH.D., PROFESSOR, ADMINISTRATION OF JUSTICE DEPARTMENT, 
    GEORGE MASON UNIVERSITY

                            Opening Remarks

    Mr. Mollohan. The hearing will come to order. For our last 
hearing of the day, we welcome Dr. Faye Taxman, Professor in 
the Administration of Justice Department at George Mason 
University.
    Dr. Taxman, welcome to the hearing today. We appreciate 
your really working your schedule to accommodate us. We 
particularly wanted to get your testimony in. It is a bit 
unlike any other testimony. And I think it was really important 
in a way only you could offer the kind of insights that I think 
we are looking for. And we so much appreciate your making 
yourself available. And I know you did it at some considerable 
effort.
    Dr. Taxman has expertise in the broad range of prisoner 
reentry issues we will be discussing between today and 
Thursday. But we have asked her to focus here this afternoon on 
what is perhaps the most critical challenge facing many 
offenders who reenter our communities, substance abuse.
    Forty percent of inmates entering federal prisons have a 
drug use disorder and require residential drug abuse treatment, 
because they have a residual craving for the drug.
    Over the last several decades, our society's approach to 
dealing with criminal offenders has been in flux. Beginning in 
the 1970s, the criminal justice system at the federal and state 
levels began to focus more on punishment than rehabilitation, 
due in large part to a rising crime rate and research showing 
that rehabilitation programs were having little effect on 
recidivism, accurate or not.
    In the late 1980s, states began imposing mandatory minimum 
sentences and three-strike laws that increased the period of 
time an offender is likely to serve. The population of state 
and federal prisons has increased significantly.
    Between 1995 and 2005, the number of people in prison in 
the United States grew by approximately three percent per year, 
compared to an overall population growth of one percent. Add to 
that the fact that the cost of incarcerating an adult is 
approaching $29,000 per year, which is greater than the cost of 
almost any treatment program or any other prison alternative. 
As a result, many states and the federal government have been 
implementing new prisoner rehabilitation initiatives as a tool 
for reducing recidivism.
    Last year's enactment of the Second Chance Act was 
testament to that change in thinking. We have begun to 
understand that offenders are much more successful in 
reentering their communities from prison if they have 
comprehensive, coordinated support and services, and that 
society is better off in terms of reduced crime and costs when 
that happens.
    What prevents many offenders from successfully reentering 
their communities is drug addiction. Addiction is a powerful 
need. And addicts are unlikely to be able to make the right 
choices unless we help them deal with that addiction through 
drug treatment programs, counseling, and other supports.
    Dr. Taxman, in a moment I will ask you to briefly summarize 
your written testimony. But first I want to turn to our Ranking 
Member, Mr. Wolf, for his comments.

                        Mr. Wolf Opening Remarks

    Mr. Wolf. Welcome. It is good to have you here from George 
Mason University.
    Ms. Taxman. Thank you.
    Mr. Mollohan. Thank you, Dr. Taxman. As I indicated, your 
written statement will be made a part of the record. And 
proceed as you will. Thank you.

                       Fay Taxman Opening Remarks

    Ms. Taxman. Well, thank you very much for accommodating my 
schedule. I really appreciate that. And I was flattered, 
Chairman Mollohan, that you asked for me to testify. It is a 
pleasure really to be here today and to share with you the 
issue about drug treatment services. I actually did my 
dissertation on this topic many years ago. So I really 
appreciate this opportunity. I appreciate the interest in sort 
of thinking about how we really address this severe problem in 
our society.
    How we address the severe problem of illicit drugs in our 
society, but also how we change the culture of the criminal 
justice system to respond to drug users. And I am using that 
term very broadly to include corrections, prosecutors, 
defenders, defense attorneys, prisons to really be able to 
offer effective drug treatment services. And I think that is 
one of the challenges.
    So I want to really thank you all for all of your effort 
with the Second Chance Act. That is an extremely important 
piece of legislation for us to begin to rethink how to better 
provide services within the criminal justice system. Since we 
have had this 30-year history of being a punishment-oriented 
system, it is not easy to change the face of the criminal 
justice system overnight. It is not easy to offer effective 
services. Although it is heartwarming to listen to the 
gentlemen who were here before me, that they are very 
supportive of expanding drug treatment services for offenders.
    I know from my own work that delivering drug treatment 
services behind the walls, in community corrections settings, 
in jails is not an easy endeavor. And there are lots of changes 
in the culture within those criminal justice organizations that 
will need to occur for us to be effective at reducing recycling 
and recidivism rates.
    We are at an important crossroads now. And an act like the 
Second Chance Act and other related legislation can really help 
us do this. We have a body of knowledge about effective 
treatment services.
    And I want to stress that, because in the 1970s when Robert 
Martinson, who was the father of the ``nothing works'' mantra, 
much to his demise actually. But he basically was looking at a 
very narrow set of work during this period of time.
    We actually have 30 years of experimental research that has 
been done in cross disciplines in psychology, sociology, 
criminology, biology that points us all in the same direction, 
which we know some of the treatments that work. Our bigger 
challenge is putting these treatments and services in place. 
And we really need to begin to think of ourselves not as 
separate systems--prisons, probation, parole--but really an 
offender management system, so that we can try and mitigate the 
risk of offender populations.
    We tried actually to do this in the early 1990s, when we 
experimented with the concept of intermediate sanctions. It was 
a very brief period of time. And to be honest, it didn't work 
very well. And there are important lessons in that era that we 
should really be thoughtful about in trying to build capacity 
now, to think about how to more safely manage offenders in the 
community.
    I put together testimony which, I am not going to read. But 
there are five points that I would like to make. First of all, 
substance abuse treatment works. We know that it is effective, 
if it is delivered appropriately.
    We also know that it is cost effective. For every dollar 
that you spend in substance abuse treatment, you can reduce 
seven dollars in other costs within the criminal justice 
system. And if you included victims issues it would actually be 
more than seven dollars.
    We also know that the most effective treatment are those 
that target behavioral therapies augmented by new medications. 
And this is going to be a challenge for the Criminal Justice 
field. There are a series of medications now available that can 
really help people recover and get into recovery mode in a 
quicker fashion.
    This is important, because when you have a 30-year-old 
person, which the average offender is around 32 years old, and 
they have been using drugs for 15 or 20 years, to think that we 
are going to change someone's life in a six-month program is 
really not wise. But there are medications that can help 
accelerate recovery. There are behavioral tools. And there are 
support services like Mr. Kennedy talked about, such as self-
help groups that are really important to bring together into 
this field.
    Our biggest challenge is that we have such low capacity 
right now to provide treatment services. We recently completed 
a survey funded by the National Institute on Drug Abuse and our 
estimate is that on any given day across the federal system, 
state and local systems, less than ten percent of the offender 
population can participate in substance abuse treatment 
services.
    I am a quantitative analyst. We examine system impacts. You 
can't have an impact on a system when you have one out of ten 
people in care. You can't change the culture of that 
organization. You can't get the staff to respond differently, 
because they are dealing with other efforts such as controlling 
behavior or monitoring offenders.
    We know that drug treatment works. We also know that our 
problem is not about substance abuse just alone. That there are 
other criminogenic needs that offenders have. And we have not 
invested in the proper therapies to be able to deliver these 
other services. And in fact to be perfectly honest, no ``one'' 
owns that problem area to believe those services.
    The issue I am referring to is criminogenic value systems. 
No one provides those services. We often think that substance 
abuse agencies are responsible for those services. And so we 
really need to begin to think about how we offer a broader 
array of correctional treatments for this population. Using 
that average 32-year-old person who has been using, they have 
gotten into a subculture and a lifestyle that is really 
difficult to untangle unless we not only deal with their 
substance use but also the criminal subcultural values that 
they have learned and subscribe to.
    That being said, what are some of the things we could do? 
Well, I believe one of the biggest steps forward that we can do 
is actually be much more interested in developing a community 
correction system that prevents incarceration. And you all have 
noted the sentencing challenges before us. But part of the 
reasons that, I believe and others in my discipline believe 
that we have left ourselves to basically relying on 
incarceration, is that we don't have a community punishment 
system. And most people think probation is basically a slap on 
the wrists. And so, therefore, you box in prosecutors and 
judges, because they really don't have a lot of options.
    And yet we can learn from our colleagues overseas. Have a 
much broader array of punishments. For example, in Germany if 
you are arrested on drunk driving, a first-time offender is 
fined with a $5,000.00 fine. In the United States, we fine 
people about $250.00-$300.00. In Germany a chronic drunk 
driver, three-time offender, gets fined $25,000.00. And they 
can take away some of their property like their cars. In the 
United States, a third-time offender may go to jail, may not. 
And they still get fined about $300.00 or so.
    We haven't been as creative in terms of thinking about how 
we encourage people to address their substance use disorders.
    The second point is is that we have already noted that we 
need a culture shift in order to accommodate treating the 
offender population towards the goals of reducing the risk of 
recidivism. The current model that the Office of Justice 
Programs tends to use to be able to provide assistance to 
state, local, and federal agencies, from my perspective, is 
broken. And it does not really develop what we have learned in 
the healthcare industry about organizational change.
    There is models of technology transfer centers that I would 
highly encourage you as, a Subcommittee to really explore to 
help the U.S. Department of Justice, change their methodology 
about how they provide technical assistance and grow the skill 
sets of the correctional officers, the probation officers, the 
drug treatment counselors, prosecutors, and defenders that work 
with this population.
    And in my testimony I have given you an example of the 
addiction technology transfer centers that is funded under the 
SAMHSA, the Center for Substance Abuse Treatment, where they 
for almost 15 years have put in place across this country just 
mechanisms to be able to help move--train professionals, 
augment what is available within state systems, to really give 
them the skills to work with the offender--addicted population 
differently. And I think it is a model that really should be 
considered to advance practices.
    And finally, I would be remiss as a researcher not to note 
that the National Institute of Justice, lacks appropriate 
funding to advance our knowledge. And, the biggest funder is 
actually the National Institute on Drug Abuse. But NIDA's 
interests are a little bit narrower than what is needed given 
the organizational issue and providing comprehensive treatment 
services for the offender population. So in my testimony I 
cover these five points.
    I also, if you don't mind, is you had asked the gentlemen 
before me about work in prisons in other countries. And I 
actually happen to be on some international panels. In other 
countries, there are very different prison systems. First of 
all, people are there for shorter periods of time, 
significantly smaller number of people in facilities.
    In England, the average prisoner is there for about nine 
months. So, you know, you have totally different issues. The 
prisons are smaller. We have prisons that are 1,200 people or 
small cities like, and there were several prisons that were 
probably 10,000 people. That is like a small town.
    In Europe, they also--they have work and they have far more 
treatment options for offender populations. And those treatment 
options take up most of the day of the people that are 
incarcerated.
    European prisons have a very different climate. The size 
creates unsafeness. And it also causes tremendous stress for 
the correctional officers.
    In Europe the focus is really on preparing people to come 
out. And they actually certify programs that are offered in the 
prison systems. In the U.S. we don't have a certification 
process here. They actually have a very well designed--it is 
actually a model that Canada uses too, most of the European 
countries--to really make sure that whatever programming occurs 
in prisons, from education to therapies, are designed on 
behavior change models. The certification proves that the 
programs are well-designed.
    So with that--you know, I am sorry to digress a little. I 
thought you were interested in looking at other countries.
    [Faye Taxman written statement follows:]

    [GRAPHIC] [TIFF OMITTED] T1247A.106
    
    [GRAPHIC] [TIFF OMITTED] T1247A.107
    
    [GRAPHIC] [TIFF OMITTED] T1247A.108
    
    [GRAPHIC] [TIFF OMITTED] T1247A.109
    
    [GRAPHIC] [TIFF OMITTED] T1247A.110
    
    [GRAPHIC] [TIFF OMITTED] T1247A.111
    
    [GRAPHIC] [TIFF OMITTED] T1247A.112
    
    [GRAPHIC] [TIFF OMITTED] T1247A.113
    
    [GRAPHIC] [TIFF OMITTED] T1247A.114
    
    [GRAPHIC] [TIFF OMITTED] T1247A.115
    
    [GRAPHIC] [TIFF OMITTED] T1247A.116
    
    [GRAPHIC] [TIFF OMITTED] T1247A.117
    
    Mr. Mollohan. Very interesting. Please don't apologize. 
That was really insightful. And there are a lot of differences 
there that you noted in a very short statement. One of them is 
the size of the institution. And it may be the quality of the 
issues they are dealing with as well.
    I can't tell you how exciting one part of your--all of your 
testimony is----
    Ms. Taxman. Thank you.
    Mr. Mollohan [continuing]. Exciting. But there is one part 
here that I want to follow up on. I have for a long time 
appreciated the problems associated with dealing with drugs and 
crime in the criminal system. And I wanted to make this 
statement and see what you think about it and how you relate to 
it.
    Today if somebody's precursor problem is addiction, and if 
in order to satisfy that craving that they wake up with, and go 
to bed with, and figure out how they are going to feed it 24 
hours of the day, it results in criminal activity. And you can 
only deal with that craving with some sort of incarceration. 
You can only deal with it after they get in the criminal 
system. I mean, if you are really dealing with the craving. And 
then finally, maybe, if you are lucky, you may get into some 
sort of a sympathetic and progressive program that will allow 
the addicted person to be separated from the drug. And over a 
certain period of time, either naturally the body will get away 
from the craving or there will be intensive therapy programs, 
counseling, or 12-step, or chemical, or whatever the program is 
to get the person well.
    But my point is this, in order to get the person in a 
situation where you can fix them and deal with the craving 
issue, you really have to get into the criminal justice system. 
So when I first started practicing law, we had civil commitment 
hearings for people with mental issues.
    Ms. Taxman. Yes.
    Mr. Mollohan. How the person got before the judge, I don't 
know. Probably a number of different ways. But there was a 
determination whether that person was certifiable and should be 
committed. And I have often thought that if we could have a 
civil remedy for getting the person who is addicted into the 
situation where you could deal with the addiction, deal with 
the cravings, that that would be a far better remedy than 
having to rely upon the criminal system in order to get them in 
an incarcerated situation. At that point, you have to deal with 
a whole lot of different issues. First of all, they are a 
criminal. And it is an imperfect system, because, in the United 
States, you do not have the kind of treatment programs that 
allow you to really get to the--to get to the underlying 
issues. We are going to try to work toward that in the Second 
Chance Act. It is a good start.
    But you referred to a community punishment system, although 
I don't know what you mean by that. But some of the statements 
you made leading up to that led me to believe that perhaps this 
civil incarceration option might be what you were referring to.
    Ms. Taxman. Well I wasn't really referring to a civil 
commitment sort of process. We actually had a experiment with 
civil commitments in the late 1950s, middle 1960s. Some states 
still have them on the books.
    But what happened there is that, we basically found that 
people's due process rights were not protected. And there was a 
tremendous infringement of their rights. And it caused a number 
of abuses that actually caused states and the federal 
government to move away from civil commitments. The federal 
government actually enacted--I think it was towards the end of 
the 1950s the Civil Commitment Act that was never really put in 
place.
    Mr. Mollohan. For drug addiction?
    Ms. Taxman. Yes, right. And I can send you--I actually 
wrote an article about this a couple of years ago. There are 
lessons to be learned. And it was also during that same period 
of time to be honest, that there was an anti-methadone movement 
that the Drug Enforcement Administration that precluded the 
development. It was the Federal Bureau of Narcotics. The 
emphesis in that era stopped us from pursuing different 
policies, because the methodology for treating people was 
basically a cold turkey methodology. And, in fact, you know, 
for some people that works, but for other people it does not 
work.
    But times are a little bit different in terms of what we 
know. We don't have enough medical doctors who know about 
addiction disorders. Although there has been some--you know, 
with some of the brief interventions that have actually 
occurred and trying to bring it into primary care, we have made 
some movements over the years.
    What I was referring to though in a community corrections 
system is really much more of a system. And I gave you a 
picture of such a system on page eight of my testimony.
    Mr. Mollohan. That is why we have you here. We wanted the 
academic things.
    Ms. Taxman. Where you would have a system that if someone 
gets arrested and they could assess the person for whether they 
have a substance use disorder at arrest. You assess could do 
this at a police station. You know, the police officer could 
actually make a decision not even to arrest but to divert to 
good quality treatment. And put in place the proper types of 
controls so that if a person doesn't go to treatment or, if 
they do not take their medications, then the systems can make 
other decisions.
    There was an experiment actually in Ohio about five years 
ago called Ohio Reclaim in which they did a diversion program 
where they agreed to expunge the record of the defendant if 
they completed treatment and stayed drug free for a year past.
    Mr. Mollohan. But is that not pie in the sky? I mean, to 
think that a police officer could divert someone whom the 
police officer identified as an addicted person to some----
    Ms. Taxman. No.
    Mr. Mollohan [continuing]. Voluntary program.
    Ms. Taxman. I know there is a big debate about diversion 
programs. But how we have done diversion programs in this 
country have been very poorly done. And so if we had a much 
more integrated system where the person understood what the 
rules were and you actually had mechanisms to help people into 
treatment programs that was on demand.
    Mr. Mollohan. But what would the rules be?
    Ms. Taxman. The rules would be----
    Mr. Mollohan. It wouldn't be criminal rules in your----
    Ms. Taxman. You motivate people. You know, part of the 
issue about dealing with addiction is helping people to 
motivate themselves to care about themselves. And there is 
methodologies available in the treatment in clinical called 
motivational enhancement therapies. Some of these techniques 
can be used by police officers, probation officers. They don't 
have to be confined to just a clinical setting.
    What we find with the mentally ill, a lot of police 
officers are actually doing a lot of treatment if you want to 
talk about it.
    Mr. Mollohan. Well, I look forward to following up with 
you.
    Ms. Taxman. Okay.

                        REHABILITATION IN PRISON

    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    One, is work important to this to this effort in prison and 
when somebody is going through rehabilitation?
    Ms. Taxman. Work is always important for two reasons. One 
is it fills a person's sense of self efficacy and gives a 
person skills so that they can be productive on the outside. 
And two, idle time is, largely why people continue to use and 
if they don't really have things to keep themselves occupied.
    Mr. Wolf. What about faith-based programs?
    Ms. Taxman. You know, the literature is out----
    Mr. Wolf. The Colson's group, Prison Fellowship for 
instance.
    Ms. Taxman. The Prison Fellowship does is give people 
options. I wouldn't say that we don't know enough about the 
recidivism rates of those programs. There hasn't been 
sufficient studies.
    Mr. Wolf. I have read that the recidivism rate--they 
operate a couple of prisons, one down in Texas. They have one 
of the lowest recidivism record. I think we will get that for 
the record and submit it at this time.
    Ms. Taxman.
    Mr. Wolf. And then we will also--John, are you there--try 
to get you a copy, so we can let you see it. But they have a 
very good record with regard to recidivism.
    Ms. Taxman. The thing you have to watch is really whether 
that person had a severe addiction disorder or whether or not 
they are treating lower risk offenders with less serious 
disorders. This is our problem sometimes with comparing 
studies. A lot of the programs in prison, like the prison-based 
fellowship programs are very good at connecting people. And 
that is an important part of the recovery process. To me it is 
not the location of where people get the treatment. It is 
actually what occurs, and whether the person themselves makes a 
commitment.
    So, you know, I think where we are at now we need a broad 
array depending on how serious the person's addiction disorder 
is.
    Mr. Wolf. What countries by name do the best?
    Ms. Taxman. For dealing with substance abusers? Italy, 
France, Israel. They all provide medication and pharmacies for 
people. They provide longer-term treatment. In Israel for 
example----
    Mr. Wolf. How long do they treat?
    Ms. Taxman. They are about 12 to 18 months.
    Mr. Wolf. And what is our length of time here in the United 
States?
    Ms. Taxman. Our average time is about 60 days.
    Mr. Wolf. Sixty days.
    Ms. Taxman. It is a big difference. They also use skilled 
clinicians. Their social workers generally have masters in 
social work. Whereas we often use bachelor level or people who 
do not have degrees.
    This is a big issue in our country in terms of qualified 
staff to really deliver these services. And, both in the 
community and prisons, we often don't pay enough salaries to 
really attract people with masters levels.
    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Kennedy.
    Mr. Kennedy. Thank you. Could you just go back to that 
federal civil commitment for drugs? Could you explain that?
    Ms. Taxman. Sure. As I understand, the federal and civil 
commitment was usually initiated either by the Criminal Justice 
Agency or by a loved one of the individual. And they would 
approach the court and ask for a civil commitment, just like 
you if you would for mental health when we used to have that. 
There used to be a court process involved. There was a lot of 
concern over that time about whether or not people had 
appropriate representation. There was also concern about the 
length of time that people were committed. And it----
    Mr. Kennedy. But do you think there is a way that we can 
amend that so that those concerns get remedied?
    Ms. Taxman. I think through our medical treatment system--
--
    Mr. Kennedy. So we now bring----
    Ms. Taxman [continuing]. We could do that.
    Mr. Kennedy [continuing]. Medical treatment providers doing 
assessments.
    Ms. Taxman. Right.
    Mr. Kennedy. So it is not the personal, like family members 
getting into a feud over mom----
    Ms. Taxman. Right. I am not dismissive of that as an 
option. I think, you know, where we are today, I think looking 
for civil remedies or non-criminal justice remedies is probably 
the smartest thing we can do.
    I think our challenge is not to be attentive to those 
fallacies that occurred before and that caused people not to 
use that mechanism.
    Mr. Kennedy. Well, obviously, it is just a very costly 
process to go through the courts. So we need to find out a 
mechanism where we have family courts in this country be able 
to have a process--where the bar isn't set so high that to trip 
it----
    Ms. Taxman. Right.
    Mr. Kennedy [continuing]. You have to have a crisis 
situation already have occurred----
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. For it to trip it. And then it is 
near impossible to stay on top of it.
    And you have had problems now with Alzheimer's and dementia 
and a whole host of other issues now. This is a endemic problem 
for a much broader section of the populace it seems to me. We 
are going to have to address, not only on this specific issue 
but across the country.
    Ms. Taxman. Yes.
    Mr. Kennedy. So your input on this will be very helpful to 
the Committee.
    Ms. Taxman. Well, you know, from my perspective, anything 
where we can get the medical community involved in the care of 
these individuals can begin to bring change to the system.
    Right now we don't have a system where medical doctors or 
nurses can, participate in the care. Bringing in the community 
health centers where they are starting to work with offender 
populations on the reentry phase. But there is no reason why 
you couldn't have people who have substance use disorders who 
are known in those communities, go to those centers for 
assessment. Given therapies, we are trying to get people to 
start in the recovery process that way.
    I mean those aren't mechanisms that exist now. And that is, 
I think, what you are suggesting.
    Mr. Kennedy. And then in terms of the medications, getting 
them turned on right away, right after a prisoner leaves the 
prison, is crucial if they are Medicare eligible, because if 
they don't, obviously they are going to self medicate right 
when they leave.
    Can you describe the importance of working our bureaucracy 
so that when a prisoner is about to be let go----
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. We coordinate to make sure that 
we don't have the lapse in their coverage on medications per 
se, if Campral or whatever, Naltrexone, the medications that 
can be helpful to them in assuaging their addiction. That stuff 
or maybe some medication for a psychological disorder, that 
that medication gets to them so that they are less likely to go 
out and try to self-medicate to feed their brain chemistry and 
balance that will then cause them to reenter the system. Could 
you just talk about that issue?
    Ms. Taxman. First of all, there is actually several studies 
that have come out within the last two years that have shown 
the benefits of really starting some of those medications 
before people leave prison. The person is preparing to leave 
prison and therefore they start the medications. The medication 
serves as a blocker.
    Mr. Kennedy. Right.
    Ms. Taxman. So there is good rationale for really doing 
more studies about starting medication beforehand. The issue 
you raised had to do with----
    Mr. Kennedy. You got us that obviously. I am presupposing--
--
    Ms. Taxman. Right.
    Mr. Kennedy [continuing]. That we should be doing that.
    Ms. Taxman. Well, that is----
    Mr. Kennedy. But the idea is that there is going to be--we 
have got so many battles on our hands. And that is going to be 
a big one, too.
    Ms. Taxman. Right.
    Mr. Kennedy. But I think that everybody would agree with 
the fact that if we want to stop recidivism, it sure doesn't 
pay to have someone coming out of prison who has got a chemical 
imbalance and a huge addiction, not to get medications that are 
going to help address that.
    Ms. Taxman. Right.
    Mr. Kennedy. And think that we are going to stop 
recidivism.
    Ms. Taxman. Yeah.
    Mr. Kennedy. So could you talk about that?
    Ms. Taxman. A lot of states now have tried to, if their 
state allows, for Medicaid assistance, to sign people up ahead 
of time before release. I think there is only half the states 
that actually provide that kind of care in terms of Medicaid 
assistance for substance use disorders.
    Other states like Maryland has a different process in 
place. They have an indigent care that includes a pharmacy 
system that offenders can access. I think you have to actually 
in that system be in the community.
    The best method is both Medicaid, people getting their 
driver's license and identification is to do that in that 
prerelease window. This should be 60-90 days before someone 
leaves prison. And also to give people 60-90 days of medication 
on their way out so that that lapse of time when they are 
getting readjusted. This provides tools to be successful.
    Mr. Kennedy. If you could provide us the studies that show 
that that is----
    Ms. Taxman. Okay.
    Mr. Kennedy [continuing]. Really efficacious. And why that 
policy you think is advantageous for us to be, supporting 
financially----
    Ms. Taxman. Okay.
    Mr. Kennedy [continuing]. Through the budget and 
encouraging through the Department of Justice. That would be 
very useful.
    Ms. Taxman. Okay. I would be happy to.
    Mr. Kennedy. What policies we need to be encouraging states 
and ONDCP and greater coordination as you talked about in terms 
of the continuity in the cultural system.
    Ms. Taxman. Yes.
    Mr. Kennedy. That seems to be a big part of it. Thank you.
    Ms. Taxman. Okay, great.
    Mr. Mollohan. Mr. Honda.

                          Mr. Honda Questions

    Mr. Honda. Thank you, Mr. Chairman. I appreciate having 
this hearing on drug treatment for offenders in the prison 
system. I think that is subject matter that probably needs more 
public attention than it has received in the past, not only for 
its social value but also for the economic efficiency that we 
might be able to obtain.
    I am a big supporter of drug courts. And believe that model 
has worked for some populations. It works with strong 
accountability, and rigorous treatment, and improved treatment 
outcomes for dependents.
    I was just wondering--how would you triage the population 
that would most benefit from it, and is there a difference in 
the terminology of addiction and habituation? And what are the 
differences? Is that something that we should be aware of? And 
then I think you said when in your testimony that the treatment 
for these folks should be multi-dimensional----
    Ms. Taxman. Yes.
    Mr. Honda [continuing]. Which probably makes a lot of 
sense. Where in that many dimensions does language and 
understanding of ethnicity and background play in that whole 
approach?
    The question was multi-dimensional.
    Ms. Taxman. I think multi-dimensional is fine. I think part 
of your question is definitions of key terms. In the clinical 
view, substance use ranges from recreation use to dependent 
use. And, you know, there is a large group that are just 
abusers.
    I think one of our challenges with drug courts, which, you 
know, to be honest, drug courts are probably the best example, 
besides the residential substance abuse treatment that behind 
the walls that continues in the communities of effective care. 
And part of it is because for the most part, they are longer 
term. Most drug courts on average are about 12 months. You 
gauge people in this change process in enough time that they 
can actually begin to regroup and stabilize themselves in the 
community.
    The one thing about drug courts, and I know the National 
Association of Drug Court Professionals is working on this, is 
try to get drug courts to basically work with the more serious 
substance use dependent person. As in most new innovations, 
people up front want to take a lower risk clientele, so that 
you don't have, you know, the ``Willie Horton'' problems of the 
late 1980s.
    The challenge is to use drug courts so that we are focusing 
our attention on dependent people for who are most public 
safety risk.
    The second part of your question has to do with what kind 
of therapies or interventions should we work with, and do they 
work as well with different ethnic groups. And, you know, we 
know a little bit about cultural competency for different 
treatment programs. Obviously, not every person is the same. We 
can only hope that our treatment providers really can screen 
people in terms of those factors.
    We know, for example, that Hispanics respond differently. 
That family issues are very important within that culture. And, 
therefore, we need to pay attention to that and some of the 
treatment programs. You know, with African-Americans, 
particularly young men, that there are different programs and 
services that would work better with them.
    Our treatment system needs to improve to be able to be that 
flexible. And part of that is sort of having more expansive 
services out there.
    Mr. Honda. It seems to me that we try to devise 
intervention programs based upon the current infrastructure 
that we have. And that could be a structural problem. If you 
were able to reformat how we address drug addiction and 
offenders and I guess maybe even mental health issues, do you 
separate them? How are they the same? And how would you really 
structure the intervention programs institutionally? And what 
would that look like?
    Ms. Taxman. Well, if the question is about the best method 
to deliver services, that I would take a behavioral health 
approach. Instead of having separate organizations for 
substance abuse and mental health, they could be delivered 
concurrently. Historically that was created because substance 
abuse treatment programs were not getting enough attention 
within mental health agencies. That was a few decades ago. 
There is a movement in a lot of states to offer behavioral 
health services that addresses the substance abuse and mental 
health care. And that means having staff that can deal with 
people who have both substance use and mental health issues.
    What we know about the substance abusers is that a good 50 
to 70 percent have some sort of co-occuring mental health 
disorder, and mental health patients tend to self-medicate. It 
makes sense in a kind of, you know, to have a delivery system 
where a person can handle the multi-dimensional aspects of 
addiction disorders and mental health issues.
    To do this requires us to begin to really think about how 
we fund substance abuse mental health, or behavioral health, 
organizations provide for people who have addiction disorders. 
And that is our major challenge. Right now they tend to be more 
community health organizations. Addiction treatment 
organizations are smaller in scope, although that is changing 
within the last ten years. More companies that are buying small 
treatment organizations and there are more private non-profit 
organizations.
    My own view is we need more behavioral health organizations 
that include the array of physicians and nurses that can help 
people manage their medications and deal with their medical 
condition, which we know are important to the recovery process.
    Mr. Honda. So the assignment of offenders usually go to 
prison first. And then you try to figure out whether they need 
any help if they have a history. And I was just wondering 
whether--if you had an ability to change the institutional 
choices that we have out there and give judges a bit more 
flexibility of where they can send some folks, what would that 
look like? You know, would it be outpatient. Would it depend 
upon their offense?
    Ms. Taxman. Well, actually most people spend several times 
on probation before they ever go to prison. We lose 
opportunities due to the ineffective probation system that we 
have in this country.
    I think the question you are asking, Congressman, is 
whether if we had a probation system where judges and probation 
officials had the resources to put people into appropriate 
treatment and correctional programs, then we could avoid 
sending people to prison. And that would be the optimum 
situation. That gets to the civil commitment concept where we 
have community capacity, half the orders right now on probation 
actually include some sort of drug treatment order. It is just 
people cannot get treatment in the community, because there are 
insufficient resources. And the available treatment is for just 
a short period of time. People cannot recover in 90 days.
    Our challenge is to offer treatment service that can make a 
difference. We need to maximize the amount that can be done 
within the community to prevent incarceration. Discipline 
people believe that we could prevent incarceration for about 
half the people that we currently send to prison.
    Mr. Honda. Cheaper.
    Ms. Taxman. And a lot cheaper. The Pew Report basically 
compared the different costs of probation, parole and prisons. 
Right now, the average state, like the state of Virginia, 
spends about $1,500.00 a year to supervise people on probation. 
If you added a comprehensive drug treatment component that we 
will say $5,000.00-$7,000.00 a year. This is about half the 
coat of incarceration or the $25,000.00 a year we spend for 
prison. Community sanctions cost less and this is the potential 
of what we need to build. Community corrections can build the 
infracstructure to allow people to be committed and attached to 
their communities. You don't disrupt the community, their 
families as much as incarceration--incarceration practices have 
to many negative consequences.
    We need a national initiative to improve community 
corrections. We have gone this route with prisons because we do 
not have enough good community correction systems in this 
country.

                         Mr. Mollohan Questions

    Mr. Mollohan. Let me follow up with regard to using 
medication. Right now I understand that Naltrexone is approved 
for----
    Ms. Taxman. Alcohol.
    Mr. Mollohan [continuing]. Alcohol.
    Ms. Taxman. Yes.
    Mr. Mollohan. And that it is approved in the form of an 
injection that can last 30 days----
    Ms. Taxman. Yes.
    Mr. Mollohan. And that it is very effective in taking away 
craving or satisfaction for alcoholic drinking. Is that 
correct?
    Ms. Taxman. Yeah.
    Mr. Mollohan. Are you familiar with that?
    Ms. Taxman. Yes. So Naltrexone, the Vivitol version of 
Naltrexone, is a once-a-month injection. It costs about $700.00 
a month according to the company Alkermes. The studies that 
have been done on alcohol abuse have shown that it reduces the 
number of heavy drinking days significantly. It increases the 
period of time that people are sober. But we lack long-term 
studies on the impact of these medications. If you don't get 
short-term results, you can't get long-term results. We need 
more studies to understand the medications impact over the long 
term.
    Mr. Mollohan. What is your reaction to its short term, 
observation of it?
    Ms. Taxman. These medications have promise. We are all 
human beings. It is very difficult to change behavior. So if 
you give some sort of medication that basically can stabilize 
someone, reduce some cravings, reduce biochemical reactions, it 
changes the person--this has the potential to be able to 
stabilize a person.
    Mr. Mollohan. So this is more than promising?
    Ms. Taxman. Yes. We need more scientific studies.
    Mr. Mollohan. More than promising?
    Ms. Taxman. I believe it is more than promising. There is a 
clinical trial right now going on with Naltrexone for opiate 
addicts that Chuck O'Brien of the University of Pennsylvania is 
spearheading. It is funded by the National Institute on Drug 
Abuse.
    Mr. Mollohan. Naltrexone?
    Ms. Taxman. Yes.
    Mr. Mollohan. The Vivitrol version of Naltrexone?
    Ms. Taxman. No. It is another. It is the Depot Naltrexone. 
It is also an injection.
    Mr. Mollohan. There is a study going on in Russia isn't 
there with----
    Ms. Taxman. I believe so.
    Mr. Mollohan [continuing]. Naltrexone used for narcotics?
    Ms. Taxman. Yes, right. But we have one. The National 
Institute on Drug Abuse is funding Chuck O'Brien and about five 
other research centers across the United States to test out 
Naltrexone within probation studies.
    Mr. Mollohan. For what substance?
    Ms. Taxman. Opiate.
    Mr. Mollohan. For cocaine.
    Ms. Taxman. Yes.
    Mr. Mollohan. What about heroin?
    Ms. Taxman. Yes, for heroin we also have methadone. And 
methadone is an effective medication. There is buprenorphoine.
    Mr. Mollohan. But Naltrexone is used off label, is it not, 
to treat heroin?
    Ms. Taxman. Yes, it is off label.
    Mr. Mollohan. Successfully?
    Ms. Taxman. We have studies underway. But it is not FDA 
approved.
    Mr. Mollohan. Yeah. But are there actually studies using 
Naltrexone off label for heroin addiction?
    Ms. Taxman. Yes.
    Mr. Mollohan. These Naltrexone studies that you are talking 
about, were they for cocaine?
    Ms. Taxman. Yes.
    Mr. Mollohan. What were those studies?
    Ms. Taxman. There is one trial underway. As I said, it is 
underway in--you know, that is being led by the University of 
Pennsylvania.
    Mr. Mollohan. And that is the Chuck O'Brien study?
    Ms. Taxman. Yes.
    Mr. Mollohan. Is that using the injectable form?
    Ms. Taxman. Yes.
    Mr. Mollohan. So it has to be Vivitrol; is that right? Or 
is there another brand?
    Ms. Taxman. No, I do not believe he is making that version.
    Mr. Mollohan. So there are other injectable----
    Ms. Taxman. Yes.
    Mr. Mollohan [continuing]. Forms made by other 
manufacturers.
    Ms. Taxman. Yes.
    There is great promise in these medications. I think our 
challenge is is getting the criminal justice system to use them 
and to provide the proper medical care that is needed when 
offenders are on medication.
    Mr. Mollohan. You know that the Second Chance Act 
authorizes this?
    Ms. Taxman. Yes.
    Mr. Mollohan. Let me ask you this. If we wanted to fund a 
trial using these medications, and you may not be able to 
answer this right now. But if you would be kind enough to 
consider submitting to us for the record two things.
    Number one, a comprehensive program, from treatment during 
incarceration to post-incarceration for drug addicts, of best 
practices to have the best results in reducing recidivism. What 
would that look like using medication and not using medication?
    Ms. Taxman. Yes. Are you interested in jail or just prison.
    Mr. Mollohan. We fund the U.S. Bureau of Prisons.
    Ms. Taxman. Right.
    Mr. Mollohan. So that really is where we have a funding 
opportunity.
    Ms. Taxman. Ok.
    Mr. Mollohan. Although there certainly are grant programs 
that we have--and the U.S. Bureau of Prisons could do something 
in partnership. Let us just see what you come up with. And we 
will be interactive about it if that is okay.
    Ms. Taxman. That is fine. But would you be interested in 
some ideas for the U.S. Administrative Office of the Courts 
which deals with probationers. You also fund this agency.
    Mr. Mollohan. You have got a blank sheet there.
    Ms. Taxman. Great.
    Mr. Mollohan. You are the expert.
    Ms. Taxman. Thank you. We have done so little with the 
probation population and this where our problems begin. There 
is over five million people on probation. If we can prevent 
that group from going to prison, you can reduce the intakes to 
prison by about 20 to 25 percent just dealing with failures on 
community supervision.
    Mr. Mollohan. Well, that is a very insightful observation. 
I would make the other observation that if you could do it in a 
civil proceeding, you would----
    Ms. Taxman. Then you avoid all these costs.
    Mr. Mollohan [continuing]. Totally avoid the----
    Ms. Taxman. That is correct.
    Mr. Mollohan [continuing]. Stigma to begin with and the 
costs associated with----
    Ms. Taxman. Yes.
    Mr. Mollohan [continuing]. Processing in the criminal 
system.
    Mr. Kennedy.

                         Mr. Kennedy Questions

    Mr. Kennedy. Thank you. Thank you, Mr. Chairman. I thank 
you for your passion for this, and your dedication, and just 
the past questions, and coming up with this hearing, and this 
review of these issues. I really appreciate it.
    You know, obviously, they say the greatest determiner about 
whether you are going into prison is if you have been to 
prison.
    Ms. Taxman. Yes.
    Mr. Kennedy. And, of course, there is 70 percent recidivism 
in the state prisons. But the rate I guess of those going into 
prison from the foster care system is 42 percent.
    Ms. Taxman. I think higher than that actually.
    Mr. Kennedy. Even higher I know. I think it is even higher 
than that.
    Ms. Taxman. Yes.
    Mr. Kennedy. But that is pretty amazing.
    Ms. Taxman. It is pretty sad, right?
    Mr. Kennedy. It is very sad.
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. Considering these are our kids 
that are in our custody as a country. And half of them graduate 
not to college or from college. Actually less than two percent 
actually ever graduate from college.
    Ms. Taxman. Yes.
    Mr. Kennedy. They graduate to prison. So it seems to me if 
we are focusing on reducing prison rates, and----
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. You have got to be thinking about 
early intervention with foster care. Somehow there has got to 
be something that we aren't paying attention to. So I don't 
know what your ideas are on that. But I know that it is going 
into a different realm.
    Ms. Taxman. We have more that could be done to improve the 
juvenile justice systems.
    Mr. Kennedy. It is called children and families----
    Ms. Taxman. I have a few studies in the juvenile justice 
system. I actually have a clinical trial right now. I am trying 
to----
    Mr. Kennedy. I am sure a lot of those foster care kids are 
children of inmates.
    Ms. Taxman. Right.
    Mr. Kennedy. So the question is what are we doing in 
regards to family approaches for families of inmates to make 
sure that that cycle doesn't repeat itself is what I am saying?
    And one more point. I was just at my juvenile corrections 
about a three weeks ago. And I asked the kids there how many of 
them have parents in prison currently and three quarters of 
them raised their hands.
    Ms. Taxman. Yes.
    Mr. Kennedy. Many imitate the surroundings that they grow 
up with. So if we are really going to break it, this has got to 
be a central concern of ours.
    Ms. Taxman. I agree this is a tremendous challenge. Part of 
it is is we probably need to be moving away from the way we do 
silo treatment of people to really begin to think about more 
family case management models. You know, Carol Shapiro who 
works with--who founded this group called the Family Justice 
Institute has a nice family case management model that she 
has--is demonstrating places. And so, you know, unfortunately 
we fund agencies in a very narrow way. And probation department 
is funded to deal with an individual. But if they know their 
kid is in foster--a child is in foster care, if they know they 
have addiction in the family, you know, they are limited in 
what they can do.
    You know, I think we should move towards some of these 
other models called Neighborhood Justice Models where you are 
really dealing with people. I mean, you can map in many 
jurisdictions where we have concentrated problems. And we know, 
you know, now where some of those communities are and who those 
families are. And, you know, I think our creative energies 
should be in fix--you know, in dealing with families and not 
just dealing with an individual. And, you know, encouraging 
people to move across sort of their organizational boundary 
lines.
    That is why I really believe that we need to look at new 
technology transfer models for the criminal justice, social 
welfare, you know, addiction treatment fields, because the way 
right now we do the technology transfer from the federal These 
are complex and multi-disciplinary problems.
    Mr. Kennedy. If you could tell us what that should look 
like----
    Ms. Taxman. Be happy to do so.
    Mr. Kennedy [continuing]. In the multi-disciplinary family, 
holistic approach, to dealing with not only just the individual 
but in the context of the family.
    Ms. Taxman. Yes.
    Mr. Kennedy. And the context of a multi-institutional 
approach.
    Ms. Taxman. Alright.
    Mr. Kennedy. So, the social welfare agency is talking to 
the criminal justice agency is talking to the education system 
is talking to the parole system.
    Ms. Taxman. That makes sense.
    Mr. Kennedy. So it would be helpful if you could----
    Ms. Taxman. Yes. This is where Chairman Mollohan's idea 
about trying to look at civil processes well advised. We need 
to reduce the use of the criminal justice system.
    But the issue is really trying to address the problems of 
people instead of making problems worse in many ways.
    Mr. Kennedy. Thank you.
    Ms. Taxman. Thank you.
    Mr. Mollohan. Thank you, Mr. Kennedy.
    Mr. Honda.

                          Mr. Honda Questions

    Mr. Honda. Thank you, Mr. Chairman. In response to other 
questions that was asked about other countries' efforts in 
dealing with offenders, drug offenders, you mentioned that 
Italy, France, Israel place a stronger focus on rehabilitation 
and treatment.
    Ms. Taxman. Yes.
    Mr. Honda. I was wondering if there are any promising case 
studies in those countries that are applicable to us, given 
some culture differences? But whether there is anything there 
that has some applications to us? And what are some of those 
things that the other countries do that are different from us 
that create the success that they have, or I am assuming that 
they are successful? I was just wondering whether you had any--
--
    Ms. Taxman. Congressman, other countries have a different 
healthcare systems than we have. Addicts/uers with addiction 
disorders can get healthcare through, you know, their, you 
through then national health insurance to a large extent. That 
also means----
    Mr. Honda. Prior to entering the criminal justice system.
    Ms. Taxman. Yes, regardless of what her are in the criminal 
justice system.
    Mr. Honda. I see.
    Ms. Taxman. One of our challenges is when people come out 
of prison if they aren't employed, they usually don't have 
access to healthcare. And the community health clinics are not 
always receptive. So that is one issue.
    The second issue is is that their standards of care of 
effective treatment is much broader than ours. They have fewer 
alcohol and drug education programs, and more congnitive 
behavioral therapies and therapeutic communities in other 
countries. They have day reporting programs where people go for 
six-eight hours a day. In these programs, they address 
employment issues. Offenders get therapy.
    The orientation is more of a health services. Much of the 
services are provided through their healthcare and social 
welfare agencies.
    You know, I can pull together some examples from England, 
you know, or some of these other countries for you if you would 
like.
    Mr. Honda. If there is a discussion on, you know, the 
difference in costs, that would be helpful.
    Ms. Taxman. Okay. I will gather cost issues.
    Mr. Honda. And currently is there anything, any models that 
we have in this country that appear to be the same, or that 
come close to, or that are successful in addressing this?
    Ms. Taxman. This is not to say that we don't have good 
creative policies. It is just we are hamstrung in terms of how 
much we actually provide care for. For example in Arizona they 
have enacted some new legislation over the last couple of years 
to both expand treatment services as well as to improve the 
quality of the probation services.
    In Arizona, they cap the number of probationers to an 
officer to around 65 or 70, while the national average is about 
200. In terms of addiction treatment, we have Delancey Street 
in San Francisco which has an excellent track record.
    Mr. Honda. So it sounds like Delancey does treat 
communities and they also offer ways to become more 
economically----
    Ms. Taxman. They have a restaurant business. They have 
several businesses.
    Mr. Honda. So what I hear you saying is that there has to 
be a very good national policy and an infrastructure set up so 
that it takes care of those who are abusers but not necessarily 
criminalized yet.
    Ms. Taxman. Yes, that is.
    Mr. Honda. Those that are criminalized but not heavy into 
that area, that there are some avenues to address it through 
that national healthcare system. I think I also heard you say 
that the folks who are on probation, that is probably that 
population, if we can avoid them becoming incarcerated on long 
term or heavy sentences that that might also be helpful. And I 
guess in the other countries the probation system, is that 
similar to ours or is that a population that is lower because 
they are being treated and being triaged until they are helped 
along?
    Ms. Taxman. In other countries, most probation officers are 
social workers. So were a model of probation that we abandoned 
in the 1970s. That is one big difference, because the 
orientation that those social workers have is very different. 
They have different skills to work with offenders in a model to 
enhance behavior change.
    The other big difference is that other countries they have 
a larger community network for treatment programs. People can 
access care in the community.
    That is part of our issues in the U.S. in that we do not 
have enough treatment programs in the community for offender 
populations for offenders can get access to treatment programs.
    The question you raised about is the legalization question, 
this a question that we discuss in class. Our challenge is 
really an issue about how to send a message that there are 
unhealthy behaviors that are not useful in society. I certainly 
wouldn't want to encourage anyone to use because the 
consequences are far greater.
    A decriminalization model might be useful with regulation 
to provide addicts with need behavioral therapy and, if 
necessary, medications. That is part of our challenge.
    Mr. Honda. I will look forward to that information.
    Ms. Taxman. Okay.

                         Mr. Mollohan Questions

    Mr. Mollohan. Thank you, Mr. Honda.
    I want to give you an opportunity--one of the things I 
would like for your testimony to get on the record is to lay a 
foundation for this Committee to think about and justify 
funding some sort of a program, I have asked you to come----
    Ms. Taxman. Yes.

                           MEDICAL TREATMENT

    Mr. Mollohan [continuing]. Forward with suggestions. Should 
we be thinking about or know about any other medical treatment, 
either medications or protocols, that would be useful in this 
area?
    Ms. Taxman. Well, if you were just limiting yourself to 
substance abusers or are you talking about--for a large part 
most of, a good half of the offender population has not done 
well in school. And their higher incidence of ADHD among that 
population. What we know about medications is that some of the 
ADHD medications can help people function better through 
improved executive function. That way, people can pay attention 
on the job longer and learn and do better in treatment 
programs. The model should include these issues.
    Mr. Mollohan. Have you worked with any of the attention 
deficit hyperactive medications in regard to criminology in 
general?
    Ms. Taxman. I have a daughter who had some learning 
disabilities. And it turned out she had ADHD. And when we put 
her on some very low dosage of medication, her school 
performance, improved, As a mother, we learn that the 
medications are useful to improve her performance.
    So, you know, I don't want you----
    Mr. Mollohan. I was really thinking----
    Ms. Taxman [continuing]. To take away that medications are 
the cure all, because they are not.
    Mr. Mollohan. No.
    Ms. Taxman. They are part of a system of helping people to 
stabilize to learn to manage their lives. This is important.
    Mr. Mollohan. Naltrexone is a very powerful assistance, 
because it deals with that craving and the blocking of 
satisfaction issues.
    Ms. Taxman. I agree it is one tool.
    Mr. Mollohan. But I do take that away from here, I can tell 
you that. And I don't think it is the end all----
    Ms. Taxman. Medications are not a silver bullet.
    Mr. Mollohan. Well, it is not a silver bullet. But you have 
to control the craving. To me it is the starting point.
    Ms. Taxman. I agree.
    Mr. Mollohan. Because if you don't control the craving----
    Ms. Taxman. Yes but control comes both from both intense 
and extrinsic motivation.
    Mr. Mollohan. I mean, people are animals. And that they 
crave. It is a chemical thing. So if you can't control that, 
you can't get to the other things.
    Ms. Taxman. Yes.
    Mr. Mollohan. So it may not be the silver bullet. But it is 
the thing that must be controlled for you to get to the other 
things that are complementary in the treatment process.
    Ms. Taxman. Well, I think that is what is encouraging about 
the scientific evidence is that we have learned that some 
people can control their cravings and moderate their own 
behaviors. And another group of people can't. And these 
medications are useful far those that need it as you said, 
Chairman. The studies show that behavioral therapies help 
people learn to manage their disorders in daily life. And that 
is part of the behavior change process. It is also learning how 
to respond differently to triggers or to situations that used 
to result in people using drugs.
    Mr. Mollohan. Let me ask you. A person once was describing 
to me the incidence of addiction, and was suggesting that there 
had been tests run where, for example, a hundred rats would be 
put in a run. And at one end would be food and water and at the 
other end heroin.
    Ms. Taxman. O.K.
    Mr. Mollohan. Over time, a fairly defined range percentage 
of the rats would consistently become addicted and would begin 
consuming the heroin to an extent that they would neglect the 
food and water. The brain is telling them that their well-being 
was associated with the heroin and not the food and water, and 
they would end up, I guess, not dying from the heroin so much 
as dying from the deterioration of the body. And that 
percentage was around 20 percent. Have you ever heard that?
    Ms. Taxman. Yes. But I do not know the percent. The issue 
is the receptivity of the pleasure zone.
    Mr. Mollohan. It was told to me as an explanation for why 
some people become addicted and some people don't become 
addicted. And the point was extrapolating those numbers to the 
human population from rats. And I don't understand all that. 
But I'll let you all do that one. But this person did that, 
suggesting approximately 20 percent of the population is 
genetically, chemically predisposed or has a greater 
susceptibility to being addicted if exposed to an addictive 
substance. If the other 80 percent of the rats had a little bit 
of the heroin, you know, they liked the food and water, thank 
you, just fine and wouldn't go. But this genetically 
predisposed group would do that, so that there is in our 
population.
    The point to all that, as I understood it, was that there 
is in our population a percentage that is highly susceptible to 
addiction if ever exposed to an addictive substance. If they 
never take a drink of beer----
    Ms. Taxman. I am not sure.
    Mr. Mollohan [continuing]. Great, never smoke a cigarette, 
great----
    Ms. Taxman. Yes.
    Mr. Mollohan. You won't become addicted even if you have 
this predisposition. But if you do, and you have this 
predisposition, there is a very high chance of your becoming 
addicted. Does that resonate with you?
    Ms. Taxman. Some of the scientific data examines the 
genetic predisposition, and environmental stimuli. I am not as 
familiar with the rates. We do know that people with certain 
types of genetic bactines have higher rates of abuse.
    Mr. Mollohan. Yes.
    Ms. Taxman. That is the question. We have environmental 
stimuli that can, you know, increase use.
    Mr. Mollohan. Yes.
    Ms. Taxman. But, you know, these are the things that we are 
trying to really understand in our scientific discovery.
    Mr. Mollohan. Yes. It makes sense to me. You were 
responding, perhaps to Mr. Kennedy, about treating the whole 
family.
    Ms. Taxman. Yes.
    Mr. Mollohan. There are in the Second Chance Act authorized 
family substance abuse treatment alternatives to incarceration 
grants. They weren't funded in 2009. But the authorization does 
exist. I just thought I would let you know that.
    Ms. Taxman. Okay, thank you.
    Mr. Mollohan. Well, we have asked you to come forward with 
approaches----
    Ms. Taxman. I am happy to do so.
    Mr. Mollohan [continuing]. And we look forward to working 
with you on that. I am going to ask Mr. Kennedy if he has any 
more questions. But I am sure that there are members of the 
Committee who might have follow-up questions that they would 
submit to you in writing again.
    Ms. Taxman. I would be more than happy to.
    Mr. Mollohan. You are not working for an agency.
    Ms. Taxman. I work for George Mason University. I am a 
researcher, you know.
    Mr. Mollohan. Yes.
    Ms. Taxman. We are more than happy to always provide you 
with any information we can on, you know, the types of programs 
and services, you know, whatever the Committee needs.
    And I will be happy to put together. I have a list of about 
six or seven questions you have requested.
    Mr. Mollohan. Well, we may have some follow-up questions.
    Mr. Kennedy.

                         Mr. Kennedy Questions

    Mr. Kennedy. Do you think that there is adequate judicial 
continuing education to educate our sentencing judges as to 
this as a disease so that they are not making moral judgements 
on the individuals that they are seeing as opposed to based 
upon fact and law as far as that is concerned? And so what I am 
saying is, we have a tough enough time in this country having 
doctors and medical professionals treat addiction and substance 
abuse and alcoholism as a disease. I just can't imagine that we 
have probably gone far enough to get attorneys, prosecutors, 
and judges probably up to speed enough as we need them to be to 
know that the people they are dealing with are often victims--
--
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. Of a public health epidemic as 
much as anything else. And that they need to have some 
sensitivity to that. Should we try to employ that into 
continuing education requirements or classes or what would your 
recommendations be? Could you submit some things for us?

                            EDUCATING JUDGES

    Ms. Taxman. Sure. You know, I don't think we've educated 
the cadre of criminal justice professionals, judges, 
prosecutors, public defenders, defense attorneys, probation 
officers, you know, correctional officers, prisons on these 
issues enough.
    And, in fact, if you look at the way that sentencing is 
done in our country, judges have very little information for 
most felony offenses, hardly any for misdemeanor offenses. And, 
you know, one of the system improvements that the judiciaries 
is really looking at, is trying to do risk and needs assessment 
prior to sentencing, which could help with all of these issues 
if we got those organizations to do that.
    And, you know, there is now new technology even where, you 
know, there is--you know, there is technology that people can 
do, self assessments. And they actually include some 
motivational interviewing. They have had good efficacy in terms 
of, you know, these self assessments as compared to an 
individual-driven assessment. So there is technology 
improvements that could be done to sort of deal with the 
bottleneck of the criminal justice system to really enhance our 
information.
    So, you know, I would be happy to submit. But, you know, I 
think it is a broader issue.
    Mr. Kennedy. Would you submit that----
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. Specifically, because obviously 
giving our judges more tools to properly have that evidence 
base, so to speak, by which----
    Ms. Taxman. Yes.
    Mr. Kennedy [continuing]. Upon which to base their 
decisions on sentencing would be very useful. Thank you.
    Ms. Taxman. And for your information, the U.S. 
Administrative Office of the Courts is actually developing a 
risk needs tool that should be useful in the federal system. 
They had hoped to employ at the pretrial stage, too. So, I know 
you are interested in improving the federal system. That could 
be very useful in the future. They are piloting this summer. 
This could be a national model to begin to really rethink how 
we do sentencing, and provide sentences.

                         Mr. Mollohan Questions

    Mr. Mollohan. Just a follow-up question on the injectable 
approach.
    Ms. Taxman. Right.

                       ANTI-ADDICITON MEDICATION

    Mr. Mollohan. There are a variety of anti-addiction 
medications available.
    Ms. Taxman. Yes.
    Mr. Mollohan. You referenced a number of them. Each of 
which may be more or less helpful to an individual depending on 
the nature of their addiction. Is the use of extended release 
injections something that is likely to be adapted to most or 
all of these medications?
    Ms. Taxman. In terms of the delivery system?
    Mr. Mollohan. Yes.
    Ms. Taxman. I don't know the answer to that. But I can find 
out the answer to that to be honest. I know that there are 
different mechanisms for a whole range of extended release sort 
of medications overall, the value is in improving compliance. 
The less frequently a person has to take a medication, the 
greater the compliance.
    That compliance is an important factor. But I can find out 
for you.
    Mr. Mollohan. And you said it, and I probably haven't 
emphasized as much as I want to or asked you to emphasize as 
much as I think it would benefit the record, the compliance 
aspect. How does the extended release injection impact 
compliance?
    Ms. Taxman. In the studies that have been done on 
injections like Naltrexone, for example, there is far greater 
compliance than other forms of medication. Once-a-month 
injection as compared to a daily dosage.
    Mr. Mollohan. But Naltrexone could be taken in a daily 
dose, right?
    Ms. Taxman. Yes, there are versions.
    Mr. Mollohan. But----
    Ms. Taxman. There are two comparative studies that I am 
aware of. I don't remember the percentage. There was a 
statistically significant difference between those who had the 
injection versus those who are on daily dosage.
    Mr. Mollohan. So the point is, if I can summarize it, and 
tell me if you agree with this. Whether you are talking about 
Naltrexone or some other----
    Ms. Taxman. Yes.
    Mr. Mollohan [continuing]. Medication, the point is that if 
it is taken once a day, you have a greater compliance problem 
than if you have a dosage that would last for 30 days.
    Ms. Taxman. Correct.
    Mr. Mollohan. Say an injectionable----
    Ms. Taxman. Injection.
    Mr. Mollohan [continuing]. Version of it.
    Ms. Taxman. Yes.
    Mr. Mollohan. And so it improves compliance?
    Ms. Taxman. We are actually doing a survey right now in the 
field to look at how criminal justice and addiction treatment 
agencies are thinking about using different medications; we 
have completed 20 interviews thus far.
    The systems are very sensitive to this compliance issue, 
because that is the hardest part of human behavior is to get 
people to comply. Just from a common sense notion, something 
that is once a month is obviously easier. But, people need 
behavioral therapies to really help them learn to make those 
lifelong changes.

                  ALCOHOL AND DRUG PROGRAMS IN PRISONS

    Mr. Kennedy. Could I ask you about that whole AA and the 
prisons?
    Ms. Taxman. Yes.
    Mr. Kennedy. My experience at the home that it is not easy 
to get into the--but I just wanted to say that there are a lot 
of people that make really good efforts and do a very good 
job----
    Ms. Taxman. Right.
    Mr. Kennedy [continuing]. Of getting into the ACI. And we 
do better than most I think. We have got a very progressive 
corrections crowd up there.
    Ms. Taxman. Yes.
    Mr. Kennedy. They are very helpful. But I just know they 
are probably not the norm. And even while they do their job and 
do it well, that even that is not made as easy as I think it 
probably should be in terms of getting the self health groups 
in there.
    What did you make of the answers from the previous panel in 
terms of that they have to be screened and so forth? And it is 
therefore too difficult to maybe provide them with secure rooms 
and all that stuff.
    Ms. Taxman. This is the culture of corrections that I was 
referencing at the beginning of my testimony. If we really want 
an effective correctional system, we are going to have to open 
the doors to allow communities to work with the population when 
they are in prison to ease their, transition and reintegration 
back into the community.
    My experience is is that most prisons don't offer enough 
self-help groups. And we have a difficult time in our studies 
to have research interviewers enter the prisons even though one 
of my interviewers has been clean for over 20 years. It is a 
constant battle. There is movement in the field to try to open 
the door to offer more services.
    I think the federal system from what I understand is more 
rigid than some state systems. One of the changes for prisons 
is to really do much more outreach.
    Mr. Kennedy. Your proposals as to what we can do to 
encourage the Federal Bureau of Prisons to open up to more 
self-help groups and just do it, because--we are not doing 
ourselves any good by not allowing groups that are willing to 
go in there and help make a difference.
    Ms. Taxman. Yes.
    Mr. Kennedy. And these self-help groups are the ones that 
are out there in the communities that we have got to get people 
tied up to if they are going to go back out there. And so far 
the only thing out there that has been demonstrated to be of 
any effectiveness whatsoever. And I think that there is a 
spirituality to it and to fellowship notions that I think is 
going to be critical to the recovery process for anybody who is 
in prison.
    Ms. Taxman. Yes.
    Mr. Kennedy. And I don't think there is any excuse for us 
not to try to provide every opportunity for them to have a----
    Ms. Taxman. I agree.
    Mr. Kennedy [continuing]. Place at the table in these 
prisons under, you know, obviously guided and supervised 
monitoring. But I think it could be done.
    Ms. Taxman. Yes.
    Mr. Kennedy. It has to be made possible to be done. So if 
you could help us reemphasize the importance of this, that 
would be very helpful.
    Ms. Taxman. I will add that to my list, which I am more 
than happy to.
    Mr. Mollohan. Well, Dr. Taxman, thank you again for 
appearing here today.
    Ms. Taxman. Okay.
    Mr. Mollohan. We appreciate the efforts you went to and the 
excellence of your testimony.
    Ms. Taxman. Thank you very much.
    Mr. Mollohan. It certainly will help us as we move forward. 
Thanks so much.
    Ms. Taxman. Thank you for the opportunity.
                                         Wednesday, March 11, 2009.

   ASSESSMENT OF THE SERIOUS AND VIOLENT OFFENDER REENTRY INITIATIVE

                               WITNESSES

CHRISTY VISHER, PH.D., PROFESSOR, UNIVERSITY OF DELAWARE AND THE URBAN 
    INSTITUTE
PAMELA LATTIMORE, PH.D., PRINCIPAL SCIENTIST, RTI INTERNATIONAL

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come order. Good morning.
    We are continuing with this week's focus on prisoner 
reentry. And for our first hearing today, we welcome Dr. Pamela 
Lattimore, a Principal Scientist in RTI International's Crime 
Justice Policy and Behavior Program, and Dr. Christy Visher, 
who is a Professor of Sociology and Criminal Justice at the 
University of Delaware and a Principal Research Associate with 
the Urban Institute.
    Dr. Lattimore, I understand, will be summarizing written 
testimony on behalf of you both, although both witnesses will 
be responding to questions from the Subcommittee.
    We have asked you to join us here this morning because you 
are conducting what is perhaps the most ambitious assessment to 
date of offender reentry from state prisons.
    The Serious and Violent Offender Reentry Initiative was a 
$100 million grant program involving Departments of Justice, 
Education, Housing and Urban Development, Labor, and Health and 
Human Services.
    Sixty-nine grantees representing every state plus the 
District of Columbia and the U.S. Virgin Islands received three 
year funding in 2003 to implement comprehensive reentry 
programs combining a full range of reentry supports and 
services.
    You have been working on the assessment of this program 
under a cooperative agreement with the National Institute of 
Justice, and I understand that you are getting very close to 
completing your work. Although you may not have final peer 
reviewed results and analysis to present to us today, I urge 
you to give us as much detail as possible on what you are 
finding.
    We understand that your responses related to the assessment 
are preliminary, and I ask that you provide us with updated 
information later in the year when the assessment is complete.
    In a moment, I will ask you to proceed with your oral 
testimony, and your written statements will be made a part of 
the record.
    And, Dr. Visher, if you want to make an opening statement, 
you may do so also, but first I would like to call on our 
Ranking Member, Mr. Wolf.
    Mr. Wolf. Welcome to the Committee. I have no opening 
statement.
    Mr. Mollohan. Okay. The witnesses will proceed.

                    Ms. Lattimore Opening Statement

    Ms. Lattimore. Mr. Chairman, members of the Subcommittee, 
we are pleased to appear before you today to provide you with 
information regarding the evaluation of the Serious and Violent 
Offender Reentry Initiative, a National Institute of Justice 
funded study that is being conducted by researchers at RTI 
International and the Urban Institute.
    I am Dr. Pamela Lattimore, a Principal Scientist at RTI 
International. Seated next to me is Dr. Christy Visher, 
Principal Research Associate at the Urban Institute and 
Professor at the University of Delaware. We are co-principal 
investigators of the evaluation.
    Dr. Visher and I have been studying criminal behavior and 
the effectiveness of correctional programs for more than 20 
years. These issues have taken on increasing importance over 
that time as the number of people under criminal justice system 
supervision doubled from 1988 to more than 7.3 million in 2007. 
And the number of people in state and federal prisons grew from 
about 600,000 in 1988 to nearly 1.6 million in 2007.
    These increases have had a growing price tag. In 2006, the 
government spent $69 billion on corrections and total criminal 
justice and law enforcement costs grew to $215 billion.
    For nearly six years, we have been evaluating the Serious 
and Violent Offender Reentry Initiative, SVORI. SVORI was, as 
you noted, a more than $100 million federal investment that 
provided correctional and juvenile justice agencies with 
grants. These grants were used to implement prisoner reentry 
programs that began in prison and continued following release.
    The SVORI programs had four objectives for released 
prisoners, improve employment, housing and family and community 
involvement, improve help by addressing substance use and 
physical and mental health problems, reduce criminality, and 
promote systems change through collaboration and management 
strategies.
    Although the grantees shared these objectives, each grant 
crafted a unique program and approach that reflected their 
local needs and resources.
    The impact of this unprecedented investment is the focus of 
the SVORI multi-site evaluation, the most extensive evaluation 
ever funded by the National Institute of Justice.
    For the evaluation, we conducted three surveys of the SVORI 
Program Directors. We also conducted interviews with SVORI 
Program participants and comparison subjects from 12 adult 
programs and four juvenile programs in 14 states. In total, we 
interviewed nearly 2,500 men, women, and boys between July 2004 
and April 2007.
    During this past year, we have also received administrative 
recidivism data that we will use to determine official 
reincarceration and rearrest rates.
    The evaluation is not yet complete, but we are able to 
share with you some of the important conclusions of our work so 
far.
    The successful integration of individuals exiting prison is 
a complex issue that requires a comprehensive approach.
    When we looked at our respondents, only about 60 percent of 
the adults had completed twelfth grade or had a GED. Less than 
two-thirds of the men and only about half of the women had 
worked in the six months prior to their incarceration.
    Almost all, and we are talking 90 to 95 percent, of the 
men, women, and boys, admitted having used illegal drugs. This 
number is kind of frightening. Nearly 80 percent of the women 
but also 55 percent of the men and 50 percent of the boys had 
been in treatment for mental health or substance abuse problems 
prior to their incarceration.
    The SVORI Program participants also had serious criminal 
histories. Eighty percent of the adults had been in prison 
before. The men reported an average of thirteen prior arrests, 
the women about eleven, and the boys about seven.
    Secondly, we found that SVORI funding was significant in 
the development and continuation of reentry programming in 
these states. Most Program Directors said their agencies were 
continuing programs or activities begun with SVORI grant funds 
and were also implementing other reentry components. Many 
suggested that the SVORI funds were instrumental in starting or 
improving their states efforts to develop reentry programming.
    Third, SVORI funds increased collaboration among state and 
local agencies and organizations. Nearly all of the Directors 
of the 16 impact programs reported improved relationships 
between their agency and the community supervision agency as a 
direct result of the SVORI grant.
    Further, most reported increased collaborations with 
community and faith-based organizations--again as a direct 
result of the SVORI grant. Importantly, most reported these new 
and improved collaborations had continued.
    Fourth, SVORI funds resulted in an increase in services for 
program participants. Overall, participation in SVORI programs 
greatly increased the likelihood of receiving services such as 
reentry planning, assistance obtaining documents, mentoring, 
substance abuse and mental health treatment, and education and 
employment services.
    While most SVORI participants reported receiving at least 
one of six different types of employment, education, or skill 
services, only 37 percent, however, of the men and 52 percent 
of the women reported receiving employment specific services. 
So they received other skill-based services, but things like 
resume preparation and so forth was less likely.
    But on the other hand, twice as many of the people who were 
in SVORI programs as the comparison subjects reported receiving 
these types of services. So SVORI greatly increased the 
likelihood of participating in services, receiving services, 
but the levels were often far less than 100 percent for the 
SVORI Program participants.
    Fifth, we found that more services were delivered prior to 
release than after release. For example, on average, about half 
of the men in SVORI programs received substance abuse treatment 
while they were in prison, a percentage that dropped to less 
than 20 percent in the months following release.
    So what was the impact of SVORI on outcomes? As we noted, 
our results to date are preliminary, but our preliminary 
findings do show that in most cases, SVORI participants had 
better outcomes than the comparison subjects.
    These positive findings span the outcome areas that we 
looked at in the three post-release interview periods. 
Sometimes they were small, but most of the time, the 
differences were positive.
    Finally, we would like to point out that this type of 
comprehensive detailed evaluation is highly uncommon for 
justice research. Unfortunately, a shortage of funding for 
criminal justice research prevents policymakers from having 
ready access to independent, objective information to assist 
them in making important decisions in this vital and 
increasingly expensive policy area.
    The National Institute of Justice is the primary source of 
funding in this country for criminal behavior and justice 
research. NIJ has existed for more than 40 years, but its 
budget remains remarkably underfunded.
    NIJ's base budget I will note in the fiscal 2009 Omnibus 
appropriations bill is $48 million. And these funds signify an 
incredibly small commitment to understanding a major policy 
area that concerns all of our citizens and, as we noted at the 
beginning of our remarks, consumes $215 billion of taxpayer 
money annually.
    Although we understand there are many priorities competing 
for federal dollars, comprehensive evaluations can lead to 
better policy and programs, resulting in better use of taxpayer 
dollars and improved outcomes. We think the return on 
investment will also make us safer.
    Thank you for your time, and we would be happy to answer 
your questions.
    [Written testimony of Pamela K. Lattimore, Ph.D., Principal 
Scientist, Crime, Violence and Justice Research Program, RTI 
International, Christy A. Visher, Ph.D. Principal Research 
Associate, the Urban Institute Professor, University of 
Delaware follows:]

[GRAPHIC] [TIFF OMITTED] T1247B.001

[GRAPHIC] [TIFF OMITTED] T1247B.002

[GRAPHIC] [TIFF OMITTED] T1247B.003

[GRAPHIC] [TIFF OMITTED] T1247B.004

[GRAPHIC] [TIFF OMITTED] T1247B.005

[GRAPHIC] [TIFF OMITTED] T1247B.006

[GRAPHIC] [TIFF OMITTED] T1247B.007

[GRAPHIC] [TIFF OMITTED] T1247B.008

[GRAPHIC] [TIFF OMITTED] T1247B.009

[GRAPHIC] [TIFF OMITTED] T1247B.010

[GRAPHIC] [TIFF OMITTED] T1247B.011

[GRAPHIC] [TIFF OMITTED] T1247B.012

    Mr. Mollohan. Thank you, Dr. Lattimore.
    Dr. Visher, would you like to make a statement?
    Ms. Visher. No.

                    TREATMENT CENTERS PARTICIPATION

    Mr. Mollohan. How did you create a consistency among those 
treatment centers participating in order to get some 
standardized results coming in, or did you?
    Ms. Lattimore. Well, that is an interesting question. I 
mean, our responsibility was to evaluate the programs that were 
developed and implemented by others.
    We actually were not even given our initial planning grant 
until after the program grants had been awarded. So by the 
time, you know, Urban Institute and RTI were selected to do the 
evaluation, all the program development work was long underway.
    And so we had nothing to do with the programs themselves 
other than to go in after the fact and document what they had 
done and then try to make a determination of the impact of what 
they had chosen to do.
    Mr. Mollohan. Tell us a little bit more then about the 
programs that participated in your study.
    Ms. Lattimore. Actually, I think the SVORI funding, the 
legislation that created SVORI, is very interesting and 
somewhat unique compared to other justice programs--because it 
is really allowing local agencies to make a determination of 
which populations they felt were most important and critical to 
provide services to and how they would draw not only upon the 
grant funds but also the other available resources in their 
communities and from other agencies to structure a program that 
would be responsive, they thought, to the needs of those 
populations.
    Now, from an evaluator standpoint, that complicates things 
dramatically because you have got everyone doing something 
different.
    And with SVORI in particular, the idea, and I think again a 
good one and the literature supports, is that you would try to 
identify what the needs of individual people within the 
program--what their needs were--and then you would tailor, you 
know, among the array of services you have available. You would 
actually then tailor for the individual.
    So you have these programs that all had different component 
parts and then within each program, different individuals could 
be receiving different kinds of services.
    So the idea behind that was to allow needs to be identified 
and those needs to be met with services that were appropriate 
to those needs within the available resources and 
considerations of the local agencies.
    Mr. Mollohan. So give us a couple of typical examples of 
organizations that participated in the program. Are they 
nonprofits? Were they state supported institutions? Were they 
state owned and operated institutions? What were the range of 
organizations that participated in the study?
    Ms. Visher. Well, the RFA requested that the Department of 
Corrections or the funding agency coordinate with community 
agencies. That was a condition of the award.
    Mr. Mollohan. A community agency is a government entity.
    Ms. Visher. Not necessarily, no.
    Mr. Mollohan. Okay.
    Ms. Visher. A community agency could be a nonprofit 
organization. It could be a social service organization. It 
could have been a faith-based agency.
    But they had to develop collaborations with community 
agencies. And this was unusual, but it worked very well and it 
actually forged collaborations that had not existed in the 
past.
    And this was something that was also being proposed by 
``The Second Chance Act'' as well, which we think is a major 
step forward, so that Departments of Corrections have to work 
with agencies that are outside the fence to develop plans for 
people to come back into the community. And that worked fairly 
well.
    Mr. Mollohan. So a wide range of agencies, organizations, 
nonprofits----
    Ms. Visher. Yes.
    Mr. Mollohan [continuing]. Participated in the study?
    Ms. Lattimore. Right, along with other state agencies.
    Mr. Mollohan. To get comparative information out of such a 
diverse group of organizations, I would imagine, would be 
difficult. Maybe not. How did you do it?
    Ms. Visher. Well, we had several strategies. One was that 
we did a survey, three surveys actually, of all the Program 
Directors, of all 89 Program Directors all across the United 
States.
    This money went to all 50 states and some of the states 
developed multiple programs. We talked with all the Program 
Directors at least three times to get information about how 
they were running the program, who they were collaborating 
with, and exactly the kinds of services that were being 
delivered.
    And then the other part of the evaluation was, of course, 
to pick a set of sites. We picked 14 states that were 
implementing 16 programs to identify individuals, participants 
in the program as well as a set of comparison individuals.
    We did 2,500 interviews in prison with these individuals 
and then we followed them for 15 months after they were 
released and got very detailed information about exactly what 
kinds of services they received in prison, what their needs 
were, and then after they were released, what kinds of services 
they were receiving, what their needs were, how they were doing 
in the job market, what their mental health status was, what 
their substance abuse level was.
    We used oral swab drug tests. In addition to self-reported, 
we used an oral swab test to get some valid information about 
their actual drug use. And we did this through a 15-month 
period after their release.
    Mr. Mollohan. So what you have at the end of this is a 
fairly comprehensive review and information about what programs 
are out there and some outcome information about them. So what 
you are able to do here is compare programs that are out there 
and perhaps out of that fashion best practices? Is that the----
    Ms. Lattimore. It is actually interesting. I mean, our 
mandate for our grant, our evaluation grant, our mandate was to 
determine whether SVORI works. That leaves two questions.
    One is what is SVORI and that is when we had to go out and 
determine that, you know, everybody was doing something 
different and how do we make a determination of what services 
and programs really, you know, constituted these different 
SVORI programs.
    And then the other is, what do we mean by what works when 
you have programs that are supposed to affect employment 
outcomes, housing outcomes, substance abuse outcomes, mental 
health and other health status outcomes, and as well as 
criminal behavior outcomes.
    And so you end up with this array of different outcomes to 
which you are trying to address the what works question. And to 
affect those different areas, of course, people were providing 
services. We identified, really, 28 pre-release and 30 post-
release types of services that were being provided or made 
available to individuals and made an assessment about whether 
people were actually getting those services.
    I mean, I have described it as a fruit basket, you know. 
And so you are trying to find out which fruit--you know, each 
program developed their own different fruit basket and then now 
it was our job to identify what was in the fruit basket and 
then figure out whether or not that fruit was actually helping 
people or not.
    And, so, it has been a wonderful opportunity, I think, to 
gather a lot more data than, generally, people are able to do 
in this kind of evaluation about different kinds of approaches 
and to make a determination.
    So our initial question has been, did SVORI work? Which is 
just to, basically, say, okay, we are not going to pay any 
attention to what is in the fruit basket. We are just going to 
see if fruit baskets work.
    And then the next step and really what needs to be done 
next is to pay a lot more attention to the different kinds of 
things that are in there, the different kinds of services and 
programs that were being made specifically available in these 
different programs and find out how those meet the needs of 
different recipients and how effective they are.
    So the first question was basically if you give a state 
agency some broad guidelines, some money, tell them to improve 
services for an offender population that was going to carry 
through, you know, working with your community partners, carry 
through post release, will, so question number one, will you 
increase the level of services that are being provided to 
people?
    And I think the definitive answer to that is yes.
    The second question then is if you do that, increase 
services to, of whatever nature, increase services to 
individuals that are, you know, in these circumstances, will 
you see better outcomes?
    And the answer to that is if you increase services a 
little, what--services increased a lot, but it is going from 20 
percent of people getting something to 40 percent of people 
getting something. And so if you do that, then, yes, you start 
to see positive outcomes. So----
    Mr. Mollohan. Well, we will get into that.
    Ms. Lattimore. Yes.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Thanks. Thank you, Mr. Chairman.
    Welcome. Every time, this is not for the record, but every 
time I think of the University of Delaware, I think of the 
tolls on Route 95 that the State of Delaware is levying on us.
    Ms. Visher. Well, actually, there is a commuter program. I 
was involved in it. There is a commuter program, so actually my 
toll going into Delaware is only 80 cents each way.
    Mr. Wolf. Can you tell me how? I have family up there. I go 
up there. Actually, my kids gave me a map of how I can avoid 
the tolls. I have never taken it. But, anyway, that is not for 
the record.
    Mr. Mollohan. You probably use about three gallons extra.

                            PRISON PROGRAMS

    Mr. Wolf. No, it is not. Actually, I can give you the copy. 
I will give you the exit. You get right off.
    But I was involved in prison programs before I got elected 
to Congress. I was involved in a program called Man To Man 
where we would go down to Lorette Reformatory which was a pit. 
And I got very discouraged. I had three different prisoners 
that I agreed to counsel. I visited. The commitment was on a 
monthly basis and we would help them find jobs.
    And after the third one, the first two were rearrested 
again and the third one, it just seemed like--I spoke to a 
young prisoner who got out about a month and a half ago and it 
did not seem like a lot had changed. He was in federal prison. 
He was in a federal prison, one of the better run federal 
prisons that I understand is the case.
    And I would just say to the Chairman maybe there is a day 
that we ought to go up and have a day public hearing in a 
prison or privately just to listen to the prisoners off the 
record without the wardens, without anybody there to really 
find out what works and does not work and their perspective.
    And I wanted to ask you, one, what do you think about the--
we are going to go through this battle again on the whole issue 
of work in prisons. I am going to offer an amendment to require 
or allow an increase in work, a demonstration project whereby 
they will make products that are no longer made in the United 
States.
    How important do you think of somebody getting out of 
prison is the fact that they have had work, real work, I do not 
mean picking up butts on a policing of the grounds, but real 
work is with regard to once they are released quickly? I do not 
have a lot of time, so if I can get some sense. How important 
do you both think that is?
    Ms. Visher. Well, the research does not suggest that work 
in prison necessarily improves employment on the outside. I 
think it depends on, as you said, the type of work. And that 
has not been very well documented in the research.
    Mr. Wolf. But I am talking about real work. I am not 
talking about working in the laundry. I am talking about----
    Ms. Visher. If they are developing skills that they can use 
and that they have, then that to me is very similar to job 
training. And those kinds of programs can be very helpful in 
getting jobs on the outside.
    Mr. Wolf. Okay. Do you agree?
    Ms. Lattimore. Right. I agree with that. I agree with that.
    Mr. Wolf. Secondly, the programs that I have been involved 
in, and I have worked a little bit with prison fellowship, they 
will be a prison fellowship person today. I have great 
admiration for Chuck Colson. I think he understands from both 
sides of the process.
    How important is it for a faith-based situation, because I 
know many of the local groups, ACLU, always rant and rave 
against faith-based groups? Barry Lynn makes it a career 
opposing that. How important do you believe it is for--I 
believe it is very important.
    And from the prisoners that I have spoken to and I spoke to 
a whole group last week, they believe it made the difference in 
their time. Some were from Chicago. Some were from the State of 
Virginia.
    How important do you think, whatever the faith may be, the 
faith aspect in the prisons?
    Ms. Lattimore. And, Christy, you may be aware of something 
that I am not aware of. There is no literature that I am aware 
of.
    There have been no, you know, solid studies that have been 
done that demonstrate a relationship of, you know, 
participation in faith-based programs in and of itself because 
what you have to worry about are the people that select to go. 
It is a selection effect, so that the people that choose to 
participate in the faith-based programs while they are in 
prison are the people that would have been most likely not to 
have gotten in trouble later anyway.
    And so without controlled experiments, it is sort of 
difficult to make a determination. And to my knowledge, there 
have not been any.
    Do you know of anything?
    Ms. Visher. Well, the Urban Institute actually has looked 
at faith-based prisons in Florida. My colleague there, Nancy 
Vigne, took a close look at faith-based prisons which are a 
little bit different than providing faith services in prisons. 
And these are prisons focused pretty much on--sort of organized 
around faith principles.
    And she has not done a long-term evaluation about outcomes, 
but apparently difficult behavior, disruptive behavior is 
controlled in those settings much more so than in other 
prisons. The inmates do find a sense of, I would say, peace 
while they are in prison when they are participating in those 
programs.
    But what happens is that there is not any continuity with 
that kind of program on the outside.
    Mr. Wolf. Right. Once they leave, no. I----
    Ms. Lattimore. Once they leave, right.
    Ms. Visher. Once they leave, then it is gone because they 
are not making connections. These faith-based organizations are 
not making connections with community churches in these 
neighborhoods where individuals are going back to so that they 
can continue that kind of spiritual assistance or whatever kind 
of assistance they may have been receiving.

                          FAITH-BASED PROGRAMS

    Mr. Wolf. Well, that is a very good point. I think the 
initial purpose of the faith based was that the churches, the 
synagogues, the mosques would then come around the person once 
they left the prison so there was a continuity.
    If I could get her name----
    Ms. Visher. Sure.
    Mr. Wolf [continuing]. We can chat with her.
    Ms. Visher. They have found that there is a dramatic drop-
off in individuals' connections with faith-based institutions 
once they leave prison.
    Mr. Wolf. Yeah. Well, I could see that, particularly if the 
churches or synagogues do not come alongside.
    Thirdly, is there, and the Chairman used this word, is 
there a best practices? Is there a list of things that we know, 
boy, that works?
    I mean, we have done that in Topeka. We have done it in 
Santa Fe. We have done it in Timbuktu. This is it. If we are 
going to build a new prison, if we are going to have a prison, 
these are the seven things that we know. Is there a best 
practices?
    Ms. Lattimore. Go ahead, Christy.

                      NATIONAL ACADEMY OF SCIENCE

    Ms. Visher. The National Academy of Science has released a 
report last year that talked about the role of supervision and 
reentry into the community. And what that report concluded was 
that we are becoming clearer on this question about what 
actually works.
    Cognitive behavioral therapy programs, which used to be 
unusual in prisons, are becoming much more common. And these 
are kinds of programs that try to change criminal thinking.
    And if you talk to prisoners and people on the outside and 
the people that have gone through the change and actually did 
quite well, what they tell me is ``the dude has got to change 
his attitude.'' And that is a really important component.
    Mr. Wolf. Well, then shouldn't we, though, have a best 
practices list? Should not there be a study that just says we 
have looked all over federal prisons and state prisons, we have 
looked at what they are doing in Scandinavia and Austria and 
Australia, and these are the best practices, right, left, 
center, middle, what? These things which may go against what we 
believe hope to be, but these are the things that honestly 
ethically, morally, decently, we know work? I mean, shouldn't 
we have that?
    Ms. Visher. Partly it depends on what my colleague said 
earlier, is that you need to tailor what they receive to their 
needs.
    Mr. Wolf. Right. But, I do not think things have improved 
personally. I mean, you may be on--I do not know. We have not 
actually gotten to whether you agree or disagree with me. That 
is my last question. But I do not think they have improved. And 
I read all the articles on this issue. I have been in a lot of 
prisons. I have talked to prisoners who just got out. I do not 
think they have improved.
    I mentioned the other day to Mr. Lappin, one prisoner I 
spoke to got out. They released him at seven o'clock at night 
on a Saturday night in a big city. And, you know, big city, 
seven o'clock. So I do not think things are getting better.
    And, Mr. Chairman, I think sometimes if you want to build 
something without going to the basics, you can make a mistake. 
It seems someone has to put together, and you used the word, 
the best practices of what really does work. That does not mean 
it works in every case, but we know here and there and all.
    Would you agree that that would make sense to have a--and 
we are dealing with human beings. We are all different, 
different backgrounds. But would that make sense?
    Ms. Visher. Absolutely. And I think science is moving in 
that direction.
    Mr. Wolf. William Wilberforce started prison reform in 
Great Britain. I mean, we are working toward it. When do we 
reach the end? I mean, lives are being destroyed. They are 
coming out. And so to say that we are working toward it, do we 
hit it in 2025?
    I mean, we have spent so much money and we are dealing with 
live individuals who are, you know, made in the image of God. 
They have got dignity and everything else. So, I mean, I think 
we have got to do something fast, but I think we need to know 
what really does work.
    Let me ask you this question. What are the most successful, 
what is the most successful prison system in the United States, 
state system, and what is the most successful one around the 
world?
    Ms. Lattimore. I have no idea. Just to respond briefly to 
what you were talking just before is I think that we have to 
keep in mind what I completed our oral or in our written 
summary with is that to know what works and to develop, given 
that we have, you know, I do not even know what, thousands of 
prisons and jails, thousands of prisons and jails in this 
country, and, you know, 1.6 million people in our prisons and 
people being treated different ways, the amount of money that 
has been spent to try to determine and ascertain, to be able to 
produce what you are asking for, which is what works and to be 
able to say what works for whom, when you are spending maybe a 
million dollars a year on research, maybe, you know, that is 
not a lot of money to examine all of these questions.
    Mr. Wolf. Well, I mean, we are spending so much. I mean, it 
seems to me----

                         FUNDS GOING TO PRISON

    Ms. Lattimore. We are spending money on the prisons, mean, 
running the prisons and the jails and so forth, but money is 
not being spent on the research that would answer the questions 
of what works.
    Mr. Wolf. Well, but I think, you know, with all due 
deference, I mean, the Congress have been in session since 
1789. I mean, you know, maybe we should, but not to say, you 
know, prisons are not a new system. Maybe we should do some 
more on that.
    But, you know, I think we need a best practices list and 
someone has to say what are the most successful programs and 
what are the most successful in federal prisons, in state 
prisons, and in local prisons and around the world.
    Now, maybe we can ask an independent group who are not of 
the right, not of the left, but will just deal with that.
    The other two issues I had, the staff just pointed out a 
lot of the money on this is coming out of Labor HHS and not out 
of here.
    Ms. Lattimore. Yes.
    Mr. Wolf. So what is the role of meshing them together 
and----
    Ms. Visher. Well, the SVORI initiative was a multi-funded 
initiative and a lot of the money did come out of Department of 
Labor which meant that the programs, many of them, most of them 
had an employment focus. Because the states were getting money 
from Department of Labor, they were told that they needed to 
focus on employment services.
    And so we find actually in our analysis that there are 
positive outcomes for the SVORI participants in terms of 
employment. They are currently supporting themselves with a job 
at higher levels than our comparison subjects who did not go 
through the program. They are getting jobs with benefits, 
health benefits and vacation benefits at higher rates than 
those who did not go through the program.
    So these special programs that were focused on employment 
seem to be paying off. Similar dollars were not necessarily 
coming from SAMHSA, so substance abuse, for example, was a 
lower priority than some of these programs. So we can only 
ascertain that if you put more money into substance abuse 
treatment services, then perhaps you would have seen greater 
impacts on substance use. But we did see, quite strong actually 
impacts on employment outcomes.

                            PRISON RAPE BILL

    Mr. Wolf. Last two questions. I was the author of the 
Prison Rape bill. What do you think the situation is, if you 
have any knowledge, of prison rape in particularly state and 
local prisons? I mean, it was a very, very big problem, but it 
was a problem nobody wanted to talk about. Do you have any 
indications of whether it is up or down or moving, whatever is 
happening?
    Ms. Lattimore. RTI International is actually doing the data 
collection for PREA and in conjunction with a cooperative 
agreement from the Bureau of Justice Statistics.
    Mr. Wolf. What are you finding?
    Ms. Lattimore. It is someone else's project. I am just 
aware of it, so I am not actually working on that project. But 
I do know that they published the results from the first year 
results and they are in the process of collecting the second 
year's data.
    And you obviously cannot make a determination if things are 
going up or going down with like one--you know, right now they 
have only had one data point. And they found, you know, modest 
levels of abuse, but I think they found high variability in 
terms of institutions. The rates were much higher in some 
institutions than others and the type of interactions, staff, 
prisoner or prisoner on prisoner, that kind of thing varied 
somewhat from institution to institution. I would be happy to 
send you the report.
    Mr. Wolf. We can get the report.
    Ms. Lattimore. Okay.

                               RECIDIVISM

    Mr. Wolf. The last question I have is, with regard to 
recidivism, is it compared to, let us say, 1940, is it going 
up, is it going down, or is it level?
    Ms. Visher. It is probably level. We do not have the 
results from the recidivism analysis for this project. We have 
been trying to compile all the official records from all the 
different states that we are studying and we are not there yet.
    But overall, aside from the impact from the SVORI Program, 
we have seen in this country that the recidivism rate has 
remained surprisingly stable for well over 20 years. But these 
kinds of programs that SVORI initiated with the positive 
outcomes we are seeing on other dimensions, on substance use, 
on mental health and employment, we think that greater 
implementation is needed.
    And part of the problem with SVORI is that I call it 
partial implementation. They did not get all the services they 
could have for a variety of reasons. And the services were 
delivered more often in the prison than outside the prison. And 
we know that that period after release is a very critical 
period and if you do not get services after release, then 
whatever you have done in prison may not even be very helpful.
    So if we can solve these kinds of problems, which states 
are moving in that direction, they have all told us that SVORI 
money has allowed them to continue developing efforts in these 
areas and that their programs are getting stronger, and we hope 
that ``The Second Chance Act'' will build on these factors that 
SVORI helped them put in place, that we will then begin to see 
the recidivism rate go down.
    I am sure as you know ``The Second Chance Act'' has as a 
goal a reduction of recidivism of 50 percent in five years. 
That is very, very ambitious, but some states----
    Mr. Wolf. Do you think they will reach that goal? Just yes 
or no.
    Ms. Visher. I think it is incredibly ambitious.
    Mr. Wolf. Okay.
    Ms. Lattimore. I agree with that, yeah.
    Ms. Visher. I think it depends on how they target the 
program and how they focus it. Perhaps some states that are 
already doing a lot. For example, we found that Iowa is quite 
progressive.
    Ms. Lattimore. Has been quite progressive for decades.
    Ms. Visher. For a long time. They may be able to reach----
    Ms. Lattimore. And they had what we are talking about, 
implementation. Actually, the people in SVORI programs come--it 
came closer to there being sort of a hundred percent provision 
of services for the participants in Iowa than we saw in any of 
our states.
    And I think you are going to hear from someone from 
Michigan tomorrow. In Michigan, you were talking about 
innovative, I mean, they have taken a very innovative and 
creative approach to tackling prisoner reentry from a 
statewide, long-term, you know, approach. And so I think you 
will find that what they have to say, Dennis has to say 
tomorrow quite interesting.
    And Washington State is also another state that has passed 
legislation that has established basically performance 
standards and a performance measurement system for a new effort 
and focus on prisoner reentry, reducing recidivism in 
Washington. And I think there are going to be some very 
interesting things to come in the years to come from Washington 
State.
    Mr. Wolf. Thank you.
    If you could just submit for the record, I would like to 
see a list of the 50 states of how well you think they are 
geared and doing on this issue. If you do that, I would 
appreciate it.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.
    Ladies, thank you all for coming.
    I am the newest member of the Subcommittee and I am 
learning a lot about how little I really know about our 
judicial system, correctional system.
    Congressman Wolf and the Chairman have forgotten more about 
this issue than I probably will ever know. They certainly bring 
a lot of experience to this.
    But I would like to ask two questions and forgive me. You 
may have covered it in your opening remarks. I have not found 
it yet in going through it because I was a few minutes late.
    How were the participants chosen to participate in SVORI?

                      HOW PARTICIPANTS ARE CHOSEN

    Ms. Lattimore. To participate in the programs, it varied 
from state to state, but in virtually all the states, they 
selected a targeted population and that varied dramatically.
    We talked a little bit about sort of the fact that the 
programs were all very different. So, for example, the program 
in Texas was actually focused on people who were in 
administrative segregation in maximum security prisons to try 
to, you know, to get individuals in that circumstance ready for 
release.
    Very different from Connecticut. They were focused on a co-
occurring population, people who had both mental illness and 
substance abuse problems, and trying to focus on those 
individuals.
    In Virginia, the Virginia program was an employment focused 
program that was run out of sort of using the Fairfax County 
Jail as a halfway house. And, again, a very interesting kind of 
program.
    And then other programs like South Carolina's was 
basically, you know, anybody who was interested in 
participating, you know, and was going to be in prison for long 
enough could come and participate in these programs. And they 
had limits on the numbers, so it varied. But each state set 
their own criteria for, you know, identifying who was the 
targeted population.
    Mr. Bonner. And there were 14 states?
    Ms. Lattimore. In our impact study. There were actually a 
total of 89 programs. We selected 14 of the 89 to study the 
outcomes.
    Mr. Bonner. From a parochial standpoint, was Alabama one of 
them by chance?
    Ms. Lattimore. No.
    Ms. Visher. We had to select programs that we felt would 
have sufficient numbers of people that we would be able to 
include in our overall study. Some of these programs were 
fairly small.
    For example, they said they would only be able to capture 
100 or 150 people in the program because perhaps they were 
targeting it to a specific prison or perhaps they were 
targeting it to a specific jurisdiction in their state. So the 
programs were limited in that respect.
    So we tried to pick programs where we would have enough 
people in them that we could develop a large enough sample to 
do the kinds of analysis we needed to do. I do not remember the 
issues surrounding Alabama.
    Ms. Lattimore. We actually have some information though. 
They were not included in the impact study, but we actually 
have information on all of the programs in terms of their 
characteristics and who they were serving and what they 
intended to do. And so we do have information here on what 
Alabama was doing, but it was not included as one of our 
outcomes.
    Mr. Bonner. I would like to see that from just personal 
interest.
    Congressman Wolf asked one of the questions I was going to 
ask and that is, what states have model programs or what 
countries are doing a better job than we are. You indicated 
that Michigan and Washington State are two that come to mind.
    As a child growing up with a father who was a judge, 
juvenile judge, among other hats, I will never forget. We had 
an incident happen. And I grew up in a small town of 1,200 
people. We had an incident happen in the late 1960s during a 
very tense time in the south where the cemetery was vandalized. 
And several of the graves were destroyed. And a young man was 
wrongly accused of committing that crime.
    The people in the town wanted to find a rope and a tree. I 
mean, there was anger because that someone would be so 
insensitive to go into the cemetery and to vandalize those 
graves.
    My father met with the young man. He believed that he was 
wrongly accused and wanted to make certain--the Sheriff's 
Department had a sheriff and two deputies, so it was very 
small, almost like Mayberry. But he believed that the wrong man 
had been jailed.
    Long story short, they ended up finding the three young men 
who did do the crime. The anger then turned to them. And they 
were from very prominent families in the community.
    My father believed that it was very important for things to 
be put in perspective. And even though he died when I was a 
young man, I was 13, I will never forget the anguish that he 
went through to make sure that those boys did not end up having 
their lives destroyed because they made a really bad decision.
    And so instead of taking them out of school and putting 
them on a path to prison, he made them go--the cemetery had a 
wrought iron fence around it and he made them go in the dead of 
summer in south Alabama and scrape the paint off of the fence 
and repaint it.
    And one of the young men now is a doctor. And I have seen 
him in recent years and he said had your father not shown some 
compassion with me when I made a terrible mistake as a 16-year-
old, I would have never been able to go to med school.
    So there has got to be a better way, and I think 
Congressman Wolf raised a good question. If there are other 
countries, Germany, Japan, or other countries or other states 
where we can all look to as models because the statistics are 
just frightening that two-thirds of all the prisoners who are 
released are going to go back and commit another crime.
    Your own testimony that 95 percent of the men and women and 
nearly 90 percent of the boys admitted to having used illegal 
drugs, 80 percent of the women and 50 percent of the boys, 55 
percent of the men had been treated for either a mental health 
or substance abuse problem prior to incarceration, it seems to 
me that we have just got to find a better way.
    And, again, going back to childhood, I used to watch 
candidates running for District Attorney or Attorney General. 
They always advertised that they were the toughest on crime. 
They slammed the jail door shut and they were going to put them 
behind jail for the rest of their lives.
    And, yet, just two years ago, this Congress and the 
American people were focused on illegal immigrants crossing the 
borders. It is not something we talked about during the 
presidential campaign. And, yet, we have an opportunity for 
people who are qualified and who will be out of prison one day 
to train them so that they can go out and participate in the 
American Dream. And we are somehow missing the point.
    So my question. I apologize for rambling. Congressman 
Kennedy yesterday asked of the panel what type of effort was 
being done to bring outside groups, Alcoholics Anonymous or 
Narcotics Anonymous or other groups into the prisons. And the 
panel at that time said that they were not aware that there was 
a great effort to bring people from outside in.
    In any of your research, do you have any data that shows 
the impact, positive or negative, of bringing outside groups in 
to help who have experience in a community and encouraging them 
to come into the community of prisoners to try to help make a 
difference so when they do leave, even if they came in with a 
drug addiction or a drug exposure, they have a better chance of 
not repeating that mistake?

                         OUTSIDE GROUPS IMPACT

    Ms. Lattimore. Actually, it is interesting that you ask 
that. It is one of the program characteristics that we focused 
on collecting data on when we were doing our survey of all 89 
programs, not just our impact sites. This sort of reaching out 
versus reaching in component, we have looked at, periodically 
as something that we thought was important.
    We have had so much to focus on, we really have not focused 
on that. And I would be happy to get you some information 
related to sort of how many of the programs were actually doing 
that. It clearly is something that we would be interested in 
looking at what the impact of that was because I think we were 
asking about it for exactly the reason that you are raising, 
that we think that it probably is important.
    Mr. Bonner. I would love to get it if that is possible.
    I have got a City Councilman in closing, Mr. Chairman, a 
City Councilman, older gentleman in one of the communities in 
my district. And we have a state prison in my district. And he 
has asked me for years to come up on a Sunday and go be part of 
a mission program that the men of his church go visit with the 
prisoners. And I am more determined than ever now that I am 
going to do that because I think I will have my eyes opened.
    So thank you very much.
    Ms. Lattimore. Right just to add, AA and NA is actually, to 
my knowledge, very, very common and has a very big presence in 
most prison systems.
    Mr. Bonner. Thank you.
    Mr. Mollohan. Thank you, Mr. Bonner.
    SVORI, you targeted serious and violent offenders in your 
study, correct?

                     SERIOUS AND VIOLENT OFFENDERS

    Ms. Visher. The states define serious and violent 
offenders. But as we noted in our opening remarks, by all 
accounts from the statistics we received, these were serious 
and violent offenders. They had been in the system for a long 
time and they had previous convictions, lots of arrests.
    Mr. Mollohan. Do you think focusing resources on this 
segment of the offender population is a good investment of 
resources?
    Ms. Lattimore. Yes. There is some emerging evidence that 
suggests that you actually stand the biggest chance of making 
the biggest difference with the people who have the biggest 
problems, right?
    And that also was another way in which SVORI was different 
from many of the other federal initiatives on prisoners because 
it did target this riskier, you know, serious and violent 
population as opposed to the first-time, nonviolent drug 
offender, for example, that has been the target of a lot 
monies.
    And there is some emerging evidence to suggest that 
focusing on the people that have the highest needs and being 
able to provide real services to them may be where you may get 
the biggest bang for your buck.

                               WHAT WORKS

    Mr. Mollohan. Were you just reviewing and surveying or are 
you going to be making judgments about what are the best 
reentry programs and the most successful strategies of 
preventing recidivism?
    Ms. Visher. Well, the next step in our analysis is to 
determine what works for whom and for how long. And that is 
obviously a critical question. And we know because the states 
do things so differently and states had different levels of 
service provision that we expect to see state differences.
    So we want to understand those states that were providing 
more services that maybe had the better outcomes, what were 
they doing. And that is the next step in our analysis and we 
actually are hoping that they do just as well, will help us 
extend our analysis a little bit because that was not our 
primary question that was asked of us to answer with our 
initial award. But we clearly feel that is a critical question 
and we have the data to be able to answer that question.
    Mr. Mollohan. Will you get to answering that question when 
you publish your results or are we looking at another award to 
get to that?
    Ms. Lattimore. This will be the next phase of research. And 
really Christy was following on my remarks earlier that the 
question that we had for us then was just this black box 
question, you know, does SVORI work.
    And I think we are well on our way to getting that answered 
and that is what this initial set of volumes for our final 
report for this initial award is going to cover. But we will 
have to find additional monies to dig deeper into the data that 
we have.

                         NEXT PHASE OF RESEARCH

    Mr. Mollohan. Okay and the next phase, define that for the 
Committee. What do you think, precisely, the next phase is and 
what conclusions can be achieved in the next phase?
    Ms. Lattimore. What we envision, what we would like to be 
able to do is to begin to dissect the data in a way--well, we 
have the data, but be able to start analyzing the data with 
respect to looking at the different kinds of services that were 
provided by specific programs as well as what individuals got, 
look at that.
    We think that it would be important to add at least another 
year of administrative data. This would be Departments of 
Correction reincarceration data as well as another year of 
arrest data so that we could look at least three years 
following release from prison to see what the long-term impacts 
are.
    Then also it would be extraordinarily invaluable to be able 
to go out and interview at 36 months following release, say, or 
46 months following release the same cohort of individuals. 
There have been so few opportunities in criminal justice 
research to follow a panel for multiple years. And we think we 
have got a key opportunity here to add to our knowledge by 
being able to do that.
    Mr. Mollohan. You have got a----
    Ms. Lattimore. We have got a----
    Mr. Mollohan [continuing]. Database.
    Ms. Lattimore. We have got a database that has got 
basically 30 days prior to release, three months following 
release, nine months following release, and fifteen months 
following release. So we would like to add a fourth follow-up 
data point to that to be able to look long term.
    Mr. Mollohan. Another grant?
    Ms. Lattimore. Yes, to be able to look long term to say, 
okay, now because there is so--well, and actually if you look 
at ``The Second Chance Act'' solicitation that just came out, 
it says that programs should be able to say what happens 12 
months following release. But clearly what everyone is really 
interested in the long term is what is the long-term impact of 
these programs.
    Mr. Mollohan. Okay. How many individuals would you be 
following?
    Ms. Lattimore. We had of the 12 adults sites, the 
distribution looks like it seems any distribution you would 
ever see. If we take just six, the top six of those in terms of 
size, it allows us to pick up 75 percent of the people who were 
in our original sample. So we would really only need to go into 
six or seven states in order to get----
    Mr. Mollohan. Okay.
    Ms. Lattimore [continuing]. 75 percent. So that would be 
twelve to fourteen hundred people.
    Mr. Mollohan. Okay. But you would be narrowing the programs 
you are looking at.
    Ms. Lattimore. Right.
    Mr. Mollohan. At programs that vary----
    Ms. Lattimore. That is right.
    Mr. Mollohan. The elements.
    Ms. Lattimore. That is right.
    Mr. Mollohan. What is delivered and how it is delivered is 
different in those programs.
    Ms. Lattimore. Right.
    Mr. Mollohan. So you would be----
    Ms. Lattimore. Losing something.
    Mr. Mollohan. You would be losing.
    Ms. Lattimore. Yes.
    Ms. Visher. But there is variation in those six or seven 
programs.
    Mr. Mollohan. Sufficient variation?
    Ms. Visher. Yes, there is a wide variety.
    Mr. Mollohan. Do you think that those six or seven or 
however many programs you would be following are representative 
of the best practices that you would be looking at if you 
looked, for example, at the whole population?
    Ms. Lattimore. Yes. I think in the ideal, obviously it 
would be good to be able to go back to all, you know, the 16 
programs, we have got two sub-populations that are large. We 
have got our boys and our women.
    You noticed I did not mention girls and the reason for that 
is we could not find enough girls when we started to be able to 
include them.
    But we have got 350 boys, 350 women that I think provides 
us a huge opportunity to find out what the long-term needs are. 
So to be able to look at all of these 16 programs again would 
be really great, but----
    Mr. Mollohan. This follow-up study that you are talking 
about, is it multi-agency? Would you envision multiple federal 
government agencies supporting it and is it another $100 
million study?
    Ms. Lattimore. Well----
    Ms. Visher. No, no, no. Our study was not 100 million. A 
hundred million was given to the states.
    Ms. Lattimore. Yes.
    Ms. Visher. Our study was 12 million.
    Mr. Mollohan. Okay. All right.
    Ms. Lattimore. Right.
    Mr. Mollohan. Well, we are getting down to a number.
    Ms. Lattimore. Yes, I know, our study was 12 million.
    Mr. Mollohan. Not that that is a small amount of money.
    Ms. Lattimore. Yes.
    Mr. Mollohan. So.
    Ms. Visher. We were trying to propose something that would 
be on the order of perhaps a million dollars and that would 
probably not include the follow-up of the boys and the women 
because going out and finding these individuals again, we are 
doing face-to-face interview, that is a very expensive 
proposition.
    The reason why we were able to collect so much data that we 
had was because this was a very generously funded project from 
the National Institute of Justice. As I understand it, the 
National Institute of Justice received funds from other 
agencies to help them support that project. I do not know if 
that is possible now.
    Mr. Mollohan. Which project?
    Ms. Lattimore. The evaluation.
    Ms. Visher. The evaluation.
    Mr. Mollohan. Okay. And that is the $12 million effort?
    Ms. Visher. I do not know if that is possible now. The 
connections between the Department of Labor and Department of 
Justice may be different than they were when our project was 
funded five years ago.
    Mr. Mollohan. Okay. And so you are talking about a million 
dollars. You are talking about a multi-year follow-up, it 
sounded like, and different reporting periods, I suppose, as 
you went along. But I think you mentioned even three, four, 
five, or six years.
    Ms. Lattimore. The data that we have to take us through, in 
terms of interviews, through 15 months post release. And the 
administrative data that we have collected takes us through 24 
months or so, two to three years following release. And so the 
goal of this new study would be to be able to extend that 
horizon out further and that is what we were thinking----

                                 BUDGET

    Mr. Mollohan. On an annual basis, how much do you think 
that would cost to follow-up?
    Ms. Lattimore. I mean, we----
    Mr. Mollohan. Just a range.
    Ms. Lattimore. I think that if we wanted to follow, 
continue to follow the sample that we have, the individuals 
that we have, depending on--for one to two million dollars.
    Mr. Mollohan. One to two million over a five year period?
    Ms. Lattimore. Right, I mean, one to two million a year 
over a five year period, I mean, we could continue to follow 
them for a long time. I mean, like I say, the six sites, 75 
percent, we could, you know, work with that.

                          FOLLOW UP INTERVIEWS

    Mr. Mollohan. I understand. And tell the Committee how 
important you think it would be to do that and what would be 
achieved, just briefly. How important do you think that would 
be to do the follow-up and what would be achieved?
    Ms. Lattimore. To be able to do the follow-up interviews, 
we really need an understanding of what happens to these 
individuals as they go through. There are some very interesting 
sort of things that we do not understand at all. And the three, 
nine, and fifteen month data that look just strange, it is like 
they are doing better at three months and fifteen months than 
they are doing at nine months. And, of course, we can only 
observe that because we had three, nine, and fifteen months.
    So now what are we going to learn if we were able to talk 
to somebody after they have been out for 36 months or when they 
are back in after, you know, having been out for a while and 
why things went wrong and so forth. So I think just a better 
understanding of the processes and pitfalls.
    Mr. Mollohan. Okay. But my question was, how important do 
you think it would be to do that? How valuable would it be to 
have insights into the problems that we are all talking about 
here today?
    Ms. Visher. I think the positive impacts we are seeing 
already in 15 months--we need to know whether those positive 
impacts are being sustained. We can only know that by getting 
more information from them.
    Mr. Mollohan. Are these people going to be in programs for 
three, four, five, and six years or are you just going to be 
following up with people who are outside of a program?
    Ms. Visher. We are following up people that have been 
through this program. They may have gone back in. We do not 
know.
    Mr. Mollohan. Right.
    Ms. Visher. We would anticipate from the data we have seen 
that the people who have been through the program will continue 
to do better.
    Mr. Mollohan. Yes.
    Ms. Visher. But we do not know that until we talk to them.
    Ms. Lattimore. I think that, you know, it will address some 
of Congressman Wolf's--help us to be able to better understand 
some of Congressman Wolf's concern about, you know, what is 
working and what do we need to do to help people and has 
anything really changed. I mean, I think it is the kind of 
thing or kind of research that begins to allow us to get some 
insight into those issues.

                                REPORTS

    Mr. Mollohan. I know you are going to have a report with 
preliminary information later on this year, I think you are 
going to be----
    Ms. Lattimore. Yes.
    Mr. Mollohan [continuing]. Producing a report, but for 
those of us who are a little impatient, give us an idea of how 
important the following are just generally. And then when I get 
finished with this, I want to ask you what other things we 
should be thinking about.
    Education, how important is education in this?
    Ms. Visher. It is the number one need that the inmates 
expressed to us. We had asked them about their needs and it was 
number one.
    Mr. Mollohan. And what kind? Education goes from training 
to four years in college to postgraduate degrees.
    Ms. Visher. Well, 40 percent did not have a high school 
education, so we can start there. But they want other kinds of 
training.
    Mr. Mollohan. That makes such huge sense.
    Ms. Visher. You cannot get a job right now if you do not 
have--
    Mr. Mollohan. Not only that. And it is that, of course, but 
it is a huge self-esteem issue----
    Ms. Lattimore. Yes.
    Mr. Mollohan [continuing]. I would think. Everybody else 
has a credential of some kind. And if you go out there and you 
do not have a credential, in addition to having a record, you 
do not have anything positive. So I can see where that is 
really huge.
    So that is number one. So if we are looking at that and 
looking programmatically at it, we should be thinking education 
both----
    Ms. Visher. Yes.
    Mr. Mollohan [continuing]. In incarcerated circumstances 
and post incarceration? Okay.
    Ms. Visher. Yes.

                       SUBSTANCE ABUSE TREATMENT

    Mr. Mollohan. Treatment, substance abuse treatment?
    Ms. Visher. More of the participants in our programs 
receive substance abuse treatment than those that do not 
participate which suggests that the money and the services that 
were available under the program allowed them to get those 
services. So if more assistance is provided to the 
institutions, more of those kinds of services, I think it can 
only help.
    But the critical point is that unless that kind of service 
continues in the community, those services in prison are 
probably wasted. And that was difficult for people in 
corrections and communities to work because these are different 
pots of money. These are agencies that do not often work 
together.
    Mr. Mollohan. And they are different programs? So 
coordination. I should write coordination down here.
    Ms. Lattimore. Coordination, yeah.
    Ms. Visher. Coordination is huge.
    Mr. Mollohan. Okay. But substance abuse treatment is a real 
discriminator here?
    Ms. Lattimore. Yes.
    Ms. Visher. Yes.
    Ms. Lattimore. And the thing to remember, you know, 
Congressman Bonner mentioned the 90, 95 percent. Well, for the 
men, you know, I pointed out that 50 percent of the men got 
some treatment while they were in prison, but that is much 
smaller than 90, the 90 percent of people who were using 
illegal drugs, and then that dropped off to 20 percent----
    Mr. Mollohan. Okay.
    Ms. Lattimore [continuing]. Three months after release. So 
it is really stark what the gap is between need and treatment 
received.
    Mr. Mollohan. As you looked at substance abuse treatment 
programs, did any of those programs include medication?
    Ms. Visher. We know that you were interested in medication 
because our colleague testified before you. And we do not know 
of programs in our study that use medication. Very, very 
unusual.
    I was in a conversation yesterday about this question. 
Correctional institutions are very, very reluctant to use these 
medications in prison.
    Mr. Mollohan. Because they are not used to it. It is new. 
It would be new in their regimen, right?
    Ms. Visher. And because of staffing issues. You need nurses 
to deliver them. They do not have the resources for the nurses. 
They are worried about control of the drugs. There is a stack 
of issues.
    For example, apparently one of the drugs, you need to watch 
somebody for 40 minutes to make sure the pill dissolves 
underneath their tongue. And so it is not just sort of the 
newness, but it comes with other kinds of problems, especially 
with staffing to deliver these kinds of drugs and the control 
of the drugs themselves.
    Mr. Mollohan. So it is sufficiently new that we really do 
not have much experience with it and this study will not be 
able to speak to that?
    Ms. Visher. The study----
    Ms. Lattimore. Right.
    Ms. Visher [continuing]. May not speak to that.
    Mr. Mollohan. All right. Counseling, psychological or 
otherwise.
    Ms. Lattimore. Christy mentioned cognitive behavioral 
therapy as sort of one of the best practices that, evidence-
based practices that are out there. And so, it is not just 
counseling, but it is the specific kind of counseling. And it 
does appear that some things like cognitive behavioral therapy 
does make a difference and does work.
    Ms. Visher. And it is not necessarily a one on one, but it 
is a manualized approach that uses techniques to help people 
realize the kinds of errors they are making in their thinking 
and to change their thinking.
    And these programs have been very well evaluated and they 
do show impacts both in prison and in the community. They are 
becoming more frequent in prison, but they are nowhere near 
universal. And, again, they probably need a booster session in 
the community.
    So, again, continuity of care is a critical concept when 
you are talking about people coming out into the community. We 
talk about continuity of care with substance abuse, but we are 
also talking about continuity of care with respect to these 
kinds of cognitive programs or even employment programs.
    You can do a lot behind the bars in terms of training 
someone, but if you do not carry that into the community and 
set them up with some kind of program that utilizes that 
training, then that money in prison was lost.
    Mr. Mollohan. What programs did continuity of care better?
    Ms. Visher. Ohio has a very good program in place which 
starts a year before people are released where they start 
working on a case plan and a release plan for the individual. 
They bring community caseworkers into the prison on a monthly 
basis to meet and decide what kinds of milestones are being met 
towards progress, towards release. And then they have that same 
community case manager and that parole officer working with 
that individual on the outside.
    So they have tried to develop cooperation of the community 
and the institution to increase the chances that things will 
not be dropped when someone walks out the door.

                        FEDERAL V. STATE PRISONS

    Mr. Mollohan. Is the federal government doing any or all of 
these things, and are they doing it well if they are?
    Ms. Visher. The Federal Prison System?
    Mr. Mollohan. Yes.
    Ms. Lattimore. The Federal Prison System has historically 
been much better funded than the state systems. And so the 
availability of services and programming to certainly the 
inmates has historically, in general, you could say, been much 
higher in the federal prisons than you see certainly in some 
state prisons, in most state prisons.
    Mr. Mollohan. Is the Federal Prison System a part of your 
study?
    Ms. Lattimore. No. They were not a recipient of a SVORI 
grant, so it was restricted to state agencies.
    Iowa is another place, I think, that has been pretty----
    Ms. Visher. Historically.
    Ms. Lattimore [continuing]. Historically very good at sort 
of trying to bridge that gap between inside and outside.
    Ms. Visher. One of the things the Federal Prison System has 
is a system of halfway houses, that people are released to 
halfway houses. That is not common in the state system. It 
depends on how the state is set up whether they have that kind 
of component.
    And so they do have a halfway house system in Erie County 
which is where we did our study in Pennsylvania, but not all 
states have that setup.
    Halfway houses are difficult for communities to accept. It 
takes some cooperation between the community and the prison 
system to make that work.
    Mr. Mollohan. Mr. Ruppersberger.

                            GANGS IN PRISONS

    Mr. Ruppersberger. The first thing, I am glad that we are 
doing this.
    My background was as a prosecutor and one of the things 
that I noticed over and over again was the recidivism and then 
the inability now that we have socially and for a lot of other 
reasons, and I am looking in your report, about when you leave 
prison, what is going to happen with your life. Are you going 
to be coming back? Are you going to go back to drug issues?
    One of the areas that I have been focusing on with this 
Committee a little bit has been gang violence and gangs 
generally from Philadelphia to North Carolina.
    In your studies or in your research, did you look at the 
impact of gangs on the--I mean, I know the psychological 
studies you have done. Has that become a component, because it 
has been said many times that children in middle school 
sometimes go to gangs because the gang becomes their family? 
Did you look at that? Was there any involvement in your 
research as it related to gangs?
    Ms. Lattimore. We asked about gang membership. It is not 
clear, I mean, on our interviews with, you know, our subjects, 
the prisoners initially and then after they were released. We 
asked about gang membership. The levels that were reported, the 
self-report of gang membership was low.
    Ms. Visher. Even for boys.
    Ms. Lattimore. Even for boys. I am not quite sure what to 
make of that, i.e. I am not quite sure whether--you know, you 
have to think about the circumstances. You know, you are 
interviewing these, you know, all of our subjects in a prison 
setting and you are saying are you a member of a gang, 
currently a member of a gang. And, in fact, in a couple places, 
we were not allowed to ask that question because of some of the 
state rules and regulations. So we anticipated being able to 
look at that, but it is not clear in our data that we have, you 
know, that we have at least acknowledged gang members.
    Mr. Ruppersberger. Another thing. In your studies, I guess 
you have all different types of prisoners. What impact do the 
violent and repeat offenders have in the study as it relates to 
those that are not or are in prison for nonviolent or repeat 
offenders?
    Ms. Visher. We have not examined whether or not the 
programs work better for certain kind of offenders or not. That 
is the kind of information we may be able to discern in a 
follow-up study where we can look at what works best for what 
kinds of offenders. But as we indicated in our statements, most 
of the prison systems consider the people that we were 
including in our study to be serious and violent or they would 
not have been in prison and they had very serious histories.

                         MARYLAND PRISON SYSTEM

    Mr. Ruppersberger. I am going to be a little parochial 
here. You are from Maryland, I think?
    Ms. Visher. Yes, I am.
    Mr. Ruppersberger. Have you had a chance to evaluate the 
Maryland prison system?
    Ms. Visher. I did some work in the Baltimore system several 
years ago in a program that they were studying.
    Mr. Ruppersberger. The penitentiary downtown.
    Ms. Visher. The penitentiary downtown, we interviewed 
people in the penitentiary downtown which, as you know, people 
are released to that facility if they are returning to 
Baltimore from all over the state.
    Mr. Ruppersberger. Yes.
    Ms. Visher. And some colleagues of mine also have analyzed 
the reentry program in the State of Maryland as well. I think 
that program, the reentry program in Maryland has dramatically 
improved over five years. It started out as a community-based 
program and then actually the woman that was directing that 
program became the Deputy Director of Corrections. So she has 
taken her knowledge from the community and taken it----
    Mr. Ruppersberger. Why has it improved?
    Ms. Visher. It has improved.
    Mr. Ruppersberger. Why has it?
    Ms. Visher. Why has it improved? Well, I think in part, it 
is because of her knowledge of the community and her sort of 
charisma in the ability to convince the Secretary to put a lot 
of new reentry programs in place.
    She has also developed some very important partnerships 
with agencies around the state. So, for example, she meets with 
the State Department of Labor. She meets with the State 
Department of Health and Human Services. These are the kinds of 
partnerships in the state that are necessary to develop an 
appropriate reentry program.
    One of the things that ``The Second Chance Act'' requires 
is a reentry task force. And I think that is really important 
because if the Governor is not at the table, if the Governor is 
not bringing his other people to the table to make sure that 
everyone is working towards this problem, then it is not going 
to happen. And that is what is happening in Maryland.
    Mr. Ruppersberger. I will tell you a little story. It is 
just behavioral patterns.
    I was conducting a Grand Jury investigation about prison 
corruption and there was an individual who had been in prison 
for about twelve years and was getting ready to get out. Then 
he participated in a prison riot and beat up a guard or 
whatever. And he got another five or ten years.
    And I asked him the question, when you were getting ready 
to get out, why didn't you just step away. And he said, well, I 
want to make this place better for my kids. It was assumed that 
his kids were going to go there.
    Just one other question. Have you had a chance to study the 
West Virginia Prison System?
    Ms. Visher. No. I am sorry. Actually, West Virginia 
imprisons a lower percentage of its population than almost any 
other state in the country.
    Ms. Lattimore. Yeah.
    Mr. Ruppersberger. They are good guys, I guess, right?
    Ms. Visher. Maybe.
    Mr. Mollohan. Are you----
    Mr. Ruppersberger. I am finished. That is fine.
    Mr. Mollohan. Thank you, Mr. Ruppersberger, a fine member 
of the Committee.
    The Department of Justice recently released a comprehensive 
funding announcement for ``The Second Chance Act'' Prisoner 
Reentry Initiative that requires grantees to have a goal of 
reducing recidivism by 50 percent within a five year period.
    Based upon your assessment of SVORI, is that realistic?
    Ms. Visher. Well, I will let my colleague answer as well. I 
think I know what she is going to say.
    I think it is highly ambitious and it is all going to 
depend on the starting point. These are numbers and you can do 
a lot of things with numbers.
    If you start with a group that is motivated to improve, 
then you may see a 50 percent reduction. But if you start with 
a general population like the population that we studied, I 
would be tremendously surprised if we could----

                        FAITH-BASED INITIATIVES

    Mr. Mollohan. That is really important and interesting. And 
following up Mr. Wolf's interest in the faith-based 
initiatives, that is a very self-selecting group.
    Ms. Visher. That is right.
    Mr. Mollohan. If it were self-selecting, you might be able 
to achieve that.
    Ms. Visher. Right. Very, very important.
    Mr. Mollohan. Well----
    Ms. Visher. There are no guidelines to the states about how 
they sort of choose that benchmark. In fact, it is reiterated 
in the solicitation this is just a goal. It is actually not a 
requirement.
    Mr. Mollohan. Well, thinking about that, and if you were a 
state or the federal government planning this and putting 
together the construct of such a program, do you think that we 
should be in the business of targeting like that? Should we be 
trying to isolate groups and then treating them because they 
have similar characteristics? How do you treat diverse 
populations? How do you deal with this issue?
    Ms. Lattimore. Actually it is quite interesting. About half 
of, if you talk about the general population, about half of 
them do not come back. So, you know, 50 percent do not come 
back already. So only about half do come back.
    So the goal, as I understand it, under ``The Second Chance 
Act'' is to define some way for some group to be defined 
somehow to cut whatever their rate is, you know, by 50 percent. 
And I think that it is really ambitious.
    If you look at the reductions in recidivism of programs 
that have been proven to be effective, you usually see that to 
be--you know, reductions of 10 to 15, maybe 20 percent, which 
is not trivial when you think that each percentage reduction 
point is fewer crimes, fewer arrests, fewer, you know, damage 
to victims, prosecution costs, you know, the huge costs that 
are associated with each incident.
    A 10 to 20 percent reduction is not trivial. And in order 
for a program to be useful, you really cannot--it has to be 
able to be applied to a broad range of people. And so if the 
only way that a state feels that it can meet this 50 percent 
target is by picking the people that it thinks are least likely 
to come back anyway----
    Ms. Visher. It is a waste of money.
    Ms. Lattimore [continuing]. It is a waste of money. And so 
while goals are important, you know, it needs to be tempered 
with, you know, what you are going to get if you achieve those 
goals.
    Mr. Mollohan. Well, relative to the way that SVORI was 
implemented by the Department, what changes would you recommend 
for how ``The Second Chance Act'' funds should be targeted?
    Ms. Visher. Well, we actually met with the Bureau of 
Justice Assistance. We were asked to come and meet with them 
while they were putting together a solicitation and we gave 
them some ideas. And some of those are incorporated into the 
solicitation. Actually, I think it is a very well-written 
solicitation. I think it is going to be ambitious for the 
state. As you know, there is a 25 percent cash match. I 
personally am a little bit worried about that given this 
climate----
    Mr. Mollohan. About the match part?
    Ms. Lattimore. Yes.
    Ms. Visher [continuing]. Because the current state budgets, 
as you I am sure know, are in disarray. Trying to find that 
kind of match is going to be difficult. Some have even 
mentioned perhaps suspending that match for a year. I do not 
know if that is something the Committee would want to talk 
about.
    But there is some concern about that. But we talked to the 
Bureau of Justice assistance about the problems that we face. I 
think this continuity of services that I have talked about is 
very important.
    Mr. Mollohan. When you are saying these things, remember 
the context of my question is, what recommendations would you 
make--however good it is----
    Ms. Visher. Right.
    Mr. Mollohan [continuing]. Can it be improved?

                          ENROLLMENT PROBLEMS

    Ms. Visher. Make sure the applications include like a plan 
for the continuity of the services from prison to the 
community. We had some issues with enrollment. The programs 
were not fully as enrolled as we had expected. And so they need 
to carefully look at their systems. It is very complicated 
actually enrolling people in these programs----
    Ms. Lattimore. Yeah.
    Ms. Visher [continuing]. Because, for example, if you want 
to return people to a specific city, say Columbus, well, 
prisons in Ohio, there are 32 prisons in Ohio, and people are 
scattered all over. It is not like the prisons near Columbus 
are getting prisoners that are going back there.
    So you have to then sort of pull the people together in a 
prison to direct services to them and that requires some 
collaboration and planning that some of these states just have 
not done.
    So when we went out to try to find the people for the 
evaluation, we found that the programs were really small 
because they had not done the planning ahead of time to make 
sure that the people were going to be in the prison when they 
were going to deliver services and the area where they were 
going to be returning. So it requires some planning.
    Mr. Mollohan. Does this solicitation anticipate that 
challenge?
    Ms. Visher. The enrollment challenge a little bit. I am not 
sure. But, again, these kinds of things could be written into a 
review of the proposal. Unlike SVORI, this is competitive. 
SVORI, as you know, went to every state. And so this is an 
improvement in that it is competitive.
    And let us hope that the reviewers at the Justice 
Department take that seriously, take that mandate seriously, 
and choose reviewers who will pick the best applications that 
respond to some of the issues that SVORI had trouble with and 
are able to fund the ones that have the best chance of 
succeeding, including things like the reentry task force that I 
mentioned and the collaboration with the community.
    The other problem that the SVORI Program had that we have 
mentioned, which is more difficult to document in an 
application is the full implementation of the services. 
Remember we described the fact that there might have been 
services from zero to a hundred. They might have only gotten a 
third or 40 percent of that.
    So the full implementation of services and a plan to make 
sure that they are going to be able to deliver those services 
is also really important.

                         GRANT PROGRAM PROBLEMS

    Ms. Lattimore. And to build on that, I think the thing to 
remember is that, there are a lot of things happening at once 
and that it just takes time for that Department of Corrections 
to implement something.
    But one of the problems sometimes with some of these grant 
programs is they are so short term that by the time, you know, 
you pull your task forces together and you pull your coalitions 
together and you start to figure out what is supposed to be in 
the programs, well, half of your grant period is gone. And then 
it is like, okay, now we stop and now, oh, here comes another 
grant.
    Now, like with PRI, oh, we are supposed to focus on 
nonviolent offenders and do something else for them. But that 
is where, you know, we can build on our program. But it is a 
whole different population and sort of a whole different 
approach.
    Mr. Mollohan. Okay. Thank you.
    Mr. Wolf.

                            GANG RECRUITMENT

    Mr. Wolf. Thank you, Mr. Chairman.
    A couple issues, and I know Mr. Ruppersberger raised it and 
I appreciate him doing that.
    On the gang issue, have you seen--and you were not looking 
at that so much on gang recruitment. I have been told that when 
you go to certain prisons, you join this gang, that gang, or 
that gang. You are not unaffiliated. If you are, you are in 
trouble. Have you seen much on that or is that not something 
you have been--that would have a bearing on where you go when 
you get out though. So what are your comments about that gang 
recruitment?
    Ms. Lattimore. We are not.
    Mr. Wolf. Should you be looking at it? Since it happens to 
be one of the most significant issues facing the nation, gang 
violence, and it is growing, since I get from your eyes it is 
not the thing that you were following and I understand that, 
but maybe you should be looking at that to see if there is any 
indication of gang membership and where they go when they get 
out.
    Ms. Lattimore. That was not the focus of this study. And, 
you know, I know that there is a lot of concern not only with 
gangs but, you know, some concern about prison radicalization. 
I mean, there is a whole variety of other issues that need 
further study that really were not the----
    Mr. Wolf. The radicalization is different, what they come 
out and do, but the gang issue, if you are part of a gang and 
you come out, you may then--if you are having a hard time, and 
the comment I wanted to make is I guess you are going to have a 
harder time now with the economy being what it is. I mean, if 
you are a prisoner and you got out and you are on probation and 
you are interviewing at IBM, your chances really are zero.
    And so with the declining economy, it may make all these 
things that you are reporting actually much worse until the 
economy gets better. And so, therefore, if you come out and you 
do not get the job at IBM or working at Harris Teeter or 
working wherever, you then migrate to the neighborhood. I mean, 
if you come out a certain place, you go back into the 
neighborhood, you go back into the gang. You go back into that. 
I mean, there are MS13 gangs in prison and MS13 gangs outside 
of prison.
    So if you could look at that, I would appreciate it.
    The other thing is if you could kind of tell us what you 
have as you go follow-up on both the faith issue because, you 
know, man does not live by bread alone. It is not only our--it 
is what you feel, and also the work issue.
    And if you had to answer a question what is the purpose of 
prison, it is punishment or is it rehabilitation, and if you 
could give me just a one word answer, and what percentage you 
believe it should be, prison rehabilitation, punishment? Do you 
think it is 80 percent one, 50 percent? What do you think? You 
are experts now, so I am looking at you.
    Ms. Visher. That is a value question actually. And actually 
I was thinking about this question the other night. I think 
that it is probably about 50/50. Obviously they are not in 
prison because they have been good citizens. So part of the----
    Mr. Wolf. What do you think? You think it is 50/50 now or 
what do you think it should be?
    Ms. Visher. I think it should be at least 50/50. I do not 
think it is 50/50 now.
    Ms. Lattimore. Oh, I would say now, if you are asking 
about----
    Ms. Visher. Now?
    Ms. Lattimore [continuing]. In terms of resources, I would 
say it is 90 percent punishment----
    Mr. Wolf. Yeah.
    Ms. Lattimore [continuing]. And 10 percent rehabilitation.
    Ms. Visher. I think it should probably be closer to 50/50.

                         PROGRAMS AFTER PRISON

    Mr. Wolf. Well, I agree. And that leads to my last 
question, is that maybe--I think what Mr. Bonner said was 
accurate. Maybe the answer is to sort of defund or remove the 
funding for some of the incarceration things and set up a 
mechanism whereby there can be some matching grants to groups 
who connect with these people after they leave so that AA or 
whatever the program may be whereby they are willing to 
participate but also to be able to fund them. It is a volunteer 
effort, but to be able to fund them on some little things.
    Would it not make sense to sort of take away--and, you 
know, we are not going to be adding a lot of new stuff. The 
nation is in debt and we are sinking insofar as what we owe. 
Would it make sense to take some of the money that we have 
under the incarceration punishment category and shift it into 
rehabilitation but also shift it into rehabilitation after they 
leave?
    Ms. Visher. This is exactly what a report that came out 
last week recommended. The Pew Center released a report that 
said one in thirty-one adults in this country is under some 
kind of criminal justice----
    Mr. Wolf. Yeah. I saw the report.
    Ms. Visher. Yes and it says that 90 percent of our dollars 
go to prison and only 10 percent of our dollars go to community 
when most of the individuals under community justice 
supervision are in the community. So there does need, I 
believe, there does need to be a dollar shift. This, however, 
is a difficult thing to do.
    I am familiar, for example, in Illinois when they tried to 
close a prison in Illinois and the Governor was unable to do so 
because those prisons in those rural communities become the 
life blood of that community. And it is very difficult to close 
prisons in those communities.
    However, New York State has been successful. From what I 
understand, New York State's prison population is declining and 
their crime rate is declining. They are making these choices to 
close prisons and put more money into community supervision. 
And maybe that is one of the reasons why their crime rate is 
declining.
    Mr. Wolf. Well, maybe what we could do, Mr. Chairman, if my 
amendment is successful to be carried and we can convince the 
Congress, we could take the money that goes into Prison 
Industries and thus reclaiming industries that are no longer in 
the United States, so we are not competing with industries.
    I mean, I do not want to compete with a furniture 
manufacturer if he or she is making--but we talked about what 
we call Operation Condor, that we are bringing businesses back 
that are no longer in the United States, for instance, perhaps 
television sets, et cetera, et cetera. My chair is sinking as I 
am speaking.
    But then take that money on a pilot, on a pilot, and flood 
it into after prison services with regard to drug and alcohol 
and employment and maybe actually set up in a prison or in an 
area, maybe do one federal and one state whereby you would 
actually have, Mr. Chairman, an employment office, agency, 
maybe the Kelly Company or some outside private sector group 
and take that money so that we would be able to see that with 
that money--because I do not think there is going to be a lot 
more funding.
    And the states or California is in the tank and other 
states are having a hard time, and I think the first area they 
are going to cut with all due respect is going to be prisons 
because prisoners do not vote and there is no--and see if we 
could demonstrate that we could show that we are moving some of 
the money out that is being spent while they are in prison but 
particularly taking this money that we are making on Prison 
Industries and allocating it for services for after they leave.
    And then you would have a double advantage because the 
money that they would make--perhaps we should pay them minimum 
wage in this program. They could take one-third that they could 
send to their families, one-third for restitution, one-third 
that they would have as a sum when they get out rather than 12 
cents an hour or whatever and then that would help them sort of 
to continue the process. It would be interesting to see. And 
then you could sort of follow that because I think----
    Ms. Lattimore. Yes.

                             WORK IN PRISON

    Mr. Wolf. My sense is the answer, and you know more about 
it than I do, that if you did that, gave a man or woman dignity 
while they were in, gave them work on something that they could 
transfer, not working in the laundry doing, you know, table 
cloths, and then they were learning a skill and then you have 
helped them find a job really intensively like as an employment 
agency will work with you, not just help you do a resume, but 
they will make some calls, they will set up the interviews, and 
they are doing it on a contractual basis, and then you were 
monitoring, I think you would see--and then if you were funding 
some of the outside groups like Prison Fellowship or AA or 
whatever the group is, I think you might see a fairly 
dramatic----
    Ms. Visher. There is actually a study going on that is 
looking, and some of this is called transitional job work, and 
MDRC, Manpower Development Research Corporation, and the Urban 
Institute are doing an evaluation with funding from the Joyce 
Foundation----
    Mr. Wolf. Okay.
    Ms. Visher. To study a transitional job program in five 
communities. And the initial results were done in New York 
which found that these transitional jobs, giving people jobs 
immediately after prison with some supportive services to find 
jobs and to get the training and perhaps education they need 
reduced their rearrests----
    Mr. Wolf. It has got to.
    Ms. Visher [continuing]. Within the first year.
    Mr. Wolf. I think you just solved the answer of prison 
rehab-- I think that is the answer. You cannot have a person 
come out and not have a job. They are going to go back to the 
neighborhood. They are going to go back to their friends. They 
are going to go back to their--and they are going to go back to 
the gang. And then the end result is that some Friday night, 
you know, you are back in the process again anyway.
    Well, if we can see how we do that and if as you are 
looking, if you can look at the faith issue and the work issue. 
And I appreciate your testimony.
    Thank you, Mr. Chairman.

                           SECOND CHANCE ACT

    Mr. Mollohan. Thank you, Mr. Wolf.
    Well, you have given us some ideas of how ``The Second 
Chance Act'' funds should be targeted under this solicitation.
    Were there any points that you wanted to make beyond that? 
That is important. That is out there. It is being solicited. 
Anything more than what you talked about?
    Ms. Lattimore. I would just like to actually follow up. 
This was something we were talking about earlier today and it 
is an idea that, you sort of bounce around and you are always 
confronted with the question of, well, why should we spend my 
hard-earned taxpayer dollars on someone who has done something 
bad.
    And obviously the answer to that question is that, is the 
public safety in the long run, the rehabilitation issue. You 
get somebody back, turn them into a productive member of 
society and we are all better off. And for many people, that is 
not a satisfying answer.
    And it seems to me that there should be an opportunity 
somewhere for programs that would allow, that would provide 
training and education to prisoners and with the understanding 
that they would pay back. So it is like a scholarship.
    Mr. Mollohan. You are talking about inside the----
    Ms. Lattimore. Inside, yes.
    Mr. Mollohan [continuing]. Correctional facility?
    Ms. Lattimore. Yes. A scholarship, and obviously, I mean, 
we all know that Pell grants are no longer available to 
inmates, but to set up a program that would allow prisoners to 
take classes from a community college or to take classes from a 
university.
    And would all of them pay the money back? Of course not. 
But at least you could begin to develop some sort of a process 
where you would have the sustainable effort where someone is 
not getting something for nothing.

                          EDUCATION IN PRISON

    Mr. Mollohan. Let me give you a little anecdotal story on 
that. In West Virginia at one of our prisons, we have a pilot 
project going on where a local four year college is providing 
educational training at the local prison, everything from 
certificates to a four year college degree. And I said this to 
somebody in a previous hearing. The program has been going on, 
I guess, for two years now.
    One or more prisoners, I think actually there are two 
prisoners who had earlier requested a transfer to a prison 
closer to their home once they got into this program. And that 
opportunity came available to be transferred. They passed it 
up. They said, no, I really want to get this college degree or 
as much of it as I can get.
    Then another story. One of the prisoners was a lifer and 
was in a four year undergraduate degree program. And the 
question came up, well, you know, you are never going to get 
out of here, why do you want a four year college degree. He 
said, you know, I am never going to get out of here and I am 
never going to be able to use this four year degree outside, 
but I know I am smart. I know I can learn this stuff, and at 
least I will have learned it, which goes back to the self-
esteem issue.
    I mean, those are just great stories, and they get to the 
importance of education in all this, for the self-esteem, and 
then, of course, also for preparing you to do something 
outside. But I think the self-esteem issue is huge in people 
who are in recovery, either from drugs or from just criminal 
conduct without drugs.
    Well, with Mr. Wolf, you covered a bit about the fact that 
in your study, more services were provided within the 
correctional facilities and the importance of providing them in 
the communities after leaving prison, and your feeling that 
more grants ought to be made available to agencies that provide 
services on the outside.
    I want to ask you, what agencies are we talking about? Are 
we talking about every agency? Are you talking about government 
sponsored educational programs or rehab programs or counseling 
programs? Is this notion of providing additional grants to 
agencies outside of prison applicable to all service providers?
    Ms. Lattimore. I think what drives all of this to my mind 
are what the needs are of the inmate and many of the things we 
already talked about, education. One of the second highest 
needs they had was changing their thinking on criminal, their 
criminal behavior thinking which was a cognitive behavior 
thing.
    But there are some simple things that require you to think 
sort of outside the box. And one of the next sort of way up 
there on the top of the list were driver's licenses. And there 
are some agencies around the corrections, jails or prisons, 
that had started trying to address that issue. It is actually 
something you would think that a state would be able to fix.
    I mean, clearly when someone gets out of prison--everybody 
needs identification and that should not be a costly thing, but 
maybe the transportation or providing a little bit of funds for 
people to do that. So here it is all of a sudden we are 
thinking, oh, well, the DMV might be somebody that you want to 
try to pull into this coalition and transportation at the jail.
    And one of the Maryland jails, I think had started to--I 
saw a presentation on it. They started a program that gave bus 
tickets to people so that they could and library cards so that 
people could go down to the library and use the computers so 
that they could look for jobs.
    Mr. Mollohan. You are talking about real transition.
    Ms. Lattimore. Yes, and so you really, I think, have to 
think broadly when you think about which agencies. Some of them 
are public and some of them are private and out of the not-for-
profit sector.
    Ms. Visher. Like Goodwill Industries, for example.
    Ms. Lattimore. Yeah.

                           LIFE AFTER PRISON

    Ms. Visher [continuing]. That provides job training in many 
communities, but they also can provide--one of the other top 
needs are for their clothing. Many of these people are living 
with relatives, but the relatives are short on funds too. And 
relatives do not have money to help with food and clothing--
food banks and places where they can go to get clothing.
    And housing, housing is incredibly important. Thirty days 
before they were to be released, 50 percent of our population 
said they were not sure where they were going to live. And 
there are a number of programs popping up to provide 
transitional housing services. Many of these come with other 
services embedded so that there will be counseling services on 
site or other kinds of services. But these transitional housing 
services--and there is a whole company of programs that are 
working in this area to provide more of these kinds of 
facilities in communities so that people that do not have a 
place to go or cannot go home have a transitional place where 
they can go to get their feet on the ground, get a job to be 
able to get the money necessary to move out.
    Ms. Lattimore. And some of SAMHSA's programs, I mean, you 
come full circle, because SAMHSA is looking at substance abuse 
and mental health. And so they are dealing with their substance 
abuse and mental health populations.
    Also a big concern with homelessness with those 
populations, so they have got a program at SAMHSA that is 
trying to provide homeless services.
    But many of the people that are in their programs are 
people who have criminal records. They are either currently on 
probation or parole or they are in and out of jail all the 
time.
    And so they are actually, you know, coming at it from 
another perspective, but in the end, you have got these 
overlapping population pools, many of whom have all of these 
problems. And so, you know, everybody is sort of looking at it 
from a different angle, but it is the same group of people in 
the middle.
    Ms. Visher. I think ``The Second Chance Act,'' there is a 
solicitation that is coming out directly for local nonprofit 
and other kinds of organizations. They are going to be flooded 
with applications. And the review process for those 
applications is going to be really important because you are 
going to be needing to be checking credentials and things like 
that, checking that they have a track record, have they done 
this before.
    Anyone could put together an application and say, oh, yes, 
I am an organization, I can provide services. But those grants, 
I think, can be really, really important to supplement the 
services that have been provided in the institution.
    Community corrections, though, is also as the Pew Report 
suggested incredibly underfunded. And those kinds of community 
support officers can help individuals make the transition by 
putting them in touch with other organizations.
    Ms. Visher. It is amazing how people come out of prison and 
do not know where to go. They do not know what to do.
    Mr. Mollohan. They have no guidance.
    Ms. Lattimore. Yeah.
    Ms. Visher. They have no guidance.
    Ms. Lattimore. Right.
    Ms. Visher. They have their parole officer, but many people 
in this country are released without any kind of supervision. 
And so those people are even at a greater loss for knowing 
where to go to get some services.
    Many states are developing information to help people when 
they get out to say this is where you go for housing, this is 
where you can go for mental health assistance or medication or 
things like that. But, again, it is just constantly changing.
    Ms. Lattimore. And the problem with that is if you give 
somebody information as they are leaving prison, all they are 
thinking about is they are leaving prison. And a month later 
when they--or two weeks later--when they all of a sudden 
realize, oh, I need help with these things, they have lost the 
list. They do not know who to go to. They, they are just out 
there on their own.

                          TACKLING RECIDIVISM

    Mr. Mollohan. Okay. Well, thank you very much.
    Let me just ask a wrap-up question here. Other than 
providing more funding for ``The Second Chance Act'' and other 
federal programs related to reentry, what advice do you have 
for this Subcommittee on how to change the federal approach to 
tackling the recidivism problem? This is your chance.
    Ms. Lattimore. The federal government, I think, plays a 
critical role not just in providing guidance and funding for 
these programs but is basically, with the exception of a few 
foundations, the only source of funding for research. The only 
source.
    And so if we are to learn, we want evidence-based practice 
and we want to know what works best for whom, but NIDA, the 
National Institute of Drug Abuse, spends a billion dollars a 
year on research. That is more money on research than NIJ has 
spent in its 40 plus years of existence. And NIJ's 
responsibilities cover courts, corrections, policing, 
sentencing, criminal behavior, all of these important 
questions. And I suspect that it is not even close to a billion 
dollars. I am sure that number could be generated.
    But, you know, when you have five or ten million dollars a 
year and have to spread it over that, and considering, too, 
that the substance abuse and mental health issues have such a 
huge impact on behavior and then you add into that--you know, 
one of my real concerns, a huge concern now is the impact of 
PTSD and traumatic brain injury on our returning veterans and 
what the impact of that is in terms of their behavior combined 
with real serious concerns about homelessness and substance 
abuse and mental health, then we have got this whole huge new 
emerging problem out there that we really need to be focused on 
and start thinking about doing something about.
    Mr. Mollohan. One thing that occurs to me as you make that 
statement is the necessity, before you start funding all this, 
to coordinate it so that you are funding it in a way that is 
efficient and the dollars are----
    Ms. Lattimore. Right.
    Mr. Mollohan. The Veterans Administration has a very real 
role to play in this if----
    Ms. Lattimore. Yes.
    Mr. Mollohan [continuing]. We are going to do that, if they 
are going to be there. And obviously they are.
    Ms. Lattimore. I mean, to follow on what Christy said, 
there are some lessons learned also from the Prisoner Reentry 
Initiative which was through Labor, but their initial round of 
grants were to community-based organizations. And they had 
basically some stumbling out of the blocks, I think, in terms 
of how do you--okay, so you are based in the community. You are 
a community-based organization. You are going to serve a 
criminal justice population that has no requirement to come to 
you. And so I think they had some real issues, some serious 
issues with trying to find--getting people enrolled in their 
programs early on.
    Ms. Visher. If you know the program, you know to come.
    Ms. Lattimore. That is right.
    Ms. Visher. And that is where the Department of Corrections 
connection or the probation/parole connection to the community 
agencies is so important.
    Ms. Lattimore. Right. I think it took them a couple of 
years to sort of make that happen and, you know----
    Mr. Mollohan. Well, name for the Committee the groups that 
you think should be sitting down around the table talking about 
this coordination issue.
    Ms. Visher. Well, all the major cabinet agencies, but this 
was done actually at one point during SVORI. Pam and I actually 
presented several times to a Coordinating Committee that the 
Office of Justice Programs put together, but it dissolved and I 
do not know why, but the Department of Labor, Department of 
Health and Human Services, including SAMHSA. Veterans was 
there. CDC was there.
    Ms. Lattimore. HUD.
    Ms. Visher. Education was there. HUD was there. People from 
all these cabinet agencies were there.
    Mr. Mollohan. Did it work for the SVORI purpose?
    Ms. Lattimore. I think that it worked in the sense that.
    Mr. Mollohan. There was a silence there.
    Ms. Lattimore. Yeah. It was not continued. And I think it 
worked in the sense that if you look across, housing, substance 
abuse, mental health, physical health, employment outcomes, you 
do see that these programs by and large tried to have an impact 
on all of them. And they provided services.
    So sort of the initial push out the gate that you will look 
at all of these things and try to address all of these areas 
happened, but then, the task force--what happened after SVORI, 
the next piece of legislation that passed was the Prisoner 
Reentry Initiative which was given pretty much wholly to the 
Department of Labor. So then that was that, right?
    Ms. Visher. And they had stopped talking.
    Ms. Lattimore. Then the next piece of legislation that came 
on prisoner issues was ``The Marriage and Family Support Act'' 
which gave money to ASPE at SAMHSA to work on marriage and 
family issues for prisoners.
    Ms. Visher. And they did not coordinate with Justice----
    Ms. Lattimore. And they did not coordinate with Justice----
    Ms. Visher [continuing]. Or the Department of Labor.
    Ms. Lattimore. The Department of Labor or anybody else. And 
so now ``Second Chance Act.'' So SVORI was maybe 1998, 1999, 
2000, something like that. I mean, it was right around there 
that it first sort of came through. So in 10 years basically or 
20--yeah, 10--from 2000--in 10 years, we have seen SVORI, PRI--
--
    Ms. Visher. Marriage strengthening.
    Ms. Lattimore [continuing]. Marriage strengthening, MFS, 
Marriage Family Strengthening Program, and now we have got 
``Second Chance Act.'' So there have been four different 
initiatives from the federal level that have come out of these 
different committees and then different agencies that without--
--
    Ms. Visher. With slightly different parameters.
    Ms. Lattimore [continuing]. Focus and, with the exception 
of SVORI, and overall requirement of engagement of other 
agencies.
    Mr. Mollohan. Okay. Well, what should happen here? Tell us 
how this should happen. What should we be doing right now to 
bring all this together? We are an Appropriations Committee. 
How can we help effect that?
    Ms. Visher. Well, I think reinstituting an agency-wide 
committee on prison reentry initiatives like I described that 
the Governors convened would be important and designating 
someone in those agencies to focus on reentry issues in each of 
these relative agencies.
    And then I do not know if it is coordinated by Justice. 
Maybe you have a rotating chair because whoever chairs it sort 
of has the control and sometimes that is not a good thing. So 
maybe it needs to be chaired outside of one of the agencies. I 
am not sure. But regular coordination about the funding and how 
their funding streams are focusing on this population to see 
whether or not they are being coordinated or not and how they 
could be coordinated.
    Mr. Mollohan. And coordinated as they push their requests 
for this activity up through OMB and----
    Ms. Visher. Yes.
    Mr. Mollohan [continuing]. Back down to the----
    Ms. Lattimore. Yes.
    Mr. Mollohan [continuing]. Agencies and to Congress.
    Ms. Visher. Much like, the Office of National Drug Control 
Policy does with respect to drug funding.
    That is the purpose of that agency--is to sort of 
coordinate drug funding across various federal agencies. But 
there are now reentry czars in Governors' offices. But there is 
not that kind of person in charge of these kinds of efforts in 
the federal agencies and that could very well be an important 
step forward.
    Mr. Mollohan. Okay. Great. Well, thank you all very much 
for your testimony here today. We appreciate it. We appreciate 
your effort in just getting here and then we very much 
appreciate your expertise.
    Ms. Lattimore. Thank you.
    Ms. Visher. We will be getting back to you.
    Ms. Lattimore. Yes. Thank you so much.
    Mr. Mollohan. And we will be getting back to you. Thank 
you.
                              ----------                              

                                         Wednesday, March 11, 2009.

              INNOVATIVE PRISONER REENTRY PROGRAMS, PART I


                               WITNESSES

GEORGE T. McDONALD, FOUNDER AND PRESIDENT, THE DOE FUND, INC.
PAT NOLAN, VICE PRESIDENT, PRISON FELLOWSHIP
DENNIS SCHRANTZ, DEPUTY DIRECTOR, PLANNING AND COMMUNITY DEVELOPMENT 
    ADMINISTRATION, MICHIGAN DEPARTMENT OF CORRECTIONS

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. Well, gentlemen, thank you all for appearing 
today. We appreciate your traveling from near and far for us 
today to share your knowledge on this topic. This afternoon we 
will have two panels featuring individuals who play a 
leadership role in innovative programs that facilitate the 
reentry of offenders into our communities. We have learned a 
lot over the past few days about some of the challenges we face 
in this area. But our perspective would not be fully informed 
without hearing from witnesses who are putting ideas into 
action with good results.
    For the first panel we would like to welcome Dennis 
Schrantz, the Deputy Director of the Michigan Department of 
Corrections, who will be talking about the cutting edge work 
that is going on across his state on prisoner reentry.
    In addition, we are pleased to have Pat Nolan, Vice 
President of Prison Fellowship, to talk about what has made 
that program so successful. And to round out the panel we 
welcome George McDonald, the founder and President of The Doe 
Fund in New York City, to talk about that organization's well 
respected Ready, Willing, and Able Program.
    Gentlemen, I welcome you here today. We will just go from 
left to right. Pat Nolan, George McDonald, and Dennis Schrantz. 
And your written statements will be made a part of the record. 
And you can proceed with your oral presentations. Mr. Nolan.

                      Pat Nolan Opening Statement

    Mr. Nolan. Thank you so much, Mr. Chairman, and honorable 
members. We thank you so much for giving us time to talk about 
what is actually working in the field. A little about my 
background, I was a member of the legislature in California for 
fifteen years. I was Republican Leader of the Assembly in 
California and was reliably very tough on crime. Then I was 
convicted of racketeering for campaign contributions I accepted 
and spent two years in federal prison. So I had a chance to see 
the impact of the policies that I had advocated.
    Through God's grace I was hired by Prison Fellowship to 
come and work with government leaders to apply what we are 
learning to the real world. And it knits together my experience 
as a legislator, my background as a lawyer, and also my time in 
prison.
    I will start with a vignette that I think will exemplify 
for you the difficulty people face on coming out. My first day 
at the halfway house in Sacramento a bunch of my friends from 
the capital took me to lunch at the Ninth Street Deli, just a 
few blocks from the capital. And there were eleven of us and 
the waiter came and they all ordered. And I was looking at the 
menu. And you know, a deli menu has 110 items on it. And I just 
kept staring at it. And they waited, and the waiter started to 
get impatient, and they waited. And I was humiliated. I saw all 
these choices. I could not make up my mind what to order. For 
two years I had not had any choice of what to eat and I was 
overwhelmed by just the simple task of ordering a meal.
    When I told that story the first time I was in Oklahoma and 
a guy that, a much decorated Vietnam veteran that did seventeen 
years for armed robbery told me he had a similar situation. He 
went to Penney's to buy underwear. And when he had gone into 
prison there were boxers and briefs. And when he came out there 
were different waistbands, different cuts of the leg, colors, 
patterns. And he could not decide what to order. And when you 
come out of prison you are allegedly given more clothes. It 
was, you know, two pairs of underwear worn by eighty-three 
different people over five years. It is like cheesecloth. So he 
needed this. And he was so embarrassed that he could not pick 
what skivvies to get that tears welled up in his eyes. And he 
ran out of the store in embarrassment. This is a guy, a much 
decorated veteran of Vietnam. Bashed his head on the glass of 
the door coming out, and got back to the halfway house without 
the underwear that he had gone to get and was accused of having 
gotten in a fight because of the gash in his forehead.
    I say this because I, and this friend in Oklahoma, all came 
from good families, had good educations, had had positions of 
responsibility. In his case a brave, courageous man. And a 
simple task like buying underwear or ordering from a menu is 
impossible.
    Think about the people that come from not that same 
background. People with poor education, without job skills, 
without life skills, from broken homes. And that night when 
they get out of prison, they are usually put on a bus at 
midnight, they end up in the middle of a strange city in the 
middle of the early morning hours, 3:00 or 4:00 in the morning. 
They have been given sometimes $20, sometimes $30. Some states 
like Alabama give them a check for $10, as if they could cash 
it anywhere. No ID. And they have got to decide at that moment, 
where do they live? Do they sleep in the park? Do they go live 
under a bridge? They certainly cannot get a hotel or a motel. 
They have no money. The next morning, where are they going to 
look for a job? What do they eat? Where do they spend their 
time? And sadly, confronted with all of those choices they 
often make bad ones. Reentry fails so often within the first 
six months, often within the first month.
    So we at Prison Fellowship decided we needed to do 
something about it. We could not just care about taking the 
gospel to people in prison. We had to care about what happened 
when they got out. And we started a program in cooperation with 
the State of Texas, in which we prepare them the last year that 
they were in. Not only in religious program, but life skills. 
Getting them a GED, helping them get their drivers license 
ahead of time so they had ID when they got out. But most 
important, and this was what the study done by the University 
of Pennsylvania found, mentors. That loving person from the 
local community that cared about them.
    At risk people need relationships, healthy relationships, 
as much as they need programs. In fact, the programs will be 
much more successful if they have that relationship with a 
person that is responsible from the community. The government 
cannot afford to love them, but people in the community can. 
And that is what they need. As Dr. King said, ``to change 
someone you must first love them and they must know that you 
love them.'' And that is what the people from the community can 
bring. And it is at no cost to the government that they do 
this. But they need access.
    So the study at the University of Pennsylvania found that 
graduates of our program that stayed with their mentors had a 
recidivism rate of 8 percent. They are reincarcerated 8 
percent, and that is an astonishingly low figure verified 
through TDCJ figures as well as the University of Pennsylvania 
study. Now, we cannot guarantee those results and everything. 
But it does show that you can intervene and make a difference 
in their lives.
    We are now taking that to communities around the country 
and establishing what we call Communities of Care, where we are 
a convener but we pull together the housing, job placement, 
mental health, medical people to help these inmates when they 
return. Right here in Loudoun County where I live now our 
church has organized eleven other churches to form the Loudoun 
After Care Program, which matches the returning offenders with 
loving mentors and plugs them into the resources that are there 
but that they are sophisticated enough to even know how to 
access. And I think that is one of the most important things of 
mentoring. It is not just the love, but it is helping the 
inmates think through what is available for them and becoming 
their advocate. Helping them work through the bureaucracy of 
it.
    I would just mention a couple of other programs and it is 
not just ours that are important. La Bodega de la Familia in 
New York looks at those returning from prison, those in prison 
and returning, as the family needs healing, not just the 
offender. So they provide drug treatment, anger counseling, to 
try to deal with the issues that are causing that family to be 
dysfunctional. So that when they return they have a healed 
family, which is the fabric of our society. The crime in that 
neighborhood by the New York PD statistics has dropped 
dramatically from being a high intensity crime area to a normal 
crime because of the impact that they have had.
    In St. Louis the chief probation officer changed the jobs 
of probation officers there. He said to them, ``It is no longer 
to force inmates to get a job, or offenders to get a job. Your 
job now is to help them get a job.'' And the focus was on 
getting them jobs, not just telling them they should. They 
worked with churches and local nonprofits, a group called Dress 
for Success, and they help give them clothes that is 
appropriate to an interview. They train them on how to write 
their resume. How to be honest about their conviction. Not hide 
it, but instead say how they have changed. They have gotten the 
auto dealers to offer to give them cars, loan them cars. If 
they keep a job for a year they get to keep the car. What a 
great incentive. At no cost to the government. The unemployment 
rate of those under supervision from the St. Louis Probation 
Department, the Eastern District in Missouri, is one-half of 
the unemployment rate of the general public in St. Louis. I do 
not know anywhere else where offenders have a lower 
unemployment rate than the general public but they have 
succeeded there.
    There are a couple of things that you are going to be 
voting on in the next few years trying to implement The Second 
Chance Act that are so important. One is the resource center. 
There are so many groups out there trying to do this work. But 
there is no central depository of what works, and how it works. 
And the resource center will be so great to give them templates 
to work from. La Bodega de la Familia deliberately wrote 
materials as they went along so others could replicate it, but 
most programs do not have that. This resource center will be 
critical to it. And the fear is that if it does not have its 
own line item it will get dispersed into other parts of the 
bureaucracy. It is really important that there be a place where 
any nonprofit or ministry can go and find out what is working 
so they can apply it.
    The last thing is, and I hope there is some chance during Q 
and A. I do not want to eat up the time of my fellow panelists. 
But the Bureau of Prisons has taken a very strange response to 
The Second Chance Act. They are placing people for only six 
months in the halfway house. And Mr. Lappin, whom I have great 
respect for, said yesterday that it is cheaper to keep people 
in a low security, or minimum security prison, than it is in a 
halfway house.
    I do not think that properly states the case. Because when 
an inmate is sent to a halfway house it number one frees up a 
bed at no capital cost to the community. It is the agency, the 
nonprofit, that takes them in in the halfway house. He does not 
take that into account. The second thing is, and this is, I can 
verify this, a quarter of the income of those inmates in the 
halfway house goes to pay for their own upkeep. So they are 
helping support themselves. And when they are sent to home 
confinement, which usually happens after a month or a month and 
a half, at no cost to the government they are supervised but 
still a quarter of their money comes to pay for their upkeep. 
So they essentially run a cheap motel. Those same beds are 
rented out over, and over, and over again. They may be 
supervising five times the number of beds they have. So when he 
compares a bed in a halfway house to a bed in a prison that is 
not a fair comparison. The net cost to the government is far 
less to a halfway house, and it is far more helpful to the 
inmates on getting back on their feet because they are in the 
community, with their family, with the support groups they are 
going to be building relationships with. Thank you for this 
time.
    [Written statement of Pat Nolan, Vice President, Prison 
Fellowship, follows:]

[GRAPHIC] [TIFF OMITTED] T1247B.013

[GRAPHIC] [TIFF OMITTED] T1247B.014

[GRAPHIC] [TIFF OMITTED] T1247B.015

[GRAPHIC] [TIFF OMITTED] T1247B.016

[GRAPHIC] [TIFF OMITTED] T1247B.017

[GRAPHIC] [TIFF OMITTED] T1247B.018

[GRAPHIC] [TIFF OMITTED] T1247B.019

[GRAPHIC] [TIFF OMITTED] T1247B.020

    Mr. Mollohan. Okay. Thank you, Mr. Nolan. Mr. McDonald.

                Opening Statement by Mr. George McDonald

    Mr. George McDonald. Thank you, Mr. Chairman and members of 
the Subcommittee for having me here today. Like Pat, I have 
been arrested four times but fortunately I have not been 
convicted. And it was for feeding homeless folks in Grand 
Central Terminal. I used to go there every night at 10:00 and 
feed 400 people standing outside. The people who ran the 
terminal thought that I was attracting them from all over the 
other forty-nine states to come for the bologna sandwich and 
the carton of milk. But I did that for those number of nights 
to learn who the folks were. And what I came to realize, and 
what they told me over and over again, was that they 
appreciated the sandwich but what they really wanted was a room 
and a job to pay for it.
    So, you know, that struck me. Indigent people work? That 
sounds like a good solution to homelessness. And so I set out 
to put together a program to do exactly that, based on what I 
heard from them. Not because I was any expert, believe me, in 
anything. But a woman had died of malnutrition, a friend of 
mine, and I got some money together. And we started buying food 
and giving it out.
    So the long and short of it is that we picked up, my wife 
and I, Harriet, who was a screenwriter in Beverly Hills at the 
time writing about a little girl who lived in Grand Central 
Terminal, we formed an organization called The Doe Fund named 
after the woman who died. And we set out to get a city 
contract. And Ed Koch was the Mayor of New York then and he 
thought that I would fail, and I would not be a critic anymore, 
and that everything would be fine. But we got a contract with 
the Housing Preservation and Development Agency of the City.
    And it actually turned out to be the first welfare to work 
contract in America. Because HPD did not care about the social 
services that we did. They wanted us to go out and repair the 
apartments that the City owned, take rubbish removal, paint the 
walls, plaster, tape, that kind of stuff. And we did it. And 
the first day that we went out, January 1, 1990, we filled up, 
or January 2nd, we filled up a dumpster in front of an 
apartment building and called up the City and said, ``We need a 
new dumpster.'' And the folks in the City said, ``Oh, you are 
not scheduled to get one for two days. We have to go to 
lunch.'' And we had filled it up in two hours. And that is 
emblematic of the kind of folks that when given an opportunity 
will work.
    And we built this organization from the people from the 
floor of Grand Central Terminal who were castaways, for lack of 
a better word. We now have 450 employees. We do $50 million in 
revenue. We have programs in three states. And we have come to 
find out that over 80 percent of the folks in our program have 
histories of incarceration of over sixty months each.
    So the homelessness was just part of a continuum of coming 
out of prison, being homeless, living in the park, going to 
drug treatment programs, getting out of the drug treatment 
program, not having a job, and doing the whole thing all over 
again.
    So we have a holistic program, now, both for homeless 
people and for people who come out of prison. Now, when 
somebody comes out of prison we meet them at the door. And the 
program that I am here to talk about today is one that is for 
folks on parole. So they come home and they have a place to 
live, with their mother, their grandmother, their significant 
other. Whoever parole says that they can live with. And then we 
put them to work right away and start paying them above the 
minimum wage right away in projects that improve the community.
    So Congressman Serrano knows that the men in blue in New 
York City with Ready, Willing and Able on the back, that clean 
up four of the five boroughs. We do not go to Staten Island 
because it takes too long to get there. But four of the five 
boroughs. We have 55,000 New Yorkers that send us money because 
they go out of their house, and they talk to the guy on the 
street in the uniform. And they ask him how his life is. We 
drug test twice a week, and we have people save, and we have 
all of the social services that Pat was so correct about.
    But here is the deal. 44 percent of the folks who come home 
from prison in New York every year are rearrested at the end of 
that year. And there are 19,000 to New York City. Two-thirds go 
back at the end of three years. But at the end of our program, 
4.8 percent go back. And now these are all verifiable results 
run through the state criminal justice agency. They are not 
reincarcerated in New York State.
    So it is paid transitional work, and the key is those first 
months when they come home from prison. If you can get them 
engaged in having money in their pocket that they can bring 
home to wherever it is that they are living, they will not 
become homeless and they will not go back to prison. And we 
have the proof. We do not need any more studies. All we have to 
do is invest in the proof. And we can shut prisons and end the 
mass incarceration of African American men in America. Because 
that is who is in our prisons.
    Now, it is not my fault, it is not your fault, it is not 
our fault. It is just a fact. And it is a fact that is 
undeniable. And also, if you give them an opportunity, give 
them some money in their pocket from the hard work that they do 
improving the community, and give them structure for eight 
months to a year, they will not go back. I rest my case.
    Let me be the first to wish you a Happy St. Patrick's Day. 
Thank you.
    [Written statement by George T. McDonald, Founder and 
President of the Doe Fund, follows:

[GRAPHIC] [TIFF OMITTED] T1247B.021

[GRAPHIC] [TIFF OMITTED] T1247B.022

[GRAPHIC] [TIFF OMITTED] T1247B.023

[GRAPHIC] [TIFF OMITTED] T1247B.024

[GRAPHIC] [TIFF OMITTED] T1247B.025

[GRAPHIC] [TIFF OMITTED] T1247B.026

    Mr. Mollohan. Mr. Schrantz.

                Opening Statement by Dennis S. Schrantz

    Mr. Schrantz. Thank you, Mr. Chairman. Thank you very much, 
Ranking Member Wolf, and members of the Subcommittee. I am very 
pleased to be here today to talk with you about how the 
Michigan Prisoner Reentry Initiative has had a statewide impact 
on prison crowding and prison releases. And our vision in 
Michigan is very simple: every prisoner released to the 
community has the tolls necessary to succeed. And in order to 
do that we focus on developing for every prisoner who is in the 
system a ``transition accountability plan'' that is developed 
with the prisoner and the prisoner's family to prepare that 
prisoner for release immediately, and the months and the years 
to follow.
    The work that we are doing is dedicated to system change. 
Governor Jennifer M. Granholm, who offers greetings to you 
today, and the Director of Corrections Patricia L. Caruso have 
provided extensive leadership over the past six years to focus 
on true system change that has resulted in unprecedented growth 
of reentry throughout the state. We now have eighteen regional 
sites across the state. They cover all of Michigan's eighty-
three counties. We will be funded in the state of Michigan for 
fiscal year 2010 at about $57 million for reentry. That does 
not count the cost of probation parole officers and already 
established services. This is $57 million for services for 
parolees.
    In order for each of these eighteen regions to receive 
funding, they must create a comprehensive prisoner reentry plan 
for their region. That reentry plan examines the 
characteristics the prisoners that are going to be returning to 
that community over the course of the next year, understands 
they will be assessed for both risk and need, and understands 
for the 60 percent of those prisoners returning who are 
moderate to high risk, that they have to have intensive 
services or the former prisoners will fail in the community and 
they will return to prison.
    Historically, we have one out of every two prisoners in 
Michigan returning back to prison within three years. Based on 
the clients that we are working with, that will be reduced to 
one out of every three. That is a massive improvement that is 
not system wide yet, but as we continue to move toward taking 
what is now a statewide effort and taking it up to scale--which 
means that every prisoner is assessed for their reentry needs 
and every prisoner has a transition plan--we expect to see 
those reductions continue. We are not going to rest easy with 
data that shows that they are simply not failing and returning 
to prison. Instead, we are going to be looking at whether or 
not they are being rearrested and reconvicted as a true measure 
of changed behavior.
    In a real sense the Prisoner Reentry Initiative is a crime 
fighting initiative, which explains why in Michigan it is a 
very bipartisan supported effort, bicameral and it is one of 
the few areas in the political cycle that we have had, not that 
the Governor is in her second year of her second term, where we 
have had broad agreement by both parties, both chambers, to 
implement this broad based reform.
    The numbers that we have seen so far show that when you do 
this work one offender at a time, when you engage the folks in 
the community, when you design ways to move money from the 
state level to the local community, requiring a comprehensive 
plan that indicates which portion of those funds will be used 
for substance abuse, or housing, or transportation, public 
safety, etcetera--because every community is different--you see 
results. And so far we have seen results: Parolees with new 
sentences have dropped to their lowest rate since 2005 with 
only ninety-eight out of every thousand coming back with a new 
crime. Parolee technical violators, those that are not meeting 
the conditions of parole and come back, have fallen to their 
lowest rate since we began tracking records in 1992, with 
eighty-nine per thousand returning for a technical violation. 
So putting those two numbers together, we have the lowest 
returns for either new crimes or technical violations that we 
have had in recent memory. And others have occured in spite of 
the fact that that parole population has increased from 17,000 
parolees on the street to 20,000.
    There is a great deal of written information that I have 
provided you, including the power point presentation that I 
used for talking points and a rather detailed written 
statement. I want to make five points to you, then I will stop, 
as our panel prepares for questions.
    Number one is that prisoner reentry can be a successful 
crime fighting tool if it is evidence based meaning that we 
have to go where the research leads us. If we want to fight 
crime we have to do what the research tells us. And frankly, 
the research tells us that dollar for dollar, spending money on 
prisons is not the best way to reduce crime. We have known for 
many years but you get bigger bang for the buck by putting 
policemen on the street. We get bigger bang for the buck by 
treating substance abuse, and providing addicted individuals 
with treatment. You do better by spending money to make certain 
that there are supportive families and supportive communities 
and supportive neighborhoods, so that when offenders get out of 
prison they have the support they need so that they do not 
return to prison.
    Complete system change is very difficult to imagine because 
the state cannot do all of this work alone. Every state 
department that has anything to do with this type of work has 
to be part of the effort. But at the end of the day it all has 
to happen locally. So in the Department of Corrections at the 
state level we create the policy structure, we create the 
funding, and we provide that to the locals. The locals decide 
how to cut the hog, how to define their comprehensive plan and 
move forward. And it all has to be based on what truly works.
    Number two, that in order for these community programs to 
be effective they have to be fully funded. There must be a 
tremendous amount of reinvestment, not just in terms of whole 
dollars because there are not enough programs to go around for 
these returning prisoners--but also in terms of reinvesting 
within the programs that we have so that their quality 
improves, and that they, too, will go where the research takes 
them. A lot of folks can deliver substance abuse programs. 
Fewer numbers of nonprofits can deliver evidence based 
programs. And so there is a lot of quality control that has to 
take place.
    For repeat violent offenders, there is no doubt that they 
have to go to prison, but they are going to get out of prison 
too. And so you need both prisons and reentry. And the 
question, I think, for state legislators across the country, is 
what is the balance between funding for incarceration and 
funding for reinvestment in the community? In Michigan, the 
Governor decided when she ran for office, that we are out of 
balance. And as a result of this reentry initiative and 
focusing on these evidence based practices we are changing the 
system toward an evidence based system. We will see a 20 
percent reduction in our prison population. And before the 
Governor's second term is over we will have closed sixteen 
prisons, each one anywhere from 250 beds to 1,200 beds. This 
drop in the prison population, which will have saved us upwards 
of $800 million before it is over with, is only possible 
because of significant reinvestment in those programs that 
these men and women have to be involved in if they are to be 
successful.
    Number three, prisoner reentry, certainly the Michigan 
Prisoner Reentry Initiative, is evidence based. What my fellow 
panelists are saying is that what they are focusing on, too, is 
evidence based. But there is only a certain amount of research 
you need before we know what you have to do. And this is an 
initiative we need to keep studying. The shift in the Congress, 
I think, toward this philosophy of reentry has had some very 
dramatic impacts on the state level because it emboldened state 
leaders to move in this direction as well. And as former 
Michigan legislators are elected to the Congress, we think this 
cultural shift will be sustained and expanded.
    Number four, that states and community, focus on not just 
what happens with people when they get out of the prison, or 
jail, or juvenile detention facilities, but also on offenders 
who otherwise would be imprisoned. We must reduce admissions to 
prisons so that only the ones that are incorrigible and violent 
are the ones going in. By attacking the issues both at the 
front end and the back end of the system you can rebalance 
funding as long as there are reinvestments. Michigan is one of 
the many states in the country that has a Community Corrections 
Act which has as its goal the reduction of admissions to 
prison. The national average of how many felons convicted of 
crimes that go to prison out of 100 is 40. In Michigan it is 
only 23. We have reinvested $30 million a year for the past ten 
years to make sure that we have balance at the front end of the 
system so that instead of going to prison offenders are 
involved in residential and nonresidential programs. We have 
got enough fully trained law enforcement officers, parole 
probation officers on the street to be able to manage them.
    Number five and lastly, The Second Chance Act is good 
public policy. And there are probably about twenty-one states 
across the country that have been leading the charge on 
improved reentry for many years. And they are doing the kind of 
work that you want to see done through The Second Chance Act. 
There are hundreds, thousands of programs across the country 
doing this work. And so you are tapping into a brain trust, I 
think, that is very broad and very deep. And we feel very 
confident that with increased funding through The Second Chance 
Act that we will be able to do even better.
    At $57 million a year, the Michigan Prisoner Reentry 
Initiative in Michigan is underfunded. So when you think about 
levels of funding for the entire country, please keep that in 
mind. When considering the Second Chance Act funding available 
to states, the Michigan Department of Corrections and our other 
departments, work with local jurisdictions, to receive federal 
funding. So funding goes from the federal government directly 
to those local jurisdictions where $300,000 or $400,000 or 
$500,000 can make a world of difference, as opposed to coming 
to the state bureaucracy where our $2 billion corrections 
budget, frankly, is sufficient to do our job.
    There is a lot more information I could cover but I will 
save it for questions. Mr. Chairman, Ranking Member Wolf, thank 
you.
    [Written statement by Dennis S. Schrantz, Deputy Director, 
Planning and Community Development Administration, Michigan 
Department of Corrections, follows:]

[GRAPHIC] [TIFF OMITTED] T1247B.027

[GRAPHIC] [TIFF OMITTED] T1247B.028

[GRAPHIC] [TIFF OMITTED] T1247B.029

[GRAPHIC] [TIFF OMITTED] T1247B.030

[GRAPHIC] [TIFF OMITTED] T1247B.031

[GRAPHIC] [TIFF OMITTED] T1247B.032

[GRAPHIC] [TIFF OMITTED] T1247B.033

[GRAPHIC] [TIFF OMITTED] T1247B.034

[GRAPHIC] [TIFF OMITTED] T1247B.035

[GRAPHIC] [TIFF OMITTED] T1247B.036

[GRAPHIC] [TIFF OMITTED] T1247B.037

[GRAPHIC] [TIFF OMITTED] T1247B.038

[GRAPHIC] [TIFF OMITTED] T1247B.039

[GRAPHIC] [TIFF OMITTED] T1247B.040

[GRAPHIC] [TIFF OMITTED] T1247B.041

[GRAPHIC] [TIFF OMITTED] T1247B.042

[GRAPHIC] [TIFF OMITTED] T1247B.043

[GRAPHIC] [TIFF OMITTED] T1247B.044

[GRAPHIC] [TIFF OMITTED] T1247B.045

[GRAPHIC] [TIFF OMITTED] T1247B.046

[GRAPHIC] [TIFF OMITTED] T1247B.047

[GRAPHIC] [TIFF OMITTED] T1247B.048

[GRAPHIC] [TIFF OMITTED] T1247B.049

[GRAPHIC] [TIFF OMITTED] T1247B.050

[GRAPHIC] [TIFF OMITTED] T1247B.051

[GRAPHIC] [TIFF OMITTED] T1247B.052

[GRAPHIC] [TIFF OMITTED] T1247B.053

[GRAPHIC] [TIFF OMITTED] T1247B.054

[GRAPHIC] [TIFF OMITTED] T1247B.055

[GRAPHIC] [TIFF OMITTED] T1247B.056

    Mr. Mollohan. Thank you, Mr. Schrantz. Mr. Schrantz, the 
scope of what Michigan is doing is, as you have described it 
here, simply astounding, really. When did you start this 
initiative?

                           MICHIGAN GOVERNOR

    Mr. Schrantz. Well, it is important to understand that the 
Governor ran as Governor with a plank in her platform to reform 
prisoner reentry. And so, when she was first elected to office 
in 2003 her first message to her cabinet on issues of justice 
and crime was that they were to collaborate on prisoner 
reentry. So we started the planning in earnest before the 
election, when I worked on her campaign. And then she brought 
me into state government to be able to manage this reform.
    We planned for two years and in 2005 we began our first 
reinvestment by closing a private prison that had exorbitant 
cost and terrible performance. We took $19 million in savings 
and we put about half of that into our first prisoner reentry 
pilot sites. Then the next year we doubled that, the next year 
we doubled that. So by the time we got to 2006, we had 
established sites across the state. And then in 2008 we asked 
each of those eighteen sites to expand their borders so they 
now cover all of the state. In order to do that, we connected 
with One Stop Shops across the state, which in Michigan are 
called Michigan Works Agencies. Out of those eighteen sites, 
fourteen of them have as their administrative agency a Michigan 
Works Agency. And they are very well suited, obviously, to 
focus on the issue of jobs.
    So we went to their natural borders and expanded. The other 
sites include the Southeast Michigan United Way, Genessee 
County government, Catholic Social Services, and then a human 
services collaborative in Oakland and Livingston counties. So 
we let the locals decide who actually manages the money. So far 
we have worked with about 12,000 prisoners and the data that I 
expressed to you concerns those 12,000.
    Mr. Mollohan. And you started in 2003?
    Mr. Schrantz. We started planning in 2003. We started 
implementing in 2005. We worked for two years before we 
actually started putting prisoners through the MPRI.
    Mr. Mollohan. Well, you are doing a lot. You are recreating 
your entire criminal justice framework, really, to focus on 
rehabilitation, reduce recidivism. You are moving prisoners 
more quickly out of prison to parole, providing services to try 
to avoid violating parole. Not to sound like the recent 
criticism of the President of the United States, but are you 
trying to do too much?
    Mr. Schrantz. We are certainly trying to do too much, I 
will tell you that, but Governor Granholm was very clear when 
she took office. She said, ``You are going to get this fixed 
during my watch.'' And I remember saying to her, ``Well I hope 
you get reelected for two terms because we are not going to get 
it done in four years.'' And so, frankly, I would say that our 
rapid expansion does certainly have some downsides. But we have 
been able to take advantage of this enormous energy and 
commitment across the state, and really have tapped into such a 
broad passion to do this work that I do not think we should 
have done it any other way.
    Mr. Mollohan. How have you gotten your community service 
providers prepared for this?
    Mr. Schrantz. Well, the community service providers are 
pretty much prepared as collaboratives in their own right. They 
are very well organized in their local communities. They know 
each other, they work with each other. And so when funding 
streams and government structures are put into place they are 
usually ready to respond.
    Mr. Mollohan. But you have had to orient them. I mean, you 
have had to prepare them. You have had to resource them.
    Mr. Schrantz. Sure. One of our first opportunities for 
funds included some foundation funding from the JEHT 
Foundation, which recently folded. It is in Mr. Serrano's 
district. And it is very ironic that Mr. Madoff may be doing 
time in prison and so much of the money that he helped raise 
actually funded the reentry initiative. I was thinking today of 
writing him a letter asking him to think about when he was ever 
going to get out. Because of JEHT funding, we were able to 
place a community coordinator in each of our first eight sites. 
And that community coordinator was a full time staff person who 
worked to develop the first comprehensive plan for that area 
who brought to the table the human service providers, the 
warden from the local prison, the head of the local parole 
office, a faith based or a community advocate. They formed a 
committee which then created the comprehensive plan. That 
comprehensive plan came to the state for funding. When the 
state funded it, we did not need the JEHT Foundation money for 
that particular district, so we used the JEHT money for the 
next eight sites. And we did that repeatedly for three years, 
organizing at the community level not with Department of 
Corrections staff, functioning as facilitators or experts. 
Because we knew that that skill of community development 
organizing is a very specific skill. And we used a statewide 
nonprofit community organizing agency to hire those people (the 
Michigan Council on Crime and Delinquency).

                     INTERCHANGE FREEDOM INITIATIVE

    Mr. Mollohan. Mr. Nolan, the recidivism rates of graduates 
of your Interchange Freedom Initiative are impressive. A two 
year post release rearrest rate of 17.3 percent compared with 
35 percent for nonparticipants, and a two year reincarceration 
rate of only 8 percent compared with 20.3 percent for 
nonparticipants. How long has the IFI been operating, and in 
how many communities are you operating today?
    Mr. Nolan. It started in 1996. The first one opened in 
1997. We were negotiating with TDCJ to set it up. We are now in 
seven different states. However, we are treating the IFI, 
frankly, as a laboratory of what works so then we can roll it 
out at far less expense in communities around the country. Our 
target are the seventy-five major communities across the 
country which have the greatest number of offenders returning. 
And we are working to roll the mentoring program out there 
along with the communities of care coordinating the other 
assets.
    I think as Dennis said, those groups are there. They are 
doing the work. And it really just takes somebody helping them 
plan. And one of them, I think, essential provisions of The 
Second Chance Act is that for the grants they have to come up 
with a strategic plan, and a consortium so that we get the 
maximum impact from these groups that on their own have been 
doing tremendous work. But that map out what the needs of 
offenders are. And where there is overlap, or also where there 
are gaps. And what we have found is, we have been a great 
catalyst in the seven states where we work for a lot of groups 
that have been saying, ``Gee, we were hoping somebody would 
call us together.'' And so we are surfing, if you will, off all 
this other great work. And we are just sort of the catalyst to 
bring them together.
    Mr. Mollohan. Well, we want to get to asking the 
cooperation and working together question here in just a little 
bit.
    Mr. Nolan. Okay.

                    READY, WILLING AND ABLE PROGRAMS

    Mr. Mollohan. Mr. McDonald, the low rearrest rate for the 
Ready, Willing and Able graduates is quite impressive. If you 
could get down to a 4.8 percent rearrest rate throughout the 
population of reentering offenders, that would make a huge 
difference in the crime rates and the strains on correctional 
facilities, not to mention the lives of the reentering 
offenders. How does your rearrest rate compare with other 
reentry programs out there?
    Mr. George McDonald. Well, it is hard to know. Because, Mr. 
Chairman, it is hard to get any information that you could 
determine was accurate. I mean, it is like drug treatment 
programs, you know? Everybody has got the most effective drug 
treatment program in the world but the people that come into 
our facilities have been in twelve or fourteen different drug 
treatment programs. We run the most successful drug treatment 
program in America and we are not a drug treatment program. We 
drug test twice a week. We treat people like they are adults, 
and expect them to act that way. And they earn money so they 
have money in their pocket. In our Harlem facility they only 
have to walk a couple blocks to be able to buy any drugs that 
they want and they do not do it.
    We measure with the state, working closely with the 
Brooklyn district attorney with the funding that we have gotten 
through your Subcommittee. You know, we work with the state, we 
work with the city, we work with the district attorneys.
    Professor Bruce Western at Harvard University, who just 
made a recent presentation on this at the Brookings Institution 
has studied our program and has studied it in conjunction with 
the Brooklyn district attorney's office. And says that paid 
transitional work is the answer. I mean, think about it. It is 
the difference. Because the guy comes home, he goes and sleeps 
on the sofa or sleeps with his girlfriend, or wherever parole 
says that he can be, and then he tries to get a job. Okay. 
Well, how many days does he go out and knock his head against 
the wall? The hardest thing in America to do is for an African 
American man with a prison record to get a job. That is simple.
    Now, what does he really do? After he goes through this 
process and cannot get a job, he gets thrown out of where he is 
living because they do not believe that he sincerely wants to 
bring anything into the home when he does. But he cannot get a 
job, so he falls back on the conduct that got him put in prison 
in the first place. And then it makes it that much harder the 
next time he comes out.
    The alternative is just a minimal investment. Our program 
costs $25,000 for a slot. And a slot serves 1.4 people a year. 
So you can figure out how much that is. About $13,000 of that 
$25,000 goes directly to the person's pocket. That is the pay 
that they get, in cash. It is getting money to them at the most 
critical time when they need money.
    You know, I had a guy write to me who was discharged from 
prison in Florida saying he wished our program was there. 
Because he gets $100 when he gets out of prison and all that is 
good for is to buy a gun.
    Mr. Nolan. Mr. Chairman.
    Mr. Mollohan. Yes?
    Mr. Nolan. Can I say, you pointed out the problem, though, 
for all these programs is how do you know they are effective? 
And frankly, we are all dependent on the state for figures. In 
Texas and the seven states where we are the Department of 
Corrections give us those figures. Dennis and what he is doing 
in Michigan is perfect, because he is tracking those inmates 
and seeing how they are doing, what programs they are in, and 
they are measuring who is effective. But nonprofits without the 
benefit of the state figures do not have the credibility. So 
that is an essential part of this, is having the states do like 
Dennis is doing where they are overseeing all of this and they 
can then measure the effectiveness.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. I think the fact that 
you have this panel probably makes these hearings well worth 
it. I think this is the most impressive testimony that I have 
heard since I have served in this institution on the issue of 
prison reform. And not gloom and doom, and I know Pat, and I 
think Prison Fellowship does a marvelous job. Chuck Colson and 
Prison Fellowship, and God bless him.
    And Mr. McDonald, I know about the Doe Fund and I think you 
are exactly right. I know a young prisoner. He got out about 
two and a half months ago. He cannot, he is African American. 
He cannot get a job. He cannot get a job. Your testimony on 
page three, to find employment is the answer. And I might say, 
I have got to say this, we had the previous panel earlier, 
earlier this morning. They acted like they did not have any of 
the answers. I mean, the three of you, with all due respect, 
seem to have a lot of answers. And I, from my understanding I 
think you are right.
    And Mr. Schrantz, I am going to take your material. I am 
going to get it to my governor and my people. And Pat, maybe we 
can meet sometime with the state and see if we can adopt this. 
I think this is the answer. And your figures, Mr. Schrantz, are 
more impressive because you are the center of ground zero of 
the economy evaporating.
    Mr. Schrantz. Yes.

                   UNEMPLOYMENT SITUATION IN MICHIGAN

    Mr. Wolf. Your governor, I have seen her on television, 
talking about the job loss that you have. I think your 
unemployment rate is 10 percent.
    Mr. Schrantz. It is double digits.
    Mr. Wolf. Double digit. And so here they are doing what 
they are doing in an unemployment situation. So, I mean, we are 
going to follow up with the three of you. And maybe Mr. 
McDonald can get you to come on down with Pat. And then if you 
can give us what you have, and we will get it to Governor Kaine 
and see what we can do.
    The couple questions, the last witnesses said they had no 
information on recidivism. I just looked, you do have 
information. Why did they not have it? And I think this is a 
better hearing than the Bureau of Prisons Director. Either we 
should swear these men in and take the oath, or either they are 
telling us the truth or they are not telling it. If you are 
telling the truth, we should ask them to stand up and swear 
them in. But it is different. It is different. So I would like 
to do that.
    My time is limited. I want to get downstairs. We have a 
Tibetan amendment, too. I want to ask a couple of questions. 
Mr. Nolan, Pat, are you aware, I asked about Islamic terrorism, 
and are you aware of any situation where Wahhabi have kept 
moderate Islamic materials out of prisons?

                  RELIGIOUS MATERIALS/GROUPS IN PRISON

    Mr. Nolan. Yes. Because of our work on behalf of religious 
freedom for all prisoners, and not just Christians, Islamic 
groups, moderate Islamic groups have contacted us and said as 
they have sent literature into prisons it has been rejected by 
Wahhabist imams that are hired as chaplains who say it is not 
faithful to the Koran. And of course, the Wahhabists have a, it 
would be, the analogy I would use is letting David Koresh 
choose what versus of the Bible to use. Putting him as the 
gatekeeper on that.
    Unfortunately, the screening of some of the imams I think 
leaves a lot to be desired. And so the imams have these radical 
views and they are keeping out literature which tries to 
present the other side, the Koran as supporting a peaceful 
existence rather than a more warlike one. And the letters are, 
you know, pretty thick of these Muslim inmates that are frankly 
oppressed as they try to learn more about their faith not from 
a Wahhabist perspective.
    Mr. Wolf. Is this at federal and state level?
    Mr. Nolan. It is federal and state. The states, plural. But 
in the federal institutions it has been a real problem.
    Mr. Wolf. Would you submit for the record any information 
you have with that?
    Mr. Nolan. I would be glad to. I might say one terrific 
group that I would love to discuss with you privately has asked 
us not to publicly identify them because they are afraid for 
themselves.
    Mr. Wolf. This is a Muslim group?
    Mr. Nolan. Muslim group, yes.
    Mr. Wolf. Who wants to be in the prison----
    Mr. Nolan. Right.
    Mr. Wolf [continuing]. But is intimidated from coming in?
    Mr. Nolan. Are being excluded from the prisons.
    Mr. Wolf. And do you think the Bureau of Prisons knows 
about this?
    Mr. Nolan. Yes.
    Mr. Wolf. Well, if you can give me the information----
    Mr. Nolan. Yeah. I would be glad to.

                         TRADE WORK IN PRISONS

    Mr. Wolf [continuing]. I will follow up. I have so many 
other questions. In the interest of time, and I know there are 
other witnesses. This is a very impressive panel. Two other 
questions I would have to ask and I will summarize them 
together. I believe it would be important to bring more work 
into the prisons. If you all agree, yes or no.
    Mr. Schrantz. Yes.
    Mr. Wolf. Real work, too. Not the laundry.
    Mr. Schrantz. That is challenging, yes.
    Mr. Wolf. Challenging.
    Mr. Nolan. And training.
    Mr. Wolf. And training, exactly. Maybe I will just, the 
last thing is, I guess I should ask it. I am thinking of 
offering an amendment, and maybe this would be the panel. Do 
you think, I had asked before, is there a best practices list 
that we could take? And I was thinking of the idea, and the 
morning witnesses were, like, ``You know, we have got thousands 
of miles to go before we sleep and so we are not there.'' And 
you guys tell us we are there if we have the resources.
    Mr. Schrantz. If I may offer a suggestion. The National 
Institute of Corrections that is housed in the Federal Bureau 
of Prisons was instrumental in us working in Michigan on 
creating a design that was going to work. The Council of State 
Governments has been doing some tremendous work in reentry 
throughout the nation as well. They convened a reentry policy 
council many years ago that created a virtual encyclopedia of 
information on how to do this work. We are following that work. 
And there are several publications that we use with our 
stakeholders that provide a very substantial roadmap on what 
local jurisdictions and state jurisdictions need to be able to 
do in order to get the work done.
    It requires funding. But before funding even comes into the 
forefront it requires a plan. And before there can be a plan 
there has got to be a vision. You know, a friend of mine says 
all the time that a vision without a plan is a hallucination. 
And I think that is really important when you do this work. 
Because you must require, as you do in The Second Chance Act, 
and as we require at the state level, very significant planning 
before the money flows.
    And I do not think there is any better time than to do this 
work in tough economic times. Because here is what drives us: 
we are spending too much money on prisons. And the Governor 
recommended in her budget in Michigan, a $188 million cut in 
corrections in one year, which will require us to close as many 
as five prisons when they empty because of the work we are 
doing. She reinvested, recommended reinvestment to the State 
Legislative of $68 million of that $188 million in savings. 
Without that reinvestment we cannot save the money. It takes 
money to save money. And so these tough economic times, I 
think, are ideal.
    If it were not for this tough economy in Michigan, I will 
guarantee you we would not have been able to get this done in 
such short order. There is no way.
    Mr. Wolf. Well, please----

                              THE DOE FUND

    Mr. George McDonald. Can I just say, the paid transitional 
work is not necessarily the responsibility of the government. 
Our program started out as a revenue generating program. We got 
paid for the work that we did for the City of New York. Not a 
grant from the Human Resources Administration, or for social 
work, or for any of that stuff. It was for renovating 
apartments. And if we did not do that we did not get paid. Then 
we took that concept and built it into street cleaning. So we 
work for many business improvement districts that pay us. My 
profit is to be able to pay the person long enough for them to 
get work skills that they need to be place in private sector 
jobs.
    If you mandate it, if you say that part of what we are 
going to do, along with the planning process, along with the 
great work that the states are doing, and along with mentoring, 
is paid transitional work, and you all figure out how you are 
going to do it, that is even a great advance.
    Mr. Wolf. Well, you know, it is interesting. The whole 
debate over the H-1B, we cannot get enough workers, we cannot 
do this, and we, they are telling us that they have workers. I 
mean, I think we need a panel to look, and do you think it 
would make sense in a panel, I think the three of you would be 
very, just sort of look and come back together----
    Mr. George McDonald. We will stay here and wait.
    Mr. Wolf. No, I mean, I mean to take, for us to fund kind 
of a group. Maybe you, the three of you, or Chuck and others, 
to be on. People, not a right or a left, but people who really, 
one, they care, and two, they know. It is not enough to just 
care without knowing. But, and see if we can put together kind 
of a report by a certain date whereby here is the way it is. 
Would that make sense? Or would you all be interested in being 
a part of that?
    Mr. Schrantz. Yes, certainly. I think we would be standing 
on the shoulders of those before us.
    Mr. Wolf. We can call it the William Wilberforce Project.
    Mr. Nolan. Mr. Wolf, I would love to participate in that. I 
only ask that there, and this Committee and the rest of 
Congress has shown the commitment. But Governor Schwarzenegger 
asked to be on his strike team on rehabilitation. We pulled 
together experts from across the country and within CDCR. Top 
notch folks. We all agreed. Everybody knows, in corrections, 
knows what needs to be done. It is the political will to do it. 
We know. We have known for twenty years what works and we have 
more evidence now. But it is really getting your buy in and 
your colleagues. And you did that on The Second Chance Act. As 
Dennis said, that has spread across the country and given hope 
everywhere in every DOC. So your commission would be great. But 
then there needs to be the follow through with Congress to say 
this is important stuff. This is public safety.
    Mr. Wolf. Thank you. And thank you all for your testimony.
    Mr. Mollohan. Okay. Thank you. Mr. Schiff.

                   DRUG ABUSE AND TREATMENT IN PRISON

    Mr. Schiff. Thank you, Mr. Chairman. And I concur with my 
colleagues. I think this has been just a tremendous panel. And 
Mr. Chairman, Mr. Nolan and I represented the same area out in 
Los Angeles. And when I was in the state senate Mr. Nolan came 
and testified before our committee there as well and offered 
very valuable insights.
    You may have in fact been at this hearing that I am going 
to refer to. Father Greg Boyle was on one of the panels. And I 
remember something that he, he does a lot of work with at risk 
youth in Los Angeles. And really started an organization called 
Homeboy Industries that make clothing and put at risk kids to 
work. And I remember he was asked I think by one of my 
colleagues, John Vasconcellos, if he could find a, point to a 
common denominator of these kids in these tough neighborhoods, 
tough circumstances, who had turned their lives around. What 
was the common denominator?
    And his answer is interesting in light of your testimony 
today. Because he said, ``Well, there are two things.'' One is 
they had a mentor. They had somebody who cared whether they 
succeeded or failed. And it might have been a teacher, or a 
parent, or a grandparent, or a probation officer. But somebody 
cared whether that person succeeded or failed. And the second 
thing was a job. And this is, obviously, very consistent, Pat, 
with your testimony, and Mr. McDonald, with yours. If there is 
a third leg of the stool it is probably substance abuse 
treatment. I think when we send people with substance abuse 
problems out of our prisons into the population without dealing 
with that problem then we should be surprised when they do not 
recidivate. And it was interesting, Mr. McDonald, in your 
testimony that, you know, you found the most successful 
antidrug program is the incentive of a paycheck. And you cannot 
get the paycheck----
    Mr. George McDonald. Well, and the drug testing.
    Mr. Schiff. Well, you have got to have the drug testing. 
But you cannot get the employment unless you are clean. And so 
the incentive is the employment as the magnet.
    Mr. George McDonald. Right. That is it. Because they 
already have it.
    Mr. Schiff. And what I am interested in, because I do not 
think, and Mr. Schrantz your testimony about the need for us to 
invest in proven programs and not just sort of what sounds 
good, and maybe organizations we like, but, you know, what do 
we empirically have evidence actually works. I do not think any 
of us would disagree with any of those things. And the 
challenge is always putting it into practice.
    And I have two questions. And, Pat, with your experience as 
a legislator, and your experience in Michigan, and on the 
ground, I think there are two things that we can do. One is, of 
course, we can try to improve the federal prison system, which 
we have direct jurisdiction over. The other is we can 
incentivize the states to do things that they should be doing. 
The challenge, one of the challenges is where is the, you know, 
where is the locus of responsibility here? And, you know, in 
The Second Chance Act I offered an amendment that was adopted 
to require sort of on a prison by prison basis that the Bureau 
keep statistics about how their reentry programs were working 
and not working.
    You might have two prisons in the same state with the same 
general prison population who have very different records of 
recidivism. I am not sure the prisons by and large keep track 
of that. Now, maybe the Department of Corrections as a whole 
does, or maybe no one does. We are trying on the federal level 
to get the federal Bureau to do it. But what is the right level 
to both provide the resources, but also require the 
accountability? How do we ensure that we do have these jobs 
programs and efforts? It seems very cost effective to me. And a 
twofer if you can pay the salary for people to do public work 
that needs to be done anyway. And it is far cheaper even if 
they were not doing the work to pay them than imprison them. 
But, you know, paying them, giving them a job skill, and have 
them do something productive is the all around winner.
    But where is the right venue? How do you recommend to us as 
legislator we improve the federal system, and how do you 
recommend that we incentivize the states?

                                WARDENS

    Mr. Nolan. Well, a warden that had been a warden for 
twenty-four years in Oklahoma, which is a pretty tough system, 
made a recommendation to me that absolutely is a home run. And 
that is, he said right now wardens and corrections officers are 
graded and promoted on if there are escapes or riots. If nobody 
escapes and nobody riots they are a good warden. If one of the 
people in their care leaves prison and murders somebody a block 
from the prison, they say it is not my job. He said that may 
keep institutions safe, but it is not public safety. We need 
public safety. So he said we need to give them incentives so it 
is not a job, the job dissolution light does not flash in our 
mind every time a volunteer comes into prison.
    Because under the current system it is a disincentive to 
allow volunteers in because it is a potential security problem. 
He said if we graded, included in their grade recidivism, 
exactly what you said, for their facility, graded against other 
facilities of the same type. So, you know max versus, you know, 
other max prisons. Held them accountable, all of a sudden it 
would change the incentives and those wardens would welcome the 
volunteers to come into prison. They would welcome the jobs 
programs. They would follow those inmates and try to make sure 
that they were succeeding because their promotion would depend 
on the success in the community, on the person not returning.
    And in Oklahoma we got that adopted. That is part of their 
DOC now, that type of incentive. But it is exactly what you 
said. Prison by prison keep accounting of it. And that holds 
them responsible for what? Public safety, not just 
institutional safety.
    Mr. Schiff. See, and the prisons though, they may have the 
ability within their four walls of making sure, you know, there 
is occupational training, and mentoring. But they do not have 
the authority in terms of the reentry efforts once they are 
outside the four walls. Will they not come back and say to us, 
``I can only deal with them when they are on the inside.'' Let 
us say, in Michigan. ``The people who are really falling down 
on the job are the people who are supposed to take care of them 
after they have left the building.'' So this is one of the 
challenges we have.
    I agree with Pat. And I think, you know, we ought to 
incentivize the wardens to look at their recidivism. They are 
going to say, ``We can only look at part of the job.'' And 
this, if this sounds very familiar it sounds a lot like the 
debate over No Child Left Behind.
    Mr. Nolan. Uh-huh.
    Mr. Schiff. Where the teachers are saying, ``I can only 
control what is in the classroom.'' We are saying, ``Well, we 
are going to give you more money but, you know, more 
accountability. And we want to measure one school compared to 
another school in the same similar''----
    Mr. Nolan. But see, my response is the wardens being graded 
would have the same impediments. They are dealing with the same 
communities. Prisoners go back to about seventy-five 
neighborhoods, or communities, in this country. The vast 
majority of them. So wardens that have their inmates going back 
to that community, if the institutions are not there, if the 
reentry structure is not there, if they have not had the 
coordination like we talked about, that is going to affect 
every warden the same. And what the difference, the variable is 
what they do inside. Yes, they cannot control the outside. But 
again, that is a constant. So I would say that is the answer to 
them. Because they will resist it. They do not want to be 
graded on public safety.
    Mr. Schiff. But how do we provide that kind of 
accountability for the wardens, but also, Mr. Schrantz, if you 
could address on the reentry side, because I imagine if you 
imposed this in Michigan, maybe you already have some form of 
this, they are going to say, ``Well, it is the Department of 
Corrections that really is falling down. Because they have 
jurisdiction over what happens after they are out. Do not pin 
it all on me, Mr. Warden.'' So----
    Mr. Schrantz. Accountability starts at the top and works 
its way downhill. The Governor is holding the Director of 
Corrections accountable. The Director of Corrections is holding 
every warden accountable and every head of our local parole 
office accountable. And in order for that accountability to 
actually have any legs it is our responsibility as an agency to 
provide these folks with the tools and the resources they need 
to be able to do the job.
    Mr. Schiff. And who, and maybe there is just no local venue 
for this, but let us say that you have a prison in Ann Arbor. I 
am sure they would not want one in Ann Arbor.
    Mr. Schrantz. We actually do not.
    Mr. Schiff. No.
    Mr. Schrantz. We have one in Coldwater, though.
    Mr. Schiff. Okay, let us pick Coldwater.
    Mr. Schrantz. Okay, good.
    Mr. Schiff. Okay. The, you know, the warden at Coldwater is 
responsible for, you know, the inmates while they are in the 
institution. You can give them some responsibility in terms of 
recidivism after they leave. But who outside that institution 
has primary responsibility to make sure there are programs like 
Mr. McDonald's, or programs like Mr. Nolan's? Do you have to go 
all the way up to the statewide Director of Corrections?
    Mr. Schrantz. It is certainly not a responsibility of the 
warden. The other thing to recognize with our prison system 
just like all prison systems, is that the people who move in 
and out of that prison change all the time. There are buses 
that are moving in and out of that prison all the time. So in 
order to be able to track recidivism or failure, etcetera, you 
really have to have a statewide system. The warden should be 
responsible for making certain that the model that we provide 
for programming, the model that we provide for prison, to bring 
the people in the communities into the prisons to work with the 
inmates, is in place with the standards that we provide. And he 
or she can be measured in their performance against that. That 
in turn, though, has to be able to be communicated back to the 
warden in terms of, ``Well, if all the wardens are doing this 
together that is why we are reducing the return rate.'' So they 
have to have the feedback.
    Mr. Schiff. Well, let me just ask you, in Coldwater, 
wherever the inmates from Coldwater are released to, are they 
released into Coldwater?
    Mr. Schrantz. No. Very, seldom are they released to 
Coldwater. Prisons are generally not built in the communities 
where most of the prisoners come from.
    Mr. Schiff. Right. Well, okay. Where is the main population 
center that Coldwater inmates would be returned to? The number 
one?
    Mr. Schrantz. Detroit Wayne County is where 44 percent of 
all of our inmates go when they are released.
    Mr. Schiff. Okay. Does someone have responsibility in 
Detroit and that county?
    Mr. Schrantz. Yes.
    Mr. Schiff. Who has responsibility there that is equivalent 
to the warden's?
    Mr. Schrantz. Wayne-Monroe County is one region of 18 
regions. Each has four co-chairs that are in charge of that 
region and that comprehensive plan. The warden from the local 
prison, where we now move the men just before release so they 
are actually at least doing two months in the prison nearest 
home. The other co-chair is the head of the local parole 
office. The third co-chair is the administrative head of the 
agency who we give the money to. And then the fourth person is 
a community advocate. Those co-chairs are responsible for that 
comprehensive plan. The administrative agency is responsible 
for the money. And when we want results for that particular 
community we go to them.
    Mr. Schiff. Well, and you know, that sounds great, 
actually. You have the warden as a member of that committee.
    Mr. Schrantz. Has to be. Has to be.

                          PRE-RELEASE FACILITY

    Mr. George McDonald. The problem in New York, the principal 
state that we are in, is that the prisons are the job program. 
They do not want to close prisons because they are all upstate. 
They are 400 or 500 miles away from where the folks live and 
where prisoners go back to. Now, they come to Queensboro for 
two months and that is when we go in to the actual pre-release 
facility. We educate them about our program and then pick them 
up when they come out the door. But the idea that, they would 
laugh at us if we said that we were going to hold anybody 
responsible. They want them to come back. Unbelievable, but 
read the front page of the----
    Mr. Schiff. In those circumstances it would be hard to hold 
a warden in upstate New York responsible for what happens in 
New York City.

                         ROCKEFELLER DRUG LAWS

    Mr. George McDonald. Right. Well, you are not going to. But 
read the New York Times today about the reform of the 
Rockefeller drug laws. If they reform the Rockefeller drug laws 
then 2,000 folks would come home from prison. And they do not 
want to do it because they do not want to pay the 
administrative costs of processing the 2,000 folks.
    The solution is this solution. The solution, or the 
regional reentry task force, where you get the district 
attorneys, and providers, and everybody working together, that 
is what we need. The focus of the Congress on this subject is 
what we needed. And your continued focus and continued 
sophistication of finding out more and more and more about how 
to effect change. That is the kind of leadership we need. First 
and foremost, is the leadership of the government of the United 
States of America to grab hold of this and say, ``This is not 
tenable. And it costs us so much money. And it is the last 
frontier of public safety.'' It really is. We can live in a 
virtually crime free society except for this interpersonal 
stuff that we do if we get these folks out of prison and get 
them into our economic system. Which is still the greatest 
economic system in the world, just a little blip we are going 
through.

                   UPSTATE NEW YORK VS. NEW YORK CITY

    Mr. Nolan. If I could just push back on you, that you 
cannot hold a warden in upstate New York accountable for what 
happens in New York City. There are dozens of prisons in 
upstate New York, all of whose, or the vast majority of their 
inmates going back to New York City. I would say you can hold 
them accountable. Because, if there is a difference in 
recidivism rate among those prisons, and most of their inmates 
are going back to New York, then something is different that 
causes the inmates from one prison to do better than the 
others.
    Mr. Mollohan. Thank you, Mr. Schiff. Mr. Aderholt?
    Mr. Aderholt. Yes. Thank you, Mr. Chairman. Thank you each 
for being here today, and for testifying before our 
Subcommittee. Each of you bring a very interesting perspective 
and just some great ideas to this issue. And it is interesting 
to learn about each of your projects and what you do. Of 
course, I am familiar with what Prison Fellowship has been 
doing. And I know it is a great organization. So Pat, certainly 
we have worked on a couple of projects together and so I 
certainly realize the impact that Prison Fellowship makes. But 
certainly your other groups here, I thank you for what you do 
as well.
    Yesterday, of course, as it has already been alluded to, we 
had the Director of the Bureau of Prisons who came and 
testified before the Committee. And one of the questions that I 
asked yesterday was about the halfway houses. And I know Pat, 
you mentioned that in your opening testimony. You mentioned the 
fact of how important that was, and how that we should, find a 
workable way to do that. It is my understanding that from The 
Second Chance Act that up to twelve months can be spent in a 
halfway house. Is that correct?
    Mr. Nolan. Yes.

                             HALFWAY HOUSES

    Mr. Aderholt. Yesterday it seemed like, during the 
testimony yesterday when they were talking about six months, so 
it was kept to be, the term they use now. They did not say that 
you could not be there for twelve months in a halfway house, 
but it seemed like that was sort of the standard, like, they 
are looking at six months. And even as the upper limit. I just 
want to know your thoughts on that, and where that is coming 
from.
    Mr. Nolan. Yes. It is quite frustrating, those of us who 
supported The Second Chance Act. Several places in The Second 
Chance Act it says twelve months. And especially as an 
incentive to inmates to participate in drug treatment and 
reentry programs. The BOP has issued a rule that caps it at six 
months and the only way to get more than six months is to have 
the application signed by the warden, and the regional 
director. And to my knowledge there have only been two in all 
of the BOP. Now, there may be more and it would be interesting 
to ask them that. But I am aware of only two instances in which 
they have gotten more than six months since The Second Chance 
Act. And those two were only for a few days more, because of 
exigent circumstances.
    Now, they claim that it is cheaper to keep somebody in a 
low or minimum security prison than in the halfway house. But 
they also talked about the problem of overcrowding in prisons. 
And the stress that puts on the officers, and the violence in 
prisons. I serve on the Prison Rape Elimination Commission and 
I was also on the Commission on Safety and Abuse in America's 
Prisons. Overcrowded prisons lead to violence and rapes. While 
people are in the custody they are stripped of all ability to 
defend themselves and then they are subjected to violence and 
rape in our prisons. The way to deal with that is lower 
crowding.
    In statute currently are several ways to move people to a 
halfway house, The Second Chance Act. But also good time 
credits. The BOP figures good time credit, like the auto dealer 
does on percentage rates of credit. So it really works out 
instead of 15 percent credit for good time, only 12.5 percent. 
That does not seem like a lot but spread over the couple of 
hundred thousand folks in prison, federal prisons, it is a lot. 
Those are beds that could be going home.

                               BOOT CAMPS

    Secondly, boot camps, guaranteed time off. And unlike state 
boot camps that have been proven pretty ineffective, the 
federal boot camps have been proven effective. But they are not 
expanding them. The number of federal inmates is tiny. It not 
only would give them the discipline that is needed, but it cuts 
time off their time in prison. Again, those are beds that could 
be used to solve overcrowding. The RDAT Program, which is drug 
treatment, allows up to a year off. The problem is, the BOP 
bureaucrats are so slow in processing the inmates to get into 
these classes that oftentimes they have less than a year left 
on their sentence. So yes, they participate in RDAT Program, 
but they do not get the full year off. Why not have the 
bureaucracy work so they are in a class, so they can take 
advantage of the full year, freeing up beds again?
    And again, for the reasons I said earlier, it is actually 
cheaper to keep folks in a halfway house. They are not counting 
capital costs. They are not counting the folks that are sent to 
home confinement from a halfway house. They are not counting 
the contributions, the payments of inmates, of one-quarter of 
their wages that go to this in order to get to the figure. It 
is cheaper for the taxpayers. It also, oftentimes preparing to 
come home takes more than six months. All the, when they are at 
home they are able to bond back with their family, solve any of 
the conflict issues with their family. They are able to be 
closer to their mentor instead of hundreds or, in the case of 
BOP, thousands of miles away. They are able to get their 
drivers license. They are able to look for a job, all while 
they are there locally. They cannot do that far away in a 
prison. So giving them more time is in everybody's interest, 
except the BOP resists it and I do not understand. It is 
puzzling to me. And as the Appropriations Committee you ought 
to hold them accountable for why are they spending more money 
keeping folks in than when the law already allows them to let 
them go to the halfway house or home.
    Mr. George McDonald. And I would also say that, it is based 
on evidence. You have to base it on evidence. Not what some 
person sitting in an agency decides that this is what it should 
be, such as six months. In my experience, and now it is twenty-
five years of this kind of stuff, it is always shortsighted. It 
is always looking for the quickest, bang for a buck and let us 
move on. But if you treat the person, as I said earlier, in our 
day program, eight months is the average. The cost of 
incarceration, including police and all of that, is around 
$115,000. You know, $40,000 for a state prison, $60,000 for a 
jail in the city.
    In our homeless program, where folks come home from prison, 
do not get a job, wind up out on the street and then in a 
homeless shelter, it takes us twelve to fourteen months. But 
when they come right out of prison it takes us eight months. 
But we ought to be able to have as long as it takes for that 
individual person. So if it is twelve months for that, for the 
person who comes home from prison, and fifteen years later they 
have not been back to prison, well, that would be a good 
investment of time. And we have 4,000 people over the past 
twenty years that I can introduce you to by social security 
number.

                      PRISONER REENTRY INITIATIVE

    Mr. Schrantz. I would add, in great support of that 
statement, that what we have learned in Michigan in the 
Prisoner Reentry Initiative is that you have to deal with each 
individual offender based on that offender's risk and need. 
That has to drive the individual plan. And while there are 
funding constraints that may require an agency to say, ``Look, 
we do not have enough money to keep these guys in treatment for 
five years because if you did you would serve the first 100 
instead of 600.'' Restrictions make some sense. But in only the 
agencies that I run, I at least allow an average. So that ``on 
average'' they say serve, about six months. So that, for every 
guy you have that only needs a month, you have got a guy that 
can do a year. For every guy that does three months you have a 
guy that can do nine months.
    Use the money wisely as an incentive, and understand that 
the reason they need this housing. Many times because of 
substance abuse service delivery must be provided within the 
house itself lifelong addictions. We have this belief in this 
country that a man or woman who comes to prison, after twenty-
four, twenty-six, thirty years of life, fifteen of which they 
were drug addicts, they are cured in prison. They are still a 
drug addict when they get out. And suddenly after release in 
three or four months they are not a drug addict anymore. They 
are going to relapse. And they must have access to drug free 
living environments, short intervals, back and forth, 
throughout their entire parole. And that should be allowed by 
the funding agency.
    I am no expert on the Bureau of Prisons so I do not want to 
jump into that fray. But I think that what is critical is to 
understand, as George says, is that you have to do what the 
research says. And the research says there is no such thing as 
one size fits all. Base it on risk. Base it on need. If I have 
a guy in a program that has hurt people fifteen times, I am not 
going to throw him out of a house after three months simply 
because somebody says his time is up. I need to keep him there. 
On the other hand, I do not want to keep a guy in a house for 
low level larceny for three or four years. I mean, we have got 
to go where the evidence takes us. The evidence says, base it 
on research, base it on risk assessment, and then modify your 
individual plan accordingly.
    State agencies have to be able to be flexible in their 
funding. They create the structure and the money, and then they 
should get the hell out of the way and let the folks in the 
local jurisdictions who live in these places make those kinds 
of decisions around public safety issues. That is how we 
operate.

                          DEPARTMENT OF LABOR

    Mr. George McDonald. May I say this real quick? The 
Department of Labor.
    Mr. Aderholt. My time is up, but go ahead.
    Mr. George McDonald. Chairman, I am so sorry.
    Mr. Aderholt. But we will defer this. No, go ahead,
    Mr. George McDonald. The Department of Labor, and talk 
about short sightedness, in their reentry initiative, it was 
limited to nonviolent things. You know, and what kind of 
insanity is that? That we are just not going to help violent 
offenders when they come out.
    Mr. Schrantz. We have a waiver. The Department of Labor 
does give a waiver now, but you have to apply for it. And we do 
not know whether that waiver is going to continue. That is a 
huge issue for us. If the federal government is going to 
restrict us from working with people with a violent past or sex 
offenders, we are not going to want your money. We can already 
take care of those nonviolent, low level offenders. The big 
challenge is how to reduce violent crime.
    Mr. Nolan. To show how absurd the system is, in California 
at Pelican Bay, Supermax, in the middle of nowhere. I have been 
up there, been through it. They keep people in isolation, some 
for as long as five, seven years. When they are finished their 
sentence, they serve every minute of their sentence in 
solitary. They frog walk them to the gate, have them go out the 
gate, stick their hands through and unlock their belly chain, 
their handcuffs, their shackles, and let them loose.
    Mr. Mollohan. Is that a federal prison?

                           VIOLENT OFFENDERS

    Mr. Nolan. No, that is a state prison. But that is horribly 
dangerous to the public, and it is cruel to that offender. 
There has been no transition. As Dennis says, the nonviolent 
folks are easy. It is hard to get a job and stuff, but it is 
easy. The violent folks we need to worry about. They are going 
to finish their sentences someday, too. There needs to be some 
transition for them, some restoration of decision making in 
their life, the reformation of their thinking from criminogenic 
behavior. We would say reformation of the heart. All that needs 
to take place. But like me not being able to order from the 
menu of a deli, think about this guy that has been in solitary 
for five or seven years. And had a violent past. We are asking 
for trouble doing it that way.
    Mr. Aderholt. Is the thinking on that just that the violent 
offenders will have been there for so long that you do not 
think about when they will get out? Or what is the basis----
    Mr. Nolan. I for the life of me cannot fathom it.
    Mr. George McDonald. No. The drug related crimes sometimes 
are classified as being violent when they really are a drug 
related crime.
    Mr. Aderholt. But usually those have long sentences that go 
along with them, so I----
    Mr. George McDonald. Yes, but the point is that they get 
out. A person serves their sentence, and if they are not on 
civil confinement for a sex offender, other than that they are 
going to get out. And they are going to be in society. So what 
do we want to do? Do we want to use the Department of Labor's 
money to help them get a job? Or do we want to ignore them?
    Mr. Schrantz. And if I may add to that. Men and women who 
are in prison and misbehaving with serious misconducts, hurting 
other prisoners, hitting correctional officers are going to 
probably max out their sentence, meaning they are not going to 
be eligible for parole in a parole state like Michigan. And so 
the thinking historically has been they are so dangerous we do 
not dare let them out. We want them to do every minute in 
prison. But we cannot continue to support that policy.
    In Michigan, based on a Council of State Governments 
Justice Reinvestment Initiative Report that I recommend you all 
look at because it is some stunning work in terms of how states 
can bring all this stuff together under one umbrella of 
thinking and planning. They recommended and the legislature 
expected to adopt, a law that every prisoner is going to serve 
at least nine months on parole. The message from the 
legislature is: Department of Corrections, you had better wrap 
your head around it because you are spending $35,000 a year on 
average per person and for some as high as $65,000 for the 
maximum security inmates and you had better use that money to 
rehabilitate them and get them ready for release. And they are 
going to be supervised on parole. That is a much smarter public 
policy.
    And the existing policy is kind of short sighted lacks 
planning and lacks of accountability. As Mr. Schiff indicates 
these are important issues that all have to be rolled in 
together. We cannot let these outdated policies continue. They 
have to be changed.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Aderholt. Mr. Ruppersberger?
    Mr. Ruppersberger. I am not prepared. I am sorry. We had 
other committee meetings, and I am trying to, I have to leave 
in five minutes. So I am listening but----
    Mr. Mollohan. Well, we appreciate your coming in. Thank 
you.
    Mr. Ruppersberger. I do think it is a very relevant issue. 
I was a former prosecutor, as Mr. Schiff was. And this whole 
issue of recidivism, and some of the notes here I believe are 
really important. So I will be briefed on that.
    Mr. Mollohan. Thank you. Listening to this, all of you have 
very impressive stories. You have impressive statistics that 
you cite. And the outcomes are inspiring, really, to the system 
and to those who need to think about how we should be spending 
money. It is great to have an answer that the solution is out 
there, that all you need to do is pull together some way. So in 
regard to pulling together some way, all of you are coming at 
this, from different directions. All of you have different 
programs. Mr. Schrantz's program sounds like it is more 
comprehensive. There is an authority, a governmental authority 
that has put into place an architecture. And increasingly that 
system is relating to the whole state in a very comprehensive 
way. Each of you are looking at a discrete, community. But you 
are nevertheless having very important outcomes with regard to 
recidivism. How do we take all of this information in, and 
think about relating it? And seeing it work together? And let 
me ask Mr. Schrantz first.

                           SECOND CHANCE ACT

    Mr. Schrantz. Sure. I think you have established 
appropriately in The Second Chance Act that strategic plans are 
required. In fact, when folks compete for the Prisoner Reentry 
Initiative demonstration projects they have to show that they 
are doing this level of collaboration. And so, I think you have 
already created the policy framework that is necessary.
    Mr. Mollohan. But what framework is that? I would think 
that the framework would start with the state, exactly like how 
you have done it, and then these providers would fit in 
somewhere.
    Mr. Schrantz. I believe that is true. I believe that in 
order for this to work, as I think we would all agree, you must 
have state support. Because the state has an awful lot of the 
responsibility, and the money, and the data that is necessary. 
You also must have local responsibility and local owners of the 
problem or the problem will not be fixed. And you need what we 
call in Michigan a ``state-local collaboration'' where the 
state has the structure, has the funding, and we hold folks 
accountable. But the folks that we are working with in the 
local jurisdictions, the folks that are running the types of 
programs that these gentlemen are talking about, are the ones 
that we have to have at the table.
    The state Department of Corrections and state level 
authorities, just like I think is true for federal authorities, 
need to be able to put that structure in place, the 
requirements for the work, and then support those agencies and 
those departments that do the work. We have competed very 
successfully for the federal reentry demonstration projects. We 
are very happy with the way that it works. We frankly do not 
want a whole more of federal oversight than what we have. We 
think it is already there. If anything, there are barriers that 
are in place in the federal government that hurt our chances to 
be able to do it. Department of Labor is just that one example, 
and we have had a pretty good time of working with them.
    Mr. Mollohan. Perhaps for the record you can list some of 
those for us. Mr. McDonald, how do you respond to that 
question?
    Mr. George McDonald. Well, I agree. That is basically it. 
Is whatever architecture you can establish at the top through 
then holding the jurisdictions responsible for working 
together.
    Mr. Mollohan. Do you work within that framework?
    Mr. George McDonald. Oh, yes.
    Mr. Mollohan. Explain it to us.

                       STATE OF NEW YORK PROGRAM

    Mr. George McDonald. Well, we work with the Brooklyn 
District Attorney's Office. And we have the ComALERT community 
program.
    Mr. Mollohan. Now that is not a state program, though.
    Mr. George McDonald. No.
    Mr. Mollohan. That is not a State of New York program.
    Mr. George McDonald. He is a state official.
    Mr. Mollohan. Well, I know he is a state official.
    Mr. George McDonald. State official.
    Mr. Mollohan. But New York does not have what Michigan has.
    Mr. George McDonald. I am not going to sit here and try to 
kid you, Mr. Chairman. New York State is not interested in 
reducing its prison population because they do not have the 
political will. The people upstate are different than the 
people downstate. And they want the jobs that the prisons 
provide and they do not want to close the prisons. So----
    Mr. Mollohan. Oh, of course that is another problem. But--
--
    Mr. George McDonald. So you could do something about that.
    Mr. Mollohan. No, we have our hands full here. But your 
pointing it out, that may, I am sorry Mr. Serrano is gone 
because he could carry it back.
    Mr. George McDonald. Well, he knows. Believe me.
    Mr. Mollohan. Okay. But you agree that there has to be some 
authority, architecture in which you work?
    Mr. George McDonald. Yes. But you through any federal money 
that you appropriate can enforce that.
    Mr. Mollohan. Yes. But that is, that is just in spots. That 
is not necessarily----
    Mr. George McDonald. Well, spots.

                               PROTOTYPES

    Mr. Mollohan. No, I understand that. But what I am trying 
to get at is the question that everybody is trying to get at, 
here. Where is the prototype? But let me ask Mr. Nolan if he 
would respond to my first question.
    Mr. Nolan. Yeah. First of all, let me explain my role 
within Prison Fellowship. Prison Fellowship found it is not 
just enough to take the gospel to people. We have to care about 
what happens to them after, so they set up Justice Fellowship, 
which I head up, to work with government officials to reform 
the system. And my friend John Von Kannon at the Heritage 
Foundation says, ``Prison Fellowship saves souls retail and you 
do it wholesale, Nolan.'' So I work with the state officials 
like Dennis. And I think it does have to be through the State.
    And we are working with Dennis in Michigan. Part of our 
role is to build public support form nontraditional supporters 
of prison reform to work with conservative Christians as well 
as liberal Christians, to work with secular people, to build 
the public support to support what Dennis is doing.
    I think the key, though, is, and I think you are asking 
what the lynchpin is, is to have an official like Dennis, and 
his boss Pat Caruso, and Governor Granholm, that are committed 
to systemic reform. Then programs like ours can flourish. But 
if they are not welcome, if they are viewed as outsiders, if 
they are viewed as, you know, hug-a-thug folks, which we are 
referred to a lot in corrections, as something that is 
irrelevant to changing people inside prison, then we lose. And 
so I think you are right. The lynchpin is getting state 
corrections department to have this vision and to be open to 
the life changing programs then that the locals operate.
    Mr. Schrantz. If I may add?
    Mr. Mollohan. Please.
    Mr. Schrantz. Just one more second. I think you could look 
across the country and you could see a dozen, at least a half a 
dozen states, that have been at this work of statewide system 
change for many years under the guidance of both the National 
Institute of Corrections, which has done a very excellent job 
at providing a model for prisoner reentry. It is called the, 
From Prison to Transition, a community model, TPC model. Also 
the National Governance Association has done some great work 
and pulled together many states.
    Those states, to name a few, Missouri, Kansas, Michigan, 
Ohio, a couple of others perhaps, those states together, you 
know, could explain an awful lot about how to get this work 
done. But I think that the framework has to be that the state 
supports it and allows it, does not dictate it. That there is 
sufficient funding to be able to make it happen. And that there 
is a level of accountability so that it is not going to be just 
a fair weather kind of approach that you cannot prove up the 
road. If a state is not ready to take hold of this, and I have 
done some work in New York State. I have traveled there many 
times. I met with their commissioner. They have got a lot of 
motivation they just do not seem to have much of a structure to 
try to, you know, figure out how to grab hold of it. They do 
not have the right leadership.
    In Michigan, the reason that the state of Michigan is doing 
this work the way we are doing it is because the Governor ran 
on it. And when she ran she said, ``You make sure that I told 
the truth when I said I could deliver, you deliver.'' So you go 
from leadership to administrative capability and then 
reinvestment. And if it not there, then we have to rely on 
program after program after program to be able to keep it up 
until perhaps the state kind of gets their act together and 
connects the dots.
    Mr. Mollohan. Well, this starts becoming a best practices 
consensus----
    Mr. Schrantz. Yes.
    Mr. Mollohan [continuing]. At some point. And you are 
pioneers in that. Okay. Well, that is interesting.
    So systemic, top down, flexibility to allow imaginative 
programs, programs that work, that are locally tailored, but 
broadly applicable, scalable----
    Mr. George McDonald. And measurable.
    Mr. Mollohan [continuing]. And measurable to participate 
within that system. So structure, flexibility, local guidance 
from the top.
    Mr. Schrantz. Exactly right.

                   NATIONAL INSTITUTE OF CORRECTIONS

    Mr. Mollohan. Okay. And you said it during your testimony. 
You have all said it. But I would like you to tick it off one, 
two, three, four.
    We go to the National Institute of Justice for these 
models, for the guidance here.
    Mr. Schrantz. The National Institute of Corrections.
    Mr. Mollohan. I am sorry, the National Institute of 
Corrections.
    Mr. Schrantz. It is actually in the Bureau of Prisons.
    Mr. Nolan. Right, right.
    Mr. Mollohan. The National Institute of Corrections, thank 
you. Sorry. So we go to the National Institute of Corrections.
    Mr. Nolan. It is a good place to start, yes.
    Mr. Mollohan. It is a good place to start. Where is the 
definitive place to go?
    Mr. Nolan. Well, the Council of State Governments, they 
have the Reentry Policy Council, which is excellent. The Pew 
Center on the States has done, you know, terrific work. They 
just came out with a report this week on reentry. So I think 
combining those. I don't think there is one repository. That is 
why the Resource Center in the Second Chance Act is so 
important----
    Mr. Mollohan. Okay.
    Mr. Nolan [continuing]. I think. But right now it would be 
NIC.
    Mr. Mollohan. What will the Resource Center do that is 
different from what the National Institute of Corrections does?
    Mr. Nolan. Well, reentry is just a part of the NIC. They 
have overall, you know, best practices in corrections.
    Mr. Mollohan. Right.
    Mr. Nolan. The Council of State Governments works with 
health and other issues, not just prisons. So I think one place 
concentrating on reentry, pulling together all of the best 
practices. That is the idea of the Resource Center that you 
already funded.
    Mr. Mollohan. Okay.
    Mr. Nolan. Not with a separate line, but it's funded in 
there. I think is a place where----
    Mr. Mollohan. I have the line item right here.
    Mr. Nolan [continuing]. Groups like us can go there.
    Mr. Mollohan. I made a note on----
    Mr. Nolan. Okay.
    Mr. Mollohan [continuing]. The line item.
    Mr. Nolan. Okay. Great, thanks. I am settled.

                     REENTRY POLICY COUNCIL REPORT

    Mr. Schrantz. I think that the most substantial report in 
guidance for reentry is the Reentry Policy Council Report. The 
Council of State Governments indicated that they will be able 
to provide that to your members and your staff.
    Mr. Mollohan. Okay.
    Mr. Schrantz. That is what we used and it is an 
encyclopedia of good information.
    Mr. Mollohan. Okay.
    Mr. Schrantz. It is not a light read. It is like a cookbook 
to help when you need to break it down, when you are concerned 
about the operations of the work. It is not just about the big 
picture stuff and flying at 50,000 feet, but actually getting 
into prison operations.
    Mr. Mollohan. Right.
    Mr. Schrantz. As well as, getting into the parole issues, 
working with the communities.
    Mr. Mollohan. Right.
    Mr. Schrantz. This encyclopedia is something that we have 
gone back to reportedly.
    Mr. Mollohan. Okay, great. Well, we will reference that. 
Now, listening to all of you, again, this sounds really 
exciting, really optimistic. It sounds hopeful. Obviously not 
easy, but it does sound hopeful.
    But how do drugs factor into all this? And I know, Mr. 
McDonald, you spoke eloquently about the therapy of work with 
regard to all of this but certainly to drugs.
    But based on the little bit of experience that I have had 
in looking at this, the craving aspect of drugs is a derailer. 
I haven't heard you talk about that in terms of the failing. 
Your statistics are one-year statistics, right, Mr. McDonald?
    Mr. George McDonald. Right.
    Mr. Mollohan. What kicks people out before that year?
    Mr. George McDonald. We lose the most people in the first 
three months of our program.
    Mr. Mollohan. Okay. So----
    Mr. George McDonald. If they make it through the first 
three months, they are well on their way.
    Mr. Mollohan. Okay. It is important to define what success 
is.
    Mr. George McDonald. Well, success is we, after two years, 
72 percent of the folks----
    Mr. Mollohan. Okay.
    Mr. George McDonald [continuing]. Are still----
    Mr. Mollohan. What are the reasons for failure or reasons 
for getting to one year? What are the reasons for not getting 
to one year?
    Mr. George McDonald. You know, you change brain patterns. 
It is effort and reward.
    Mr. Mollohan. Right.
    Mr. George McDonald. The effort and reward----

                   DRUG ABUSE PREVENTION AFTER PRISON

    Mr. Mollohan. But, do most people fall out because they 
just go back to drugs? Do most----
    Mr. George McDonald. Some don't make the effort. In other 
words----
    Mr. Mollohan. No, I know.
    Mr. George McDonald. Drugs, yes. I am sorry.
    Mr. Mollohan. I am asking is it that they go out and commit 
another crime? Okay, that gets you out in four years. Is it 
because they fall off the wagon?
    Mr. George McDonald. It is drugs----
    Mr. Mollohan. Okay.
    Mr. George McDonald [continuing]. Or alcohol. They fall off 
the wagon.
    Mr. Mollohan. That is the base, okay. What percentage of 
people that start fall off the wagon or don't make the one year 
because of drugs? If you have a hundred people that start on 
the first day, how many of them don't make the one year because 
of drugs? And please identify yourself for the record.
    Mr. George McDonald. Harriet Karr McDonald, my wife and 
partner.
    Mr. Mollohan. Hi, welcome.
    Mrs. Harriet McDonald. I would say 20 percent of the people 
don't make it. And the overwhelming majority of those are 
because they use again.
    Mr. Mollohan. Because they use drugs again.
    Mrs. Harriet McDonald. Right.
    Mr. Mollohan. Okay.
    Mrs. Harriet McDonald. What we do is relapse prevention. 
Dealing with the substance abuse aspect of the population--
really close to 100 percent of the people we serve have----
    Mr. Mollohan. Yes, I am sure.
    Mrs. Harriet McDonald. It is practically 100 percent.
    Mr. Mollohan. Right.
    Mrs. Harriet McDonald. So relapse prevention and the use of 
NA and AA, which we literally bring them to our facilities.
    Mr. Mollohan. Okay.
    Mrs. Harriet McDonald. Because the people can get sponsors 
in their community----
    Mr. Mollohan. Right, right.
    Mrs. Harriet McDonald [continuing]. That are like mentors.
    Mr. Mollohan. Okay.
    Mrs. Harriet McDonald. And also it is free.
    Mr. Mollohan. Right.
    Mrs. Harriet McDonald. And the people can use it.
    Mr. Mollohan. Okay. So you have an aggressive----
    Mrs. Harriet McDonald. An aggressive drug prevention----
    Mr. Mollohan [continuing]. Drug prevention program.
    Mrs. Harriet McDonald [continuing]. Program.
    Mr. George McDonald. Even though we are not a traditional 
licensed program.
    Mr. Mollohan. Okay.
    Mrs. Harriet McDonald. But that is one of the most--I would 
say outside of paid work--which is the reward----
    Mr. Mollohan. Right.
    Mrs. Harriet McDonald [continuing]. And also prevents 
people from committing crimes.
    Mr. Mollohan. Right.
    Mrs. Harriet McDonald. The other most important aspect of 
what we do is drug prevention.
    Mr. Mollohan. Okay, all right. Thank you. In that program--
well, Mr. Nolan, would you please respond to that too?
    Mr. Nolan. Yes.
    Mr. Mollohan. We don't have much time.
    Mr. Nolan. I don't have the exact figures. I will get them 
for you.
    Drugs are by far the important reason. We don't kick 
somebody out automatically if there are drugs.
    We have found people relapse. And you have got to try to--
--
    Mr. Mollohan. But drugs are your big issue.
    Mr. Nolan. Absolutely.
    Mr. Mollohan. I didn't notice that the Ranking Member of 
the full Committee was here.
    Mr. Lewis. I just came in to see my----
    Mr. Mollohan. I hope you haven't been here very long.
    Mr. Lewis. I came over to see my friend, Pat Nolan. And 
Judge Manley is here.
    Mr. Mollohan. Well, let me call on you.
    Mr. Lewis. No. We will go vote. I just wanted you to know 
that I care about drug courts. And I kind of like Pat too. That 
is all it was.
    [Recess.]
    Mr. Mollohan. We will come to order. I think Mr. Wolf has a 
question or two. And I have just a really brief question or 
two. And then we will sum this panel up and thank you for being 
here.
    In your Doe Fund Program, what happens after the street 
cleaning phase of the program? Is there a moving on?
    Mr. George McDonald. Well, yes. And I am glad you asked 
that question, because I didn't have time before. The first 
part is that folks come into our facility, and they stay in our 
facility for the first 30 days. And they work cleaning, and we 
do the drug testing.
    Then when we feel that they have been--you know, they are 
ready to go out into the community, because of course we put 
them out in the community in our uniforms. And parenthetically 
I have to say that people write to us all the time with those 
checks that they send. And they say how safe they feel with our 
guys in the community. It is just incredible. We put the 
American flag on their sleeve and our logo on the backs, so 
that they are easily identifiable.
    So then they go out into the field for five months and do 
the street sweeping. And then they get funneled into various 
vocational training tracks. We have all revenue-generating 
programs that we have, so they are social ventures. They are 
entrepreneurial ventures. We have a company called Pest at 
Rest, the Bug Stops Here. You know, recessions come and go, the 
cockroaches are always with us.
    So we train them. And they get $14.00 an hour jobs with 
benefits. But we run our own pest control business to do the 
training. We have a program called Resource Recovery where we 
go around and we collect this fryer grease, the vegetable oils 
from restaurants. We have over a thousand restaurants in New 
York City that we collect from now and turn it into bio-diesel 
fuel. And on and on.
    Mr. Mollohan. Yes, that is impressive. I am not even going 
to get into the impact on the private sector. I would ask you 
about that otherwise.
    Mr. Wolf.
    Mr. Wolf. Thank you. You know, I think it is a private 
sector operation too. I was thinking the same thing that the 
Chairman was. But then I concluded we don't want crime. We 
can't just put people out and say, you know, you are out of the 
halfway house. Here is a hundred bucks, go out. And then not 
expect them to come back.
    One, I want to thank the three of you. Two, I know how to 
reach Pat. Pat lives in my district. And I have great respect 
for Pat and his group. If you could send me what you have, Mr. 
Schrantz, so that I can get to the State of Virginia. And, Mr. 
McDonald, if you can get me what you just told the Chairman on 
the different programs, and I am going to send that to my--to 
my state and see.
    I would like to suggest something here. You are with the 
Council of Governments, one of you are with them. I would like 
to suggest that the Council of Governments, working with the 
Pew Foundation, put on a national conference sometime maybe 
late this year or next year. And bring in correction people 
from around the country. And let me just, you know, commend the 
Governor of Michigan. Maybe she could be a speaker.
    I think if all you said is true, and I know he didn't swear 
you in, but if it is all true, then it is almost too good to 
be--I mean, it has got to be performed. And so what I would 
like to ask the Council of Governments and the Pew Foundation--
I don't know if there is anybody here from the Pew Foundation 
or not.
    I bet the ``New York Times'' has a reporter covering this 
good news story. Would the ``New York Times'' reporter raise 
your hand? Remember last week they covered the fact that Barack 
Obama's hair is turning grey? And now here is something really. 
And they miss this one. They must be somewhere else.
    But if we could ask the combination--the combination of the 
three if you know this. Do you think it would be a good idea to 
put together a conference bringing in the top correction people 
around the country? And, you know, we funded several years ago, 
in the good old days when the Republicans controlled the 
Congress, we funded a conference on sexual trafficking. And we 
brought in all the police departments and everything so that we 
knew what--and I think maybe we can ask the Pew Foundation, if 
the Chairman wanted to join me, we could--or I could just do it 
myself, is to ask Pew and do you think the Council of 
Governments would be interested in doing this? Both well 
thought of, neither right nor left. I sort of just kind of 
thought to maybe ask the group of you to come in and maybe put 
a two-day conference on in Washington or some other place.
    Mr. Schrantz. Sir, if I may, you might want to focus on 
kind of a think tank rather than a conference. I think what you 
may need are some of the best and the brightest people from all 
over the country. And we could fill the room with folks like 
us. There are a lot of people who know this work. There are 14 
states that have on staff my counterparts.
    Mr. Wolf. Who do you think should sponsor it? Council of 
Governments?
    Mr. Schrantz. I think the Council of State Governments is 
ideal.
    Mr. Wolf. And do you think Pew might help fund it?
    Mr. Schrantz. I think Pew might help fund it.
    Mr. Wolf. That is what I was thinking of so much that Pew 
helps fund it, because they did some pretty good work that Pat 
mentioned. And the Council of State Governments with the 
credibility you all have. Do it either here, or do it in 
Michigan, or do it wherever you are really going to really do 
it. Bring some of the best minds, so that you in essence have 
the best practices.
    And actually, you know, for three old guys, you were fairly 
exciting insofar as laying out what the opportunities are 
insofar as really making a difference. And I think that is kind 
of what we really want. I think since the time I have been 
here, it is the most significant, positive testimony rather 
than, you know, we need more money for this or this is a 
problem. You sort of laid it in a positive way.
    So if I can officially ask, you know, the Council. And if 
you could ask the Pew Foundation, we will be glad to--I know a 
couple of people at the Pew Foundation we could ask and see.
    With that, Mr. Chairman, I appreciate you having these 
hearings. And I want to thank the three witnesses.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Lewis.
    Mr. Lewis. Mr. Chairman, it is not appropriate for me to 
take any time at all. But it is refreshing to me to walk into a 
room where at least it is filled with people who are positive 
bleeding hearts who aren't just asking for money. They want to 
make a difference. Bleeding heart is okay. Old is another 
question. Pat and I are contemporaries, so we are not going to 
lie. Some of us just get better.
    Anyway, Mr. Chairman, thank you for letting me just be 
here.
    Mr. Mollohan. Thank you, Mr. Lewis.
    Well, we want to thank our three distinguished witnesses. 
You did a great job. You certainly helped the Subcommittee. A 
lot of information on a topic that we are just incredibly 
interested in. So thank you all very much.
    Mr. George McDonald. Thank you for your interest.
                                         Wednesday, March 11, 2009.

             INNOVATIVE PRISONER REENTRY PROGRAMS, PART II

                               WITNESSES

JENNIE S. AMISON, DIRECTOR, GEMEINSCHAFT HOME
JUDGE STEPHEN MANLEY, SANTA CLARA COUNTY SUPERIOR COURT

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. Welcome to our Innovative Prisoner Re-entry 
Program hearing. We have two witnesses, which I would like to 
invite to come to the table. Welcome to you both. For our last 
hearing panel of the day we will pick up right where we left 
off by hearing from two more individuals with significant 
practical experience in the reentry field.
    I would like to welcome Judge Stephen Manley with the Santa 
Clara County Superior Court and Ms. Jennie Amison, the Director 
of Gemeinschaft Home, a residential reentry program for non-
violent offenders with substance abuse issues.
    I thank both of you for joining us here today. It is good 
to see you both again. I appreciate the opportunity to work 
with you. This Committee appreciates your appearing here today 
to give us the benefit of your expertise in this area.
    I am going to note that each of your written statements 
will be made a part of the record. And I call now on Mr. Wolf 
for any remarks that he might have.
    Mr. Wolf. Welcome.
    Mr. Mollohan. Mr. Lewis. Ms. Amison, you proceed first. 
And, again, your written statement will be made a part of the 
record. And you proceed as you will.

                       Ms. Amison Opening Remarks

    Ms. Amison. I would like to thank you first for inviting me 
to testify at this hearing on reentry. I have been in the 
trenches for 18 years working with offenders. I started out at 
Indian Creek Correctional Center in the State of Virginia, 
which has 1,085 men incarcerated in that prison. And while they 
were incarcerated, three to six months later I saw them coming 
back. And I was astounded, because substance abuse was their 
main issue, this full prison, was a substance abuse treatment 
facility. And I saw them come back three to six months later. 
And it really troubled me.
    And the resonating theme between all of them was I can't 
find a job. I have to pay fines and restitution. I have nowhere 
to live. I have to pay child support. And I am having trouble 
getting my driver's license so I can get back and forth to meet 
the probation officer or parole officer or whatever.
    So in the State of Virginia we developed a continuum of 
care where in this therapeutic community program, once the 
individuals got out of a four-phase program of treatment, they 
come to our program, which was the fifth phase. The name of our 
program is the Gemeinschaft Home. It is German. And it means 
community.
    I am the Executive Director. I have been there eight years. 
Our program is a premiere program in the State of Virginia. I 
traveled last year to Tokyo, Japan. And in Japan, I testified 
before 100 Japanese on our program how to reduce recidivism in 
Japan. Although they drink saki, it was kind of hard to 
convince somebody to stop doing that.
    But anyway, I testified before them. And they came over to 
Virginia to Harrisonburg. And they adopted our program and our 
structure in their halfway houses in Tokyo, Japan. They did a 
two-week study over here. We entertained them for two weeks. 
And let them study our way of doing things.
    I am also Director of Replications for the Milton S. 
Eisenhower Foundation. And I have traveled all over the United 
States replicating what works. And what works is the program 
that we have. And I would like to explain that to you now.
    It is a six-month residential program. Our referrals come 
from the Virginia Department of Corrections. And we have a pre-
release program. They come to us six months early prior to 
their release after they have finished their substance abuse 
treatment, because as we all know, well know, the majority of 
the non-violent offenders that are incarcerated, they have 
substance abuse issues.
    And after their incarceration, they come to our program. 
And we give them a holistic approach to treatment. Now, if an 
offender gets out with $25.00 and what they have on their back, 
my contention is they are going back to what they know best.
    However, if they have a program where they can come and 
they have a roof over their head, a residential program where 
they are getting employment services. I have an employment 
coordinator. I have a health service coordinator. We have a 
mentoring program. We have a fatherhood initiative. We have a 
parenting program. We do financial planning. We do everything 
under one roof. And it is a holistic approach.
    Not only that, we network with the community. We do a lot 
of community service projects. And our community is very 
supportive of the work that we do, because one of the things 
that I teach in our program is you have to make restoration to 
the community. It might not be the community that you come 
from. But you have to restore your faith in a community. And so 
they do community service projects with all of the non-profit 
agencies in our community. We network with James Madison 
University that is in Harrisonburg, Virginia, Eastern Mennonite 
University, and Bridgewater College, all from which we get 
interns.
    We have a study that shows our success rate, the results 
are included in your packet. We have a 75 percent success rate. 
Dr. Peggy Plass in the Criminal Justice Department from James 
Madison University did our statistics for us to study our 
program and the study was three years out.
    And we looked at the rearrest, the recommital, and the rate 
of--the kind of violations that they were going back for, which 
were ordinance crimes for the most part, those that did go 
back.
    Our program has been successful, because of the holistic 
approach. And the approach that the State of Virginia uses. I 
believe that reentry starts when a person enters the prison 
gates. It is too late to start working with a person on alcohol 
on drug abuse once they get out and all of the other issues 
that they have, because I worked in a prison for ten years. 
They can get high inside the institution. Drugs are in prison. 
And if they want to use, they can use inside prison. And I have 
seen that. I have seen men test positive for drugs inside the 
institution.
    So my thing is reentry planning should start and need 
assessments done to find out what are the needs, because you 
can deal with one issue, which might be the substance abuse. 
And not deal with the behavior that clouded their thinking. And 
you still are going to end up with the problem, or you might 
have the finest employment program in the United States. And 
you can hire an ex-offender. And you can give him a job. But if 
he is still drinking, and drugging, and using, how is he going 
to maintain the job?
    So it is not just a band-aid approach that we use. We use 
the holistic approach. And not only am I talking from being in 
the trenches and experience, I am talking about traveling 
throughout the United States. Right now I am working with CCDO, 
under the Department of Justice, providing technical assistance 
to their weed and seed sites.
    This is a need, because people want to know how to help 
these people that are coming back to their communities. Seven 
hundred thousand men, you all have heard the statistics, are 
coming out of prison this year. And they are coming to your 
communities. And it is cheaper to have a non-violent offender 
in a program such as ours to be replicated throughout the 
United States that works. Instead of having just practices than 
to have them locked up behind bars and costing the taxpayers 
more money with no services and then letting them out after 
three, four, five, six years with $25.00 and the clothes on 
their backs. And my contention is we either pay now or we pay 
later.
    Prison, we can find the money to build them. And we are 
building them at a rapid rate. And we have a lot of level-one 
prisons that house non-violent offenders. And I heard the 
gentleman say earlier about violent offenders. What about the 
violent offenders? Well, it is going to be a long time before 
violent offenders get out. And I agree that we need to think of 
innovative ways, because I believe that violent offenders are 
the less likely to recidivate and studies show that, because 
they are less likely to commit a violent crime.
    But, however, how many of you sitting in this room want a 
house full of violent offenders living in your neighborhood? 
Raise your hands. I didn't think so. So that is the problem 
with violent offenders. It is hard pressed to have a community 
to accept violent offenders into the community as a whole. They 
will work with them individually, the churches and the faith-
based organizations.
    But with an innovative program like this, they don't mind 
non-violent offenders. They don't mind working with the 
females. You tell them they are non-violent offenders, they 
don't have sexual crimes and, hey, the community welcomes that.
    I just traveled to St. Louis and Philadelphia and helped 
set up a program similar to ours in those two states and also 
working in Pawtucket, Rhode Island. They want to replicate. 
They want to do something for reentry.
    Mr. Mollohan. Thank you, Ms. Amison. We look forward----
    Ms. Amison. Oh, yeah, I could talk all day. Go ahead.
    [Written statement by Jennie Amison follows:]

    [GRAPHIC] [TIFF OMITTED] T1247B.057
    
    [GRAPHIC] [TIFF OMITTED] T1247B.058
    
    [GRAPHIC] [TIFF OMITTED] T1247B.059
    
    Mr. Mollohan [continuing]. To your answering questions.
    Mr. Lewis, Judge Manley is here today. And I know you think 
highly of him. Would you like to say a few words?
    Mr. Lewis. Thank you, Mr. Chairman. I really came in no 
small part, because I heard you had two of my friends appearing 
before the Committee.
    I have the privilege of serving as the Ranking Member on 
the Appropriations Committee, so I will try to spend as little 
time interfering with the Subcommittee Chairman and the Ranking 
Member's work as I can. They don't need people like me hanging 
around and interfering.
    But in the meantime, the work that you all are about impact 
the effect upon our society and people's lives by attempting to 
help us figure out what is the appropriate role for the federal 
government, as well as local government and so on, and breaking 
this cycle for people, particularly the non-violent criminal, 
but the cycle of recidivism that is so dramatically impacting 
our society.
    I first got to know about Judge Manley's work, because of 
his relationship with Judge Pat Morris who is now the Mayor of 
San Bernardino, California, my hometown. And he played a role 
in this total effort to attempt to have drug court have an 
affect upon those individuals who are involved in essentially 
non-violent crime. But making sure that we are activating the 
community to be heavily involved in trying to turn this pattern 
around.
    The federal government does have a role. It is not just 
money but the spirit that is reflected in this panel. The 
Chairman is a wonderful and fabulous human being. And if you 
don't know Frank Wolf, you should know him.
    In the meantime, I just wanted to come to express my 
appreciation to Judge Manley. And we will be chatting more 
while you are in town.
    Judge Manley. Thank you very much, sir.
    Mr. Mollohan. Thank you, Mr. Lewis.
    Judge Manley.
    Judge Manley. Thank you very much for the opportunity to 
testify, Mr. Chairman, Mr. Wolf, Mr. Lewis.
    I would like to, just by way of background, first of all 
address an issue and that is this, I would like to thank this 
Subcommittee and all of you for what you have done in this past 
year. And prior to that, your many efforts to assist the drug 
courts, our JAG and Byrne programs, our reentry programs that 
are court related.
    It really does make a difference. We really do believe that 
this works. And often our pleas fall on deaf ears. But always 
in this Subcommittee you have given us the respect and support 
that we are so grateful for, because I am just a practitioner 
out in the field.
    As a judge I work very hard in trying to develop new and 
better responses. And I would like to talk, spend my time if I 
may, speaking about that in terms of reentry. I think you are 
all aware that California I think has the most severe problem 
of any state in the nation. It is not dissimilar. But the 
volume, the numbers are horrendous. Seventy percent of all 
individuals placed on parole are returned to state prison 
within a year to two years.
    What is driving our increase in the prison population is 
not new crimes. It is being driven by people being returned to 
prison who are on parole. And when you have that number going 
back, and you are talking about 120,000 on parole every year, 
you have to start thinking, I think, about changing the entire 
paradigm of the way we approach this issue.
    And I did most certainly enjoy listening to the previous 
presentation. But let me suggest this to you. You don't get to 
prison simply because, you do not get to prison, you do not get 
to jail without a judge. It takes a judge to send you there, a 
judge to make a determination that you go there. And we so 
often place all of our emphasis and discuss these issues 
looking down the line at, well, now they are going to get out 
of prison. And we do this in California. And I know that it is 
done elsewhere. Let us have a plan. And let us develop 
something so that we integrate. And let us stop this revolving 
door.
    But we never look at the beginning. And I think that what 
happened here over the years, starting some 15 years ago, drug 
courts judges, it was a judge-driven initiative, basically said 
what is wrong here is we are doing the same thing day after 
day. And I have been a judge now nearly 30 years. I am falling 
into that group of older Americans who support their country. I 
have watched this 30 years. And I traditionally--I can sentence 
someone to prison in one and one half minutes unless there are 
aggravating factors. I see the same people come back. I see 
their grandchildren. I see their children.
    I discovered early on we were not getting anywhere thinking 
that punishment was the answer. And where did it all lie? It 
all starts out with the judge. And so what I am suggesting to 
you today is that rather than only look at parole and 
probation, this wonderful program you just heard about, why 
aren't we thinking about these things in the beginning?
    Everyone ends up released other than a small percentage of 
offenders who will not be released. So leaving those aside, 
people are going to come back. And they will come back to our 
local communities. California I do not think is dissimilar from 
other states. When you start out in my county committing 
crimes, go to prison, you come back to my county on parole. If 
you stay in my county, you are on probation.
    So why don't we change the paradigm and say the judges 
should accept accountability and responsibility for outcomes? 
Now I know this may sound very different from other testimony 
you have heard. But I firmly believe that this is where we have 
gone wrong. And this is why the drug court movement has worked, 
because in drug courts judges simply said, look, enough is 
enough. We are going to take this on ourselves to form a local 
team to put in accountability, to use carrots and sticks, to 
motivate offenders to change their lives, to deal with the most 
pressing problems. And I know you have heard other testimony.
    But I guarantee you in California, the Chairman discussed 
this, substance abuse, mental health are driving our prison and 
jail populations. They drive all other crimes. It doesn't 
matter what the crime is. You will find these factors there.
    When we sentence traditionally, we don't look at these 
factors. We simply look at the past. Judges, we are very good 
at looking at the past. We rely on precedent. We look at what 
they did before, what the facts of the case are, how many times 
they have been to jail, how many times they have been to 
prison, we get a probation report that has not changed in 20 
years, in my jurisdiction or in the State of California, and 
then we give a sentence, and then we go through the door into 
our chambers, and we forget about the person. I think that's 
all wrong. I think we ought to have the accountability of 
monitoring that person in coming back into the community and 
doing well.
    And I think you start doing that by having an assessment. 
There has been a lot of talk about risk and needs. And I want 
to be very quick about this. It is a complex area. But I think 
there are two kinds of an assessment. The first one you need is 
a risk. How dangerous is this person to the community if you 
let them out? How dangerous? And that has to be considered, 
because if this person is going to be a danger to the 
community, we have to look to punishment and other 
alternatives.
    However, the vast majority of people are not going to score 
high on that scale. And yet they are going to go prison and 
jail. What we ought to look at to them is to the risk in terms 
of their succeeding in the community. What is the risk? What 
are those factors? They don't have jobs. They don't have any 
education. They don't know life skills. They have a substance 
abuse problem.
    All right, then we start talking about the needs. How do 
you meet these things? You have got to give them substance 
abuse treatment from day one. If you don't start looking at it 
that way, you don't get anywhere. Then you develop a plan, not 
when they are getting out of prison.
    In California, we have this marvelous new system. We are 
going to plan for people 90 days before they are released. Well 
that is 90 days too late. It is 100 years too late. We should 
have started from the day they were sentenced. We should have 
assessment built into the sentencing. So that we know this 
person is coming back, let us start planning for them coming 
back now. And then when they come back, let us place them in 
tracks.
    In other words, what I am calling for and truly believe 
in--I do it in my county. I have seen it all over this country. 
I monitor 1,600 offenders. You could say how can you do that, 
one judge? I know them. Why, because those who need the least 
monitoring get put on a calendar where they see me very seldom 
if it all.
    Those who need to be watched daily, those who are using 
drugs every day of their life, those who are mentally ill and 
cannot stay on their medications or will not, those who 
repeatedly violate restraining orders and other things that 
they are not to do, they see me weekly if necessary.
    The point is if you use a group of judges and design a 
system this way and build on motivating offenders to change, 
get away from this determinate sentencing. You know what is 
wrong with determinate sentencing? Very simply, you say to 
somebody okay, you get out of prison in two years. All that 
person thinks about is the two years when he gets out. He 
doesn't think about changing his life or her life. They don't 
care about that. They have got an end in sight. When you say to 
them, ``I don't know what is going to happen next, it all 
depends on you,'' it changes.
    And I think that is what we have learned from drug courts 
and from reentry courts. And I urge you to incentivize reentry 
courts, because if you pull the courts in, we have one great 
advantage over state parole and over probation departments. We 
can bring everyone to the table. And we can say you need to 
work together. And I can tell you working with parolees every 
day, I spend more time getting people to the table and getting 
them to change the way they think about things. If they were 
left alone, nothing would change. And we would see no 
difference.
    So I know time is a factor. And I want to end very quickly 
with this, we have a proven example in California of how badly 
a system can be when you leave the courts out of it. We have a 
mandatory initiative, a vote initiative, that requires us to 
place people who are sentenced and are low-level drug 
offenders, use or possession, into treatment, no incarceration. 
We have a system for paroles separate from the courts that 
mandates they put them into treatment.
    If you look at the outcomes, the court where we monitor as 
judges how that person performs, make sure they get into 
treatment. Have wonderful programs like this in our community 
who we know and can work with in comparison with the state that 
contracts with some huge program that has no oversight and 
never follows through. And the individual offender never sees 
anybody they can relate to or be held accountable by. You have 
failure.
    Sixty percent of those people don't even--from the state 
system don't even enter treatment. Whereas, you know, reentry 
court model it is the opposite, 70 percent enter. And in our 
state, our legislature has said this, and I urge you to think 
about this, incentivize this, they have given us a mandate in 
drug courts. You either reduce prison days or you don't get the 
money. Believe it or not the entire court system in our state 
changed. And we are saving money, because sentencing practices 
are changing.
    So I leave you with this. Please give courts the 
continuing--urge, make this a part of your reentry program, 
that courts must have the continuing obligation to supervise 
offenders. Use a real risk and needs assessment from the start 
of booking through sentencing on through the offender's life as 
they come back into the community. Require the judges to use 
it. And then develop a system so that when people come out of 
prisons and jails, they will be monitored in a drug court, 
reentry court-type setting.
    It can be done. Thank you very much.
    [Written statement by the Honorable Stephen Manley, Judge, 
follows:]

[GRAPHIC] [TIFF OMITTED] T1247B.060

[GRAPHIC] [TIFF OMITTED] T1247B.061

[GRAPHIC] [TIFF OMITTED] T1247B.062

[GRAPHIC] [TIFF OMITTED] T1247B.063

[GRAPHIC] [TIFF OMITTED] T1247B.064

[GRAPHIC] [TIFF OMITTED] T1247B.065

[GRAPHIC] [TIFF OMITTED] T1247B.066

[GRAPHIC] [TIFF OMITTED] T1247B.067

[GRAPHIC] [TIFF OMITTED] T1247B.068

[GRAPHIC] [TIFF OMITTED] T1247B.069

[GRAPHIC] [TIFF OMITTED] T1247B.070

    Mr. Mollohan. Thank you, Judge. Judge Manley, you say you 
have a 70 percent recidivism rate in California?
    Judge Manley. Yes. But for those individuals who are 
released on parole. This is a state system.

                              DRUG COURTS

    Mr. Mollohan. Now how do drug courts impact that recidivism 
rate? And if you would----
    Judge Manley. Okay.
    Mr. Mollohan [continuing]. Explain the difference.
    Judge Manley. In my court, I have parolees. I have an 
informal written agreement with the director of parole and the 
Board of Parole Hearings that allows me to have the 
jurisdiction. In California you lose all jurisdiction over 
anyone you send to prison the minute you send them to prison. 
You have 90 days to change your mind. But you have no 
jurisdiction over what happens.
    They agree to give me the jurisdiction. Therefore, when the 
parolee comes back in the community and tests dirty, in 
California you go back to prison. That is a technical violation 
of parole. If you don't show up at a treatment program, you go 
back to prison. If you don't show up to see your parole agent, 
you go back to prison.
    If I have the control, I don't have to have that be the end 
point. I can say, ``All right, you will see the parole agent 
tomorrow. And if you don't, you will go to jail for one day.'' 
One day. There is nothing parolees hate more than having their 
lives interrupted for a short period of time. It drives them 
nuts. And to be held accountable gets the result. And that is 
the big difference.
    The parole system, they see their parole agent once every 
six weeks. You can't monitor or supervise anyone. In the end, 
the technical violations are rule driven, or as in the court, 
we have no real rules other than we want a better outcome. We 
want treatment. We are going to make sure you get into 
treatment and stay there. And if you don't, there will be 
consequences. Parole has none of that.
    Mr. Mollohan. Do you have a statistic for recidivism, under 
the drug court scenario versus the parole scenario?
    Judge Manley. In terms of going back to prison, we have the 
opposite of what happens when you send people to parole. You 
have 30 percent. All right? So in other words, parole it is 70 
percent. We drop that down to 30 percent, dealing only with 
parolees, because to all offenders, it is in the neighborhood 
of 13 to 17 percent recidivism. By that I mean, commission of a 
new crime.
    Mr. Mollohan. Okay. I really want to understand the 
difference there. But just staying with parolees, because the 
70 percent recidivism rate relates to parolees obviously.
    Judge Manley. Yes. Recidivism, Mr. Chairman, means that 
they are returned to prison. And they may be returned to prison 
not for committing a new crime, but for violating----
    Mr. Mollohan. Violating their parole. I understand.
    Judge Manley. Right.
    Mr. Mollohan. But I am just trying to compare apples to 
apples here a little bit. And trying to see the impact of drug 
courts in the lives of those who are under, criminal 
jurisdiction.
    Judge Manley. Then that will come down to 17 percent or 
less.
    Mr. Mollohan. In drug courts?
    Judge Manley. Yes.
    Mr. Mollohan. And the same population managed by you in a 
drug court environment----
    Judge Manley. Right.
    Mr. Mollohan [continuing]. And drug court scenario, you 
reduce the recidivism rate from 70 to 17.
    Judge Manley. Right.
    Mr. Mollohan. Over what period of time?
    Judge Manley. Over three years.
    Mr. Mollohan. And is that your measurement? Do you have 
outcomes----
    Judge Manley. The measurement is----
    Mr. Mollohan [continuing]. For three years, four years, 
five years?
    Judge Manley. Yes. We have a five-year study going on right 
now. We are up to--we have done it for two years. And the 
measurement is really recidivism in terms of committing new 
crimes. And the length of time in custody is another outcome we 
measure. And the third outcome we measure is how many people go 
back to prison or jail.
    Mr. Mollohan. And those statistics are written up so that 
they can be made a part of the record?
    Judge Manley. There is a MacArthur study. There was a 
MacArthur grant study that has been done for jurisdictions, two 
in California, one in New York, and one other state. And that 
they have issued preliminary findings and the rest will come 
out later in this year.
    And I can make those available to you, sir.
    Mr. Mollohan. Okay. Thank you, Judge.
    Ms. Amison, can you talk about the benefit of your programs 
in terms of reduction in recidivism? And give us some 
comparisons.

                         GEMEINSCHAFT OFFENDERS

    Ms. Amison. Yes. Our study started with our first cohorts 
in June 2000. And our first cohorts entered June of 2000, last 
cohorts entered January of 2002. And at the time of this 
report, the prisoners had been out of prison a minimum of 1.5 
years and a maximum of 3.5 years.
    Now what they based this on was people that have 
therapeutic community with no transitional therapy in the 
communities against people that had no therapeutic community or 
no transition therapy through the community at all. And were 
released from prison during the same time period that 
Gemeinschaft offenders were released from prison.
    And what is significant--the Gemeinschaft offenders were 
less likely to be rearrested than were either prison TC or non-
prison TC controls. Prison TC controls they had lower arrest 
rates than the non-prison TC offenders. The whole report is in 
here. And the reconviction rate, the Gemeinschaft offenders had 
a significantly lower reconviction rate than the control 
groups.
    And then as we went to the recommital rates, the 
Gemeinschaft offenders had significantly lower recommital rates 
than the controlled groups. And we have the bar graphs to show 
the rate that James Madison University did.
    Mr. Mollohan. What document are you referencing there?
    Ms. Amison. The study that was done by Dr. Peggy Plass from 
James Madison University.
    Mr. Mollohan. Would you make that study a part of the 
record?
    Ms. Amison. It is a part of it.
    Mr. Mollohan. Oh, it is a part of your testimony. It's 
already there? Okay, terrific.
    Ms. Amison. Yes. It is in here.
    Mr. Mollohan. Thank you.
    Mr. Wolf.
    Mr. Wolf. Mr. Lewis.
    Mr. Lewis. No, no, please.
    Mr. Mollohan. Mr. Lewis.
    Mr. Lewis. I am here to----
    Mr. Mollohan. Well, I will let you two decide.

                         DRUG COURTS OPERATIONS

    Mr. Wolf. Thank you, Mr. Chairman. I have a couple of 
questions. And I would appreciate your comment. Judge Manley, 
are drug courts drug courts all over the country, the same way 
they operate? Do the ones in Virginia operate the same way as 
the ones in California? Is it pretty much?
    Judge Manley. Yes. They follow a basic model.
    Mr. Wolf. Okay. I have never been. I should go to one. And 
I was invited----
    Judge Manley. Oh, I urge you.

                            DRUGS IN PRISON

    Mr. Wolf [continuing]. And I didn't go.
    Ms. Amison, a couple of questions. When I asked Director 
Lappin yesterday I have been told by some prisoners that what 
is available on the street is available in prison. He acted 
like, well, yes, just a little bit sometimes. Is that fairly 
common, or what is available in the street is available in the 
prison with regard to drugs?
    Ms. Amison. Yes. It is available. I worked in prison for 
ten years. And we had them tested right there in the prison and 
urine screens done there. And the same substances that they 
were getting on the street were inside the prison.
    Mr. Wolf. Now this is not asking you for your program, but 
overall for the State of Virginia, the state that I represent, 
how well does Virginia do? You heard your own testimony. You 
gave it. You heard Judge Manley. You also heard the three 
previous witnesses.
    Ms. Amison. That is a good question.
    Mr. Wolf. How well do we honestly do?
    Ms. Amison. Let me tell you. We were doing real well for 
many years. But not right now we are not doing well at all, 
because the state has cut out all programs. My doors are about 
to be shut.
    Mr. Wolf. Right.
    Ms. Amison. So all of the programs, community programs, 
have been cut out as far as reentry is concerned. We were doing 
real well. We had the ideal models as far as non-violent 
offenders. The Department of Corrections was doing a superior 
job as far as making referrals to the program. You did not have 
enough beds due to the lack of money to accommodate the number 
of prisoners that were getting out of the therapeutic community 
programs.
    But as far as the continuum of care, we had the best thing 
going in the State of Virginia around--that I have seen as far 
as reducing recidivism.
    Mr. Wolf. And that changed--when did we begin to see the 
change in the State of Virginia, the last three or four years, 
ten years?
    Ms. Amison. We started seeing the change when the banks got 
into trouble and Wall Street got into trouble. And the money 
started going away. That is when we saw the change. And we 
could have used money for more beds in the State of Virginia. 
And we could have--and our goal in Virginia was to replicate 
this model.
    Mr. Wolf. Well, your model how much is your model 
replicated say in Richmond or in Tidewater and Northern 
Virginia? I see one guy shaking his head no. I mean, are we 
replicating it or are you sort of a stand-alone operation?
    Ms. Amison. We kind of stand alone. We have a program where 
they have some beds designated for the type of people, non-
violent offenders, that are coming out of the TC in Richmond 
called Rubicon.
    Mr. Wolf. Have you testified before the General Assembly?
    Ms. Amison. No. This is the first time anybody, I have got 
the best thing going. And this is the first time anybody ever 
asked me to testify.
    Mr. Wolf. Who discovered you other than Mr. Mollohan we 
will give him the credit.
    Ms. Amison. Other people around the United States have 
discovered me.
    Mr. Wolf. We will let the record show that Mr. Mollohan 
discovered her.
    Ms. Amison. The Chairman, I had a long session with him 
last year, before that.
    Mr. Wolf. Good. Well, to Mr. Mollohan's credit.
    Ms. Amison. Yes.
    Mr. Wolf. The last question is I think you said something 
that really had to be said. And I think, again, Mr. Chairman, 
let me just say and probably--is the Bureau of Prisons person 
here? Yeah, I would have thought there was someone. Oh, you are 
with the Bureau of Prisons? Okay, Justice.

                             HALFWAY HOUSES

    Mr. Lappin made everyone feel guilty about the fact that 
you didn't want a halfway in your neighborhood with violent 
criminals. And that he was having trouble. He was saying, ``We 
are having trouble in your area in Virginia, Mr. Wolf.''
    I think you have painted it in a very accurate way. No one 
wants a violent criminal group with armed robbery or all that 
other stuff in your neighborhood. And I think if you said I 
want one, you would be kidding yourself. But I think the way 
you explained a non-violent offender, bank fraud or something, 
it makes all the difference in the world. So I think it is 
important that I think Mr. Lappin is correct that, because I 
think the way you explain it makes it more reasonable and more 
understandable than the way that he did yesterday.
    Ms. Amison. And it is less threatening to the community. 
When you say non-violent offenders, it puts a different face. 
Our offenders go into the schools, the elementary schools, high 
schools and talk to the students at school to keep them from--
--
    Mr. Wolf. Have you had any or many situations where people 
who were in your program went out and committed a crime in 
Harrisonburg?
    Ms. Amison. I have had two instances----
    Mr. Wolf. Out of how many people?
    Ms. Amison [continuing]. In the eight years that I have 
been there. And we serve 120 people a year.
    Mr. Wolf. If you could send--do I have a copy of it? We are 
going to send a copy down to Secretary Marshall and to others.
    Ms. Amison. He knows me well. I call him all the time.
    Mr. Wolf. And I assume, Judge, I have yours too. Ask them 
what their--what they are doing. And I think with the 
combination of the two of you with the last three, offers an 
opportunity to really test the system, see if what you are 
saying is really accurate, or if it was just.
    But, thank you. I thank you both.
    Ms. Amison. Thank you.
    Mr. Mollohan. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Mollohan, for just 
letting me in the room. I wanted to mention to those who are 
listening that I am not a lawyer. I don't spend time in these 
rooms with these competitors of mine very often, because they 
do their jobs very well. But there has been a long history in 
our State of California where we have tried to get a handle on 
the interplay between drug problems, mental health and violent 
crime.
    And Judge Manley could tell you that it has been at least 
four decades ago that Laneron Petree Short tried to make a 
change in our state. That is, we had a long history of when 
people had demonstrated some difficulty we essentially sent 
them to a local mental hospital and threw the key away. And the 
design was to attempt to unravel that, stop that pattern of 
non-concern about humanity.
    The legislature took some dramatic steps. Made it very 
difficult to incarcerate people in terms of the mental facility 
at least, but we also had another piece of that. Another 
important stool was to--the leg on the stool was to have 
clinics in communities that would make certain that families 
were enough involved so that people had treatment care and 
otherwise. The second phase of it never was put in place. And 
because of that there are humans who get trapped in this 
process and the story does not begin when they walk in the jail 
cell, it begins an ongoing part of their life.
    So Mr. Chairman, we have some opportunities ahead of us 
with this stimulus package. As you know I am not for spending 
all the money in the world, but for programs that are 
demonstrating their ability to work, helping us exercise the 
models that can help other communities around the country, are 
very much worth our attention, as long as we don't put people 
on a pathway where two years from now the money is going to 
fall off and they will be off a cliff again. But drug court is 
an illustration of exactly that.
    One of the things that I have seen working, and having a 
real impact upon people's lives is what--is that experiment 
that took place in California, and I hope is rapidly impacting 
other locations.
    But Judge Manley, he and I will be talking further about 
this question, but if there is a way I can at all help you, Mr. 
Chairman, I want to.
    Mr. Mollohan. Thank you.

                            DELANCEY STREET

    Ms. Amison. Can I say one quick thing? Sustainability is 
also the key for these type of programs, and we are also one of 
Delancey Street replications that is in San Francisco, 
California.
    Mr. Mollohan. Say that last sentence again? You are one 
of----
    Ms. Amison. A replication of Delancey Street in San 
Francisco, California Dr. Mimi Silbert gave us her blessings 
and gave us technical assistance, and we started an auto 
detailing business. We didn't have enough money to sustain the 
business, but right now we are doing a refuge pickup where we 
get paid quarterly, and our guys go out and pick up refuge on 
the weekend for the local restaurants. And we are getting ready 
to start a catering business.
    So we also work on sustainability and sustaining ourselves 
so we won't have to continue to find ourselves in this fix 
without any money and we can support ourselves.
    Judge Manley. Well following up, I agree with what Mr. 
Lewis said, that if you fund something high then all of a 
sudden it crashes down two years later, you in essence are 
pulling the rug out.
    Mr. Mollohan. I wanted to ask you one other question, both 
of you, and it is probably not a fair question, but I am going 
to do it. What is your evaluation of the three witnesses who 
testified earlier? Did what they said ring true? I mean the DOE 
Program and job opportunities, did that ring true to you?
    Ms. Amison. All of that rang true to me, and I agree with a 
lot of what was said. But I still stand on a holistic approach, 
because there is a mirage of needs that offenders have once 
they are released.
    Judge Manley, my hat goes off to him, because what he said 
about the drug court and the way he is doing the drug court is 
ideal. And the other gentleman, and I know Pat that was here, 
they do excellent work. And all of these together, all 
communities are not the same and everything is not going to 
work in every community.
    I went to Pawtucket, Rhode Island, and I was like this type 
of program is not going to work because of the combination of 
offenders and things that they had going on in Pawtucket, and 
the steering committee that they had, and the collaborations.
    Well a drug court might work very well in Pawtucket, Rhode 
Island, so I feel that the five witnesses that you had testify, 
all of them were excellent ideas. It depends on the area, the 
city, and the state that you are in, which program will fit.
    Judge Manley. Well in fact, you work in consort with Judge 
Manley or with a judge--with a drug court. Folks that are going 
to drug court could very well be in your program. Is that 
correct?
    Ms. Amison. They could be, but we don't have a drug court.
    Judge Manley. No, I understand you don't.
    Ms. Amison. Yes.
    Judge Manley. But I'm saying, you would be complimentary 
for a drug court person.
    Ms. Amison. Oh yes, it would be ideal.
    Judge Manley. Yes, you would like that, wouldn't you?
    Ms. Amison. I would love it.
    Judge Manley. Yes, you would, because you would have a 
hammer, which you don't have right now.
    I would just say in response to Mr. Wolf, I think the 
testimony is--the previous testimony is right on point.
    I think what I am trying to emphasize is that what I have 
observed, the real problem is, you can create a lot of programs 
that are very fine and they do a very good job with offenders, 
but if you can't get offenders, enough of them, into the 
programs and retain them there, then the program really doesn't 
meet the need.
    And I am especially aware of this in California, and of 
course any other state that faces our problems where we are 
under a court order to reduce the prison population by 40,000 
or more, maybe as high as 60 or 70,000.
    You see, to move that kind of a program to make it real 
without having monitoring supervision and holding people 
accountable to enter and stay in treatment, that to me is the 
key if you can get people to take advantage of these programs.
    I will tell you on a daily basis I have offenders ask me to 
send them to prison, because they don't want to do this 
program. They don't want to get job training. They have given 
up on themselves. They are addicted. They don't think there is 
any tomorrow, except drugs, and they are resistant to this.
    And so part of a judge's job has to be to motivate an 
offender to do the thing they don't want to do, even though the 
programs are outstanding, and a tremendous outcome results that 
we could show the offender. The offender sits there and says, I 
just want to do my time. And I spend every week, a vast amount 
of my time, convincing people do this, try this, believe in 
yourself and get out there, then come back and show me you did 
it. And if you screw up I am not going to send you to prison.
    You see, and that is what their mentality is, if I do that 
job training program or if I go to her program and I screw up, 
that judge is going to hammer me, or the parole agent will 
hammer me, or somebody else will hammer me, and that is where 
it all goes wrong I think.
    We need to have, and she calls it holistic, to me holistic 
means we involve the courts, since we are the center where all 
this stuff starts. We should be involved to make it work, and 
to do everything we can instead of standing back and ignoring 
it.
    Mr. Lewis. I never thought about the courts in Earl 
Nightingale terms before.

                      OTHER PROGRAMS FOR OFFENDERS

    Mr. Mollohan. In your experience, Judge, do you use or are 
your offenders in some program----
    Judge Manley. Oh absolutely.
    We have 70 providers, you know, in every area. I mean, you 
have to look at what the assessment tells you. If the person 
needs life skills, if they are mentally--I work with a large 
number, and you did make mention to mentally ill offenders. 
Mentally ill offenders provide a great challenge. But if you do 
not have the treatment for them and the placements--and I spend 
most of my time----
    Mr. Mollohan. And do you do that? Do you place them?
    Judge Manley. Yes.
    Mr. Mollohan. Do you direct them to get into a program, and 
then you monitor their being in that program?
    Judge Manley. Well you have a choice. You either get in 
this program or you go to jail.
    Mr. Mollohan. You work cooperatively in that process.
    Judge Manley. Oh absolutely. And I follow the direction and 
assessment.
    For example, if there is a medication change and the doctor 
or clinic wants me to encourage the offender to try it, that is 
my job, to work with them with the treatment program to get the 
outcome they want to improve the offender's life and to make 
sure they stay in the program.
    Mr. Mollohan. Now you were here when Deputy Director 
Schrantz was testifying about the system in the State of 
Michigan?
    Judge Manley. Yes.
    Mr. Mollohan. Were you here during that?
    Judge Manley. Yes.
    Mr. Mollohan. How would drug courts fit into that 
architecture?
    Judge Manley. Well they could, as far as I am concerned, 
they could fit right into it if it was made a part of it, yes.
    Mr. Mollohan. Are there drug courts in Michigan?
    Judge Manley. There are drug courts in Michigan.
    Mr. Mollohan. And so they are a part of this system.
    Judge Manley. They are part of a system, but what I am, 
what I am urging is that what we really need is to look at 
whether or not we are having enough people enter the system, is 
it large enough to take them all, and are they staying in it? 
And so that we are really affecting a large number of people.
    And the courts see all these people. And so if you have a 
court system, then you can make sure that there is followup on 
each offender.
    Mr. Mollohan. Okay, and what I am asking is, is what you 
are talking about complementary to the very comprehensive, 
integrated systemic program that Deputy Director Schrantz was 
talking about in Michigan?
    Judge Manley. Yes.
    Mr. Mollohan. Is there a role for drug courts there?
    Judge Manley. There most certainly is.
    Mr. Mollohan. And is that role occurring today; do you 
know?
    Judge Manley. It is occurring today up to a point, but only 
in some parts of Michigan.

                        FUNDING FOR DRUG COURTS

    Mr. Mollohan. Oh, he is over here. Yeah, well I will ask 
him that then in just a second.
    But I have a few more questions.
    First of all let me compliment you, because you have worked 
day and night for drug courts. You believe in them, you have 
worked hard at them, you have developed them in West Virginia. 
I know Judge Gahn speaks so highly of you, and I haven't been 
back for another drug court session, but I certainly intend to 
go and will this year to catch up.
    And in response to our belief that drug courts work, and 
scaled up they work, we have gone from $15 million in funding 
to $40 million in funding in fiscal year 2009. Now we are going 
to be looking to you for kind of a report card on this and to 
see how we are doing with regard to it.
    And let me ask you, do you have any hesitancy that that $40 
million cannot be spent efficiently?
    Judge Manley. Not at all, not at all. I think the incentive 
of that funding is incredible.
    I can tell you the California state senate, the chair of 
the Budget Committee has introduced legislation for reentry 
drug courts spurred on by this growth of drug courts in 
California where we have more than any other state based on 
that small amount of funding.
    Mr. Mollohan. What does your funding profile look like? How 
much money comes from the state, how much from the federal 
government, and how much from other sources?
    Judge Manley. In California approximately $5 million comes 
from the federal, and I include Byrne Jag, SAMHSA, DOJ. The 
state, of hard general fund dollars at a time when they don't 
have them, they continue to fund us at over $30 million. So for 
every dollar you invest they invest far more.
    Mr. Mollohan. Do you have data to compare the cost of your 
reentry court approach compared to sending an offender to 
prison?
    Judge Manley. Yes, we do, and I can provide that to you.
    Mr. Mollohan. For the record?
    Judge Manley. Yes, we most certainly can for the record.
    Mr. Mollohan. Thank you.

                        DRUG COURTS IN MICHIGAN

    Let me ask Deputy Director Schrantz if he would join us at 
the table here, just to answer this one question, unless Mr. 
Wolf has additional questions.
    We didn't ask you about drug courts in Michigan. Do you 
have them, and are they working, and how do they work?
    Mr. Schrantz. Yes, we have drug courts in Michigan, but 
they are not reentry courts, because in Michigan the judges 
have no jurisdiction over parolees unless they were to commit a 
new crime.
    So in our state--it is an indeterminate sentencing state. 
The Parole Board has authority over all parolees, unlike other 
states that the judges actually have jurisdiction.
    So our drug courts, similar to many across the country, 
deal on the front end and do a good job at intermediate 
intervention of offenders that perhaps are in the early stages 
of their career and need to be turned around so they don't 
become violent offenders. And so they help reduce prison 
admissions a bit.
    But where we are headed I'll quickly say this, is that we 
are pushing the drug courts to work with a higher risk 
offender, particularly some violent offenders, because we need 
that type of----
    Mr. Mollohan. How will they work with them if they don't 
retain jurisdiction?
    Mr. Schrantz. Well they work on the front end with 
probationers, and so they help reduce admissions to prison as 
opposed to working with parolees.
    Mr. Mollohan. Okay. And the difference in those two 
approaches is that Judge Manley and the drug courts that we are 
funding in our legislation are courts that have jurisdiction 
over parolees.
    Mr. Schrantz. Yeah, I am not sure about your funding----
    Judge Manley. Right. It will vary from state to state. In 
California we are no different than Michigan in that control is 
rested with the Board of Parole hearings.
    Mr. Mollohan. But you have a contract that is given to you.
    Judge Manley. But due to the dismal results that they were 
getting, they decided to try this alternative, and that is what 
has lead to this legislation that we will have.
    Mr. Mollohan. Okay. That gets me to the point I wanted to 
be at to ask the deputy director. Does that sound like a good 
idea?
    Mr. Schrantz. Yeah. We have actually had some judges that 
have wanted to explore it, but unlike California we are doing a 
very good job without complicating it with judicial----
    Mr. Mollohan. So you are hesitant to embrace----
    Mr. Schrantz. I have told many judges that if they are 
willing to sit on a reentry panel and hold that panel in their 
court, that I would love to have that type of community 
leadership.
    Mr. Mollohan. Okay.
    Mr. Schrantz. Because the real important thing about drug 
courts that we have learned over the years is that the offender 
wants to do well because he doesn't want to let the judge down. 
And so if that paradigm of relationship can be applied in 
reentry, we are more than welcome to do it, and we don't care 
that much about the jurisdiction issue. But so far I haven't 
had any judges take me up on the offer.
    Judge Manley. You have to have, you have to be pushed, and 
you have to believe in it, and you have to get judges willing 
to do it, but what he references to is so important to me.
    In my court we have everyone at the table. We have the 
parole agents, we have the Board of Parole hearings, we have 
all of the programs there, and there is in a sense a true 
reentry panel where the judge is really the least important. 
The judge is more assisting his programs or whatever direction 
everyone feels----
    Mr. Mollohan. Well the judge is the controlling figure in 
that.
    Judge Manley. The motivator, the person that holds the 
person accountable, and as he says, there are certain 
offenders, and it is very correct. That is why I believe so 
much in this tracking system in the reentry courts. There are 
some offenders who need very strong judicial supervision, and 
perhaps those offenders are the ones who should be in a drug 
court.
    Mr. Schrantz. I will mention that what Mr. Noland said 
earlier about a catalyst being necessary to get this work done, 
I think we would see all across the country that catalyst can 
come from many places. And when the local jurisdiction is the 
place where the work is happening, as opposed to the state 
level like it is in Michigan, you have got to go wherever the 
leadership will take you.
    So if it is a prosecutor, as it is in New York City, that 
is where you go, because he is willing to use his community 
leadership. If it is a judge you go with a judge. If it is a 
parole officer or warden, in many respects you can build a 
reentry model with any leadership, because it requires 
collaboration, it is just a different person who brings them 
all together.
    Mr. Mollohan. And the Michigan model?
    Mr. Schrantz. The Michigan model, it comes from the 
governor to the director of corrections, and then we spread it 
out, you know, and we are the ones that bring folks to the 
table. But if we weren't doing the work, I am sure somebody 
else would try to figure out a way to, you know, pull it up, 
you know, and get it moving.
    What we have that is very beneficial I think and 
extraordinarily productive, is that we had a governor come in 
promising this, and she had eight years. She will have eight 
years then to produce it.
    Mr. Mollohan. Right.
    Mr. Schrantz. And that is how you tackle a state.
    Mr. Mollohan. Yes, I understand that, but the real 
difference is that yours is systemic, which creates a 
uniformity throughout the jurisdiction.
    Mr. Schrantz. Yes.
    Mr. Mollohan. Which in this case is the State of Michigan.
    Mr. Schrantz. Uniformity is tough. Standards of quality, we 
are now starting to design a total quality management system, 
which is another mountain to try to climb, because we have 
suffered from expanding very broadly, and perhaps not getting 
as much quality.
    Mr. Mollohan. And so my question, let me ask it again if I 
might.
    In your system, is there a place for drug courts if judges 
wanted to assume this responsibility?
    And what I am becoming very appreciative of here at this 
hearing that I wasn't quite so appreciate of before, is the 
commitment that this takes on the part of the judge. I mean, 
your caseload, you become effectively a case manager really at 
that level, if you accept that responsibility.
    Judge Manley. And I mean, I would just say that, you know, 
every state is going to be different. There is no perfect 
answer to this, but we have the opposite of what Michigan has, 
in that our parole and our programs are an absolute disaster at 
a cost of billions, because there is no system in place. There 
are silos.
    Mr. Mollohan. Yes.
    Judge Manley. And to me what needs to happen is we all need 
to come together, you know, with court leadership, because 
everyone looks to the courts. I mean, we are starting to do 
that in California, and I think that that, you know, has a 
value that should be reinforced and supported.
    Mr. Mollohan. And Deputy Director Schrantz, just again I 
want to hear you say, in your system Ms. Amison's services 
would be out there, that would be the local provider and----
    Mr. Schrantz. Yes.
    Mr. Mollohan. Okay. Thank you very much.
    If Mr. Wolf would like to ask you some questions you might 
want to stay at the table.

                           Mr. Wolf Questions

    Mr. Wolf. Well, I just have one question. Why do you not 
have a drug court in Harrisonburg? And how do you constitute 
drug courts? We had one in Loudoun County.

                        DRUG COURTS IN VIRGINIA

    Ms. Amison. We have drug courts in Virginia.
    Mr. Wolf. Yes, I know that, we have them in Loudoun County, 
but how does a county bring a drug court, and why would you not 
have one in Harrisonburg? What is that?
    Mr. Mollohan. Will you identify yourself, please?
    Mr. DeBlasio. Keith DeBlasio. I work on the state level as 
a lobbyist. In Virginia the law is written that we have a 
certain number of counties who are allowed to put in drug 
courts. Anything that is an expansion of Virginia has to pass 
the General Assembly and signed off by the governor. And in the 
western part of the state what we see is a lot of the rural 
jurisdictions. If the legislators in that area like Senator----
oppose that drug court, the General Assembly will never pass 
it.
    Mr. Wolf. Why would he oppose a drug court? I mean, he is a 
good fellow, I know him well. Why would he oppose the drug 
court? I mean what? I mean I don't know, you just rolled your 
eyes. What is that? Why would he oppose it?
    Mr. DeBlasio. I am really not sure, because we have--of 
course in Virginia we have some of our most conservative 
members who recognize--our jurisdiction--well, Winchester area, 
Delegate McDonald is a huge supporter before coming an attorney 
general of the drug court, so I am not really sure, you know--
--
    Mr. Wolf. Well maybe we can check. Okay, so the reason 
though that you would not have it then in Harrisonburg is 
because the number that has been called for in the law is now 
at that number, and so therefore to have one more--even if 
Harrisonburg wanted to have it, they would have to come back to 
the General Assembly and ask them to.
    Mr. DeBlasio. It is not a matter of having one more, it is 
specifying the jurisdiction. Our code in Virginia actually 
lists what jurisdictions are allowed----
    Mr. Wolf. And how is that determined? Was it by at that 
time people said I want one, I don't want one?
    Mr. DeBlasio. Each legislation can bring the legislation to 
have it in your jurisdiction and then the General Assembly 
votes on it.
    Mr. Wolf. Well maybe what--Judge I am going to get your 
testimony. Send it to Mark Obenshain and--he is a pretty good 
guy. He is a very good guy. And it would seem to me that you 
would want to have the drug courts and you could almost.
    Ms. Amison. It would be wonderful.
    Mr. Wolf. It almost doesn't add more--so much more money 
does it? Because if they are in this court or that court, they 
are in--you could carve out and the drug court is the drug 
court, and they are going to be in court so they can----
    Judge Manley. They will be there anyway.
    Mr. Wolf. They got to be there anyway. Well if I can get a 
copy of your testimony, and yours and we will send it to him 
and ask him to take a look at it.
    Does the Attorney General have much impact on this issue?
    Mr. DeBlasio. Yes, he would.
    Mr. Wolf. No, but the reason is, no, Bill Mimms who is now 
the Attorney General was my AA.
    Mr. DeBlasio. Yes. He has pushed this. We have worked 
together.
    Mr. Wolf. Bill has pushed it. Yes, I would think Bill would 
be for it.
    Well we will get the copy from to him and then see if----
    Ms. Amison. And I would like to sit or have you to come--
this committee to come and see exactly what we are doing.
    Mr. Wolf. Well, maybe I will tell Bob Goodlight. 
Harrisonburg used to be in my district. I should go down to 
Broadway, but we sort of have a congressional courtesy. I don't 
go roaming into areas that--I am kind of down in Harrisonburg 
and he said well what are you doing in Harrisonburg?
    Ms. Amison. He supports our program.
    Mr. Wolf. He does? Well good. Well maybe some time when I 
am kind of down near there I could come on by. But if I could, 
Judge Manley, get your thing and we will send it and we will 
let you know what happens.
    As I leave Mr. Chairman, I just want to thank you for the 
hearing, so I think they have been very good.
    Mr. Mollohan. Thank you, Mr. Wolf.

                           SECOND CHANCE ACT

    Judge Manley, the Second Chance Act also authorized a drug 
treatment alternative to the Prison Grant Program.
    Judge Manley. Yes.
    Mr. Mollohan. Under that program an offender's prison 
sentence would be deferred if he agreed to participate in a 
substance abuse treatment program. If a prosecutor determined 
that the offender was not complying with the treatment program, 
the prosecutor would be able to send the offender to prison.
    Just being a lawyer and not having practiced in the 
criminal system, the prosecutor just doesn't seem to me to be 
the right place for this authority to reside. First of all they 
are busy prosecuting, they often pick a folder up as they are 
walking in the room, which isn't much attention sometimes they 
pay to certain cases. Of course there are certain cases they 
work very hard on. What do you think about that authority 
residing in the prosecutor?
    Judge Manley. Well, I agree with you Mr. Chairman. I think 
it is a very dangerous precedent to set. I think what you will 
see is, what we have seen in California and other states. When 
you give an opt out to one side of an adversarial process, you 
end up with results that you are not in the best interest of 
anyone. And I think, that is why usually it is framed in a 
sense that the prosecutor may recommend--or any recommendation, 
the prosecutor must be given great weight by the judge, but you 
leave that decision to the judge.
    The problem with letting an opt out or a prosecutor make a 
decision, the prosecutor doesn't then take any responsibility 
for the outcome. The prosecutor is just saying this guy goes 
back to prison. Whereas with the judge has to say okay, are we 
at the point where there is nothing more we can do here? And to 
me that is far more, because then you are placing 
responsibility on the judge for the outcomes. The outcome is 
reduce recidivism, fewer people going to prison. So I mean I 
have that responsibility every day, and I am very reluctant, 
because I know that once I send him back to prison I will see 
him again.
    Mr. Mollohan. Yes, and I can see it being awfully hard for 
a prisoner to--not a prisoner, a person to do much bonding with 
a prosecutor. Positive bonding.
    Ms. Amison, do you want to speak to that?
    Ms. Amison. I think that would be a difficult situation for 
a prosecutor.
    Mr. Mollohan. Yes, from the prosecutor's standpoint 
perhaps.
    Ms. Amison. From a prosecutor's standpoint. I think if they 
work together with the lawyer and probation officer and they 
made a joint decision as far as the need for that individual, 
it would probably come out better. But just to have the 
prosecutor to make that sole decision, I think that would be 
very lopsided.
    Mr. Mollohan. Yes. Well again, the Second Chance Act 
authorizes a state and local reentry court grant program to 
fund initiatives that help monitor and coordinate services for 
reentering offenders.
    Now I haven't looked at the elements of what go into that, 
but that kind of sounds like drug courts and what you do.
    Judge Manley. Yes. Drug court, reentry courts, yes. Indeed 
it is exactly what we do and that is what I think is really the 
future for how we can be more effective in terms of helping.
    Mr. Mollohan. So is that the drug court program?
    Judge Manley. Well that is a type of drug court. As the 
witness pointed out, there are various types. There are some 
that work with offenders who before they enter the process, 
some during their entry, some just with probationers, but 
reentry is a major part of what drug courts do most effective, 
is monitor people when they are in the community after they 
leave prison or jail.
    Mr. Mollohan. Do you have a familiarity with this 
particular authorization in the Second Chance Act?
    Judge Manley. I have a familiarity with the language and 
with the funding stream. I do not know specific programs. I 
know of some.
    Mr. Mollohan. I was going to ask you whether you think it 
is meritorious.
    Judge Manley. Whether it is meritorious?
    Mr. Mollohan. Yes.
    Judge Manley. I think it is meritorious.
    Mr. Mollohan. Okay.
    Judge Manley. Yes, I think it is pushing us right in the 
direction that Congress should push us.
    Mr. Mollohan. Because these funds authorize this stuff.
    Judge Manley. Yes.
    Mr. Mollohan. And we fund it.
    Judge Manley. Right.
    Mr. Mollohan. So we just want to know.
    Judge Manley. Well I would just urge you to fund it. Simply 
put I think this works.
    Ms. Amison. Is there is anything in there for residential?
    Mr. Mollohan. I expect there are some grant programs you 
should be looking at, but don't rely on me to tell you that. I 
don't want to take responsibility for you missing maybe a great 
grant program.
    Mr. Honda, welcome to the hearing.
    Mr. Honda. Thank you, Mr. Chairman.
    It is really great to see a champion for justice in drug 
courts too in both of you.
    Are there any questions that we haven't asked that you want 
us to ask? [Laughter.]
    I know the Chairman is very----
    Mr. Mollohan. The Chairman has asked every question.
    Mr. Honda. And I know that the Chairman has a great 
interest in finding ways to make sure that folks don't get into 
the criminal justice system, and that we find ways to reduce 
recidivism. And I know that in your work and the national 
reputation all of you have and the way you rally people 
together to make sure that Congress supports the kind of work 
that you do is great, so I am just proud to be able to say that 
I know you all and that we are here to make sure that you 
realize the kind of success that you can really have, and we 
understand the policies that you are going to need to support 
that.
    Thank you Judge. Mr. Chairman, thank you.
    Mr. Mollohan. Thank you, Mr. Honda.
    You would be proud of the witness's testimony.
    Let me just have a--if I might have a suggestion for you in 
maybe working with your representative or with Mr. Wolf.
    We are sorry to see that the General Assembly has not 
funded or has reduced funding for your program and like 
programs, and think that is very shortsighted. And you may have 
some advocates here. But if you have done any calculations on 
how much your program saves the state, or if somebody else has 
looked at that, you can often appeal to folks who look at these 
things only through the fiscal prism, if you will, on the basis 
of, hey look, my program is saving money and it is 
demonstratable. If you have those statics, you might want to 
work through your congressman.
    Ms. Amison. I have been, and I have tried.
    Mr. Mollohan. Okay. Well, I am sure you are. Let me restate 
Mr. Honda's offer. If there is anything else either of you 
would like to say, to get on the record here today, I invite 
you to do that.
    Judge Manley. Well, I just want to express appreciation for 
your interest and the questions, and I think I have set out 
everything that I think we in drug courts firmly believe in. We 
very much want to be part of the reentry process, I think that 
court supervised treatment and rehabilitation really works. I 
think we have demonstrated that. We repeatedly demonstrate it. 
And anything Congress can do to move that entire program 
forward would be greatly appreciated, because we need to go 
back and convince our states to do this, and that begins with 
California.
    As I say, we have a legislature that is now looking for the 
first time to establishing reentry drug courts throughout the 
state, and that is a beginning, but we need that across the 
country. And your support of what we are doing I think is not 
only greatly appreciated, but it is greatly needed.
    You don't know the effect you have when you say this is a 
priority to Congress. The states then see it as something they 
need to pay attention to. And also they see it as a means of 
leveraging funding. They are willing then to invest money if 
they know they are going--that it is outcome driven, that they 
are expecting the drug reentry courts to produce better 
outcomes in the disaster they already have, then they are more 
willing to fund.
    So thank you again.
    Mr. Mollohan. Thank you, Judge.
    Ms. Amison.
    Ms. Amison. I would just like to say that on December the 
4th I will be 20 years clean and sober, and I have been through 
this model of treatment, and I know what can happen if you have 
the right combination of people working with you and what you 
can aspire to do and what you can aspire to become.
    I never dreamed that I would be sitting before a senate 
subcommittee and testifying on anything, and it is a pleasure 
and a honor, and I am proud, because this is hope that I can 
show the men and women that I work with that they too can 
overcome their substance abuse issues, they can become clean 
and sober and have a meaningful life with the right services. I 
know it can happen because it happened for me.
    And I just urge Congress to please, people need a second 
chance and they need a hand up, and I urge Congress to please 
take hold of this and make it happen.
    Thank you.
    Mr. Mollohan. I want to tell you how glad I am that you put 
that on the record. That is really inspiring, I think. And the 
best counselors are folks that are recovering, aren't they? 
They don't fool you.
    Ms. Amison. Not at all.
    Mr. Mollohan. They don't fool you.
    Well thank you all very much for your testimony. We look 
forward to working with you into the future.
    Thank you.
                                          Thursday, March 12, 2009.

                 ``WHAT WORKS'' FOR SUCCESSFUL REENTRY

                               WITNESSES

HON. DANNY K. DAVIS, A REPRESENTATIVE OF CONGRESS FROM THE STATE OF 
    ILLINOIS
JEREMY TRAVIS, PRESIDENT, JOHN JAY COLLEGE OF CRIMINAL JUSTICE
JAMES M. BYRNE, PH.D., PROFESSOR, DEPARTMENT OF CRIMINAL JUSTICE AND 
    CRIMINOLOGY, UNIVERSITY OF MASSACHUSETTS, LOWELL

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    This morning, before we begin with the hearing panel, we 
are very pleased and honored to welcome our colleague, 
Representative Danny Davis, to testify about the theme of this 
week's hearing, Prisoner Reentry.
    It is particularly fitting that Mr. Davis joins us here 
this morning because he was the sponsor of ``The Second Chance 
Act,'' which was enacted last year and which promises to help 
fundamentally change the way we approach prisoner reentry at 
both the federal and state levels.
    Danny, thank you very much for taking time to appear here 
today. We appreciate it. We look forward to your testimony.

                      Mr. Davis Opening Statement

    Mr. Davis. Well, thank you very much, Mr. Chairman. And let 
me first of all thank you and the Committee for holding this 
hearing.
    I want to express real serious appreciation for the 
evolution of the interest and the concern that is being 
expressed relative to the whole question of prison reentry.
    I happen to believe that this is one of the most serious 
problems facing America, especially urban communities with 
specific population groups.
    It's common knowledge that our country has become the most 
imprisoned nation on the face of the earth in both proportion 
and actual numbers of population.
    Studies suggest that about 700,000 of these people return 
from prison each year. If we would consider that large number 
of individuals coming home from prison every year, you can 
imagine the numbers that have escalated. Many of them actually 
return to specific communities in geographic areas.
    For example, in the State of Illinois, where we have about 
40,000 people returning, most of them come to one county, that 
is Cook County, and they come to seven community areas in that 
county, which really means that those people in those areas 
besieged. I mean, you can walk down the street and meet 20 
people and if you were to talk to them, sometimes about half of 
them would be individuals who have prison records or 
individuals who have some impediment that prevents them from 
obtaining jobs, housing and access to much needed entitlement 
programs.
    And so it is my feeling that the extent to which you can 
help these individuals reintegrate back into normal life, that 
is the extent to which we not only improve the quality of their 
individual lives, but also the lives of everyone with whom they 
come into contact as well.
    There are large numbers of children, for example, whose 
parents are either incarcerated, returning home, and all of 
these children often time suffer the pains of having both 
parents with prison records, which means that they then miss 
just normal opportunities.
    We were pleased that ``The Second Chance Act'' found its 
way through the processes of passage and the fact that the 
President has proposed $75 million in FY 2010 budget.
    But, as I said to the President two days ago I was becoming 
a little bit concerned because I did not see as much money in 
the ARRA for reentries, nor did I see it in the 2009 Omnibus. 
Moreover, I was heartened when I saw the 2010 budget proposal.
    It is my hope that at the very least $75 million will be 
maintained and we will find other resources to fully fund The 
Second Chance Act. FY 2010 proposed funding level services to 
50 states is the equivalent of less than a million per state. 
This funding is inadequate and will not benefit states with 
greater population of individuals returning to society. States 
are hard pressed with decreases in revenue and the rising costs 
of public safety.
    Today at one o'clock, I will reintroduce ``The Federal 
Prison Work Incentive Act of 2009,'' a piece of legislation 
designed to restore good time in federal prisons and correction 
facilities.
    As you know ``Tough-on-Crime'' public policies deprived 
individuals with federal convictions of parole or probation and 
requires them to serve at least 85 percent of their conviction 
or their sentence. Many of them before 18 or 20 years are 
actually in a position where they could return to their 
community, go to work, and become assets rather than remaining 
liabilities to society.
    Mr. Chairman, I want to thank you for the interest you have 
displayed and continue to place not only in this particular 
issue, but in a range of issues related to criminal justice and 
related rehabilitation issues.
    I appreciate being here and yield back the balance of my 
time.
    Mr. Mollohan. Well, the accolades go to you. And it takes 
somebody who is really insightful about these things to the 
point that they become intuitive and just understand what ought 
to happen. And I think that is reflected in your whole career.
    You know, I have told you often that, of the requests when 
we were doing VA HUD, the requests that you submitted were 
always totally appropriate and extremely sensitive and relevant 
to your community. And we always had to fund them because of 
that.
    It is a credit to your sensitivity and to your knowledge of 
your community, to the point of being intuitive about it. And 
that is obviously reflected in ``The Second Chance Act.'' And 
we will be looking very carefully at it.
    Now, so far as the appropriation is concerned, I mean, we 
have not had much of a chance here on ``The Second Chance 
Act.'' So you have got to give us a first chance----
    Mr. Davis. Right.
    Mr. Mollohan [continuing]. To really look at this. You just 
got this done last year. And that is the reason we are holding 
these hearings. And we have attempted to be thorough. The staff 
has just worked their hearts out to get before the Committee 
the kind of witnesses that are going to guide us and help us in 
applying what you acknowledge and point out are scarce 
resources.
    There are some programs, and I do not want to hold you up 
too long, but there are some programs that the testimony has 
been very positive in favor of.
    And as we look at ``The Second Chance Act,'' which of these 
grant programs do you think are most important?
    Mr. Davis. I think that those programs that can result in 
an individual being able to find employment after everything 
else is said and done, after a person has been helped with 
their drug addiction problem.
    They may have been helped with their anger control problem. 
They may have been helped with their inability to read, write, 
and communicate, maybe even have developed a job skill. But if 
they cannot find employment, that will actually in many 
instances drive them back into old behaviors.
    I have actually had people come and sit and cry in my 
office because they will have done what they thought they were 
supposed to do and, yet, every place that they went to try and 
find a job, they were told that we do not hire ex-offenders or 
you have got a record and we just cannot take a chance.
    And I think that is one of the reasons we ended up calling 
this activity ``Second Chance,'' because in many instances, 
unless individuals get that employment opportunity, then they 
are totally frustrated.
    I mean, there are so many barriers to reentry. You cannot 
live in public housing. It is against the law. And some states 
say to get a license to be a barber or even be a nail 
technician to put fingernail polish on someone's fingernails or 
you cannot be a butcher, you cannot be a plumber, you cannot 
work around any health facility, you cannot cut the grass at a 
hospital unless you can get a waiver.
    Mr. Mollohan. Is this true in Illinois?
    Mr. Davis. And it is becoming one of the more progressive 
types trying to deal with the problems. But in Illinois, there 
are still 39 of those kind of----
    Mr. Mollohan. Cannots?
    Mr. Davis [continuing]. Licensure----
    Mr. Mollohan. Yes.
    Mr. Davis [continuing]. Requirements, that if you have a 
felony conviction, you cannot meet them. And so there you are. 
We have had people who would go to school and we went to watch 
some of the career education institutions who will allow people 
to go through programs knowing full well once they complete the 
program that they are not going to be able to work unless they 
can get a waiver because the state does not allow it. But 
slowly but surely, I mean, we are tearing those down. We 
actually had 55 three years ago.
    But we have been able to get our legislature to wipe some 
of them out, so we are down to 33.
    Mr. Mollohan. When were those put on the books?
    Mr. Davis. Many of them were put on the books as we decided 
that we needed to get tough on crime in the 1980s and the early 
1990s. All of the----
    Mr. Mollohan. When were they put on?
    Mr. Davis. Late 1980s----
    Mr. Mollohan. The 1980s, 1990s?
    Mr. Davis [continuing]. 1990s. Three strikes and you are 
out. Mandatory minimums. The real war against drugs. I think if 
we could find a way somehow or another to prevent individuals 
from becoming drug addicted because about half the individuals 
who end up prison are there because of some drug related 
activity, whether it is addiction, whether it is trafficking, 
conspiracy.
    I mean, we have a terrible problem, for example, in 
Illinois. Cook County has 800,000 drug users. And, I mean, that 
is an awful lot of people.
    Mr. Mollohan. Yes. It certainly is.
    Mr. Davis. We have 3,000 people use drugs every day, as 
often as they can get them.
    Mr. Mollohan. Are you following OJP's promulgation of rules 
and the release of grant announcements and can you comment on 
how they are doing?
    Mr. Davis. Well, I think they are doing quite well. As a 
matter of fact, we do follow that very closely as well as we 
monitor many of the programs that people actually do. And even 
faith-based programs. Some people do not have as much faith in 
some of those.
    But I find that with those programs, without much money, 
oftentimes they are quite effective because there is something 
that happens in good ones that we cannot always describe.
    Mr. Mollohan. You cannot know.
    Mr. Davis. Yes. I am a trained psychologist and, of course, 
many of my friends are psychiatrists and psychologists. And 
they do not have necessarily, some of them do, the same kind of 
faith in these kind of programs.
    But oftentimes people just kind of get caught up in what is 
taking place and you follow them for years and they are okay. I 
mean, they, amazing grace somehow or another----
    Mr. Mollohan. Lifts the spirit.
    Mr. Davis [continuing]. Move them from where they were. And 
they do not cost much. I mean, it is generally facilitation 
money that groups like these need. And so they do not need a 
lot of money to----
    Mr. Mollohan. Well, we had an excellent panel, a number of 
excellent panels yesterday. One of them spoke particularly to 
this job issue. One is Mr. Nolan's faith-based program and then 
Mr. McDonald with----
    Mr. Davis. Pat Nolan.
    Mr. Mollohan. Yes, Pat Nolan and Mr. McDonald with the Doe 
Fund. Those two spoke to the job issue very eloquently in words 
and obviously their deeds.
    Are either one of them active in Chicago?
    Mr. Davis. Oh, we work closely with Pat and the Prison 
Fellowship and all of them.
    Mr. Mollohan. And how are they doing on the job side of 
things?
    Mr. Davis. They are doing well. The jobs that people are 
able to get really come as an organization develops a 
relationship oftentimes with an industry or with a particular 
employer so that they can follow the individuals and monitor.
    One of the most effective groups that we work with, of 
course, is the SAFER Foundation, one of the oldest groups that 
has been around. And they have a pretty decent track record 
because they monitor closely the individuals who go out and end 
up working, provide supportive services, give them help.
    Many employers will actually hire ex-offenders as long as 
there is someone to work with them and they do not necessarily 
want the general public to be aware of it because if they found 
out, they would be overpowered with applicants.
    But there are entities. For example, Clark Construction 
Company right here in D.C. has a very excellent approach. 
Pennzoil in California has a great approach where they actually 
train individuals to operate their oil changing apparatuses.
    And then some people have actually developed small 
businesses that are working. We have got one where the lady got 
the idea of teaching ex-offenders how to extract honey and so 
now they have a business of----
    Mr. Mollohan. That is great.
    Mr. Davis [continuing]. Honey. It is a million dollar 
business now.
    Mr. Mollohan. Well, let me commend the Doe Fund to you, 
that model. They have, based on their testimony yesterday and 
reputation, they have had excellent results at the work aspect 
of all this and the reduction in recidivism that has resulted.
    I commend you.
    Mr. Wolf.
    Mr. Wolf. Just welcome, Mr. Davis.
    I think the testimony was good. I think faith makes a big 
difference. John Newton wrote Amazing Grace. The faith issue 
was the issue that changed him.
    The other thing is work and work makes the big difference. 
And that is what the panel said. I mean, you cannot get 
somebody to come out of prison and give them a hundred bucks 
and let them go on a Saturday night at seven o'clock and then 
have no job for months and months and months. And so I think 
the combination of the three of them.
    Also, the State of Michigan has a very aggressive program. 
And I think that is the answer. I think we are building more 
prisons, putting more people away when we ought to be putting 
more money into training and work both in prison--Prison 
Industries is another important issue and, yet, this Congress 
is generally going the other way.
    We are going to offer an amendment that sets up a program 
whereby prisoners can work on making products that are no 
longer made in the United States, so we are not in competition 
with any American jobs, an example being there are no 
televisions made in the United States.
    This is an extreme example, but perhaps if you could have 
them working on making televisions, which I think would be 
beyond what we could do, although Emerson at one time was 
willing to do that and there was opposition, and then they 
would be getting training that they could do as they got out. 
And then the idea of once they leave prison, upon leaving 
prison having a job whereby they can work and they really have 
dignity.
    Does it make sense to you of doing something whereby people 
could work on products that are no longer--doing real work. I 
do not mean laundry, linens, and picking up cigarette butts, 
but real work, working on products that are no longer made in 
the United States, maybe bringing that product back, if you 
will, that would help, but also giving a person an opportunity 
to do something that makes a difference. Does that make sense 
to you?
    Mr. Davis. Oh, I think unequivocally and without a doubt. 
For example, you mentioned television sets. There used to be a 
Zenith plant about a mile from my home. And, of course, they 
moved to Mexico and that was the end of the individuals who 
worked at Zenith.
    In addition, you know, those kind of products that are not 
generally manufactured in our country, I think there is also 
the maintenance and reconstitution.
    We have got one program, for example, where the individuals 
are taught to redo computers. And we have got a company that 
gives them their old computers. They learn to take them apart, 
put them back together. And, of course, the test is that they 
actually work and then they sell them for three, four hundred 
dollars each and earn money that way.
    Mr. Wolf. And that gives them the skill that they can then 
take out and also earn a living while they are in prison so 
that they have a percentage of the money that they have when 
they leave and also maybe send some to their families.
    Anyway, well, I appreciate your support for this, and thank 
you for your good work.
    And with that, Mr. Chairman, I----
    Mr. Davis. Well, thank you. It adds a level of dignity. And 
I also want to commend you because you have been one of the 
stalwarts in this area certainly ever since I have been here. 
And we have always considered you the go-to person when we 
needed some help with criminal justice issues. And I want to 
thank you very much.
    Mr. Mollohan. Before you leave, Danny, we had testimony 
yesterday about drug courts and I just want to get your quick 
reaction to drug courts.
    Are they operating in your area? Do you have a thought 
about them?
    Mr. Davis. We have had them for a long time actually and 
they operate extremely well. Individuals who, I mean, they have 
got a drug problem, I mean, the real deal is that drug 
addiction is such a heavy number until it is almost impossible 
to talk about serious reentry if you are not talking about 
doing something with the drug addiction problem that exists in 
the country.
    Mr. Mollohan. So drug courts work? I mean, they are part of 
what works?
    Mr. Davis. They are very good. They work extremely well. 
And I think they are worth their weight in gold.
    Mr. Mollohan. Well, that is good. And I note here the 
announcement by the President that he has appointed the Seattle 
Police Chief, Gil Kerlikowske, to lead the Office of National 
Drug Control Policy. And at the same time, they have announced 
a new emphasis on treatment. So I think that is a good----
    Mr. Davis. That is wonderful.
    Mr. Mollohan. That is a good turn in direction.
    Thank you very much for your appearance here today and for 
your good work. And as I said before, you need folks around who 
are intuitive about these things and that is reflected in ``The 
Second Chance Act'' and in your testimony here this morning. 
Thank you, Danny.
    Mr. Davis. Thank you very much, Mr. Chairman. And thank 
you, Representative Wolf. We appreciate you both.
    Mr. Mollohan. Thank you. Thank you.
    Okay. Next we would like to welcome two witnesses that I 
would like to--please, if you will take your seats at the 
hearing table. Mr. Jeremy Travis, President of John Jay College 
of Criminal Justice and Dr. James M. Byrne, Professor, 
University of Massachusetts, Lowell.
    Well, this marks the seventh and final hearing of the week 
on offender reentry. We chose to dedicate so much time and 
effort to this topic because it is more and more apparent that 
effective reentry programs are the key to reducing recidivism 
and the strains on our communities and prison resources 
associated with recidivism.
    The prison population in the United States, federal, state, 
and local, is soaring. The Pew Center on the States reported 
last year that one percent of the population is now 
incarcerated.
    And last week, the Pew Center reported that one in thirty-
one Americans is under some form of correctional supervision, 
either in a prison or jail facility or under some form of 
supervised release. That is truly staggering and it has many 
negative ramifications for our society.
    We must turn this around and there are a number of 
promising initiatives around the country that have begun to 
move us in the right direction. We heard about several of these 
initiatives in our hearings yesterday.
    Back in 1974, American sociologist Robert Martinson noted 
that when it comes to prison rehabilitation programs, nothing 
works. It is apparent from what we have heard this week that 
there are things that work. The question now is how to begin 
implementing what works while continuing to further refine and 
improve it.
    For our last hearing on prisoner reentry, we would like to 
welcome two respected academicians associated with prisoner 
reentry research.
    Jeremy Travis is the President of John Jay College of 
Criminal Justice in New York City. Among other things, 
President Travis served as the Director of the National 
Institute of Justice from 1994 to 2000.
    Also with us today is James Byrne, a Professor of Criminal 
Justice and Criminology at the University of Massachusetts, 
Lowell, and editor of Victims and Offenders: Journal of 
Evidence-Based Practices.
    Welcome, gentlemen, both of you. In a moment, I will ask 
you to briefly summarize your written testimony, which will be 
made a part of the record. But first I would like to turn to 
Mr. Wolf for an opening statement.
    Mr. Wolf.
    Mr. Wolf. I do not have an opening statement.
    Mr. Mollohan. Thank you.

                      Mr. Travis Opening Statement

    So, Mr. Travis, why don't you proceed first.
    Mr. Travis. Thank you very much, Mr. Chairman.
    Chairman Mollohan, Ranking Member Wolf, I very much 
appreciate the opportunity to testify before your Subcommittee 
this morning. This also provides me an occasion to reflect with 
Chairman Mollohan of our good working together when I was 
Director of NIJ and since. We did good things for that agency 
and for the country.
    And, Mr. Wolf, to express my appreciation for your support 
of the work of Professor David Kennedy who is working on gang 
violence issues in your district. And that has been nationally 
quite important.
    I want to thank the Committee for the invitation, but also 
to express my personal appreciation for the series of hearings 
that you have held this week. It is quite remarkable in our 
nation's history to have a week's worth of hearings on prison 
and prisoner reentry issues.
    And all of us who work on these topics have been heartened 
by this decision by your Subcommittee. And it really marks a 
turning point.
    I would like to summarize my testimony which is available 
in longer form by saying that it is divided into four parts.
    First I want to just talk a bit about the scale and the 
scope of the reentry phenomenon to put some of the findings 
about program effectiveness into context, secondly to talk 
about the connection between reentry and public safety, which I 
think is the bottom line that Americans care about the most, 
third to summarize research findings on program effectiveness, 
and fourth to recommend some new directions for Congress and 
the nation as we look forward from this point on.
    As this Committee is well aware, the reentry phenomenon as 
Mr. Davis just alluded to is unprecedented in our national 
history. We now have 700,000 individuals each year leaving the 
state and federal prison. Thirty years ago, that was 200,000 
people. So we are seeing something we have never seen before as 
a country.
    People ask why this is happening. There is a simple answer 
to the question. There are more people in prison and, 
therefore, more people coming out. And except for those who die 
while they are in prison, everybody comes back home. So it is 
what I call the iron law of imprisonment. Everybody who goes to 
prison comes back now two and a half years after their entry.
    But these figures are well known, but we need to place 
these, I think, in a larger context. First of all, we focus on 
prison reentry and all my writing has been on prison reentry 
and to the detriment of our understanding also jail reentry. So 
at a local level, the phenomenon of jail reentry is the 
companion piece to the prisoner reentry discussion.
    And a wonderful report put out last year by the Urban 
Institute and our college documented that there are 13 million 
people leaving jail each year. That is nine million discreet 
individuals and that is a large number that is influenced upon 
the communities of concern here.
    The second additional phenomenon besides the 700,000 that 
we know well is just to recognize that we have expanded the 
nature and the scope of supervision. So when people leave 
prison, more of them are now placed on supervision than before 
in our nation's history. Supervision has shifted from service 
orientation to a surveillance orientation.
    And we have had a seven-fold increase in parole 
revocations, people being sent back to prison because their 
parole was revoked for a technical violation or a new crime. So 
a seven-fold increase in revocations standing alongside a four-
fold increase in imprisonment, so we have this churning in and 
out at the community level of lots of people coming out of 
prison, supervised closely, and being sent back.
    And the third important reality that we have to keep in 
mind as we think about the research findings is the reality of 
what I have termed invisible punishment. Mr. Davis also alluded 
to that. We have more collateral sanctions, more legal barriers 
to reintegration, more barriers to certain jobs or forms of 
civic participation, voting and the like. All of this makes 
reintegration more difficult than ever before.
    So the net effect of all of these is unprecedented numbers 
of people, 90 percent men, removed from families and 
communities, sent off to prison, coming back, concentrated in a 
small number of neighborhoods, mostly communities of color, and 
then supervised closely, revoked at a higher level than ever 
before, sent back to prison at record rates, all of them 
struggling to get back on track.
    And these are the same communities that we should note have 
typically poor schools, poor healthcare, weak labor markets. 
And we are asking these communities and these families and 
these faith institutions and employers to take on this burden, 
this national responsibility of reintegrating large numbers of 
individuals.
    So the reentry movement, if we can call it that, that I 
would say is now ten years old, it started when I was in the 
Justice Department when Janet Reno first called for reentry 
concept papers as a national call for action, continuing under 
the Bush Administration with SVORI and the President's reentry 
initiative. And I credit President Bush's State of the Union 
address now leading to ``The Second Chance Act.''
    This is an important moment in our nation's history. The 
appropriations that this Committee is well aware of, $25 
million in the budget for ``The Second Chance Act'' and 75 
million proposed are also important moments in the reentry 
movement.
    But I would note just as a footnote that even at the $75 
million level, if we were to divide that money to all the 
700,000 people coming out of prison, it is about $100 a person. 
So we are still far short of what might be needed to make a big 
difference here.
    The second point I want to make is that if we ask the 
public what is the goal of the reentry work and ask the 
researchers what do they look at when they look at reentry 
outcomes, the number one goal is public safety.
    I think there is a second goal that Mr. Davis alluded to 
which is reintegration. That is reconnection to family, to 
work, to institutions such as faith institutions, revoting, 
reconnecting to the democratic responsibilities. But I will 
focus today on public safety and recidivism reduction.
    Three lenses on recidivism, I think, are relevant. The BJS 
numbers are well known. Two-thirds of people released from 
state prison are rearrested within three years for one or more 
serious crimes. That is a recidivism measure.
    I would like to focus on two others, one from the BJS data, 
which is that the rate of failure is highest right after people 
come out of prison. And we tend to forget that. It is not a 
straight line over time. The rate of failure is highest and 
diminishes over time. That is a signal to me that the reentry 
moment, moment of release as we call it, is a moment of high 
risk.
    It is hard to connect back to family. If you are drug 
addicted when you go in and you are coming out, there is a 
temptation to return to drug use. There is documented evidence 
from the public health community it is the highest rate of 
mortality when people come right out of prison, higher than any 
other time. That is a health failure, mental health issue in 
terms of people connecting and getting medication.
    So when we think about reentry and failure, we have to 
think about the failure being associated with time and we have 
to think about how to put those resources that we devote 
through ``Second Chance'' and other funding vehicles, put the 
resources where the risk is. The risk is highest when people 
first come out.
    The third perspective on the public safety measure that I 
think is very important, when we ask why is it so important 
today to think about the public safety outcomes, why does this 
give the Congress and proponents of ``Second Chance Act'' a 
bottom line accountability measure for reducing rearrests, it 
is both because that has always been the measure of reentry, 
but today it has urgency because we have two things going on at 
the same time, record numbers of people coming out of prison 
and historically low crime rates.
    Put those two things together and if you are a Police 
Chief, what that means is in your community, the people who are 
being arrested constitute a higher percentage of your arrests 
than ever before. There is some data to back that up.
    In the book I co-edited, there is an article by Rosenfeld 
and others. The percentage of arrests from the reentry cohort 
out within the last three years in 1994 was 13 percent. By 
2000, it had jumped to 20 percent.
    So communities are feeling the level of reentry because 
lots of people are coming out of prison. But from a public 
safety point of view, this cohort of people coming out of 
prison, not because they are more dangerous, because they are 
not, but because there are fewer arrests and there are more of 
them constitute a very high percentage of the rearrest 
activity.
    So we have this opportunity to focus squarely on people 
coming out of prison and do what we can to reduce their failure 
rate. And it will have enormous payoffs in terms of community 
and safety. We have never been in this situation before.
    So this underscores the importance of focusing on 
recidivism, focusing on the moment of release because it is 
time sensitive, but also the difficulty of the task. A two-
thirds failure rate is a very high failure rate and I will talk 
about that next.
    The Chairman alluded to the famous Martinson, nothing 
works, you know, how far we have come from that observation 
which was mostly true at the time. And I am just going to 
summarize and maybe Dr. Byrne will pick up on some of this.
    There is a body of research literature now, very reputable, 
very strong coming from a number of different publications, 
Petersilia, et al, Sider, Dr. Aos from Washington State, the 
Canadian research, that says basically the following: What 
works?
    In prison, drug treatment works. A number of studies look 
at them through metanalysis. You have got about a 6.9 percent 
reduction over time from drug treatment. Drug treatment in jail 
works, six percent reduction in recidivism. Drug treatment in 
the community, you get a better bang for your buck, about a 12 
percent reduction. Cognitive behavioral therapy, about 8.2 
percent reduction. Correctional industries, Mr. Wolf was just 
mentioning that, 7.8 percent reduction in recidivism. 
Vocational education and training, very powerful, more powerful 
effects, about 12.6 percent reduction in recidivism. Employment 
training and job assistance, some reduction in recidivism, 
about 4.8 percent. Adult basic education, the research is not 
quite as strong here, about 5.1 percent. And supervision using 
treatment programs, drug treatment, you can get to about 21.9 
percent.
    So this body of research which has emerged over the past 
decade or so shows that things work. We also should notice that 
the results, what research calls the effect sizes, are fairly 
modest here. This is not like medical, take a pill and things 
get better. This is hard work. But with good programs, you can 
make a difference.
    If you were to run through all of those research studies, 
you would find these common threads, that our strategies 
looking at reentry, so what you do with people when they are 
coming out of prison, should focus on behavioral outcomes, 
focus on criminogenic needs as we call them, use positive 
reinforcements, not just negative reinforcements.
    Very important that we target high risk offenders. ``The 
Second Chance Act'' is commendable in its focus on high risk 
offenders because that is where you get the most, ironically 
perhaps, most bang for your buck in terms of public safety.
    We should always use risk assessment instruments, also a 
``Second Chance Act'' focus, and this continuity between what 
you do in prison and back in the community is very important 
with the focus being on the community. That is where we got the 
biggest results.
    We also know some things that do not work. One thing that 
does not work is intensive supervision with lots of 
surveillance, lots of revocations. Does not work to reduce 
recidivism by itself. A good body of research on that.
    And in a landmark study last year from Urban Institute, we 
know that supervision all by itself does not reduce recidivism. 
Just putting somebody on parole supervision does not reduce 
recidivism compared to those who do not get placed on it.
    So this is the time for us to reimagine what we are going 
to do in reentry because we have these findings that really go 
to the core of what we had been doing in the past.
    What we also know is that you put all--if you would imagine 
a world in which we did all these things, funded everything 
right, we could get recidivism reductions up to maybe 15 
percent, 20 percent or so, and they would pay for themselves.
    So the Aos research from Washington State, which is a cost-
benefit analysis, is very encouraging in this regard because we 
see the cost effectiveness. It is not just that they work, but 
they pay for themselves.
    So the implications of this body of research is we should 
focus our efforts and our funding on interventions with proven 
effectiveness, that is where the research findings are so 
important, and that we should always be looking for the next 
frontier and fund rigorous research demonstration projects to 
test new ideas. And ``The Second Chance Act'' thankfully does 
both of those with even a call for a random assignment which is 
very important for researching findings.
    My final observation to the Subcommittee is that we really, 
I think, should not be satisfied with these results. We should, 
of course, continue to fund those things that work and fund 
more of them. But these reductions, even the ones we could 
achieve under the best circumstances, I think, are really too 
modest given the concern at a community level.
    And our approaches have been in my view too constrained and 
too timid. What has been the constraint? The constraint has 
been that we think of reentry as an individual level 
intervention. What can we do for this person coming out of 
prison to improve his or her skill set, human capital, work on 
their drug addiction, work on their health issues?
    And particularly today with the large numbers of people 
coming back to small numbers of communities, we have to focus 
on the context within which they return home. So the shorthand 
I use for thinking about this different way of thinking, these 
are both simultaneous, is not just individual level approaches 
but ecological approaches. What do we do at a community?
    So in closing, I just want to cite some research that to me 
is very promising, new research that suggests that if we focus 
at the community level, ecological level in addition to the 
individual level, we can get some very positive findings.
    Too bad Mr. Davis was not here, but I want to commend the 
work in his city. The Project Safe Neighborhoods in Chicago, 
which is one of the most successful, works as a violence 
reduction strategy. It builds on Professor Kennedy's work. They 
do not think of it as a reentry program, but the population 
they target are those people coming out of prison and those 
coming on to probation.
    It is in essence the way we would think of it as a reentry 
program. They talk to everybody coming out of prison. They have 
what they call a community forum, an offender forum with them, 
law enforcement and community providers and faith institutions 
and the family members of those people coming out of prison, 
talk about the consequences of committing crimes again, talk 
about ways out of the criminal lifestyle through an opportunity 
to take advantage of Social Services or treatment or 
educational programs, and it is a combined community message to 
people coming out of prison.
    There is a recently published study of this, of the PSN by 
Professors Meares and Fagan that shows a 37 percent reduction 
in homicides in the target neighborhoods of Chicago compared to 
three years before that. And these are starting to sound like 
pretty impressive numbers.
    Another study recently published on the Boston Reentry 
Initiative that works with high risk offenders at a local jail, 
small numbers, does everything all at once to make sure that 
when they come out, they are met at the gate. There is someone 
who works with them over time. There is this combined law 
enforcement and Social Service and community conversation with 
these individuals.
    A new evaluation published by Professor Braga at Harvard 
showing a 30 percent reduction in overall violent arrest rates.
    Reentry courts, I think, are very promising. I gather the 
Committee had a witness talking about reentry courts last year. 
They are spreading. I have been told they are in one-third of 
all federal districts. This is very encouraging. They are 
supported by ``The Second Chance Act.''
    Promising results, but here is where we need rigorous 
evaluation, but reentry courts as with drug courts have the 
same idea of a coordination of services, in this case by a 
Judge. You have got the parole people in the room. You have got 
the treatment providers in the room. You have got the family in 
the room. You have got the pastors in the room. All supervised 
by a Judge, so it is the same idea of changing the ecology.
    And, finally, there are a number of community-based 
interventions that I think the jury is out on them in terms of 
their research findings. One, the Safe Return Project in 
Chicago is being run by the SAFER Foundation that Mr. Davis 
alluded to. Second, the Reentry Partnership in Baltimore was 
evaluated by the Urban Institute. And the third, I will say 
this, Local Pride launched by our Mayor, Mayor Bloomberg, 
called the New York City Justice Corps. These interventions are 
truly community based. They try to change the community 
attitude towards people coming back home.
    The Baltimore Reentry Partnership, the community met 
everybody coming back to their community. They had meetings 
with them 30 days before they were released from prison, 
organized services, organized law enforcement and parole 
supervision.
    The Urban Institute evaluation found a reduction to zero of 
homicides in one of the most troubled communities in Baltimore 
compared to two homicides and eleven attempted homicides in a 
comparison group.
    The Safe Return Project in Chicago, same idea of community 
level engagement. Everybody coming back to that community is a 
client of this program.
    And the New York City Justice Corps, the Chairman was 
talking about employment, and I have high regard for the Doe 
Fund, by the way, the idea there is to take young people who 
are coming out of prison or being placed on probation and 
provide public sector jobs in their communities for six months 
on work that has been identified by the community as being a 
community benefit. So it is changing the dynamics between 
community and offender, recognizing that that dynamic will 
ultimately improve reentry outcomes and reintegration.
    So I think that these represent sort of a new frontier in 
reentry innovation and present research opportunities that 
``The Second Chance Act'' and I am hoping NIJ will be funded to 
do research on these. It is a different way of thinking about 
reentry and it is not to gainsay or to downplay the importance 
of the individual level interventions, but I think we need to 
do both of these at the same time.
    So it is an important moment in our nation's history.
    I thank the Chair and Committee for the opportunity to 
speak to you and would be available for your questions.
    [Written statement of Jeremy Travis, President, John Jay 
College of Criminal Justice follows:]

[GRAPHIC] [TIFF OMITTED] T1247C.001

[GRAPHIC] [TIFF OMITTED] T1247C.002

[GRAPHIC] [TIFF OMITTED] T1247C.003

[GRAPHIC] [TIFF OMITTED] T1247C.004

[GRAPHIC] [TIFF OMITTED] T1247C.005

[GRAPHIC] [TIFF OMITTED] T1247C.006

[GRAPHIC] [TIFF OMITTED] T1247C.007

[GRAPHIC] [TIFF OMITTED] T1247C.008

[GRAPHIC] [TIFF OMITTED] T1247C.009

    Mr. Mollohan. Thank you, Mr. Travis.
    Dr. Byrne.

                       Mr. Byrne Opening Remarks

    Mr. Byrne. I also want to thank you for inviting me. And 
following Jeremy Travis' presentation will not be easy. He 
offered an excellent summary of where we are at in terms of new 
innovations and new programs.
    What I would like to spend my time talking to you today is 
evidence-based practice, which is a term we use in the field to 
highlight programs and strategies with solid empirical support. 
In my presentation, I will seperate the science from what I 
call the nonsense in the area of evidence-based practice. While 
I do not think I will contradict anything you have heard, I 
urge caution in your assessment of ``best practices'' in prison 
reentry.
    First I should point out that we are at a different point 
in our field than we are in, say, the hard sciences because we 
have not done enough experimental research. As a result, when 
we try to use a ``gold standard'' for reviews, focusing only on 
experimental research studies, we end up saying very little 
about effectiveness; and it makes it very difficult for you as 
policymakers to really figure out what to do.
    The gold standard reviews are out there in our field, but 
they are just trickling in now, although there has been a push 
to move in this direction. Advocates of gold standard reviews 
essentially say that we should have at least two experimental 
research studies completed with random assignment before we can 
say something ``works'' (or does not work) in a particular 
area.
    These experimental studies should confirm a finding, and 
the great bulk of lower level studies, including quasi 
experimental studies (you heard about some of those just now) 
and nonexperimental research studies, case studies, should say 
basically the same thing. If the majority of those studies 
confirm the findings from experimental research, we can say a 
program ``works''.
    So that is the gold standard for evidence-based reviews. 
And when you use that standard for review, you do get a 
different picture of the effectiveness of both institutional 
and community corrections programs than when you use a lower 
standard for review.
    In our field, just so we can say something, we have changed 
the definition of what constitutes an evidence-based review. We 
have another standard that I call (and others have called) the 
bronze standard. This type of review is essentially looking at 
all experimental studies, but also adding in what they call 
level three studies which are quasi experiments which have 
control groups, and/or some type of pre/post comparisons. If at 
least two level 3 studies (or above) can be identified, the 
reviewer can offer an assessment as to what works.
    When you do that, a large number of studies can be 
identified, but then you have all the inherent problems with 
lower level science that you are now bringing in to the review. 
Today, most of what I will highlight in my review research will 
be drawn from the bronze standard reviews.
    Much of what we talk about in what works, evidence-based 
reviews in our field combine experimental and quasi 
experimental research.
    There is a third level of review and much of what I see 
when I go on the web and Google different topics and look at 
what various professional groups, advocacy groups in 
particular, say about a specific topic are based on what I call 
nonscientific or nonsense reviews. These reviews do not 
systematically look at all the studies in a particular area.
    One classic approach that people use when they find a 
negative study that does not support their position, sometimes 
we do in our own relationships with people we disagree with, is 
to marginalize. Essentially, you leave the study out of the 
review. You just do not mention them. Unfortunately you get 
that in this third level of reviews. They kind of pick and 
choose studies and they do not have everything in there.
    Unfortunately in our field, much of what we call today 
evidence-based practice seems to fall into that third category. 
This is changing.
    The Campbell Collaborative is a group that puts out 
systematic reviews in a variety of fields, including criminal 
justice. Many of the research studies that Jeremy Travis was 
just telling you about, come from these Campbell Collaborative 
reviews.
    We are getting better in this area, but this is, I think, 
an area where we really have to improve the science because we 
will improve public policy as a result.
    So my first point would be let us separate out the science 
from the fiction in terms of what we know. And when you do that 
and you go through the reentry research what you find is that 
we are in less certain terms in some areas than in others.
    For example, if you use the gold standard review criteria 
and you conduct a random assignment experiment where you send 
some people to prison and put some on alternative sanctions, do 
offenders do better in prison or do they do better in the 
alternative sanctions?
    There are actually five studies over the last 35 years that 
do a random assignment, natural experiments in that area. 
Overall, the results of these experiments are inconclusive.
    However, if you look at the full body of studies that are 
quasi experimental, good quasi experimentals (level 3 and 
above), you add to those five another about thirteen studies. 
When you look across those eighteen studies, what you find is 
the majority of those studies (11) show that alternative 
sanctions reduce recidivism at a higher level than 
incarceration.
    So there is a good example of if you use the gold standard, 
you are going to reach inconclusive results. We do not really 
know whether prison works better than a community-based 
scenario. However, when you use the bronze standard, you find 
that the majority of the studies really do point in the 
direction of alternatives to incarceration.
    That is important to keep in mind because as I see the 
reentry issue, one easy solution to 700,000 people coming out 
of prison is what I call ``pre-entry.'' Pre-entry focuses on 
who is going to prison in the first place, and what happens in 
prison once they are incarcerated.
    And certainly I think there is a body of research that 
suggests that we could do other things with offenders and not 
put public safety at risk. And there, once again, I think the 
bronze standard has been used to conduct these reviews.
    But you certainly have to know that there is another view 
of that research which is based on the gold standard review. 
Using this standard, we would conclude that we are actually 
inconclusive in other areas.
    So that is point one in terms of where the science fits in 
terms of what I would call pre-entry, the issue of the decision 
to incarcerate. Point two of pre-entry is what happens to 
offenders while they are incarcerated.
    Now, what happens in prison does not stay in prison. We 
know that. Just about everybody who goes to prison comes back 
to the community.
    You know, that is certainly true. Does the period of time 
in prison make offenders worse? I recently conducted research 
and edited a book on the culture of prison violence. As part of 
my research I conducted an evidence-based review looking 
specifically at what kind of things can reduce violence and 
disorder in prison.
    And lo and behold, what jumps out at you? Participation in 
treatment programs reduce prison disorder. Programming in 
general has an impact, but involvement in treatment programs 
seems to have the largest effect. What you find is violence and 
disorder levels go down the more treatment programming, 
programming in general and also treatment program in 
particular.
    Now, some have taken that overall programming finding to 
say, well, that means you can just put offenders in recreation 
programs and you will have less violence and disorder in 
prison. Maybe it is not treatment. Maybe it is just any kind of 
programming. Well, I do think any kind of program is better 
than none, but certainly that is something to look at further, 
using a randomizing field experiment.
    And that is kind of a tie in to talking again about this 
notion of pre-entry. What happens in prison does not stay in 
prison. So we have to look at ways of reducing violence and 
disorder in prison because we know that what happens there is 
going to affect what prisoners do when they return to the 
community.
    So, it is a public safety matter. Even if those studies did 
not show reductions in subsequent recidivism when offenders 
leave prison, crime reduction in prison is an important thing 
to have, but this means that these offenders will have less 
exposure to violence and victimization in prison.
    The nice thing in terms of the research, I just mentioned, 
is that when you look at prison treatment programs, what you 
find is statistically significant reductions in subsequent 
recidivism upon reentry. I think that is pretty consistent, 
using again the bronze standard review, across the majority of 
studies currently available for review.
    You heard about some of the programs earlier today: 
cognitive behavioral treatment, therapeutic community models 
targeting offenders with serious drug problems, vocational 
training programs, prison to community job placement programs. 
All these programs show reductions in recidivism. But, and this 
is the caveat, they are marginal reductions (about 10%) 
overall. Since many of these programs are multi-modal programs, 
it is hard to tease out the effects of individual compounds, 
such as employment versus vocation versus treatment because 
there are many things happening. We are talking about ten 
percent reductions overall; this is not a large effect size.
    You will hear people talk about, well, with better program 
implementation, that 10 percent can get up to 30 or 40%. There 
is not a lot of empirical support that you can cite. There is 
one study that talks about changes in level of integrity of 
treatment, when you improve the quality, you are going to get 
higher results. But we do not have much in other area. So I 
cannot say definitively that better implementations will result 
in significant reductions in recidivism.
    So right now we know individual level change strategies in 
prison do have an impact. When these offenders leave prison and 
return to the community, the impact is marginal. For this 
reason I think the suggestion that you heard in terms of 
looking not only at factors that relate to individual change 
but also look at community change is critical. We need to do 
more research on the social ecology of reentry, focusing on 
person-environment interactions. I think that is a critical 
avenue for further program development and evaluating research.
    A third point I want to make in terms of reentry is that we 
also have to consider whether the reentry problems we have 
today is at least partially a consequence of failures of 
traditional probation and parole. We are talking about a long-
term downward trend in success of both probation and parole 
that you probably heard at other presentations. We are talking 
today about a 55 percent success rate for traditional 
probation, 45 percent for traditional parole. Those are not the 
numbers you want to hear.
    Go back to when I was 18. Go back to like 1970, somewhere 
around there. I guess I was 16 at the time. The success rates 
were over 80 percent for probation and close to 70 percent for 
parole. So something has happened during this period to make 
traditional probation and patrol supervision less effective.
    Now, you say, well, tell us what it is. That is difficult 
to do because we have not done very much evaluation research on 
traditional probation and parole practices at all.
    Chairman, you mentioned the Martinson study in your 
introductory remarks. If you go back to that ``what works'' 
summary and you look at community corrections programs, what 
you will find is that only four studies were included in that 
exhausted Martinson review, five studies. That was a 25 year 
review period they used, which adds up to one study every five 
years. Things have not improved that much since 1974 when 
Martinson released the original piece.
    The interesting thing about the original work, though, is 
that if you go back to that Martinson piece, you will see that 
he does not say that nothing works. He said that in a journal 
article and subsequently took that back. What he found is that 
there is no panacea that works with everything and with 
everyone.
    And as a matter of fact, in terms of looking at community 
programs, the program that he did highlight that worked was a 
combination of control and treatment which modeled very closely 
the intensive supervision programs that were evaluated in the 
1990s.
    Now, you heard that, what does not work is intensive 
supervision programs. And I think it is important to kind of 
get this on the record. The evaluation research was consistent 
that control oriented, intensive supervision, electronic 
monitoring programs and boot camp programs for that matter did 
not reduce recidivism. That is clear, based on a bronze 
standard review.
    However, looking more closely at those programs, because 
there was a range of programs that were developed under the 
general heading of something called intensive supervision, what 
you find is there was a lot of variation in key program 
components. There are a lot of different types of different 
programs out there. Some programs emphasized treatment more 
than others; some emphasized central monitoring. That was also 
true for electronic monitoring, although less so, and also boot 
camp programs.
    The programs that combine control and treatment had the 
greatest reductions in recidivism. So I think within the, 
intensive supervision does not work story is actually a success 
story. And that is important to keep in mind when you look at 
the next generation of reentry programs because you are hearing 
a theme here today and I have heard it in other writing as 
well: reentry programs need to find other optimal ``mapping 
point'' between treatment provision on the one hand and 
offender monitoring and control on the other hand.
    Three program elements come to mind (1) high risk 
offenders, (2) high risk times, (3) high risk places. I am 
mentioning that because I have a piece coming out with the Pew 
Center for the Courts in about two weeks which describes 
Concentrated Community Supervision, targeting resources to high 
risk offenders, high risk times, and high risk places.
    I think that if we look at innovation, and you were talking 
about community level innovations, and I agree, that is where 
we need to kind of look at the next generation of programs. I 
think the initial resources you have now for reentry programs 
should forget those reentry models that target high risk 
offenders, target high risk times, target high risk places.
    For some, the focus on high risk offenders is very 
controversial. When you say high risk offenders, you have to 
keep in mind that when we look at certain groups of people 
coming out of prison, we do not care about high risk, do we?
    Who are the lowest risk offenders coming out of prison in 
terms of recidivism? Sex offenders and murderers. They are not 
going to meet your definition of high risk if you are using 
risk as saying risk of committing a new crime. So we are going 
to have to factor that in to any discussion of concentrated 
supervision strategies, because for some groups of people, we 
might not care that much about the probability of rearrest. 
What we care about is the possibility of a new crime and the 
harm done. So it is that risk at stakes kind of issue that we 
have, to put on the table.
    I think this notion of their getting high risk offenders, 
high risk times, in particular the first couple of months 
coming out, and high-risk neighborhoods is leading to new types 
of strategies. What program developers are talking about, at 
least I have heard in several jurisdictions, is front loading 
supervision and services to the first couple of months and then 
after you see change in behavior, basically dropping offenders 
off the active supervision caseload. I think John Petersilia 
has probably written the best summary and justification for 
that type of behavioral incentive strategy.
    What you should know about that is when you look at the 
numbers in terms of time to failure, you will find changes in 
time to failure overall for all crimes. But when you look at 
violence, if you are interested in that subgroup, you will not 
see significant changes over time. Violent reoffenders is a 
very low probability event, for offenders released through 
reentry, a very low probability event, and it does not change 
that much over time.
    However, overall risk of recidivism is higher for offenders 
during their 1st few months after release. A 50 percent 
reduction in risk between month one and fifteen, I think, was 
cited in the recent National Research Council Report. But keep 
in mind that the base rate is actually very low on a month-to-
month basis. And for violence, it does not change that much. So 
we have to be careful that we do not tout these programs as 
having major impacts in areas that you would not expect them to 
have major impacts, given the offender population coming out, 
and the types of neighborhoods to which they are returning.
    The last point I want to make, and it relates to I think 
this Committee specifically, is thinking about new ways of 
funding research that would tie the research to the type of 
allocations that you have here in different ways. I think what 
we need in our field are independent external evaluations of 
corrections programs. And you might say, well we have that. We 
have the Justice Department NIDA, NSF. We do that now. But as a 
person who has applied for grants and received grants I know 
that one of the things I have to do is get the cooperation of 
an agency that will let me in to do the evaluation. But setting 
up that way, where I have to go to New York City and see, maybe 
it is Jeremy, or whoever I am going to see to get in, what you 
essentially do is allow the person being evaluated to pick 
their evaluator. That is not the same as a self-evaluation but 
it is certainly at least one step removed. And I think it is 
one of the reasons why we have a lot of noncritical, 
unscientific research in the field, and why we do not have much 
going to the level of quasiexperimental, experimental designs.
    I think it is the nature of the beast that to get in the 
door we are going to have to convince somebody that we are not 
going to make them look bad. And I am sure everybody in this 
room feels that way when you make decisions on every aspect of 
our lives, right? Nobody wants to look bad or to have someone 
make them look bad. However, I think that hurts science, 
because it takes away the potential for independent, external 
reviews of those programs. What I would recommend is simple: 
everybody receiving reentry money has to agree to allow an 
implementation evaluation and in those cases where you see full 
implementation, researchers should then conduct a rigorous 
impact evaluation.
    Jeremy and I know that one of the biggest problems we have 
with looking at outcome research is that people have not looked 
at level of implementation. And when they do, that is where you 
find that the programs break down. In other words, we have a 
lot of good ideas, a lot of good models, but they just do not 
get implemented as designed. So you have to look at 
implementation first and objectively, not unlike an auditor 
would. And the second part is, well, what are you going to do 
after you implement? You are going to look at impact. So after 
year one, if you have a program that is up to speed, that is 
when you have to allow a rigorous impact evaluation. But again, 
I would recommend that you have external evaluations that are 
selected in a different way than we have done in the past.
    I am essentially recommending a break from past practice 
and I hope I have kind of given a rationale for it. I think 
over time if we move in this direction you will have more level 
three, level four, level five studies, the well designed 
quasiexperiments, and at least a larger number of experimental 
designs over time. And so we will have better science in our 
field. One of the, critical things we need today is better 
information to help policy makers make these kind of decisions.
    I will stop there. Thank you.
    [Written statement of James M. Byrne. Ph.D. Professor, 
Department of Criminal Justice and Criminology, University of 
Massachusetts, Lowell follows:]

[GRAPHIC] [TIFF OMITTED] T1247C.010

[GRAPHIC] [TIFF OMITTED] T1247C.011

[GRAPHIC] [TIFF OMITTED] T1247C.012

[GRAPHIC] [TIFF OMITTED] T1247C.013

[GRAPHIC] [TIFF OMITTED] T1247C.014

[GRAPHIC] [TIFF OMITTED] T1247C.015

[GRAPHIC] [TIFF OMITTED] T1247C.016

[GRAPHIC] [TIFF OMITTED] T1247C.017

[GRAPHIC] [TIFF OMITTED] T1247C.018

[GRAPHIC] [TIFF OMITTED] T1247C.019

[GRAPHIC] [TIFF OMITTED] T1247C.020

[GRAPHIC] [TIFF OMITTED] T1247C.021

[GRAPHIC] [TIFF OMITTED] T1247C.022

[GRAPHIC] [TIFF OMITTED] T1247C.023

[GRAPHIC] [TIFF OMITTED] T1247C.024

[GRAPHIC] [TIFF OMITTED] T1247C.025

[GRAPHIC] [TIFF OMITTED] T1247C.026

[GRAPHIC] [TIFF OMITTED] T1247C.027

[GRAPHIC] [TIFF OMITTED] T1247C.028

[GRAPHIC] [TIFF OMITTED] T1247C.029

    Mr. Mollohan. Well, thank you both. What excellent 
testimony. We have had just a really excellent series of 
hearings this week. And I think this is the right panel to end 
on. So that was excellent testimony.
    Let me start by posing the basic question about what works. 
Yesterday we heard from leaders of five successful reentry 
programs. And there was a consensus among them that we know 
what works. They felt very strongly about that. They sat there 
and reaffirmed it. And we need to implement it because they 
know what works. But we have also heard from several 
researchers this week that there is still insufficient research 
in the area. And I do not think this is necessarily 
inconsistent at all, let me say up front. But I would like you 
both to comment on it. And Dr. Byrne, your testimony seemed to 
underscore the limits of the current body of research, so why 
do we not start with you?

                         EVIDENCE BASED REVIEWS

    Mr. Byrne. Well, it would be nice if there was a 
systematic, evidence based review of the current generation of 
reentry programs on which to build. There have been excellent 
reviews of specific treatments programs that are out there, but 
there is no systematic evidence based review of reentry 
programming. You cannot go to the Campbell Collaborative 
website, which is where I would go, where most researchers here 
would go to try to find one. It is not there yet. That needs to 
be done. And what you end up doing when you do not have that 
type of systematic review of specific programs is looking at 
reviews of other program models, or for example you look at 
prison treatment and you assume that that has got to be 
something that relates over here. Or you look at community 
treatment programs that were not necessarily run as part of a 
reentry program. And you do not have the answers that you need.
    So my immediate suggestion would be, let us do an evidence 
based review. The reason it is not there is there have not been 
enough experimental and quasiexperimental studies done. But I 
think that is something that needs to be done. I saw that when 
I was putting my testimony together. Certainly, I can make 
definitive statements in the area of intermediate sanctions. I 
can make some pretty clear statements, if you look at my 
testimony, on prison effects. I am less certain when I get to 
parole and reentry, and that is frustrating, because obviously 
this is an important time in terms of developing, you know, new 
reentry programs and models. It is certainly a frustration that 
we do not have that.
    Mr. Mollohan. Now, for everybody who is impatient, and 
everybody is with regard to this, and anxious about getting 
that systematic evidence-based review, the other side of my 
question was, what do we do? The science has not made it 
perfect. We do not know exactly what works in all 
circumstances, nor do we know exactly the A to Z, the soup to 
nuts solution. But what is appropriate before we get to that 
definitive answer----
    Mr. Byrne. I think you identify----
    Mr. Mollohan [continuing]. Through evidence based review.
    Mr. Byrne. Well, even if that review was here in front of 
you I do not think it would be definitive. With my knowledge of 
the research out there I think it would be inconclusive. 
However, I think you identify models. And you have a number of 
models out there. You have heard case study summaries of 
programs. Jeremy Travis has highlighted some new community-
based initiatives, for example, that need to be implemented and 
evaluated. I think you look at model programs. And I would look 
at them across the board. I would look at proposals and model 
programs that are, for example, that cut across the control 
versus treatment. And, you know, certainly you fund evaluation 
at models in both areas and see what you find. I would say that 
even if I had a definitive evidence based review, because this 
is a whole new generation of programs, a whole new ball game 
now. And I think, you have some new models out there. That have 
not been evaluated. You have, certainly, self evaluations and 
some, I would describe them as quasiexperimental research out 
there that we can argue about how good it is. But good or bad, 
there are models out there. Test them rigorously and refine the 
programs, and let us keep going. I think we are at a watershed 
point in terms of program development. I think it is an 
exciting time to be talking about these issues, because there 
seems to be a growing recognition that we need to find out what 
works in this area.
    Mr. Mollohan. Fund them and implement them, and review 
them----
    Mr. Byrne. Absolutely.
    Mr. Mollohan [continuing]. Almost as research projects?
    Mr. Byrne. Well, I would. I would, and the demonstration 
projects----
    Mr. Mollohan. They create opportunities for the research 
that you are calling for.
    Mr. Byrne. Sure.
    Mr. Mollohan. Thank you. President Travis.
    Mr. Travis. It is a welcome question and I think we all 
love the impatience to sort of get things done and make a 
difference. If we were having this conversation in a different 
context I think we would be talking about a different approach 
to developing evidence. If we were imagining a health issue 
that was plaguing inner city communities and we were asking the 
Director of the National Institutes of Health what he or she 
wanted to do about those issues, there would be a significant 
investment in research, testing of new ideas, replication of 
promising projects in a systematic way across the country, the 
development of protocols for doctors to implement when that 
condition presented itself when somebody walked through their 
door. And we do not have, certainly we do not have the same 
resources but we also do not have the same approach in crime 
policy. And I know, Mr. Kennedy, that Colonel Esserman has been 
talking to you about this idea of a sort of teaching hospital 
model in the policing world. And we need that way of thinking 
about how do we develop evidence.
    And The Second Chance Act, which I think is wonderful in 
many ways, talk about random assignment, talks about research 
based demonstration projects, but has not created a sort of 
systematic way of building knowledge that will influence 
practice. Rather, we now fund practice, we fund programs, and 
ask for the evaluation, the research community to run along 
side it and try to do an evaluation to see whether it works or 
not.
    So a more sort of long term knowledge development agenda 
would start by saying, ``What needs to be evaluated that we are 
now doing that has never been evaluated?'' And then you have a 
set of studies to evaluate that. What is promising that may be 
the next frontier, where we want to set up the evaluations as 
we implement the programs? So that we are doing it in a 
purposeful way, because we want to develop knowledge for the 
country.
    The third piece of all of this, however, is to make sure 
that when funding decisions are made by state corrections 
agencies, state parole agencies, the Federal Bureau of Prisons, 
social service agencies, police departments, that they are 
allocating their resources, that we have some rigor in terms of 
how those resource allocations are made that they can only 
follow the evidence. So we now allow people to come in and say, 
``This is a great idea. It is my idea. I am going to do it.'' 
And it may or may not be a good idea. And it gets money, but it 
does not necessarily follow the body of evidence.
    Now, the risk in all, there are two risks in what I just 
said. One is, evidence is always old. Right? We are always 
evaluating what was last decade's good idea. And it takes time 
and that is the way research works. And we do not want to 
freeze a field. We do not want to take a field, particularly 
like this one, that is in this ferment, this wonderful ferment, 
and say, ``The only thing that we are going to provide taxpayer 
money for is what worked last decade.'' Right? Because then you 
freeze the field. So we have to have some way of testing new 
ideas in a rigorous way so that you develop the field.
    The second limitation or sort of drawback in what I just 
said is really a science limitation. And that is that our gold 
standard, as Professor Byrne alluded to, is random assignment. 
And in this way we feel, we think a little bit too much like 
medical researchers. We always want the placebo. We want the, 
you know, there is somebody to get it, somebody not to get it. 
Wait a couple months, you know, and keep everything else 
constant. Well, in the work that we are talking about you 
cannot keep everything else constant. And particularly if you 
want to do this ecological work that I recommended for the 
Committee's consideration. At a community level it is very hard 
to hold everything constant. So it is very hard to do random 
assignments. Sometimes impossible to do random assignment, I 
would say in that regard.
    So we cannot let the standards of science get in the way of 
new ideas in either sense. Either because it freezes the past, 
or because it does not allow for us to do things that are 
working at the messy level of community and family. And this 
means a different research design, because we cannot do the 
gold standard for all types of interventions. But this requires 
a federal funding strategy for science that tries to get an 
answer to the Chairman's question. How do we develop best 
evidence? And then we have to hold practitioners accountable.
    So the resource center, which is in The Second Chance Act, 
is this wonderful idea of a national go to place, where 
practitioners will go and say, ``What is the standard of 
evidence that if I do this I will get these results?'' And 
fidelity to program design is really important. How does this 
program actually get implemented? Because we have all evaluated 
programs that sound good on paper, lousy implementation, and 
you get no results. And people blame the idea rather than the 
implementation. So the resource center, I hope, becomes for the 
field this place where you can go to answer your questions. But 
there needs to be some discipline about how we spend taxpayer 
money after that.
    Mr. Mollohan. Thank you. Thank you both. Mr. Wolf.

                    FAITH BASED PROGRAMS IN PRISONS

    Mr. Wolf. Thank you, Mr. Chairman. I have a lot, I have 
been writing a lot of notes. One, I have been disappointed that 
you all, neither of you ever mentioned the issue of faith. 
Neither of you did. It is kind of incredible because I have 
talked to a lot of prisoners. And I have been in a lot of 
prisons. I do not know as much as you two guys. But I have been 
in a lot of prisons. I was a probation officer. I was involved 
in prison programs where we used to go into prisons. I think 
you are complicating it a little too much. People in prisons 
are people. They have moms and dads and husbands and wives and 
kids. And they are not statistics. And one, you never mentioned 
faith, which I think is kind of amazing. Because a lot of the 
prisoners that I have talked to, faith has made all the 
difference in their life.
    Secondly, I think we cannot wait for all of your research. 
I mean, it is great that you are doing it. But we cannot wait. 
You cannot tell a man that is in prison that we are going to 
researching this to see what we really do to see, I mean, we 
have got to do this. And we have asked, and I appreciate the 
Council of Governments putting on a conference sometime late 
this year or next year with the Pew Foundation, bringing in the 
best practices. I think we do have the best practices. Now, 
maybe if you all do your research you could refine it and kind 
of change it. And maybe, you know, it can be adjusted or 
calibrated or a difference. But I think we have got to begin 
now.
    I think faith makes a difference. I do not think it is the 
sole difference. I think work makes all the difference. I do 
not think it is the sole difference. I think drug 
rehabilitation in prison to make sure anyone who is in prison 
has that drug, gets in a rehab program, almost guaranteed if 
they want to get in there and not have a long, long waiting 
line. But, you know, we are dealing with people.
    And on the employment issue, do you think it would make 
sense, Mr. Davis, I was going to ask him but I did not know how 
long he was going to stay, that we do a tax credit for 
companies to hire prisoners who are coming out of prison? That 
we give a tax credit? We give tax credits to do everything to 
move, would it make sense to give companies like UPS, or 
Lockheed Martin, or whatever, a tax credit to hire a person 
just coming out of prison for two or three years? Whereby, you 
know, the company would gain something and the person would, 
would that make any sense?
    Mr. Travis. I would like to respond first to the faith 
issue, Mr. Wolf. The, each of the community coalitions that I 
mentioned in both my statement and in my oral presentation has 
at the table a faith institution that is part of that 
community. And that has been an important ingredient in those 
sort of offerings to people coming home.
    On the work front, just to look at it from the big picture. 
There is research that shows that the mere fact of having been 
in prison diminishes an individual's lifetime earnings by 10 to 
30 percent. So anything that we can do to reverse that trend is 
worth considering. So in effect, by having lots of people, 90 
percent of them men, coming out to a small number of 
communities, mostly communities of color, who have a diminished 
lifetime earnings of 10 to 30 percent we have depressed the 
gross domestic product of those neighborhoods.
    Mr. Mollohan. Right.
    Mr. Travis. By the fact that they have been in prison. So 
our prison build up is having long term consequences for the 
economic well being of those communities. So that to me makes 
an argument for a public policy to reverse that and to sort of, 
in essence to try to help people get back on track. I think a 
job is the most important, centering thing, for all of us, an 
important centering part of our lives. It helps provide for 
families. It does a lot of the work, there is this wonderful 
saying that a boss is the best parole officer. Right? So it 
does a lot of the work of supervision.
    But the important challenge is to get people into the job 
in the first place. And the research by Professor Holzer at 
Georgetown has showed that people who, that people with records 
are at the lowest level of employability, if you look at it 
from an employer's point of view. They are below welfare 
workers, welfare recipients. They are below immigrants. They 
are below people with spotty records. They are at the bottom of 
that totem pole. And there is this combined race effect that if 
somebody, a white person with a criminal record is more likely 
to get hired than a black man with no criminal record. So we 
have this combined effect of criminal record and race that puts 
lots of returning offenders at the very bottom of the 
employability totem pole.
    So tax credits are a good idea.

                              TAX CREDITS

    Mr. Wolf. Do any companies, are there any states that give 
tax credits? Do you know of any?
    Mr. Travis. Yes. And there is some federal supports, as 
well. I am not sure what it is called but there is a federal 
tax credit for people to hire somebody with a criminal record.
    Mr. Wolf. We will look it up. But do you know what it is?
    Mr. Travis. I cannot find, I do not know off the top of my 
head.
    Mr. Wolf. If you could tell me?
    Mr. Travis. Yes, we could do that.
    Mr. Wolf. I wonder, do most companies know about it?
    Mr. Travis. I do not know.
    Mr. Wolf. I mean, UPS or whatever. I mean, should we call 
the Business Roundtable and tell them to take advantage of this 
opportunity? And, I mean, companies, tax credits, we use our 
tax code to influence policy and results. Do many of companies 
take advantage of, do you know, Dr. Byrne?
    Mr. Byrne. No, but I think the idea is a good one. And I 
would also tie the incentives to the prison part of the work 
program. We are not only interested in employers hiring upon 
release, but also in developing the job training program in the 
prison. It is the prison to work strategy.
    Mr. Wolf. Well, I think that would be a good idea. The 
problem is that this Congress has diminished the amount of work 
that prisoners can do. I mean, when Director Lappin was here, I 
mean some of the things that the Congress has actively voted 
on, has spoken on on the floor, has taken away the amount of 
work. So I think knowing what some of the chambers of commerce 
would do, and knowing what some of the organized labor would 
do, I think we would have a problem. You know, I would agree 
with you. I am going to offer an amendment here to set up a 
pilot program to have prisoners working. I think you may have, 
or Mr. Davis, working on projects that are no longer made, but 
yet are training them in something that would in essence, I 
mean, if you are wiring, and an oversimplification. But if you 
are wiring a television set you may then be able to wire a 
computer, or wire a switchboard, or what. But real work, 
dignity. I found work, I think your comment, and work is 
dignity. Biblically, it is dignity.
    I mentioned the other day, I talked to a prisoner, he got 
out, he cannot get a job. He cannot get a job. He cannot get a 
job. So he just lives with his girlfriend. He hangs around. And 
he cannot get a job. So pretty soon, in three months, if you 
cannot get a job, what are you going to do? And so the work, 
and that is where the Doe Foundation, and I think I checked, 
and we funded the Doe Foundation, you know, when I was Chairman 
of this Committee, is work. It is dignity. And it is moving up.
    And so, well let us look at the tax credit issue. Maybe I 
will see if I can put in something with regard to that. The 
other----
    Mr. Travis. I just was informed that it is called The Work 
Opportunity Tax Credit, and UPS does use it.
    Mr. Wolf. I, because UPS has a pretty good record of, I 
wonder what other companies use it? Do you, is there a way?

                            PRISONS OVERSEAS

    Mr. Byrne. We will find out for you.
    Mr. Wolf. If you can find out. The other thing is, have you 
looked at what other countries, are there any other countries, 
not states, look at countries that are doing something really 
great that we are not aware of?
    Mr. Byrne. I was in Dublin last year and I was amazed at 
the work programs there. I spent an afternoon in a prison, and 
there were 320 people in the prison outside of Dublin I was in, 
I forget the name of it. And every one of them had to work in a 
job. They had a job training program there, that was very in-
depth.
    And the first thing I noticed was the one to one ratio of 
inmates to guards. I was a little shocked at that, because that 
was not like it is in this country. So certainly there was a 
lot more in terms of informal controls in place, because there 
was a lot of walking around and interaction between guards and 
prisoners. But I sat in and I watched them build brick walls, 
and make things. And they were actually, which surprised me, at 
this prison they were actually selling some of the things they 
made to make money. And they were able to do that. Some of the 
prisoners were pretty skilled metalworkers and they were 
selling various things.
    Mr. Wolf. And what would they pay them?
    Mr. Byrne. I am unsure of the amount, but it went on. They 
would take some of them out and have them, build their front 
walks in their homes. Some of the things they did we would not 
allow here in this country.
    Mr. Wolf. Up in Massachusetts you have to have a policeman 
stand by every construction site, even, my wife is from 
Marlborough and even if they dig a hole, if you notice and I 
see you are from Massachusetts, there is a, I think it is 
Massachusetts state law, the policeman has to stand there while 
the construction is going on. And so you get to a certain point 
that, I mean, so. But what, I see you are winking from Mr. 
Kennedy that you are from Massachusetts. What countries, is 
there a way that you could furnish us some information about 
what do you think are the most progressive, or that----
    Mr. Travis. I think that America stands apart from the rest 
of the western world.
    Mr. Wolf. Better or worse?
    Mr. Travis. Worse, in terms of our approach to, certainly 
our levels of incarceration, how we treat people while they are 
in prison, and the approach to reintegration. In the United 
Kingdom, for example, there is a lot of attention paid to the 
Chairman's question about only implementing programs of proven 
effectiveness. So there is actually sort of a certification 
board that they have established under the Prison Service. I 
went to a prison in Germany once, much as Dr. Byrne described. 
Work being done in prison, supervised by the union. I mean, 
this is a little different from our sort of culture, here, 
where the union was helping to guarantee that they would learn 
skills that would help them get jobs when they came back out 
because they wanted them to be productive.
    So I think we have a lot to learn from other countries. We 
do things quite differently, not just in the scale of our 
imprisonment but our sort of attitude towards how to spend the 
time in prison most productively.
    Mr. Wolf. Well, if you could give us the list of some of 
the countries.
    Mr. Travis. Sure.
    Mr. Wolf. And lastly, we have asked the Council of 
Governments and perhaps Pew to put on a national conference 
perhaps next year to gather together some of the best minds and 
the best practices. Does that make sense to you, to----
    Mr. Travis. Yes. And we could learn a lot from the other 
countries.
    Mr. Wolf. Mr. Byrne.
    Mr. Byrne. Yes, absolutely. I think treatment oriented 
prisons are where we need to go, that preentry comment I was 
making at the beginning ties in here. As I said earlier, before 
we talk about reentry, let us talk about preentry. One preentry 
strategy would be to redesign the prisons, and this is 
something I have written about. I did not cover it in testimony 
here, but I think it is critical to think about changing the 
focus of prison away from control and towards treatment. And I 
think there are ways of using new technologies to do just that.
    Right now we have gone overboard, in my opinion, on the 
technology of control. We need to think about how to harness 
the technology of treatment. I think you are seeing it in the 
drug treatment area. But I think there are a variety of other 
ways of apply technology to consider. For example, redoing our 
classification system so we think about risk reduction in 
prison as opposed to risk control. If we did this, it would 
lead to a very different configuration of offenders placed in 
minimum, moderate and maximum supervision, facilities, and in 
special population housing in prison, than we have right now. 
Because you would be organizing people, needs first, rather 
than risk level, thinking about how to deal with the various 
types of problems they have. Expanding the size of therapeutic 
community models in prison. Also, fits under the heading of 
``Treatment Technology''.
    Mr. Wolf. Expanding the size of what?
    Mr. Byrne. Therapeutic communities. Expanding that for drug 
offenders, because we know that model works. One of the ironies 
of the prison research conducted to date is that some of the 
best evidence of effective treatment programs are in 
institutional settings. And that is something to keep in mind 
when you talk about how to balance treatment and control. I 
think it is something we really need to think about. For 
example, if you have ever had an addict in your family you know 
that it is not just getting them into treatment, it is getting 
them to stay there. And sometimes you have to use coercion to 
get them there. I am sure you have talked about this in other 
panels. But to me, that is one of the, major issues that we 
need to look today.
    Prisons might be the location for long term treatment 
because you cannot get these individuals to go to treatment in 
community settings. Referral, and participation, in treatment 
is something I think treatment oriented prisons can address.
    Mr. Wolf. Last question. What is the recidivism rate today 
compared to what it was, let us say, in 1950, 1960, 1970, 1980, 
and 1990?

                      BUREAU OF JUSTICE STATISTICS

    Mr. Travis. There are two Bureau of Justice statistics 
studies of recidivism looking, one of the 1993 cohort, one of 
the 1983 cohort, I think. And it is basically the same. It went 
up a little bit. And it is, over a three-year period, after 
being released from prison, about two-thirds of the people 
being released get rearrested for one or more serious crimes.
    Mr. Wolf. Two-thirds?
    Mr. Travis. Two-thirds, yes.
    Mr. Byrne. You know, we use that one study over and over 
again. I have never seen one study cited so much. We do not do 
enough cohort research so we keep citing that study over and 
over again. We need to update it, because we are talking now 
twenty-five years later.
    Mr. Travis. We should do this regularly.
    Mr. Byrne. Right.
    Mr. Travis. The Second Chance Act envisions money going to 
both NIJ and BJS. We need a lot more understanding of the basic 
phenomenon here.
    Mr. Wolf. Okay, thank you. Thank you.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Kennedy.

                           HEALTH CARE REFORM

    Mr. Kennedy. Thank you. Thank you, Mr. Chairman. Welcome, 
both of you. Thank you for your testimony and your good work. 
We have healthcare reform coming up. And so I would like to ask 
you what your thoughts are about how to integrate these ideas 
into healthcare reform. In the sense that, you know, 45 percent 
of the kids that graduate from our foster care system graduate 
into our adult corrections system. And when I, about three 
weeks ago, went to my juvenile corrections facility I asked the 
kids how many of their parents were in jail. Over three-
quarters of them raised their hands. So, the best determinate 
about whether someone is going to jail is not only whether they 
have been to jail but whether mom or dad has been to jail. So, 
knowing that, what are we doing to look at this in terms of, if 
The Second Chance Act has a provision for family counseling. We 
know already if a child has a parent in jail they are umpteen 
times more likely to end up modeling what they see, and ending 
up in that environment. So can you talk about, the need for us 
to be working with the social service system, the healthcare 
system, to try to preempt a lot of this stuff from moving 
forward?

                      HEALTH CONDITIONS IN PRISONS

    Mr. Travis. If you look at any health condition that we 
care about, tuberculosis, HIV/AIDS, hepatitis, sexually 
transmitted diseases, mental illness, drug and alcohol 
addiction, and you were to look at the population of people in 
prison, they present at rates four to ten times higher than the 
general population for all of those. So the policy question, 
public policy question, public health policy question, I think, 
is given, and I do not like that we are in this state of the 
world. But given that we have so many people in prison, what do 
we do to use the time while they are in prison to do something 
about those health concerns, recognizing that they all come 
back. And we have this anomalous situation that prisoners are 
the only group of Americans that have a constitutional right to 
healthcare. Under the Eighth Amendment they have to be provided 
healthcare. Healthcare is often one of the things that is cut 
when budgets are cut. So it is not good healthcare but it is 
some healthcare. And we do very, so we do not identify these 
diseases while they are in prison. We do not do educational 
work to help people avoid particularly communicable diseases 
when they get back out. We do not work with their families as 
much as we should. And in particular we do not pay attention to 
the fact that they all come back to the communities, which is 
your point. So they go back home and we do not, we do not 
ensure that they have medication, to make sure that those who 
are mentally ill get medication when they come out.
    Mr. Kennedy. Right.
    Mr. Travis. We suspend Medicaid eligibility when people go 
into prison.
    Mr. Kennedy. Right.
    Mr. Travis. And we should, you know, our state, my state 
just passed a law to ensure that when somebody comes out their 
Medicaid eligibility is automatically restored if they had it 
going in. So they can get the medication. So we send people out 
with, you know, enough medication for a couple of days and then 
we wonder why they are wandering around the streets in a week.
    Mr. Kennedy. Yes.
    Mr. Travis. We do not link drug treatment. We should make 
sure that when people who have drug addiction are coming back 
home that they go to the head of the list rather than the back 
of the list for drug treatment. Why do we tell somebody to go 
home and then wait five months to get drug treatment, when we 
knew they were coming out on whatever date it was. We could 
have planned it so they would have a continuity at this high 
risk period. We do not coordinate these services to reduce 
risk, and reduce failure. And health is one of those, it is 
like work. It is one of those things that we know enough to be 
able to figure out how to make those connections better.
    And too often the view, and this is sort of not the 
universal view, but the view of some corrections professionals 
is they are done when the guy leaves the facility. The policy 
view should be that we have a responsibility to the communities 
that we turn to and we have to do everything we can to make 
that journey successful. And health for some people is right at 
the center of that. And if we do that we can then reduce those 
communicable diseases in particular, and the public safety 
consequences of particularly the mental illness when people 
come back. But that requires, both inside and outside, a whole 
different approach to the health continuum.
    Mr. Kennedy. Would you talk a little bit about the Esserman 
concept that you were bringing up with me earlier, and pairing 
those within the field.
    Mr. Travis. Well, Colonel Esserman, your police chief in 
Providence, who is both a friend and one of my heroes. He is 
really, you are very lucky to have him, as you know, has this 
idea that we should start to build a criminal justice and law 
enforcement mentality that borrows from the health model. And 
in the health model we have the notion of teaching hospitals 
where young doctors go to learn how to do things with the 
current techniques, and there are research hospitals so that 
the best scientists in the field are testing new interventions. 
And we locate within the profession institutions that are doing 
this important work of raising the standards of the profession. 
So Colonel Esserman's idea is that a police department can be a 
teaching department if it has the academic support, which we 
and others have offered, and Roger Sherman and others at Brown 
have sort of partnered up with this on this. And that the 
police department will look at this as a way to develop 
effective best practices.
    So it is this marriage between research and practice that 
has been lacking, as Dr. Byrnes said, in our field that the 
teaching hospital would make possible. So you can imagine 
teaching prisons.
    Mr. Kennedy. Yes.
    Mr. Travis. You can imagine teaching parole departments 
where you have the idea that we have to always be learning, and 
we have to open to the idea that things do not work. And those 
things that do work have to be standard, required protocols as 
would be the doctor's way of thinking about something. If FDA 
says this is an accepted drug, a doctor is supposed to use it. 
If a patient walking into the office says, ``I have this 
disease,'' the doctor knows what to do about it. We need to 
develop that way of thinking and that body of science evidence 
in our field. That is why that idea is so attractive.
    Mr. Kennedy. Genomics, what is the future for testing for 
people's proclivity towards violence and so forth in terms of 
the justice field.
    Mr. Travis. Not my area of expertise.
    Mr. Kennedy. There has been great debate about the future 
of that.
    Mr. Byrne. We are now conducting research identifying 
genetic links to a wide range of physical and mental health 
problems. For example, OCD, my stepson actually does research 
on identifying an OCD Gene. A whole range of health problems 
because we have these incredible abilities with databases that 
we have never had before. I just gave this lecture to my 
students a couple of weeks ago.
    I think within ten years you are going to have good 
information on genetic predispositions to violence, and you are 
going to be making very different decisions based on access to 
that information. And, although we do not need to talk about 
abortion issues here today, I suspect that the knowledge at a 
genetic predisposition may be a factor for prospected parents 
to consider at some point in the not so distant future. But 
certainly you are going to have that information, I would 
predict within a decade from reading the literature. Given the 
advances in genetic research terms of problems like OCD just in 
the last three years, major identification of, the gene that 
produces it. Well, you know the next step will be, once we test 
for these things, what we do with the information?
    So the short answer to that is I think we are within a 
decade you are going to see, answers to these questions but a 
lot of that will depend on, because researchers go where the 
money is, if we are funding this line of research. Although we 
are funding it for various diseases. I do not know if we will 
do it in the area of violence.
    Mr. Travis. If I could just add, the brain research, I 
think, is an important contributor here, particularly on 
understanding addiction and relapse. And the brain research 
that shows the influence of an environment on cravings, so that 
when people, because someone comes out of prison, he has been 
in that unusual environment for two to three years. He goes 
back home, goes back to the old neighborhood where he used to 
cop drugs or hang out with his buddies, the mere sort of return 
to that neighborhood can trigger a brain process that 
stimulates a craving so that the addiction and the relapse 
phenomenon is associated with just the return home. So that is 
why there is this moment of release and this sort of managing 
the environment is so important.

                                VETERANS

    Mr. Kennedy. Veterans, you see a big influx of veterans 
going to be entering our criminal justice system because of the 
trauma that they have suffered during the War. Can you comment 
a little bit about what that is about? I mean, the particular 
needs they are going to have?
    Mr. Travis. This is just a fact of numbers, but it is also 
a consequence of the experience that they have been through, 
and the current economic situation. I think it is going to be a 
very difficult time for returning veterans. And, you know, I am 
thinking about that more as the President of an educational 
institution. How do we welcome our returning soldiers into an 
educational setting so that they can sort of get back on their 
feet? And I think there will be lots of consequences for a lot 
of social service sectors not just the criminal justice sector.
    Mr. Byrne. It is the culture of violence aspect of it, too. 
I mean, you had to be involved in violence to survive. And the 
irony there is many of the communities we are talking about are 
poverty pocket, high risk areas that have a culture of violence 
that you have to at least talk about. So I think it would be 
one of the issues we will have to look at. What are the 
cumulative effects of going back to high risk environments, 
when you are also exposed to violence, not only in the prison 
setting but also in terms of your previous military experience.
    Mr. Kennedy. Some ideas there in terms of veterans courts 
would be helpful if you guys could provide some ideas. Trying 
to be sensitive to the Post Traumatic Stress Syndrome, and also 
of course the brain trauma that they have suffered from a 
criminal justice point of view. Now they are in a population 
and what trauma they have suffered, especially treatment wise 
how they are going to get taken care of. That would be helpful. 
Thank you. Thanks, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Kennedy. Mr. Fattah?
    Mr. Fattah. Thank you, Mr. Chairman. Let me first commend 
the Chairman for the funding of the legislation, for The Second 
Chance Act. It is a new beginning. The President's budget also 
attempts to build on that and that is important.
    I want to go back to the basics here. You know, we all say, 
we incarcerate more people than in the rest of the world. We 
have got so many people in our criminal justice system. The 
majority of the people in prison in our country, have they 
committed a violent act?

                             VIOLENT CRIMES

    Mr. Byrne. 52 percent of state prisoners, a little over a 
third of federal prisoners.
    Mr. Fattah. So the majority are----
    Mr. Byrne. Of violent crime.
    Mr. Fattah. What was that? I am sorry.
    Mr. Byrne. They have been convicted of a violent crime.
    Mr. Fattah. 52 percent of those in state and local.
    Mr. Byrne. In state prison today, yes.
    Mr. Fattah. And a third of the ones in federal, right?
    Mr. Byrne. It is about a third, a little over a third.
    Mr. Fattah. So I want to ask the question again. A majority 
of those incarcerated, therefore, have not committed a violent 
crime?
    Mr. Byrne. Right.
    Mr. Fattah. That is correct.
    Mr. Byrne. Just about right, when you put them both 
together.
    Mr. Fattah. So I am going to your testimony in particular. 
You said that the first issue is to get to the decision about 
whether to incarcerate?
    Mr. Byrne. Yes.
    Mr. Fattah. And that is something that society has had to 
really think through. Because as best as I can tell, in the 
empirical information, particularly when we start talking about 
younger offenders, the minutes we decide to adjudicate and 
incarcerate, the only real outcome is that they go into a 
system that produces them as, much more engaged offenders over 
the long term.
    Mr. Byrne. Yes.

                          JUVENILE DELINQUENT

    Mr. Fattah. That is that we essentially decide to harvest a 
juvenile delinquent into an adult inmate over time. Because we 
are putting them in a place in which they are inculcated with 
and surrounded by information and activities that do not bode 
well for their future. So I want to go to your first question 
in your testimony. You said, the decision to incarcerate. What 
is your thought about where we might start to maybe retreat 
from this ace to, spend $100,000 on a cell, and tens of 
thousands a year to put someone in prison who has not committed 
a violent crime?
    Mr. Byrne. I would focus on drug offenders and on technical 
violators. If you could take those two groups out you would 
have a major impact on prison population size. And that would 
be very specific. The problem of just saying ``Don't 
incarcerate the nonviolent'' is that when you look at the 
criminal records of many people we put in prison for nonviolent 
crimes they have committed serious crimes or have long records. 
The reason judges are putting them in prison, even though they 
have committed a nonviolent crime, is that----
    Mr. Fattah. That they are not boy scouts, right?
    Mr. Byrne. Correct, they are not boy scouts.
    Mr. Fattah. So you take Bernie Madoff, he has ripped off 
billions of dollars, he is going to go to jail, he did not 
commit any violent crime. So there are people who do not commit 
violent crimes who have done enough bad, might require that 
they be incarcerated. But there are people who, if someone 
wrote a bad check, or failed to pay a traffic fine, or, there 
are juveniles in my state who were incarcerated because they 
were for-profit juvenile prisons. And a couple of judges 
decided to take $2 million of kickbacks personally to 
incarcerate juveniles for little or no reason.
    So my point is is that we kind of always skip over the fact 
that we, decide to lock up more people than anyone else. And 
then we get to the bigger issues about, reentry, and how we are 
going to do it, and why they are in prison, and so on. And I 
think that we should kind of start at this first point, here. 
Which is, we need to think anew, I believe, about who we are 
going to incarcerate. There are people that society needs to be 
protected from. But we do need to think about the fact that we 
are throwing away a lot of lives because under the best of 
circumstances people do not leave prison as a better person 
than when they went in. And, I think that it raises a lot of 
questions about why we would invest billions of dollars of the 
taxpayers' money in creating a system in which it does nothing 
more than create more harm for all of us.
    Mr. Kennedy. Could you do a study for us on comparative 
effectiveness in, criminal justice policy in terms of, so the 
taxpayers out there in this country could see what would make 
them safer per dollar spent? That would make a big difference, 
I think. Because people would be really impressed about, per 
the dollars you spent for jail cell for picking up someone for 
however, what drug charges, versus putting X number of cops on 
the street for stopping assault and battery and B and Es. And 
putting it in treatment instead because you can now be able to 
do, and being able to analyze them. That is what you kind of 
academics do. And pull out that, and do a real matrix.
    Mr. Byrne. There was a good report last year, Vera 
Institute of Justice put it out, that did just that. That 
looked outside the criminal justice system and said, ``We spend 
this money in incarceration, and, we can identify an effect; 
small, but an effect. What if we spent that same amount of 
money, a what/if scenario, on something else?'' And they looked 
at education. They looked at employment. And the impact in 
terms of crime reduction was much greater at the same cost. 
There is a summary of that research in my written testimony.
    Mr. Travis. I would focus, as did Dr. Byrne, in answer to 
Mr. Fattah's question, on, we can make those investments and 
they will pay off in the long term. I am also very interested 
in reducing the level of incarceration in the near term. And 
the suggestion was made to folks on parole revocations. And 
that is a clear place to start. But I think that we have an 
opportunity that we have not seen before to think differently 
about drug enforcement. And with Mr. Kennedy's permission I 
also want to allude to another innovation in his city, in 
Providence.
    Two years ago, three years ago, Colonel Esserman and 
Professor Kennedy, our Kennedy, from John Jay took the High 
Point Drug Initiative developed in High Point, North Carolina 
and brought it to Providence, to Lockwood, to that 
neighborhood. And this is building on the work of Professor 
Kennedy in the gang violence area, but looking at drug markets 
in particular. And asking can we, instead of arresting people 
for drug offenses, can we build cases against them an then 
bring them into this community setting of the drug dealers, the 
prosecutors, the federal and state law enforcement agencies, 
the family members of those individuals, the leaders of the 
faith institutions and social service providers, and basically 
say, ``We could arrest you all today but we are not going to. 
We are not going to if you decide to stop dealing drugs in this 
neighborhood. And if you want to get out of this life, here is 
a job, here is an educational opportunity for you.'' The most 
powerful voice in those meetings, and this is what we did in 
Mr. Davis' district as well, is the voice of the community. It 
is the mothers, it is the girlfriends, it is the uncles, it is 
the employers saying, ``You are hurting our community. You have 
got to stop it.'' And the law enforcement say, ``We have this 
videotape of this buy and bust operation. There you are. We 
could arrest you. We are not going to. We have a warrant we 
could get signed for your arrest. We are not going to. But all 
of that is going to fall on you if you start dealing drugs 
again tomorrow.''
    So here we have a near term opportunity to use the statutes 
that we already have in a way that does not involve arresting 
people. It really says this is going to stop. And the Lockwood 
results are phenomenal. We are doing it now in Hempstead, Long 
Island, right outside of New York City. I know these data 
better.
    In a one-year experimental period, in the worst drug market 
in Nassau County, the level of drug arrests have been reduced 
by 80 percent. So there are hundreds of people not going to 
prison in New York State this year because we used this 
different way of thinking.
    So I think there are ways in the near term of organizing 
these coalitions differently, of law enforcement and service 
providers and the community voice, that moral voice that comes 
from the community, to both reduce gang violence and to reduce 
drug markets. And if you do those, you reduce incarceration.
    Mr. Fattah. Let me just join in. I agree with the 
Congressman that research in this area would be important. 
There has been research in this area and I think the more, the 
better, especially something that would really quantify it on a 
broader basis.
    There is a world of difference between, you know, a joy 
ride in which the police officer takes this young person home 
to their parents and says this is what happened and you should 
talk to this kid and locking a kid up for grand theft auto. And 
there are two different paths of what happens here.
    Now, we know in every instance where this has been reviewed 
and studied across the country. As you mentioned, there other 
influences, race in particular. That is that in every instance, 
race creates a more severe set of circumstances when the same 
issue is at hand, whether it is retail theft or any other set 
of dynamics in which the decision to arrest, the decision to 
what to charge, you know, what happens through to sentencing, 
in terms of incarceration versus diversion.
    So we know that race has an impact and it is a very 
unfortunate impact when you look at the long-term consequences 
for the individual and for the communities and for our broader 
society.
    So I do think that evidence-based research is the way to 
go, you know, but I do not think we should just start at the 
reentry part of it and that we should get down to the question 
of how to look at whether or not people should be entering the 
incarceration phase of our Criminal Justice System on the front 
end and make sure that all the stakeholders understand the 
implications of what happens when you take youthful offenders 
who are involved in antisocial and sometimes criminal activity 
and put them into a system in which they essentially go to 
college to be better criminals.
    I mean, that is at the end of the day. And they may start 
out nonviolent, but after being away in one of these penal 
institutions, in many instances, when they do get rearrested, 
it is for a violent offense because they have become a lot less 
of what we would want for them while they have been 
incarcerated.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Fattah.

                   CHANGING THE CORRECTIONAL APPROACH

    Yesterday we had again some really excellent testimony and 
some of it went to the question of systemic reform. We had 
testimony about the State of Michigan, which is in the process 
of fundamentally changing its correctional approach to focus 
much more significantly on rehabilitation versus punishment.
    We also heard from several smaller programs that are having 
important successes, but on a much smaller scale.
    If we hope to seriously address the recidivism problem in 
the country, don't all states need to undertake the kind of 
systemic transformation that Michigan is undertaking?
    President Travis, why don't you speak to that first.
    Mr. Travis. Two months ago, I spent some time in Michigan. 
I was very impressed with what I saw and was pleased to see Mr. 
Schrantz here yesterday.
    What they are doing is really nationally at the cutting 
edge. I think there are some other states, Kansas and others, 
that are in the leadership position as well.
    And it starts at the top. I mean, here we have a Governor, 
Governor Granholm who ran for office saying that reentry was 
going to be one of her priorities. That is remarkable. And she 
meant it.
    And so at the CEO level for the state, she then convened, I 
do not know what they call it, but some cabinet of all of her 
secretaries of her various agencies and saying that all of you 
have a role to play, the health folks, the education folks, the 
labor folks, the licensing. We talked about licensing. You all 
have a role to play in successful reentry and get with the 
program here. This is not a corrections issues alone. Everybody 
has a role to play.
    And that is critically important. And I think we can do a 
lot, and I am not in favor of spending more resources here, but 
we can do a lot of good work here by using existing resources 
in that more coordinated way.
    They also in Michigan were able to get a lot of involvement 
from the philanthropic communities, so they have foundations 
involved. They have work underway in some of their high 
concentration reentry cities so that they have Mayors involved.
    So I think the lesson here from the Michigan success is, 
and it is hard work, but is that you can organize the agencies 
of government to support successful reentry.
    There are now taking the next step which is to say how can 
we also reduce the rate of incarceration so that we are not 
just making reentry more successful, we are actually reducing 
the number of people going to prison in the first place.
    So this type of systemic reform, which I think is the right 
phrase to use, is critically important. It is not the sort of 
thing that gets funded through a grants program. It is the sort 
of thing that I think the Congress can in essence require as a 
condition to get some types of grants, maybe through Byrne or 
maybe through ``Second Chance Act,'' that states come forward 
with that sort of organized plan to have all the resources 
working at the same time.
    Mr. Mollohan. Dr. Byrne.
    Mr. Byrne. I think your Committee should consider various 
types of federal government incentives for systemic change. 
Identify where you think best practices should be and where 
incarceration rates, for example, are too high, identify a 
specific tipping point. When you drop it below that, financial 
incentive.
    And, you know, I think there have been several studies now 
that have identified ``tipping points'' for incarceration at 
both the state level and the local level. This strategy would 
be an interesting one where you would essentially tie 
appropriations, not unlike we did in the early 1970s with the 
de-institutionalization, to very specific reform benchmark.
    So if you are really serious about reform, we can go back 
to an old model that the feds used to convince the states to do 
things that maybe they otherwise would not do: link specific 
benchmark to financial incentives. I think we have done it in a 
number of areas and that is one thing I would look at.
    I would not rely in today's world with the private 
foundations myself, given the financial situation we have, 
being able to, you know, take care of.
    Mr. Mollohan. My point here, in listening to this, is that 
in whatever system you are working or what part of the system 
you are focusing on, whether you are talking about a whole 
state, a county or a jurisdictional area, there has to be an 
authority that, I do not like using this word, has the ability 
to enforce.
    If it is the state, the state is requiring performance. And 
if there is not--in Michigan, this came out over and over 
again--and if that performance is not there, then there is some 
sanction that is associated with that failure.
    If it is at the local level, then a drug court may serve 
that purpose with regard to an individual offender. I mean, 
they are enforcing that. So there is a sanction. There is a 
standard and a sanction for not meeting that standard.
    Mr. Travis. This is a wonderful line of inquiry. There is 
another example in addition that I would mention which is 
welfare reform. We saw a lot of innovation within the states 
where the goal was to reduce welfare case rolls. And there was 
a lot of federal support for that innovation.
    So I think this idea of government taking a lead in 
creating opportunities for states to be pace setters for the 50 
states of the country and creating incentives for states to be 
successful, in addition to program funding, I think is a very 
important idea.
    And it does work both at the state level--my view is I 
think Corrections Commissioners should be held accountable for 
recidivism rates. They do not like that way of thinking.
    Mr. Mollohan. We had some of that testimony yesterday.
    Mr. Travis. And I think that this is something the Governor 
is entitled to expect of his or her Corrections Commissioner. 
But the action is at the local level. The action is at the 
community level.
    And before coming to head up NIJ, I was General Counsel of 
the Police Department in New York and had the privilege of 
serving for a short time with Bill Bratton as the Police 
Commissioner. And he is the author of the comstat idea which 
has, you know, swept the country.
    It was a very simple idea which is that we are responsible 
for crime rates in our jurisdiction. And I think we need a 
similar sort of accountability benchmark for both the 
recidivism rate of people coming out of prison and this 
ultimate reintegration rate for people coming out of prison.
    And everybody in the jurisdiction has to contribute to that 
goal. And so whether it is the Mayor or some local official has 
to have a comstat for reentry success. It is a public safety 
measure.
    And you can make this a bite size operation. And I suppose 
it is a challenge to a number of jurisdictions, Chicago being 
one recently, to say let us figure out how do we reduce the 
failure rate in the first 30 days or 60 days or 90 days for the 
next cohort of people coming out of prison.
    We know that is the time of high risk. We know that is the 
time where lots of things can go wrong. You would then organize 
your resources, everybody's resources to that very simple goal. 
If you do that enough, then you have got an overall success.
    So we do not have a way of thinking about public 
accountability in this area that has bite, that has some real 
teeth to it. And it is at both of those levels.
    And somewhere, some Governors in this fiscal crisis that we 
are in are going to say, look, the long-term goal for my state 
is to reduce our level of imprisonment because it is just too 
expensive. We cannot do it anymore. And I am going to commit my 
state just as Governor Thompson did for welfare reform to 
reducing this burden on the taxpayers, that we cannot afford 
this anymore.
    And that is more than what California unfortunately is 
doing now or other states are doing which is sort of managing 
in sort of reactive mode how do we reduce the prison budget. It 
is a systematic approach.
    So just as the federal government helped states create 
incentives for states to think about welfare reform and move 
people from welfare to work, I think the federal government can 
help states think about justice reform and move people from 
prison to work in exactly the same way. That requires a 
different way of thinking about funding and incentives.
    Mr. Mollohan. Dr. Byrne.
    Mr. Byrne. I agree on the incentives. I think that is the 
idea that I would put out there as something to consider----
    Mr. Mollohan. Okay.
    Mr. Byrne [continuing]. For this appropriation you have, 
the next phase.
    Mr. Travis. It is a big idea.
    Mr. Mollohan. Okay. And you used the word ``important.'' 
Systemic reform, and you have to have some of that kind of 
leadership and that kind of imposition of authority down 
throughout the system, you said was very important.
    I was kind of looking for you to say it is absolutely 
essential.
    Mr. Travis. I am there.
    Mr. Mollohan. Okay. Based upon the testimony we have had 
this week and this morning, arguably if the states were to 
imitate the attitude of Michigan and to execute on that 
attitude, you would have this hopefully fundamental change in 
the approach and a significant change in outcomes. With our 
scarce resources, how can we, and you can make suggestions here 
or for the record if you need to think about it, how can we 
incentivize states to do that? It would be one thing for the 
federal government to do it in its system, but it is another 
thing for the states to do it in their system. How can we with 
our scarce resources incentivize that systemic reform in the 
states?
    Mr. Byrne. Well, you have that resource allocation, right? 
You have created a spot where people can go for resources that 
relate to----
    Mr. Mollohan. We are the resource center.
    Mr. Byrne. Built into that are some very specific 
benchmarks that you are looking for and tie compliance with 
those benchmarks to a new round of awards. That would be my 
initial thoughts on how to tie it into the structure that you 
have there now, kind of expand on that resource center model 
and identify benchmarks.
    And, the most obvious benchmark to consider would be 
incarceration rate reduction, I would think, and certainly 
revocation policy changes, link reductions in incarceration and 
changes in revocation policies to financial incentives.
    For me personally, I would like to see treatment oriented 
prisons added to the list at pre-entry benchmark. If you have 
to use the word prison, you are really talking about 
residential treatment, but we have to say the word prison to 
sell it. That would be a third area.
    But certainly I think you could do it within the structure 
you have now if you expand on that resource and also make it 
kind of a best practices driven strategy where you identify 
incentives for best practice in these areas.
    Mr. Travis. The Chairman will recall the VOI/TIS 
legislation, the Violent Offender Incarceration and Truth-in-
Sentencing legislation, which in essence did what you are 
suggesting in reverse. It said you can get certain money for 
prison construction if you would enact legislation that 
embodies certain principles.
    And one result of that was to increase incarceration, 
increase--it had the desired effect. So you are thinking about 
something that would have the same model going in the other 
direction. So that model is there, and I am sure there are 
probably some other examples. That came with a--this is all 
part of the Crime Act--came with big appropriations for prison 
construction, because states were really suffering at the time 
in terms of the prison growth.
    But what we are talking about here is federal leadership, 
both in reducing prison level incarceration, promoting public 
safety at the same time, and improving reentry outcomes.
    So the best thing out of it is there is money behind it so 
the states get something in return for meeting those 
benchmarks, so there would have to be some sort of 
appropriation that would go along with that.
    But if you are moving towards a much more robust funding of 
the Second Chance Act and you want to influence state policy, 
this is one way to think about a next wave of funding out of 
the Second Chance Act that would say, there are certain things 
that we would like to see the states do, and then you would 
have sort of a shopping list of desired outcomes for changes in 
state policy.
    Mr. Mollohan. Well in that regard, the reentry resource 
center, besides being a place for best practices, how do you 
envision it playing a positive role, beyond what you have 
eluded to here?
    Mr. Travis. Well, I think this is one of the most important 
things in the Second Chance Act, because it creates a capacity 
that is funded by the federal government for jurisdictions that 
are interested in best practices, latest evidence, technical 
assistance opportunities, a place to go to get that 
information. It is a rapidly changing field. Ferment is 
welcome, but in that sort of environment you want to have a 
place where people can go just to figure out what is being 
learned in other jurisdictions or what is the research showing 
at us.
    Looking at it from an academic perspective it is a place 
where we can start to have a sustained conversation about 
practice, about the evidence, about what is known, about what 
works, about what doesn't through the resource center.
    So it is really this sort of idea knowledge hub for the 
nation that will benefit practice, but also benefit the 
research community, because we will have a place it's almost 
like Campbell collaborative, wouldn't it?
    Mr. Byrne. Right.
    Mr. Travis. It is a place to house the research knowledge 
that can benefit.
    Mr. Mollohan. A clearinghouse, so to speak.
    Mr. Travis. A clearinghouse, yes.
    Mr. Mollohan. Mr. Byrne.
    Mr. Byrne. I think you want more than a clearinghouse 
though don't you? Don't you think you need that TA component?
    Mr. Travis. Yes.
    Mr. Byrne. I think it is critical. You have that right now 
with the National Institute of Corrections, but that is kind of 
a small effort. I have done, NFC TAs in several states over the 
years, and I see those are very quick kind of in-out reviews. 
What you are talking more is about larger scale reform efforts 
and that might take a different type of structure. So that 
clearinghouse notion I think is a good start, but thinking 
about how to tie it into these critical--as you said--critical 
benchmarks and maybe identifying incentives that relate to 
that. Maybe you pick the big three, or you know.
    Mr. Mollohan. Well we would invite you to elaborate on 
that.
    Mr. Kennedy.

                            JUVENILE JUSTICE

    Mr. Kennedy. In the area of juvenile justice, obviously our 
policies of funding the Office of Juvenile Justice through this 
Committee, that is a very direct way through a juvenile justice 
title five programs and grants. And so we can effect the way 
states operate in a lot of respects, because they have got a 
whole patch work quilt of state statutes.
    So that is where the stipulations we put kind of in terms 
of our funding could make a big difference.
    Mr. Travis. That is another good model.
    Mr. Kennedy. So if you could give us some ideas, given the 
fact that from whence the kids came that often determines where 
the kids go, and if the kids--we don't pick them up too quickly 
and put them into prison, especially in prisons where there are 
adults and so forth, they are less likely to end up in adult 
correction institutions down the road.
    Mr. Travis. That is a good analog. There is no adult system 
equivalent to the OJJDP funding formula, but I think that is 
what we are struggling with here, is how to come up with 
something similar to that.
    Mr. Kennedy. Maybe you could give us some of those 
concepts.
    Mr. Byrne. Sure, I'd be happy to.
    Mr. Mollohan. With regard to the reentry resource center, 
the solicitation is out on this so let me just revise my 
request. If you all would look at this, you are not an agency, 
so we know you don't have to be responsive here, but if you 
would graciously look at it and give us your comment on it if 
there is anything that needs to be tweaked, calibrated, or 
otherwise changed.
    Well, there have just been excellent questions here and we 
have covered a lot of territory.
    I guess I could ask as a just general question, how you are 
grading Department of Justice's home work here on the Second 
Chance Act? Are they implementing it in the right way and do we 
need to make any suggestions for our part to the Department of 
Justice in regard to that implementation?
    Mr. Travis. I think it is a little early.
    Mr. Mollohan. A little early?
    Mr. Travis. The solicitations are for public response at 
this point. I haven't looked at them carefully, but I think 
they have tracked the legislative purpose pretty well. Not 
every part of the Second Chance Act is now funded. I am 
particularly concerned about research funding and the data 
collection funding.
    Professor Byrne mentioned the--we should not be in this 
situation as a country where we have to wait every decade to 
get recidivism data from the federal government. We don't have 
a good understanding. We mention parole violations and people 
going back to prison. We don't have a good understanding of 
that phenomenon across all the states. You know, every state 
should be able to turn to its federal government, to the BJS, 
to get recidivism data that's comparable across states. We have 
to wait, it is expensive work, but we wouldn't stand for this 
lack of basic statistical information if we were talking about 
a health condition, for example, or about labor markets.
    You know, the Bureau of Labor statistics can tell us down 
to the level of industry, you know, what is happening with job 
creation, what is happening with job loss, what is happening 
with--you know, we have no similar sort of capacity to 
understand some of----
    Mr. Mollohan. That is a great insight, we will look at 
that, sure.
    Mr. Travis. And then we need to fund that.
    Mr. Byrne. Yes, I think the one area that I would say 
really needs to be addressed immediately, and I put it in my 
testimony, is this notion of how we fund and how we structure 
the selection of evaluators. I think that does go against the 
teaching hospital model, but it doesn't mean you can't have 
more than one model, because that model essentially identifies 
long-term collaboration between program developers and 
evaluators, and in my opinion that can be problematic. But that 
is one model, and I think it is certainly there.
    But in terms of kind of up and down audit review functions, 
I think it should be independent, external, evaluations. I 
mean, we have changed the way we look at money. I have a son 
who is an internal auditor, he does that now. There are now a 
lot of jobs apparently in that area.
    Mr. Mollohan. I wonder how many times he heard that when he 
was growing up.
    Mr. Byrne. I hear about federal laws from him and 
everything else related to compliance with. Oh God. [Laughter.]
    Yes, that is funny.
    But you know, certainly that function independent audit, 
and I think that is--only because I hear it from my kid, he 
just moved back in with me at 24. If this is part of the record 
you can move out sooner. Just kidding, he is a good kid, and he 
can stay as long as he wants.
    Mr. Mollohan. Only to move back in.
    Mr. Byrne. That is right, back and forth, the churning that 
happens it is there for kids in their 20s with the housing 
situation and everything else, right?
    But I think trying to come up with a formula in this act 
that will generate independent external evaluations I think 
would be very helpful. And that is not saying that we don't 
have some very good people that have developed long-term 
collaborations with, you know, city police departments around 
the country. Certainly, David Kennedy in terms of his work, is 
a model. But there are others to consider.
    But I think in this case there is a lot riding on this in 
terms of, you know, allocations. I am looking at 25 million and 
then 75 million in the area of reentry. I think you really have 
to build in the external audit function for the implementation 
of reentry initiating because I think what I worry about is 
this money is just going to be----
    Mr. Mollohan. I get that, I really do.
    Mr. Byrne [continuing]. Moved from one area to another and 
moved over to somebody else. Borrow from Peter to pay Paul in 
hard financial times.
    And the second part of it is getting external quality 
impact evaluations.
    Mr. Mollohan. We are going to look at that very carefully, 
and we appreciate that advice, we really do.
    Mr. Travis. If I could just add, Mr. Chairman, I have been 
thinking a little bit more about your question.
    We have a new administration, new Attorney General, we are 
about to have new presidentially appointed heads of these 
agencies that come up for review before the Senate, and it is a 
new day with the Second Chance Act.
    And consistent with that I think it would be certainly 
appropriate for this Committee to ask the Justice Department, 
and particularly the heads of those two agencies, to specific 
the long-term research agenda. What is it that needs to be 
learned that can be learned in the area of reentry, both from a 
statistical point of view, what should the statistical series 
look like that will help us understand this phenomenon better?
    And what are the big questions, and how do they propose to 
answer them?
    Having sat in the seat of the NIJ director I know that what 
happens too often is you follow the program dollars and you try 
to do good evaluations of those programs rather than saying 
what are the important questions?
    Mr. Mollohan. Rather than being asked.
    Mr. Travis. That is right, that should be answered.
    Mr. Mollohan. Yes, that is a great idea.
    Mr. Travis. So that is the old science agency is to scope 
out a multiyear agenda and then make investments accordingly.
    So it turns the conversation in a different direction by 
saying what are the big questions, rather than does this 
program work? It may be that those become the same----
    Mr. Mollohan. Well it makes it a little more interactive 
too, which is always more respectful.
    Mr. Travis. And then the programs say well here is a big 
question to be answered, let us see if we can help the country 
answer this question.
    So it just flips the--and I think this Committee would be 
the right one to sort of ask for that type of agenda.
    Mr. Kennedy. And maybe some continuing education for the 
judges before sentencing in terms of what works and what 
doesn't and what can we do there. Because we are bringing up 
the--we obviously fund judges and so forth. What can we do 
there? Continuing education?
    Mr. Travis. There is a lot of discussion about sort of 
evidence-based practice throughout the entire criminal justice 
system and how this applies to sentencing decisions.
    Mr. Kennedy. Right, right.
    Mr. Travis. It is some really interesting questions.
    Mr. Kennedy. Right.
    Mr. Travis. It is the intersection of social science and 
juris prudence.
    I recently was honored to chair an all day discussion by 
the American Bar Association and the Kennedy Commission on 
second look provisions. Ways to think about taking a second 
look at a sentence after its been imposed, whether through 
pardon or through parole release or compassionate release or 
whatever, and I think there is an opportunity now for judges to 
be part of this conversation in ways that they haven't been.
    Mr. Kennedy. Right.

                              DRUG COURTS

    Mr. Travis. Reentry court is squarely right in the middle 
of that. And let learning from drug courts--judges have to be 
trained in relapse and how does a job make a difference.
    Mr. Kennedy. Right, right, right.
    Mr. Travis. The role of mental health issues. So we didn't 
get this in law school.
    Mr. Kennedy. No, no.
    Mr. Travis. So the judicial education as part of reentry 
thinking is an entirely different education.
    Mr. Kennedy. Huge deal.
    Mr. Travis. And I don't know that--certainly law schools 
aren't training prospective lawyers to think that way, but is 
the National Center for State Courts helping to think about 
judges thinking about things differently, or the drug court 
professionals group.
    Mr. Mollohan. So as you increase the funding for drug 
courts, for example, you are suggesting in response to Mr. 
Kennedy's question, you should at the same time think about the 
education of the judges who are going to----
    Mr. Travis. Professionals involved, and it applies to 
prosecutors as well. They are thinking differently. Defense 
lawyers have to think differently.
    At the center of this is the judge. And if he or she isn't 
thinking differently then the whole thing falls apart.
    Mr. Kennedy. Okay. If you could get us some of your 
perspectives on that and what is going on in that world.
    Mr. Travis. Sure.
    Mr. Kennedy. Thank you. And anything about that reentry 
court.
    Mr. Travis. Right, yes.

                      NATIONAL SCIENCE FOUNDATION

    Mr. Mollohan. The staff suggests a good question. Is there 
a role for the National Science Foundation in any of these 
studies, in any of this research?
    Dr. Byrne, why don't you speak to that first.
    Mr. Byrne. Well obviously that would be beyond the gold 
standard certainly, and should be assessed. The whole field of 
criminal justice is one that is, kind of not still looked at as 
a science, and so, moving in that direction, and certainly, the 
NSF part in terms of what they fund would generate research, so 
that--that is positive.
    And the National Research Council review completed last 
year, even though a lot of it kind of rehashed what we had out 
there for, a few years, that kind of review I think helps too. 
I think when you get a respected group like the National 
Research Council pulling together and what we know, I think 
that helps the field.
    So certainly anything that would generate experimental and 
high quality quasi experimental research I think that is what 
we have to hope for.
    Mr. Travis. I think just to extend that one step further. I 
think the hope would be that any research institute with 
federal funds, that would include NIH and NSF and the Education 
Research Institute within DOE, would see the intersection 
between incarceration reentry and their sort of core research 
questions, and that there would be some encouragement from 
Congress for those research institutes to devote some resources 
to try to understand the connection between Mr. Kennedy's 
observations, mental health or brain functioning and 
incarceration of reentry. Alcoholism and drug abuse, which are 
NIH functions, and incarceration of reentry. NICHD looks at the 
family issues impact on children and reentry. NSF, which does 
basic understanding of--dealing with the sociological research, 
you know, communities and the dynamics between individuals and 
their behavior in community life. So all of them have a role to 
play.
    So the NIJ, you know, I think should receive more money in 
this area and should be directed to do work on behalf of the 
nation. But these other research institutes clearly have a role 
to play, and for whatever reason they have not been let us say 
eager to fund research in that area. Some of them put their big 
toe into the water, but I think they could be encouraged.
    The National Research Council, I should just give my bias 
here, I am on the Community of Law and Justice of the National 
Academies, is now thinking about taking a look at the whole 
incarceration phenomenon in the country in trying to see what 
knowledge do we have about the impact of this, in essence, an 
experiment we have done over the past 30 years of quadrupling 
the rate of incarceration? What knowledge do we have about the 
impact of that on our country? So that is the mackerel question 
that the National Academy is hoping to take a look at.
    So there are many ways in which these research institutions 
can be coalesced to--you know, NIJ is a small budget and 
probably always will have a relatively modest budget, but these 
other research agencies have a role to play as well.
    Mr. Mollohan. Well we have gone well beyond the scheduled 
hearing time, but if you all would bear with me just another 
second.
    I think there is a broad consensus, if not total agreement, 
that drugs and addiction are at the very heart of a lot of our 
recidivism problems, in addition to a huge percentage of our 
sentences in this country. And as I look at that, the craving 
is at the center of that. And there are all kinds of 
strategies, treatment, 12 step, faith based, secular based, and 
then there is also a whole new, and not so new, but beginning 
to be tested and studied medical treatment, which I think is 
very helpful. I mean if you have got a chemical problem, maybe 
there is a chemical solution, so I am very hopeful about that.
    But I would like you all to talk about that a little bit 
generally, how that fits in. And then specifically I would like 
to ask you about your attitudes towards the use of Naltrexone, 
those kinds of medications in drug treatment, and the different 
forms that that can come in, like 30-day injections, implants 
and daily doses of this medication.
    So either one of you can start. I would like very much a 
comment from both of you.

                   DRUG ADDICTION/TREATMENT IN PRISON

    Mr. Byrne. This is the most frustrating part of the whole 
area of reentry for me, and I have seen it personally in terms 
of addiction.
    When you actually have to get somebody in a residential 
treatment program, if you are rich you can do it, but we are 
talking a lot of money. A thirty-day inpatient treatment 
program with a three-week follow up----
    Mr. Mollohan. Which doesn't work anyway.
    Mr. Byrne. But that is 30-day program. If you look at the 
research in terms of long-term residential treatment for drug 
addiction, it is a different story. If you can get them in for 
six to nine months you can maybe have an impact, but outpatient 
is what we currently use. Residential treatment is the 
exception.
    It is very difficult to get anyone to pay for residential 
treatment, in addition a lot of the residential treatment that 
is out there is putting together 23-year-old heroin addicts and 
55-year-old alcoholics, and that is a social issue with that 
trying to do long-term residential with those groups.
    So we have a major issue in terms of the funding of 
residential treatment that I think you are right, this just 
cuts to the core of a lot of the offenders that we are going to 
be dealing with because they will have serious drug problems.
    And I don't see the answer in this allocation or even in 
drug courts, because drug courts have a hard time dealing with 
the long-term addicted individual. They can deal with kind of 
the low- to middle-level drug offenders, but they can't deal 
with this group. And to me that is the core--like you said--the 
core issue.
    I think the need for residential treatment and trying to 
develop mechanisms to get, in particular young people who we 
know fail at very high rates, but still getting them into 
treatment and getting them to stay in treatment. I think that 
is critical.
    And I know you had Dr. Taxman here a couple of days ago, 
and, I am sure she had her feelings on it, but most of what you 
have out there is outpatient in part because it is driven by 
managed care systems that don't want to pay unless you have 
failed several times in outpatient for even short-term 
residential. And so to me that is a problem.
    Now the second part about the new types of drugs. This is 
part of the technology of treatment that you have to bring out. 
There are some excellent new drugs out there where, you know, 
maybe you don't want to have somebody on Methadone, but there 
are alternatives to that with blockers, and I don't know all 
the names of them, but if you will go on the NIDA website, you 
know, everything is kind of there now, and that is certainly I 
think an area we need to look at.
    But I imagine, that you come back to this notion of 
coercive treatment, involuntary civil commitment for periods of 
time to get people in treatment. It is kind of if you build it 
maybe they will come. But we don't have that structure there in 
terms of long-term residential treatment.
    What we have right now is very short-term treatment, almost 
all of it outpatient, and I think that is a structure--you were 
mentioning Michigan's model, that is a structural change that 
is at the core that beyond what we talk about in terms of, you 
know, specific reentry programs is having access to treatment 
on demand and to be able to match offender's problems with the 
type of treatment they need I think is critical. And it would 
be a sad state that we would have to go to prison to get 
treatment.
    Mr. Mollohan. Well it is horrible. You have to get somebody 
in a criminal situation, to treat a medical problem, so it is 
profane, really. It is horrible that the system doesn't deal 
with this problem, which at its root is a craving problem, 
without getting somebody into a criminal vice, if you will.
    What you described kind of brings us up to date 
historically.
    But I am really looking for some insight for the record on 
the qualitative advancement that some of these medications 
represent. And I am really not talking about Methadone, I am 
talking about beyond that. It is not even beyond Methadone I 
don't think. I don't think it is the same, and I am far from an 
expert. I don't think Naltrexone, Buprenex, and some of these 
drugs are on the same path. And also the strategies are 
different for how they are applied.
    It is one thing to ask somebody who has cravings everyday 
and thinks about nothing other than where the next resource is 
going to come from so he can get the next fix. To ask that 
person, okay will you take a pill every morning so it will take 
away your craving, and if you use it will block the effect? 
That is a hard thing to ask somebody who is experiencing 
cravings, I think.
    But if you have a different strategy for administering 
medication, such as 30-day shots, well if you wake up and you 
can't think about that, that choice has been taken away from 
you.
    It seems to me--and again this needs scientific research 
obviously--but it seems to me that gets you a lot further down 
the road, because you have dealt with what? You have dealt with 
the craving issue. You have dealt with it so you have taken 
choice away. Maybe that is one of those places that you need 
the authority or the incentive. If you are incarcerated, for 
example, and you participate in the drug treatment program, you 
get out a year earlier. But if in addition to taking drug 
treatment, you would be required to participate in this 
aftercare program through which you receive a shot every month.
    Now there are all kinds of appropriateness and civil 
liberties issues that go along with that, but I think that, in 
spite of those challenges, it seems to me that that is a very 
hopeful avenue in dealing with cravings.
    Mr. Byrne. And you will make some parents very happy of 
those kids, because they won't have to worry that the kid is 
taking the drug every day, they know it is only every 30 days 
they have to worry. So just on that small level you have taken 
some stress out of that whole situation.
    Now you could also do drug testing. Use the drug testing 
follow up, which is what is being done.
    Mr. Mollohan. Yes, exactly.
    Mr. Byrne. But you could take that kind of technology of 
control off the table by simply having a pill that went one, 
two, three. Absolutely.
    Mr. Mollohan. Are we looking at that in all of this? 
President Travis, do you want to speak to that?
    Mr. Travis. I wish I knew more about this area of research 
and medical research, I am not familiar.
    Mr. Mollohan. I think it is an area that we have to look 
at. As you are looking, I think we have to know more about it.
    Mr. Byrne. Well, I think that is the intersection of public 
health and public policy that you were talking about before 
going through the statistics on the various types of 
communicable diseases of offenders that coming out of prison. 
Certainly you throw drug addiction into that mix that you were 
talking about, and that is what is critical I think in terms of 
cooperation between, public health and whatever these program 
models look like. Because the key is not figuring out whether 
Jim Byrne has a drug problem, the key is getting me into the 
right level and type treatment and getting me to stay in 
treatment.
    Mr. Mollohan. Yes.
    Mr. Travis. So you know, when we talk tolerance that is 
probably the most important thing we teach judges, right, and 
these programs what we are trying to do is, you know, deal with 
various forms of misbehavior, but get them to stay in programs.
    And your strategy that you are talking about in terms of 
utilizing these drugs, will at least get them to deal with that 
craving issue for a longer period of time. And the longer that 
they are away the more likely they are going to get better over 
time. But we know the failure rates of these programs are still 
remarkably high. Higher than anything we will talk about in 
terms of recidivism rates.
    Mr. Mollohan. Yes, it just seems as we think about all 
these structural changes and the DOE fund projects and all 
that, drugs undermines their program at high percentages before 
their participants complete one year. They start measuring 
success after one year. Well they have a number of 
disappointments during that one year.
    Well, it is all related to drug addiction. So it seems to 
me that is the center of the problem, because it is so 
prevalent. And it does get down to the individual and it gets 
down to the family. It really gets down to the core issue.
    Mr. Byrne. The interesting treatment on demand 
demonstration program may be one of your sites in New York, and 
to see--to demonstrate what would happen if we really put the 
drug involved offender into the correct level of treatment. And 
obviously that has implications for all of us who might have 
addiction issues, regardless of whether we are currently 
involved in the criminal justice system; but you certainly have 
that group.
    Mr. Mollohan. Well think about how you could drive these 
numbers. If you could deal with the craving issue here, all the 
counseling, all the brain scans. I want to learn more about all 
of that. But if you could deal with the craving--I mean, I love 
ice cream, and man I will tell you, for me to stay away from it 
at night is--honestly I have thought about that. If it is in 
the refrigerator it is hard to stay away from that. I had a 
doctor tell me once that the craving for heroin is a thousand 
times greater than one of the most fundamental drives in the 
human body. One hundred times greater. That is very powerful.
    Mr. Travis. Just think of this as a federal science 
question. We have NIDA that is funding a lot of research that 
you mentioned, we have centers for substance abuse treatment 
and prevention within NIH, those are located in a different 
cabinet agency, but their work has a lot to do with what we are 
talking about here in terms of crime and reentry and community 
well being.
    So the question from where you sit is how are those 
resources being used to help answer questions over here that 
can provide policy? And you know, I love this idea of a--I 
would have a multisite demonstration so it wasn't one site, 
where we would say with our NIH partners, we want to fund a 
demonstration to test the availability of both the--we will 
call them behavioral interventions and the medical or 
pharmaceutical interventions to do something about addiction at 
a community level, and we are going to do that for five years. 
That is probably what it will take to run it up, you will get 
it up and running. And one of the measures we will look at is 
the reductions in crime, in addition, there will be over 
measures of well being. But that is thinking bold, that is 
thinking big, but it is also thinking from a public health 
perspective, which is what they should be accustomed to, and it 
is not the way our community is accustomed to thinking about 
things at that scale. But if you want to go to some of the core 
issues of employment, addiction, family functioning, you have 
to think big, and you have to be willing from a scientific 
point of view to design some big interventions.
    There is another idea that is getting some currency in our 
field, particularly the Brookings Institute had a number of 
hearings on this--or workshops on it--which is borrowing from 
the welfare reform era to adopt this idea from prison to work. 
What would it take to say that we want people when they leave 
prison to have employment available to them to help them 
transition for some period of time? Just as we did with people 
coming off of welfare. We made work available, we incentivized 
it. Granted that's a little different, but we can incentivize 
it here as well, and Bruce Western is a sociologist at Harvard, 
Larry Meed who did work at NYU on welfare reform, they are 
thinking about this big idea. That would require the Labor 
Department to say let us test prison to work. Frankly it is not 
the way the Justice Department thinks about designing and 
testing interventions.
    So I think we are just at that point in history where we 
have a real good understanding of the phenomenon, we see some 
big opportunities, they are right in front of us, and they 
require a different way of thinking about program design, 
program intervention, and research.

                   DRUG ADDICTION ROLE AND RECIDIVISM

    Mr. Mollohan. Well let me ask you this. If you design a 
research program to look at these issues one by one or in some 
sort of a comprehensive design, if you do not look at--well 
first let me ask you.
    To what extent does drug addiction play a role in the 
failure of preventing recidivism? What role does relapse play 
in recidivism? Just generally.
    Mr. Byrne. Well for starters you have the technical 
violators. You know there are a majority of technical 
violations where we are sending people back to prison for six 
for nine months because they fail drug tests. You know, we----
    Mr. Mollohan. So just on that basis it is huge, let alone 
going out and committing another crime to feed the habit.
    Mr. Travis. And three or four people in prison have a 
serious history of drug and/or alcoholism.
    Mr. Mollohan. So can we then agree it is a big piece of it.
    Mr. Travis. Yes.
    Mr. Mollohan. Right. So are we designing studies that kind 
of ignore that? Or maybe that is not the right way to ask that, 
but shouldn't we be designing studies for which that is at 
least a significant part of it, so that at the end of the study 
we will understand different outcomes based upon different 
treatments for that condition?
    Mr. Byrne. That is the problem. I mean we basically develop 
a design and then we then try to work with existing treatment 
providers to provide that treatment. And within the whole area 
of managed care, who is going to pay for it? So you have that 
and it is a problem.
    Mr. Mollohan. Now what do you mean? What is a problem 
exactly?
    Mr. Byrne. Well in the sense that you are not unless you 
are going to develop a multisite demonstration program that is 
going to have treatment on demand being funded by that program, 
then the funding for treatment exists in the real world. Which 
means you might have better healthcare than me. We have 
different access to treatment. Or you might not have healthcare 
at all, so you have no access.
    Mr. Mollohan. Yes, but isn't that a policy problem at the 
end of it?
    The real question is, just as a scientific question, if you 
can provide these different kinds of treatments for the 
addiction, including medication, then you can start asking what 
are the effects of the treatment on the disease, and then you 
can ask the question, how does that impact recidivism?
    Am I wrong about that or----
    Mr. Travis. I don't know if I am disagreeing with Jim or 
not, but I think we have a pretty good body of research on the 
effectiveness of treatment that links in-prison treatment with 
community-based treatment. I think we have a pretty good body 
of research over the years that is funded, that looks at the 
effectiveness of particularly therapeutic programs that link to 
community-based programs. I don't know whether they have added 
the latest advances in the sort of medical approach.
    And in the drug court context we have some pretty good 
research on the role of coercion in helping people find their 
way to treatment.
    We have this interesting experiment now in Hawaii called--
--
    Mr. Mollohan. Which is a good thing.
    Mr. Travis. Yes.
    Mr. Mollohan. Excuse me.
    Mr. Travis. It was very effective. And in Hawaii we have 
the Hope Project, which is testing drug testing as the 
intervention basically.
    But what we don't have, and where I think the Chairman's 
question is taking us, is what would be the effect of bringing 
all types of interventions to bear in a systematic way for 
people who are coming out of prison so that whatever is right 
for them they can get and it is available in the way that Jim 
says is not now available?
    That is the large scale demonstration project that could 
lead to very important policy implications, particularly when 
we are talking about healthcare reform, because this is a 
population that finds it difficult to get access to treatment 
dollars, treatment facilities.
    Mr. Mollohan. Yes, but that is a different question isn't 
it? I mean, that is a policy question after you learned what 
was affected. Then you would go to try to solve that problem. 
But the question is--no?
    I mean, that isn't a leading question, I am not trying to--
--
    Mr. Travis. Well, if you are designing the study that we 
are talking about, you would take let us say three communities 
around the country, you would say for--let us just make it a 
reentry issue--for people coming out of prison treatment will 
be available. We use the word on demand, but we will say 
treatment will be available. We will use the coercive power of 
parole supervision to make sure that, to the extent we can, 
people stay in treatment, that is always hard, and it will be a 
range of options that are tailored to what the treatment needs 
are that will include whatever the appropriate range of options 
are, and we will see--and we will try to do it in a random 
assignment way, we will see what the effect is on their 
recidivism and their well being, and their relationships with 
their families, all the key indicators.
    At the end of that study, let us say it is a three to five 
year study, we will be able to know the cost effectiveness of 
that intervention.
    Then you have the policy question that you eluded to, which 
is can we afford to do that? Right?
    And what would be the results in terms of safety, of public 
health, of family functioning? And we will say to the public, 
it is worth the investment of public dollars.
    We are not there yet, but we can put together pieces of it, 
but if we are thinking about a world in which we can do 
anything, we would do that level of study. Is that close to 
what you were saying?
    Mr. Byrne. Absolutely. And I think that is where you do 
have a possibility of funding different models, and you know, 
looking at one that has a significant treatment component. 
Because I would think right now the way this money is going to 
be allocated, what is going to happen at the local level is 
they are going to utilize existing resources for treatment. But 
it is going to be existing resources.
    What we are talking about is actually taking over the 
treatment piece for a period of time to demonstrate impact. 
When you talk about the community context of treatment, you 
need to consider, first, where is the treatment located? And 
secondly, what is the availability of residential versus 
outpatient? And then you need to examine the quality of 
treatment, which is a third big issue.
    Mr. Mollohan. I mean a huge number of the variables and the 
success of the whole involves the drug treatment part of it.
    Mr. Byrne. I think so. Like you said, it is the core 
problem that reentry programs need to address. And I think you 
can't get away from that when you look at the current 
allocations strategy, because essentially you are going to be 
setting up reentry programs that will not be funding the drug 
treatment component.
    Now maybe you can pull back some of that and do 
demonstrations to demonstrate it for the next wave, I would 
recommend that, which is why the multisite demonstration that 
Jeremy suggested I think is an excellent idea.
    But you know, that is the big missing link, and you pointed 
it out. We should have talked about treatments resources more 
in our presentations and we missed. You had it correct. And 
that is it is the core problem, is the drug crime connection in 
terms of this group of offenders.
    Mr. Mollohan. Can we work with you on that----
    Mr. Byrne. Sure.
    Mr. Mollohan [continuing]. As we go forward with spending 
the scarce resources. I think we are going to have more with 
this administration, I certainly hope.
    Darek has handed me Subtitle A, Drug Treatment, Section 
201. Offender Reentry Substance Abuse and Criminal Justice 
Collaboration Program. It authorizes the Attorney General to 
make grants to the States, local governments, and Tribes to 
``improve the provision of drug treatment to offenders in 
prisons, jails, and juvenile facilities, to reduce the use of 
alcohol and other drugs by long-term substance abusers during 
the period in which each such long-term substance abuser is in 
prison, jail, or a juvenile facility, and through the 
completion of parole or court supervision of such long term 
substance abuser.''
    So we are authorized to do this at $15 million.
    Well, are there any other final comments. You have done 
very well. If so, now is the time to make them.
    Mr. Travis. My only final thought, other than to thank you 
for a very lively discussion, I think we both felt pushed, 
which is great.
    Mr. Mollohan. Well wait, that wasn't the intention.
    Mr. Travis. No, this is what we live for.
    I just want to come back to the public safety bottom line. 
And in my testimony and my statement I underscored this 
relationship between the reentry phenomenon and crime levels in 
communities. And we tend in the way we do research, and we tend 
to in the way we talk about reentry to folks on individual 
outcomes and program interventions and the like, but we have to 
step back from that and realize that this is a big phenomenon, 
unprecedented in our country's history, and the impact at 
community level is something that we have never seen before. 
And part of that impact is a criminogenic impact, and we need 
to basically recognize that the communities are saying to their 
police chiefs and their majors that their well being needs more 
attention.
    So it is another argument for thinking big here and moving 
beyond our sort of individual medical model paradigm and 
looking at some big questions. And the public safety benefit 
that is possible here, if we think about this very creatively, 
is I think enormous, and that is beyond funding individual 
programs that work well according to basic evidence--the latest 
evidence. It as a way of thinking, the way we have been talking 
about here, so it is the mackerel of the environmental level.
    Mr. Mollohan. Thank you.
    Mr. Byrne.
    Mr. Byrne. I have spent my career trying to write about 
social ecology and community context, and I think what you just 
summarized is exactly where we need to kind of go with this 
whole issue of reentry. I use it to look at larger community 
level problems.
    What is it, half of all offenders that came out last year 
came back to only--I think it is five states, and within those 
five states they came to several dozen communities within these 
few states.
    So the big lie of offender rehabilitation program, I think 
I say it in my testimony, is that individual change is going to 
effect the overall crime rate. It won't for most communities 
because offenders don't live in most communities. They live in 
a small number of high crime, high minority concentration, 
poverty pocket areas, that have not seen a long-term reduction 
in violence that you have seen in the rest of the country. And 
there hasn't been a constituency for that group until now. You 
know it hasn't affected me where I live, as much as it affects 
the group that is kind of disenfranchised.
    And so that is I think the challenge for you here is to 
demonstrate to the general public why it is important to look 
at these areas that we have essentially ignored for several 
decades, while we have seen overall reductions in violence, 
which is a good thing, but it has not improved in those areas, 
it is actually gotten worse, and it has been, you know, I think 
that is pretty well documented.
    Rob Samson out of Harvard spent most of his career looking 
at that whole issue, and I think he has really highlighted it 
in some of his recent studies, and I cite him here in my 
testimony.
    So I agree, the community context I think is the key to all 
this.
    Mr. Mollohan. Well, Dr. Byrne, President Travis, thank you 
very much for your testimony today. We appreciate it. It is 
excellent testimony, a wonderful panel to end I think a very 
good series of hearings.
    Mr. Travis. Thank you very much.
    Mr. Mollohan. Thank you all very much for appearing today.
                                          Wednesday, April 1, 2009.

                          JUSTICE REINVESTMENT

                               WITNESSES

MIKE THOMPSON, COUNCIL OF STATE GOVERNMENTS JUSTICE CENTER
REPRESENTATIVE JERRY MADDEN, VICE-CHAIR, HOUSE CORRECTIONS COMMITTEE, 
    TEXAS HOUSE OF REPRESENTATIVES
ROGER WERHOLTZ, SECRETARY, KANSAS DEPARTMENT OF CORRECTIONS

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. Well I think we will be uninterrupted here 
for a little while so the hearing will come to order. This 
afternoon's hearing builds on the series of hearings that we 
held three weeks ago on prisoner reentry programs. Throughout 
the course of that week we heard from witness after witness 
about the need to invest more money in reentry services, the 
importance of coordinating services, and the need to employ 
evidence-based approaches and follow up with independent 
evaluations. Another critical lesson from those hearings is 
that while individual reentry programs can help transition 
offenders back into their communities, we need to organize our 
efforts on a large scale if we hope to have large scale impacts 
on overall recidivism. And beyond reentry, we need to find ways 
of reducing the number of prison admissions to produce savings 
for strained budgets at the state and federal levels while 
improving the security of our communities.
    The focus of today's hearing is Justice Reinvestment, an 
initiative of the Council of State Governments that attempts to 
take such a comprehensive approach to reforming criminal 
justice systems at the state level. I would like to welcome 
Michael Thompson, the Director of the Council of State 
Governments Justice Center, along with representatives from two 
of the states with which the Center is working. The Honorable 
Jerry Madden, who is vice-chair of the Committee on Corrections 
of the Texas House of Representatives; and Roger Werholtz, the 
Secretary of the Kansas Department of Corrections. Welcome, 
gentlemen.
    We look forward to learning more about the Justice 
Reinvestment initiative, including the way in which it is being 
implemented in Texas and Kansas, and how it is affecting the 
size of your prison populations, the capacity of your 
communities to provide services to offenders, and the safety of 
your communities. Your written statement will be made a part of 
the record. Before asking you for your oral testimony, I would 
like to call on our Ranking Member, Mr. Wolf.
    Mr. Wolf. Welcome.
    Mr. Mollohan. Thank you. Gentlemen, we will start from left 
to right here. Mr. Thompson.
    Mr. Thompson. Mr. Chairman, Ranking Member Wolf, members of 
the Subcommittee, thank you very much for inviting me to 
testify today to talk about the Council of State Governments 
Justice Reinvestment Initiative. As you know, prison and jail 
populations are increasing. These increases are fueled by 
revocation of probation and parolees. There are also a 
significant number of failures, and people leaving prison with 
no supervision whatsoever. What you all did over the past year 
to ensure the passage of the Second Chance Act and to ensure 
its funding through the Second Chance Act was really a landmark 
event, and we believe that that can really have a significant 
impact on recidivism, and we are looking forward to seeing it 
implemented.
    That said, states across the country, as you know, are 
facing major fiscal challenges, a combined $350 billion 
shortfall currently in their budgets. They do not have the 
resources to take reentry initiatives to the scale that we need 
to see a significant impact on recidivism. They are either 
shelving their reentry initiatives or they are dismantling them 
altogether in order to balance their budgets. What they are 
finding money for is to build more prisons frequently. And when 
they build more prisons they find themselves dismantling 
community-based services and supervision, which then fuels the 
prison growth further.
    Prison spending is taking an increasing portion of state 
spending. One out of every three who works for the state in 
Michigan and Ohio now works for the Department of Corrections. 
Florida and California really illustrate what happens when 
states continue to go down this path. Florida's prison 
population is projected to grow by about 25,000 inmates over 
the next five years. In order to build some facilities to house 
some of that growing the population the state spent $305 
billion last year to build more prisons. At the same time they 
cut community corrections, they cut community services. They 
also cut education by about $1 billion.
    Eventually, states run out of funding to kind of continue 
this growth. California is an interesting case study of that. 
It is one of the most crowded systems in the country. It has 
become so crowded, the state not having the money to build more 
facilities, a three federal judge panel has just ordered the 
mass release of 57,000 inmates to the community. That is a very 
scary, dangerous situation, especially when the community 
services and support that I referenced earlier have been 
dismantled.
    It is in this environment that the Council of State 
Government's members, conservative Republicans and liberal 
Democrats from across the country, have asked us to find a way 
to keep dangerous people locked up in prison, to increase 
public safety, and to actually reduce spending in corrections 
ultimately. And it was with that mandate that we created the 
Justice Reinvestment Strategy. And Justice Reinvestment is 
about analyzing why prison populations are growing and what the 
crime trends are, translating those findings into policy 
options, and then tracking the actual impact and to make sure 
that the results are actually gained.
    We have done work now in ten states across the country. In 
eight states where we have worked, and you will hear about 
Kansas and Texas in just a moment, but the results are in and 
they are very encouraging. Comprehensive criminal justice 
changes enacted that are all data driven, using the data that 
we have provided them. And since those changes have been 
enacted prison population growth has subsided. Prison 
populations have flattened altogether. And in some cases prison 
populations have even dropped. At the same time, where we have 
crime data from those states, we are seeing that crime has 
actually dropped at the same time. So the results of increasing 
public safety and spending less on corrections has been 
achieved.
    We want to thank The Pew Charitable Trusts, and the Bureau 
of Justice Assistance, and Open Society Institute, and other 
foundations that made all of this work possible.
    I want to just tell you about some themes that we have seen 
from across the state that are sort of cross cutting. The first 
is that no one size fits all. Every state's criminal justice 
system is different. You just take the case of Kansas, where 
parole revocation will go back for up to six months. And then 
you take Texas where parole revocation going back to prison 
will go up to four years. Every criminal justice, every state's 
criminal justice system is distinct.
    The second issue is bipartisan collaboration. In order for 
Justice Reinvestment to work you need to make sure that there 
is bipartisan collaboration across the branches of state 
government, and that we really effectively engage local 
government stakeholders, the prosecutors, police, judges, 
etcetera. And those in fact have been engaged in the states 
where we have worked Justice Reinvestment.
    The third issue is data. It is really astonishing the lack 
of data that is in front of policy makers as they are making 
very important decisions. As an example, Wisconsin runs $1 
billion corrections agency, has a research budget of zero. They 
are essentially policy makers blinded, trying to figure out 
what part of the elephant they are touching, fumbling thousands 
of jigsaw puzzle pieces, making huge decisions about the future 
of public safety without the information they need.
    The fourth is that place is very significant. We know that 
people released from prison return to very particular 
communities. In the case of Arizona we know that they return 
generally to Maricopa County in Phoenix. But if you take one 
neighborhood within Phoenix we found that it is 1 percent of 
the state's population, 6 percent of the state's prison 
population. If you want to have an impact we need to do 
something in that community to make sure the supports and 
services are available to help people succeed. Within those 
communities we need to make sure that we are targeting high 
risk people--50 percent of the people released form prison will 
fail, but 50 percent will succeed. And too often we see 
resources targeted on people who are going to succeed, and 
ironically the research shows that if you target people who are 
already slated to succeed you actually increase the likelihood 
of recidivism.
    And the last issue is that we need to make sure that we 
measure what actually happens. We need to actually track what 
was projected to be the impact and make sure that those results 
are actually achieved.
    And that is Justice Reinvestment in a nutshell. The demand 
for Justice Reinvestment across the states is overwhelming. We 
have a long queue of states, governors, and legislative leaders 
who would like us to work there. We are having a lot of trouble 
meeting that demand. But we look forward to talking to the 
Committee about how to make that happen. Thank you very much.
    [Written statement of Mr. Michael Thompson, Director, 
Council of State Governments follows:]

[GRAPHIC] [TIFF OMITTED] T1247C.030

[GRAPHIC] [TIFF OMITTED] T1247C.031

[GRAPHIC] [TIFF OMITTED] T1247C.032

[GRAPHIC] [TIFF OMITTED] T1247C.033

[GRAPHIC] [TIFF OMITTED] T1247C.034

[GRAPHIC] [TIFF OMITTED] T1247C.035

[GRAPHIC] [TIFF OMITTED] T1247C.036

[GRAPHIC] [TIFF OMITTED] T1247C.037

[GRAPHIC] [TIFF OMITTED] T1247C.038

[GRAPHIC] [TIFF OMITTED] T1247C.039

[GRAPHIC] [TIFF OMITTED] T1247C.040

    Mr. Mollohan. Thank you, Mr. Thompson. Mr. Werholtz.

                     Mr. Werholtz Opening Statement

    Mr. Werholtz. Thank you, Mr. Chairman, Ranking Member Wolf, 
members of the Committee. I appreciate the opportunity as well 
to come and talk about Kansas' experience in offender reentry, 
Justice Reinvestment, and risk reduction.
    I think that you will hear a repetition of the same themes 
from all three of us, but we each have a different perspective. 
Mine is as a practitioner, I am Secretary of the Kansas 
Department of Corrections. With the help of an awful lot of 
people and a lot of organizations, we have been able to achieve 
some things in my state that we are very proud of, and which we 
think have been of great benefit to us, and which I think give 
hope to people considering these kinds of policies that they 
are intelligent, that they are a good investment, that they are 
something worth reconsidering. And let me just share with you 
some of the data that we have been able to track in Kansas.
    We have been able to shrink our prison population from its 
historic high in 2004 by 7.5 percent. We have reduced our 
monthly parole revocation rates from the 2003 levels by 48 
percent. Our facilities report that inmate grievances have 
declined from their 2004 levels by 36 percent. Our special 
enforcement officers, which are our armed parole officers, 
report that parole absconders have declined by 70 percent from 
their historic highs. Those are the individuals who are 
actively evading supervision. But I think the most important 
statistic that I can share with you, and the one that I think 
for policy makers in my state have convinced us that this is 
good public policy, is that parolees are committing fewer 
crimes.
    What we have done is compared the reconviction rates for 
felony convictions committed by parolees under our supervision 
for the time period prior to us actively engaging in the 
reentry risk reduction process, with the most recent four-year 
time period where we have got sufficient data because of the 
lag times coming in that we think it is a valid comparison. And 
we have seen a 35 percent reduction in felony reconvictions by 
people that we supervise.
    I think if we were simply ignoring negative offender 
behavior nobody would argue that this is a policy worth 
pursuing. But when we can save resources and at the same time 
make our state safer I think everybody has become convinced 
that this is something that is worth our investment.
    We began this work by taking a systematic self-examination 
of our operations, and ended up characterizing what we were 
doing as risk management. And within that label of risk 
management charted out two paths. What we labeled containment 
and what we labeled risk reduction. And in the simplest terms 
if you think about our business of operating a prison system or 
a correction system, the concept of risk containment simply 
says that we are going to contain offender behavior, negative 
offender behavior, within an environment that minimizes the 
opportunity for that individual to harm a citizen within our 
state. And we want to use the minimum amount of force and the 
minimum amount of resources necessary to contain that 
individual. The concept of risk reduction says that we want to 
reduce the probability of negative offender behavior occurring 
regardless of the environment that those individuals are in.
    If you look at our business and how we have measured our 
performance, we and most prison systems in this country are 
really good at the containment business. If you divide our 
average daily population by the number of escapes that we have, 
or the number of walkaways that we have from our minimum 
facilities in a given year, the probability of a Kansas inmate 
getting out and doing physical harm to a citizen in our state 
is less than two-one-thousandths of 1 percent.
    And so regardless of the amount of additional resources 
that we invest in that effort, it is going to be difficult for 
us to improve very much on that level of performance in our 
state. But at the same time, when we were looking at 2003 and 
earlier, 55 percent of the people that were released from 
Kansas prisons or more were coming back for new crimes, or for 
violating their conditions of release. If we were going to make 
our state safer that was the opportunity that we had for 
improvement. And that is where we decided to focus our efforts, 
without reducing the level of commitment that we had to the 
containment side of the business. But saying, ``We want to try 
and do as well on the risk reduction side.''
    So we made a commitment to improve our agency's level of 
performance in the area of risk reduction. And we began this 
effort by looking at what the correctional research literature 
said yielded the best results. And you heard Mike mention to 
you some of those things. We wanted to look at what in our 
jargon is often labeled as the ``what works literature.'' We 
received help from a large number of organizations at the 
local, state, and national level, including Council of State 
Governments, the National Institute of Corrections, the Center 
for Effective Public Policy, the Pew Center, the JEHT 
Foundation, just to name a few. We literally had dozens and 
dozens of organizations coming to help us out.
    And based on what we learned we took that information to 
the Kansas Legislature, outlined in appearances before our 
Budget and Judiciary Committees what our strategy was. And we 
requested that they endorse that strategy. The reason that we 
did that is that we needed to be able to take that back to our 
employees, and the other organizations, particularly in 
corrections and law enforcement with whom we worked, to say 
this is the policy track that we are going to pursue and we 
have the backing of our state's policy makers.
    We also, and this is really critical, asked them not to 
judge us on individual events, but to judge us on our ability 
to influence overall trends. Regardless of the revocation rate, 
given the population that we work with there are some offenders 
who are going to go out and harm people once they are released 
from prison, and in some instances harm them very, very 
seriously. And we cannot offer certainty. But what we asked the 
legislature to judge us on was our ability to reduce the 
frequency with which those events occurred. And they agreed to 
do that.
    With the broad based support that we got from the 
legislature coupled with very public endorsements from my 
Governor, Kathleen Sebelius, and our senior senator, Senator 
Sam Brownback, we began a massive skills redevelopment effort 
within our agency, trying to equip corrections officers, 
corrections counselors, parole officers, and other individuals 
working within our agency with a set of skills that would help 
them become more effective in changing offender behavior, and 
try and allow us to achieve the same level of performance that 
we had on the containment side of the business. And those 
skills, again, going back to some of the things that Mr. 
Thompson mentioned, help us identify who to target for the 
interventions, what specific issues to target with them, and 
how we should go about addressing those issues. In our jargon 
risk needs and responsivity are the terms that we use.
    But as recently as 2007 the Kansas prison population was 
still projected to grow quite dramatically because of the high 
level of probation revocations, people coming in from the front 
end of the system. And I know Representative Madden laughs at 
these numbers because there are not enough digits in the prison 
population, and not enough zeroes in the budget. But we were 
looking at growing our prison population by over 2,000 in the 
next decade, and seeing an additional half a billion dollar 
investment on the part of our state to house and supervise 
those individuals. And for a state with a population the size 
of Kansas those are huge numbers.
    In response to that, our legislature, after seeing the 
preliminary results of our work on the parole side of the 
business that I just shared with you, made a policy decision 
that rather than expand prison capacity they would invest an 
additional $4 million, on top of the roughly $15.5 million that 
they put into our local community corrections programs, to try 
and allow them to put in place the same strategies that we used 
at the back end of the system with people at the front end of 
the system. That was Senate Bill 14 in our 2007 legislative 
session. It also created some modest incentives for prisoners 
to address the issues that contributed to their incarceration. 
And it increased their opportunity to earn time off their 
sentence if they were convicted of certain lower level crimes.
    The Council of State Governments in an independent estimate 
performed for our legislature concluded that Senate Bill 14 
will allow my state to avoid an additional $80.2 million in 
additional costs over a five-year period.
    We have not been immune from the economic problems that are 
facing this country. And we are experiencing some of the issues 
that Mr. Thompson referred to. We are having to undo, 
currently, some of the things that we put in place that helped 
us achieve these results. But I am hopeful that based on our 
experience when the economy does turn around we will have a 
roadmap to rebuild what we had in place, and then improve upon 
that performance.
    I appreciate the opportunity to come and share our 
experience with you today.
    [Written statement of Secretary Roger Werholtz follows:]

    [GRAPHIC] [TIFF OMITTED] T1247C.041
    
    [GRAPHIC] [TIFF OMITTED] T1247C.042
    
    [GRAPHIC] [TIFF OMITTED] T1247C.043
    
    [GRAPHIC] [TIFF OMITTED] T1247C.044
    
    [GRAPHIC] [TIFF OMITTED] T1247C.045
    
    [GRAPHIC] [TIFF OMITTED] T1247C.046
    
    [GRAPHIC] [TIFF OMITTED] T1247C.047
    
    Mr. Mollohan. Thank you, Mr. Werholtz. Mr. Madden.

                      Mr. Madden Opening Statement

    Mr. Madden. Thank you, Mr. Chairman, Ranking Member Wolf, 
members of the Subcommittee. I am pleased to be here today to 
talk a little bit about what Texas has done in Justice 
Reinvestment. Our strategies, which really did work across 
party lines in a bipartisan manner, to reduce recidivism and 
increase our public safety, and particularly to help our Texas 
taxpayers.
    I got started in this, I was chosen Chairman of the 
Corrections Committee in 2005. And was given the instruction, 
basically, to look at the cost of prisons, because they cost a 
lot to build. I started looking at them, okay, if we are not 
going to build new prisons what can we do? What differences can 
we make in this whole system? I am neither a lawyer, nor 
anybody that has been in the criminal justice system, and I do 
not even have a prison in my district. But I had the challenge 
that was there. And I heard some things from people in my 
district. Because you would ask them, ``Well, who is in 
prison?'' I have 157,000 prisoners in the State of Texas. It 
matches pretty closely to the federal system, you know, the 
federal prisons. We have 112 prisons. The 2,000 prisoners Roger 
was talking about, that is about a two-week input in the State 
of Texas' system, to put it in the scales of what we are 
dealing with.
    But how do we make those differences? Because what the 
people were telling me is, and I got real quickly was that 
there were two types of prisoners we had. There were the really 
bad guys that really ought to be locked up for a long time, and 
then there were the others that we were mad at. That they had 
done something in violation of the law that hurt some people. 
That, you know, made them mad, but would not have that much 
effect on them.
    And I started asking the question of people out there in my 
district, and I am a conservative Republican. I started asking 
them where, you know, who are these guys that are out there? 
How many of you have family members that were or are in the 
prison system, or involved in the drug programs? How many of 
you went to school with somebody that you know? And how many of 
you did, have grown up with or grown up playing sports in this 
community, or had people you worked with, in that category? And 
where they really bad guys? Or were they people who had made 
mistakes and deserved those kinds of second chances?
    And I will tell you, yes, we certainly ran into some that 
were really bad guys. But the vast majority of them said, you 
know, they had some pretty good redeeming qualities. They just 
made some terrible mistakes. And what can we do? What are the 
differences that we can make?
    So we started looking at, Texas has a history of spending 
lots of money on building prisons. As I said, I have got 
157,000 prisoners right now. The 112 facilities that we have 
out there we spent over, almost $2.5 billion in twenty years to 
expand our prisons. And we went into the 207 legislative 
session with a projection that we were going to have to build 
about 17,000 new prison beds by the year 2012. And that we had 
in our budget projection, in our budget that we had prepared by 
the governor, we had three new prisons costing just under $600 
million would be the additional cost of building those prisons 
to hold the first wave of those 17,000.
    I worked closely with a lot of people. This was more of a 
legislative thing that we looked than it was coming in from the 
Governor, or coming from the prison system itself, but coming 
totally within the legislature. And I worked very closely with 
my compadre in the Texas Senate, Senator John Whitmire, who is 
a Democrat. He is the Chairman of the Senate Criminal Justice 
Committee. And we did a lot of, we requested a lot of technical 
assistance, particularly anything we could get from the Council 
of State Governments and their Justice Center, to get us the 
information on what works. What can we do? If I am going to 
control the prison population I have got to do one of two 
things. I have either got to keep people from coming back in, 
or I have got to stop them from coming in the door in the first 
place.
    And so, what are the programs? What do those things that we 
found, and at our request they conducted an analysis of the 
state prison population and identified several key factors that 
drove the growth. Low rates of parole, high rates of 
recidivism, and a shortage of treatment programs and capacity. 
It was not so much that we did not have treatment programs. It 
was that we did not have the capacity in them to handle them.
    We started looking at the type of prisoners we have in the 
State of Texas. 5,500 of those 157,000 that I have are there 
for repetitive DWIs, and we do not take them obviously for 
first and second ones. They are there at least three, four, 
fifth, sixth, DWIs. They are habitual drinkers. And we had over 
50,000 that were drug offenders. Most of them nonviolent first-
time offenders. We incarcerated large numbers of people with 
mental illness, mental health problems. We are the dumping 
grounds for the mental health system.
    Before the end of the 2007 session we in the Texas 
Legislature enacted a package of criminal justice reforms that 
looked at the whole process. We looked at the parole process. 
We looked at the probation process. We looked at what happened 
to the people in prison. And to be honest, I looked way back in 
learning how to break that cycle. And then doing the things we 
did, we put in 800 new beds and residential treatment for 
people on probation, supervision with substance abuse needs. We 
opened up 3,000 slots for outpatient substance abuse treatment 
for people on probation. Or we put 1,400 beds in intermediate 
sanction facilities to divert probation and parole technical 
violators from coming back to prison.
    And one of the things we found out was people ended up in 
prison not because of another offense, but because of either a 
technical violation of probation or parole. Which in most cases 
meant dirty urinalysis. In most cases they were not sent there 
just because they had another offense. Those were sent for 
other, those were clearly identified to us as repeat offenders 
of some other type. But they were just technical violators. 
They had not shown up for meetings. Usually a compound number 
of those things that had happened to them.
    We had 300 new beds in halfway house facilities for people 
under parole supervision. We put 500 new beds in a facility for 
our in prison treatment unit targeting these DWI people. So we 
expanded the capabilities we had there from 500 to 1,000 beds 
that we could treat these DWI offenders. Because we found out 
in our system there were people actually coming in and they 
were alcoholics, and they were not even getting our DWI 
program. They got back out, and guess what? They came back in 
the door. Because there had been no treatment program that had 
been actually put into those people.
    We had the same thing for substance abusers. We found out 
that some of them were not getting in a timely manner the 
substance abuse programs that they had. That is why we put in 
1,500 new beds in a prison for intensive substance abuse 
treatment programs. And we put in 1,200 slots for intensive 
substance abuse programs in the state jail system. Our state 
jail system takes our lesser offenders.
    A portion of these savings were reinvested in strategies to 
improve the outcome. So I looked at things that break the 
chain, and we looked at a program called the Nurse-Family 
Partnership. And I would highly advise any of the members here 
to take a good look at a program that has the history and the 
background and the statistics that it really works, and has a 
difference not just in criminal justice and not just in family 
violence. But it does help in schools, and it does help 
programs for mothering. It is a tremendous program.
    Since the enactment of these new policies our crime rates 
are down, revocations are down, and our prison population is 
stable. I am going to use one of the quick charts here, guys, I 
actually ran up, which is this one right here which is the 
Texas prison population and what has happened to it since we 
did those things.
    [Chart]
    Mr. Madden. The top line, the red line, is the projection. 
The blue line is what happened. And we can now say for certain 
that what we did, and the things we have done, in all of those 
areas, have led to the point where we capped out at about 
$156,000 prisoners and we are down to somewhere about $154,500 
right now because of the things we have done. And we have a 
projection from our Legislative Budget Board, which is our 
people that make the projections for us, that indicated to us 
clearly that in the next seven years we will not have to build 
one new prison bed in the State of Texas because of what we 
have done. So what I am saying is, the strategy does work and 
it works well.
    [Written statement of Representative Jerry Madden follows:]

    [GRAPHIC] [TIFF OMITTED] T1247C.048
    
    [GRAPHIC] [TIFF OMITTED] T1247C.049
    
    [GRAPHIC] [TIFF OMITTED] T1247C.050
    
    [GRAPHIC] [TIFF OMITTED] T1247C.051
    
    [GRAPHIC] [TIFF OMITTED] T1247C.052
    
    [GRAPHIC] [TIFF OMITTED] T1247C.053
    
    Mr. Mollohan. Thank you, Mr. Madden.
    Mr. Madden. Thank you, Mr. Chairman.
    Mr. Mollohan. Well, it is all very impressive testimony. 
Going back to that chart, just before I get into questioning.
    Mr. Madden. I hope the Committee was provided----
    Mr. Mollohan. Well, we would like to have a copy of it for 
the record.
    Mr. Madden. Absolutely.
    Mr. Mollohan. Because I am going to ask you questions on it 
for the record, and it would probably be hard for the record--
--
    Mr. Madden. By the way, Kansas is down here someplace, down 
here. And their numbers will be down here.
    Mr. Mollohan. I am sorry?
    Mr. Madden. Kansas' numbers will be somewhere down here on 
the chart.
    Mr. Mollohan. I see. Well, it is all relative, is it not?
    Mr. Madden. It is. It is.
    Mr. Mollohan. Where on this chart did you enact the 
legislative initiative that----
    Mr. Madden. The budget things we did were in our 2007 
legislative session. It went into effect, most of them I think 
went into effect in September 2007.

                  TEXAS DEPARTMENT OF CRIMINAL JUSTICE

    Some of them started a little earlier, because we were 
working with the Texas Department of Criminal Justice all 
along. They knew we could do some things on probation and 
things that they could have done, so we were working as fast as 
we can with those guys.
    Mr. Mollohan. It is a very impressive line. What you have 
actually done is leveled off the population, you kept it from 
growing.
    Mr. Madden. We have actually seen about a 1,500 prisoner 
reduction.
    Mr. Mollohan. There has been a bit of a reduction, you can 
see. That is very impressive.
    Let me ask you gentlemen, each of you. One of the premises 
for reform which is particularly appealing to some, those who 
are deficit hawks, is that these kinds of initiatives save 
money. And I heard at least two witnesses testify that because 
of the fiscal condition that states find themselves in, that 
you have had to curtail this initiative. Well, if these 
initiatives, these anti-recidivism initiatives, actually save 
money, why would states choose not to pursue them, particularly 
in a declining budget? Mr. Thompson, why do you not start.
    Mr. Thompson. No, it is a puzzling situation. We feel you 
cannot put a price on public safety.
    Mr. Madden. You cannot put a price on public safety. We 
want to make sure that we are maximizing public safety with the 
options that we are talking about. But we do think that you can 
spend less and get a better public safety outcome in a lot of 
these instances. And you are absolutely, there are these, 
targeting resources in a correct, and smart sort of way you can 
actually get a better outcome in crime. So why are states not 
doing it?
    There are really two reasons. And it is back to my image 
of, I gave Wisconsin as an example, it is a billion dollar 
agency and they have no research capacity whatsoever. It has 
all been eliminated. And what they know with their prison 
population, it is growing very quickly. And there is a rush to 
figure out a way to make sure that they have the additional 
capacity to house those prisoners. And the only way they can 
find the money to increase the prison capacity is essentially 
to strip whatever funding existed from efforts that were based 
on the community and the supervision. And it is an ironic and 
troubling situation. But in the absence of any good hard data 
and information, that is exactly what policy makers end up 
doing.
    Mr. Mollohan. So they need to know.
    Mr. Madden. That is right.
    Mr. Mollohan. I mean, there needs to be a real 
communication. Are you satisfied that in fact that premise is 
accurate? That there are savings and that they are 
quantifiable?
    Mr. Madden. Yes I think that we have the two terrific 
examples here where Kansas has literally averted, you know, 
over the ten years Secretary Werholtz was talking about a $500 
million savings. And in the case of Texas, $800 million in 
savings in terms of the construction plans they were looking 
at.
    Mr. Mollohan. Secretary Werholtz.

                             CLOSE PRISONS

    Mr. Werholtz. Let me talk about our experience for a 
minute. The cuts that we had to take would have been worse had 
we not engaged in this effort. I was able to close three small 
prisons because we did not need the beds, and close a cell 
house, a major cell house, in a fourth prison and take, I do 
not want to try to do the math in my head, but take a 
significant number of beds offline because they were not 
needed. In my explanation to our legislature about the cuts 
that we were recommending, those were the ones that I testified 
were the only cuts that I could recommend that would not have 
some adverse impact on public safety.
    I do not have the statutory authority to release prisoners. 
So if I am required to house the population that I am dealt, I 
have got two choices. I either seriously overcrowd what prisons 
I keep on line and try to close some larger ones down. That 
puts my staff at risk. It puts the offenders who reside in 
those facilities at greater risk. It increases the probability 
of us being unable to contain the population as well as we do.
    The other alternative is to start to undo some of those 
things. In fact, there was an editorial that was run in one of 
our major papers in our state today where the editor had asked 
me, ``Is this not a penny wise, pound foolish proposition?'' 
And I had to admit that yes, it was.
    Mr. Mollohan. What was the proposition exactly?
    Mr. Werholtz. Well, that we start to systematically undo 
some of these things that in the long run are likely to 
increase the prison population. Produce less favorable public 
safety results and increase the expenses. It was what, I guess, 
we considered the least onerous of a number of bad choices. My 
hope is, and what our testimony has been in hearing with our 
budget committees, is that I hope when the economy turns around 
we remember what we did so we can start to put those things 
back in place when the resources are there to do it.
    The other thing that I would say is that while some of the 
treatment and education options, and housing options, are going 
away in our state temporarily, the skills that we infused into 
our staff we hope will remain. And the partnerships that we 
have built with other organizations at the state and local 
levels we hope will remain. And what I think we are going to 
learn in this state is whether it is the way we work with 
offenders that is most important, or whether it is all of the 
tool that we have available to provide for them that is most 
important in contributing to public safety. I firmly believe 
both are important. But I am hopeful that the skills that our 
staff have acquired over the last few years and the 
partnerships that we have built will mitigate the loss of some 
of these really important resources.
    Mr. Mollohan. Representative Madden.
    Mr. Madden. Thank you, Mr. Chairman. In Texas' situation we 
are still in our budget cycle right now. We are still in 
session right now and we are going for another seventy-some 
days and our budgets are still being worked on at the present 
time. I am fairly optimistic that the money that we put in in 
the last session is actually going to stay. We have had support 
from the Governor's Office. We have had great support from the 
legislative leadership in doing the things that we have done. 
And I am very optimistic that most of those programs will in 
fact stay in the budget.
    Mr. Mollohan. Can you make arguments to our colleagues that 
if you stay the course that you will save money?
    Mr. Madden. Absolutely. We are obviously on that path and 
we are beginning to get the statistics to show that. They know 
the difference now that we did not spend in the $600 million 
for the new prisons. We all recognize the fact that what we 
have done, and that the programs seem to be working. Our crime 
rate is down. Texas has the advantage of being big, and it has 
a lot of statistics, a lot of numbers that we can go on. And 
when we look at the numbers we clearly have a recidivism rate 
that appears to be improving. That we have the programs that 
appear to be working, particularly in things like our drug 
courts. They are really, we have got enough testimony out there 
from people that say these are really working.
    And we spend $50 a day for each prisoner that we put in the 
prison. So if I just cut 1,000 prisoners, that is $50,000 a day 
that we are not spending on the prison system in Texas. And I 
think my colleagues, the message came across very loud and 
clear. We were both being smart, and we were being tough on 
crime. We are putting the people in prison that need to be, but 
putting other people where they needed to be also.
    Mr. Mollohan. These incarcerated individuals that you are 
releasing, is the state incurring a cost in pre-release 
treatment?
    Mr. Madden. The state has put money into these alcoholic 
and drug treatment programs. We are obviously, that has an 
expense to us. That was part of the $247 million that we added 
into the budget.
    Mr. Mollohan. So it is still a savings overall?
    Mr. Madden. Absolutely. A substantial savings, over $600 
million, in new prisons. And the fact that we would have had to 
add that many more guards when we have, obviously, a shortage 
of guards.

                  JUSTICE CENTER PARTNERS WITH STATES

    Mr. Mollohan. Mr. Thompson, can you describe the process 
through which the Justice Center partners with states?
    Mr. Thompson. Yes. For us to be engaged in a state we need 
to get a written letter of request from the governor, from the 
legislative leadership, the speaker, senate president, chief 
justice. And then we sit down with them and we ask several 
questions. Is the state willing to work in a bipartisan way to 
begin to analyze the situation? I should add to that, are they 
willing to work with the local government stakeholders who play 
such a key role in what is happening in their criminal justice 
system? And then we also look to determine whether they will 
provide us with access to all the information systems that we 
need. There is a lot of information that is often sort of 
sloshing around in state government. But they just have not 
been able to actually look at it, analyze it, etcetera. And we 
are going to need access to all of those different information 
that are housed in the multiple agencies. And then we need a 
commitment that they are actually going to use this information 
in a constructive way. We do not want to get involved in a 
situation where we become a political football. So once a state 
can demonstrate adherence to all of that criteria, and then I 
should also add that they will also take a financial stake. We 
look for them to cover some of the costs that are associated 
with this.
    Mr. Mollohan. Thank you. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. And Mr. Chairman, I want 
to thank you for the hearings. I think they have been very 
good. I think it is the most extensive since I have worked in 
this institution, that there has been so much time spent.
    Also, Mr. Werholtz, if you vote for Sam Brownback for 
Governor you will have one of the finest guys that I know. 
Because he cares deeply. I mean, I have traveled with Sam on a 
number of occasions and he really cares deeply about these 
issues. And so it is not a partisan issue.
    Also, I think all of you covered, I wanted to ask, but 
before I do is, I thank whatever is done really has to be so 
authentically, truly, bipartisan. And we have been talking 
about maybe putting together some sort of commission to look at 
things. And I am going to ask you if you have been in touch 
with Pew, I am going to ask you a little bit about that. But if 
you get a group of people that look at this who are either, you 
know, the prosecutor who says I am going to lock everybody up 
and throw away the key, or if you get the head of the ACLU, 
forget it. It is over. It is history. It is finished. It will 
never happen.
    And I think, you know, I do not know what your background 
was, I do not know what you are, and I do not really want to 
know what they are. But I think if you can truly, if you could 
get a Chuck Colson who really understands these issues, and 
then get one of you men, or one of the three that were on the 
panel before, the gentleman from Michigan, and you had the Doe 
Fund. And some people who really are not in this political 
business, and they are not so predictable that you know where 
they are.
    I think there is a unique opportunity. I think we are 
coming to a storm economically, the figures that came out 
today, the unemployment rate. And I think there is a later 
report coming out this afternoon saying 25,000 state and local 
jobs are gone. And I am sure a lot are going to be prison jobs. 
So here is an opportunity to do something. So I do think it has 
to be so truly bipartisan that it stands the test no matter who 
comes at it.
    The questions are several. One, I had asked before at the 
last hearing, and the Council of Government had somebody, and 
we have talked to the Pew people. Have you spoken to the Pew 
people about putting a conference on in the fall or something 
that really brings together the best minds? Where is that?
    Mr. Thompson. Yes. We have spoken to The Pew Charitable 
Trusts. They are a key funder of ours. Actually, there is a 
representative from The Pew Charitable Trusts right here and--
--
    Mr. Wolf. Who is that, just so I, okay.
    Mr. Thompson. Jake Horowitz is here. And they would, well I 
do not want to speak for them, but I know there is a huge 
interest in having that conversation, about that meeting that 
you are talking about. And we just need to get dates and we 
will be meeting with your staff in a heartbeat to get that set 
up.
    Mr. Wolf. Okay. I think, too, the same thing would hold 
true when you do that, that you have it, both sides, if you 
will. People who really understand, who are not trying to, you 
know, make a political statement one way or another. So that it 
carries credibility. And I think that the Chairman has had a 
great group of witnesses who can, you know, kind of 
participate.
    The other thing is, is it not time, and maybe both of you 
two, I was going to ask you, what state is the best but I am 
not going to ask you that.
    Mr. Madden. We would have divided counsel on that for you.
    Mr. Wolf. Well, I think it is interesting. Kansas is 
different than, I mean, you have different areas and, you know, 
you have rural area, different types. And you have Wichita, 
where you have urban cities, you have Houston. But the 
combination is good. But do you think it is possible that if 
this conference works out well, that there can truly be a model 
law best practices, so that it stands the test of time. That 
any Secretary of Corrections who gets appointed will have a 
place to go. This is the best practices. This is the best 
practices on the issue of work. This is the best practices for 
the issue of faith. This is the best practice, I mean, can we 
establish, is there a model law, number one? But can we 
establish a model law and the best practices that can withstand 
the test from all different----

                               MODEL LAWS

    Mr. Madden. I have got to tell you, when I was doing the 
things that we were doing, Mr. Wolf, I did not find a model 
law. Because each of the states were different. And each of our 
demands and needs were different than the other states. And I 
did go looking. I mean, obviously, there are organizations, 
from the National Conference of State Legislatures, that look 
at model laws. And we did not find anything that says, ``This 
is a cookie cutter that we should be using.'' There are great 
recommendations, though, that can be put into those. And it may 
be that it is needed, it just was not there to go grab hold of.
    So we had to, at the stage, at least in Texas, invent what 
we thought was going to be the best practice. Now, we were 
fortunate. There a couple of groups out there. The Washington 
State people have a wonderful research group that does great 
data on many of the programs. And they do great comparisons. I 
would highly recommend that your staff look at what Washington 
State has provided.
    We did also have the advantage that Texas had such a group 
until 2003. So we did have some of the statistics in Texas. And 
fortunately, some of that is now with the Council of State 
Governments with the Justice Center, that they are specifically 
doing some of those additional data items. So that they are 
there for us to get that kind of research that we needed. But 
we did not have all that to fall back on. So what we 
specifically did look at is, ``Okay, look, those things we have 
in our state,'' say, ``How are they working? What is the data 
that we have that shows whether they work or not?''
    And we found that really the problem was not so much that 
there were not programs out there, that there were not things 
out there, that there just were not enough of them. That they 
were not being used in the right manner. You were right when 
you talked about the different groups that are out there. We 
were fortunate in Texas. In 2005 when I started doing some of 
these things, we looked at, ``Well, what are these groups 
bringing in?'' And, you know, when you come into these hearings 
you will hear from different groups from side, and different 
groups from the other, and their think tanks come in with all 
sorts of ideas.
    Well, what I found when I got all sides in there, was that 
with the exception of a few things on the extremes, that they 
really breed in this area. That there are lots of those things 
that those people who were intelligent, thoughtful individuals 
agreed on. So between the 2005 and 2007 session that we had I 
actually pulled those people in the room and said, ``You guys 
work on this probation bill. I have got to do a probation 
bill.'' It did not. It came one vote short. The Governor did 
not agree with it.
    But we came back up, and we passed it with a lot of other 
things that we did. But I pulled them into the room and said, 
``Okay, you guys pull together.'' And ACLU was part of it, and 
so were some very conservative attorneys groups that said, 
``Okay, there were lots of things you guys agreed on when you 
talked to me about this. Sit down at the table and let us see 
what those are.'' And that is actually what we pulled together, 
was those things that actually they all, almost totally, agreed 
on. And so we were able to do that kind of thing like you 
talked about.
    And you are absolutely right. It will become a point-
counterpoint if you do not do it so that all sides have that 
place. But I will tell you, I have talked to both the 
conservative and liberal think tanks around the country. And in 
this particular area that is a lot of consensus on things that 
do work. Things that work in the way of drug treatment 
programs, things that work in the way of alcoholic treatment 
programs, things that work in mental health. They can in fact 
make big differences in this whole structure for us.
    Mr. Wolf. Well, should, and then maybe Mr. Werholtz, should 
there be if not a model law but a reservoir of knowledge and 
information on everything that, whether the Council of 
Government, that a new secretary can go to directly.
    And that is the first, and to follow up it, and now both of 
you, I want to ask you, if Kansas was so progressive on it or 
whatever, and Texas, was this led by a bottom up? Or was there 
one or two individuals in each that say, you know, William 
Wilberforce, who abolished the slave trade, who worked on 
prison industries and reform in Great Britain, it was from a 
man, or a group of men and women, who got together. It kind of 
came back, so did Kansas come because of Texas? There were 
three or four people who felt this burden? Or did it just, how 
did it come about? One, tell me about the model, or having this 
one place that everyone can go to. And then, how did both of 
yours come about?
    Mr. Werholtz. Well, I agree with Representative Madden that 
there is no specific model piece of legislation. I think what 
was most helpful for us was that our policy leaders made a very 
explicit set of expectations for us.
    Mr. Wolf. But what led them to do that?
    Mr. Werholtz. I think it is different in each state. I 
think in Kansas it probably was a bottom up movement to some 
degree. But there was also a coalition because that was, you 
know, something that Senator Brownback was working on at the 
national level. And maybe we met in the middle. I am not really 
sure I can tell you exactly how it evolved, but it did evolve. 
What was really helpful for us was both my Governor and my 
Senator saying to a group of legislators, and Senator Brownback 
said it most clearly, he said, ``I want to see recidivism cut 
in half in this country in the next five years, and I want it 
to start in Kansas.'' Very simple, very straightforward.
    If you look at the enabling legislation for my department, 
that would take you in one policy direction. If you look at the 
sentencing laws in my state, that would take you in a 
completely different direction. So the thing that Congress can 
do, the thing that state legislatures can do that does not cost 
a penny, is set a clear sense of direction and expectation. And 
resources are obviously necessary and very helpful. But it is 
that set of expectations that is most helpful.
    There is no single model out there. But what I would say is 
set an expectation that says that whatever you do and whatever 
you invest in will be based on the best evidence that is out 
there of the strategies that work with offenders on the 
particular issue that you want to address. You know, we 
oftentimes will characterize things, that substance abuse 
treatment works. Well, sometimes it does and sometimes it does 
not. You have got to have the right model with the right 
people, implemented in the right way at the right time. And you 
have got to come back and monitor it constantly.
    So a clear set of expectations on outcomes. Clear set of 
expectations on how resources will be invested. And then, this 
is a personal crusade I am on, but a way to collect the data 
and compare it across jurisdictions. You heard Mike talk about 
Wisconsin and the fact that they have no research capability 
and no data. The information technology platform in my state is 
over thirty years old. The one in California is even older than 
that. The people that know how to program our platform are all 
retired. And frankly, are dying off. And, you know, the federal 
government has invested in a lot of criminal justice 
initiatives. The one that comes to mind is the VOI/TIS 
Initiative, Violent Offender Incarceration/Truth in Sentencing. 
That changed the direction of criminal justice policy in this 
country remarkably. And the federal government invested 
billions of dollars. For a much more modest investment I think 
you could modernize the information technology platforms in all 
the states across the country, collect uniform data, get a 
sense of what the results of your investment are, and provide 
policy makers and practitioners like myself the tools to make 
informed decisions.
    Mr. Wolf. The last question is, what about the issue of 
faith? Prison Fellowship is in my district. I have gone into a 
number of prisons with them and without them. The men that I 
have spoken to, both with them and also when I have gone in by 
myself, faith has seemed to be, and I know there is one, or you 
have some prisons, you have one or two prisons in Texas that 
are heavily----
    Mr. Madden. We have several.
    Mr. Wolf. Can both of you talk about the impact of faith 
and religion?

                           FAITH AND RELIGION

    Mr. Werholtz. We have an IFI Program in our state as well, 
Inner Change Freedom Initiative. It is the Prison Fellowship, 
Chuck Colson program. We have over 800 volunteers who are 
primarily faith-based that come in to assist them, which at the 
size of ours that is one volunteer for every ten inmates. What 
the science says about faith is that finding God, in whatever 
way that you understand God, is probably not sufficient to turn 
that person's behavior around. But it may be the doorway 
through which that person walks to get all of the other 
resources that they need to stand a bona fide chance of making 
it in the real world. And if you look at, if you just look at 
an IFI Program, The Inner Change Program, you look, you do not 
listen to what is being said, you just watch what is going on, 
it is exactly the same process that you would find in a 
substance abuse therapeutic community. And what those faith-
based programs often bring are all of the other resources that 
the person needs to survive: access to a job, access to 
housing, access to pro-social support groups, all of the other 
things that help people succeed. So from my point of view I do 
not care if it is a religious experience, an educational 
experience, an influential staff member. I do not care what it 
is that hooks that person and gets them motivated to change 
their behavior. But I need to be open to all of them because, 
again, going back to that principle of responsivity, each of us 
responds to something different. And you do not shut the door 
on something that lets people in.
    Mr. Madden. And I am going to say I totally concur with 
what Roger just said. The faith-based units that we have in 
Texas also offer the followup for their people. When they are 
leaving prison they provide them with the mentoring, they do 
provide them with someone in the community that can support 
them. That is a major part of any of the programs they have 
got. Because the critical steps are, yes, they may have found, 
you know, they may have found their religious target that they 
wanted to find. But what we have to do for them beyond that, I 
believe, is make sure when they, that somebody is there when 
they leave. That they have someone who does care about them, 
because there are many of them that are, in our prisons that 
have very few people who care about them on the outside. If 
someone cares, if someone is helping them provide their way 
into the community, takes care of those first few days when 
they get back into the community and the changes that they have 
in their life. And then in the long term there is a mentoring 
support system. So the churches do a great job of doing that. 
And we need to be encouraging them. And anything we can do 
expand on their ability to do that. But it is like they are 
changing one life at a time like we have to do.
    Mr. Wolf. Well that would be the challenge. And that is 
what Chuck Colson does, take a person out. Not just for the 
three years they are in prison, but then the thirty years after 
they get out. And so, anyway, I thank you.
    Mr. Madden. And I would like to also say there are other 
programs that do that, not just the faith-based programs. But 
we have some other great substance abuse programs and other 
treatment programs that are doing some of the same kinds of 
things within their community, too.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Let me echo Mr. Wolf's comments on the fine set of hearings 
you have been holding, and I am glad that my schedule of 
chairing my own committee has allowed me to be here. Then I 
will be disappearing soon for my own hearings, and I hope you 
remember that I made an effort at the end of the session.
    Mr. Mollohan. It is well documented.
    Mr. Serrano. Thank you so much, Mr. Chairman.
    Mr. Mollohan. With excellent inquiry.

                           LATINO POPULATION

    Mr. Serrano. A little inside baseball here, but from 
chairman to chairman we understand.
    Gentlemen, I want to thank you and join everyone in 
thanking you for your testimony today and for the work you do. 
It is such an important issue.
    And I want to bring you to an issue that came up at another 
hearing when the Federal Bureau of Prisons was here, and that 
is the increase in the Latino population in federal prisons, 
and we imagine throughout the state prisons. One-third of the 
federal prison population, for instance, is Hispanic, and 
Latinos were 40 percent of all those convicted of federal 
crimes.
    What we couldn't establish clearly at that hearing, at 
least to my satisfaction, was--and this then speaks to the 
state prisons as well--how many of these folks were there 
because they are non-citizens who have committed other crimes 
or--well let me backtrack a second.
    It was clear that the increase was in non-citizen 
Hispanics. So were they there because they had committed other 
crimes which put them in prison? Or, and this is where I 
couldn't get a good answer, and I don't say a straight answer, 
because I don't think they had the information, was a largely 
significant number of those folks in prison for immigration 
related issues?
    Which then would speak to your whole strength and your 
argument that some people should not be in prison for certain 
situations, they should be elsewhere.
    So number one, has there been an increase at your 
localities in the Latinos population?
    Secondly, is that in any way related to immigration issues, 
and you feel they should be somewhere else and not in prison? 
Perhaps getting into a situation which will make them real 
criminals when they come out.
    And just for the record, I know that to a lot of people in 
the country entering the country illegally is a crime, and 
certainly under our law it is, but we as human beings know that 
that is not the same crime as my stealing something or killing 
someone or assaulting someone. It is a desire for a better life 
and in the process you break a law.
    So anything you want to tell me on those numbers that I 
presented to you on what you know in your states and speaks to 
the federal issue.
    Mr. Madden. Let me fire Texas first of all.
    Yes, there has been an increase in Hispanic population, and 
there has been a large increase in the Hispanic population in 
Texas.
    I don't believe, in fact most of our--we have very few 
immigration related prisoners in the state prisons. They are 
felony offenses, have to be, most of those would go that are 
felony offenses would be in the federal system not in our state 
system.
    We have in our prisons, of that 157,000 population, we have 
about 10,000 which we now call illegal aliens, okay, because 
the difference not necessarily they were here illegally to 
start with, but--I am sorry, the term is used criminal aliens, 
because they are not U.S. citizens, and therefore we have them 
as non-citizens, and they would be at some stage deported by 
the state of Texas after they serve their terms, but they are 
there for felony offenses, and that would not put them there 
because of immigration status. But the number is just over 
10,000. It varies every day but about 10,700.
    Mr. Werholtz. Our experience I think is quite different 
than Texas.
    We have looked twice recently at the request of our 
legislature, at the question about whether or not our prisons 
were becoming flooded with illegal aliens.
    We have about 8,500, 8,600 people in my prison system on 
any given day. We can identify 80 that fit the criminal alien 
definition, and every one of them was actually convicted of 
another offense, a criminal offense in Kansas.
    Immigrations and Customs Enforcement had approached us 
about a program that they are taking a look at, actually 
promoting quite actively, to remove criminal aliens from state 
correction systems and deport them back to their country of 
origin.
    A number of states, I think in particular New York and 
Arizona, have taken advantage of that, because that did remove 
large numbers of prisoners from their system.
    We have not, because first of all the number is so small, 
and secondly, we had no assurance that they would not return 
and re-victimize Kansas citizens.
    And the kinds of offenses that were of concern to us were 
obviously violent and sexual offenses, which is what they were 
serving time for.
    We do have a disproportionate incarceration issue. Latinos 
and African Americans are disproportionately represented in our 
prison system, but I don't think that immigration or illegal 
immigration plays much of a role in our particular system.
    Mr. Serrano. So then it is clear from your testimony that 
the folks you know about are not there for any immigration 
related issue, it is just that they happen to be here with also 
an immigration issue, and they have committed other crimes.
    Mr. Werholtz. Yes, sir.
    Mr. Serrano. I have a quick question then. With that growth 
in population, and I am sure that is a challenge in terms of 
creating ESL programs or other services within the system, what 
can you tell me about that?
    Mr. Werholtz. It is a huge problem for us. One of the 
primary issues is that most of our prisons are located in rural 
areas that are predominantly white. It is extremely difficult 
for us to recruit Spanish speaking employees.
    If you look at our prison population, about 35 percent of 
it is African American. If you look at our employee base about 
11 percent of our employees are African American. That is 
greater than the proportion of the state's population, but 
significantly lower than the proportion of our prison 
population.
    And one of the things that we firmly believe is that our 
facilities are safer and easier to run when the staff looks and 
talks the same language as the people that we incarcerate. You 
know, if nothing else in terms of Spanish language, our being 
able to understand what is being said by the prisoners that we 
supervise is critical. And when we can't do that, that creates 
a security problem for us.
    It is something that we are struggling with, and I don't 
have a good solution for it yet, because my prisons are in the 
wrong place to recruit the kinds of employees that I need to 
run the system as well as I could. I have got to figure out a 
way to attract people there that I need.
    Mr. Serrano. Let me ask one last question.
    Do you recall, I should know the date, it was in the 80s, 
the Mariel boatlift, the folks that came from Cuba. That is one 
of America's best kept secrets, is that a large number of those 
folks are still in prison because they were not deported to 
Cuba. They were sentenced here, in some cases for coming here 
illegally, although it was a boat lift, and they didn't fit 
into the category that most Cubans fit into, which is if they 
arrive here and they touch land they can stay, apply for 
citizenship and become a citizen in two years rather than five 
for everyone else under the Cuban Adjustment Act. But many of 
them are still around.
    And I know Texas had a population, Georgia had a 
population, and some other states. And I was wondering, I am 
always trying to find out where are these folks? But many of 
them are still in prison 20 odd years later after serving--in 
many cases they served two or three years, but no one knew what 
to do with them after that, so they kept them in prison. Do you 
know anything about that?
    Mr. Werholtz. I don't know for sure where they are. I 
visited the federal penitentiary at Leavenworth at--and this 
has been probably 10, 12 years ago--where a large number of 
Cubans were incarcerated, and if I were to speculate, I would 
guess that they are still residing somewhere in the Federal 
Bureau of Prisons. I doubt it that they are in state prisons.
    Mr. Madden. I am not familiar with any, but I will be glad 
to get you the answer and the Texas program criminal justice 
give me an answer if there are any of them that were related 
from that time period or here for immigration violations. I 
would be glad to get that.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.

                           CELL CONSTRUCTION

    Mr. Thompson, let me ask you. What is the average cost of 
cell construction?
    Mr. Thompson. I am sorry, of what?
    Mr. Fattah. The average cost of prison cell construction.
    Mr. Thompson. Oh, boy, well it does vary a lot in different 
states.
    Mr. Fattah. Right.
    Mr. Thompson. So I would be----
    Mr. Fattah. Well give me the----
    Mr. Thompson. I think always in Pennsylvania what I recall 
Secretary Beard saying is that a medium security facility, just 
the construction, bricks and mortar, of about 500 per facility, 
I recall him saying $250 million. And I want to double check 
that to make sure that I have got that right.
    And then I guess the second thing they would always tell me 
is, and again, defer to Secretary Werholtz here, but is that 
the construction is just a fraction of the overall cost, that 
what they are really looking at are the operating costs. That 
is really where the major money goes down the road.
    Mr. Fattah. Then Mr. Secretary, why don't you help me with 
this then?
    Mr. Werholtz. Based on Kansas numbers, depending on the 
kind of bed that you are building, whether it is a minimum 
security dormitory style bed or a maximum security single cell 
bed, I think the figure you are looking for is probably the 
latter. That will run $100,000 or more to build a high security 
bed in a relatively low cost state like Kansas.
    We have had success in bringing beds on line for fractions 
of that when we are adding them to existing facilities. But any 
time you are building a new facility from scratch the costs are 
very high in that $100,000 figure for a maximum or medium 
security cell would run around $100,000.
    In our practice, and I think this is an important point to 
remember, we will single cell a maximum security prisoner, we 
will double cell a medium security prisoner. So you get two 
beds for the price of one, depending on the custody. And it is 
those little nuances that you have to keep track of when you 
are trying to identify costs.

                            OPERATING COSTS

    Mr. Fattah. What about the operating costs? The issue that 
was raised?
    Mr. Werholtz. Our average operating costs in Kansas is 
about $25,000 per bed, per year.
    Mr. Fattah. Go ahead.
    Mr. Thompson. And I was going to say, and that number will 
vary significantly from one state to the next. You know, you 
look at some of the northeastern states, for example, that will 
be significantly more expensive.
    But one of the things that is always frustrating I know for 
the legislators that we serve is how difficult it is for them 
to compare across state lines. Because one state will 
incorporate healthcare costs in that figure, another state will 
not. Another state will include bonding and also the capital 
improvements to it, another state will not.
    So there used to be a list of sort of how much it cost per 
inmate in each of the different states and they stopped keeping 
it because a lot of people felt it was so misleading because 
you were comparing apples to oranges.
    Mr. Fattah. Yes. To my colleague in the state house there 
in Texas. So you have got a prison system that approximates or 
is as large as the entire federal system.
    Mr. Madden. We do.
    Mr. Fattah. You got a lot of people in prison.
    Mr. Madden. We do. We have 157,000 that are in the prison 
systems. I have about 430,000 on probation. I have just under 
80,000 that are on parole. So if you put them all together, I 
have got a fairly large, fairly substantial percentage of the 
total population in the state of Texas. It is actually in one 
of those categories that fit within the whole departments that 
we are dealing with.

                       COST OF BUILDING A PRISON

    Mr. Fattah. Now what does it cost you to build a prison 
cell?
    Mr. Madden. Prisons for us, we had in our budgetary request 
during the last session for three new facilities about 6,000 
beds. It was going to be just under $600 million for the 
construction costs alone.
    We figure for a maximum or medium security facility, which 
holds somewhere between 2,000 and 2,500 prisoners, that the 
cost for those is 250- to $300 million each. So when you are 
looking at expanding a prison in Texas that is about the cost.
    Texas is notoriously cheap on our expenses. We spend about 
$50 per prisoner per day. Somewhere around $18,000 a year is 
our cost per prisoner, per day. That is very low compared to 
many of the other states. You are going to find that many of 
the others have a significantly higher cost than we do.

                            FEMALE PRISONERS

    Mr. Fattah. Now one of the not to often mentioned realties 
of prison in America today is that the increase in female 
prisoners. Is that----
    Mr. Madden. We talked a little bit about that. Because we 
have some, the numbers are growing. It is still a very small 
percentage. I think Roger says in Kansas it has gone up a 
couple percentage every year, but it is a comparatively small 
number of our prisoners.
    Mr. Fattah. What has been your experience?
    Mr. Werholtz. It represents about seven percent of our 
population now.
    Mr. Fattah. Well what is the increase over say five years 
ago? Has it doubled, has it tripled?
    Mr. Werholtz. As a proportion of the population it is 
probably only gone up one or two percent.
    Mr. Fattah. I am not asking as a proportion. I am talking 
about the percentage increase of female prisoners to what it 
was five years or so ago.
    Mr. Werholtz. I would have to look that up and get it to 
you. I don't have the numbers off the top of my head, and I 
don't want to wing it.

                           CHILDREN IN PRISON

    Mr. Fattah. Okay. Now one of the things that we know about 
prisoners is many of them have children.
    Mr. Werholtz. Yes.
    Mr. Fattah. And their children are the most likely people 
in our country to end up as an inmate themselves. The numbers 
are just enormous in terms of the likelihood of the children of 
prisoners who end up being prisoners.
    Is that a part of the work that you now are looking at? I 
know I have a former mayor who has been spending some time out 
in Texas----
    Mr. Madden. Yes.
    Mr. Fattah [continuing]. Working on this issue.
    Mr. Madden. Which mayor do you have in?
    Mr. Fattah. Mayor Good.
    Mr. Madden. Okay.
    Mr. Fattah. He has been doing some work around in Texas and 
a few other states and working with the children prisoners.
    Mr. Madden. Yes.
    Mr. Fattah. And trying to target programs.
    Mr. Madden. Wonderful program with Amachi that they are 
doing out there.
    Mr. Fattah. Right, Amachi.
    Mr. Madden. In fact we have had that in Texas.
    Mr. Fattah. You want to comment on that Mr. Thompson?
    Mr. Thompson. Yes, sir. Our board, and Representative 
Madden is one of those members, as well as other leaders have 
highlighted the exact issue that you are talking about, and we 
will be presenting an action plan that provide recommendations 
about how to improve outcomes for those children, and we are 
looking to do that in the next couple of months.
    Mr. Fattah. Can you share with the Committee what the 
percentage--absent any change, what the percentage of these 
children who would now become inmates in prison.
    Mr. Thompson. You know, there is a number of studies that 
people sort of elude to when they talk about the likelihood of 
someone going to prison or jail if they have a parent 
incarcerated, but a lot of people have questioned some of that 
research.
    So there is different studies out there, but there is no 
definitive study that is out there that provides that number. 
But I would be happy to refer you to some of the stuff that is 
there after the hearing.
    Mr. Fattah. All right. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Fattah.

                         INQUIRIES FROM STATES

    Mr. Thompson, your testimony indicates that you get 
inquiries, expressions of interest, on a regular basis from the 
states. How many of them do you follow up with, and is that a 
function of continuing interest or resources?
    Mr. Thompson. Yes. We are getting inquires constantly. As a 
matter of fact, just the general assembly in North Carolina is 
asking Representative Madden to go and testify asking for us to 
give explanations of what is happening. I was in Columbus last 
week. I was in Concord, New Hampshire the week before that.
    We are getting one request after the other, and we have 
what we call a queue that we have established where we try to 
prioritize those states that are closest to meeting all the 
criteria that I described earlier. But we ourselves are not 
able to meet all the demand that is there for this kind of help 
under Justice Reinvestment.
    Mr. Mollohan. Do states pay a fee for this service?
    Mr. Thompson. They do. We prioritize those states that can 
actually contribute to the cost of the study and the analysis 
that we do and the follow up work, but then the lion share is 
actually picked up by folks like the few charitable trusts and 
the Bureau of Justice System and other funders.
    Mr. Mollohan. That fund the council?
    Mr. Thompson. That give us funding support, yes.
    Mr. Mollohan. Or the Justice Center.
    Mr. Thompson. Right. But at the end of the day those 
dollars don't go far enough for us to create the capacity to 
meet the need in all the states.

                 ASSISTANCE FROM THE FEDERAL GOVERNMENT

    Mr. Mollohan. Do you get any assistance from the federal 
government, the Department of Justice, or any other entities?
    Mr. Thompson. We do receive some support from BJA, yes, the 
Bureau of Justice Assistance.
    Mr. Mollohan. What percentage of your budget is dependant 
upon support from Justice?
    Mr. Thompson. I would say in terms of the work that we do 
under Justice Reinvestment, you know, I would say almost about 
a quarter, you know, comes from the Bureau of Justice 
Assistance.
    Mr. Mollohan. Well why would states not--well let me 
understand your testimony.
    Is your testimony that you are not able to follow up with 
some states because the Justice Center just doesn't have the 
resources to do that?
    Mr. Thompson. Yes.
    Mr. Mollohan. If it were a fee for service, why wouldn't 
the Justice Center have resources to follow up with any 
particular state that wanted to hire its services?
    Mr. Thompson. That is something we are definitely asking. 
But you know, you hear about this incredible fiscal crunch that 
states are talking about where they are laying off staff, for 
example, and it is very hard for them to justify bringing in 
outside expertise or consultants. And so the best they can do 
is come up with a very limited percentage of the overall cost.
    We have not had a state that has been able to come up with 
the entire cost of the assistance that we are talking about 
providing.
    Mr. Mollohan. I know that it has to be different with every 
state, because they are different systems and just on the basis 
of scale, but can you give the Committee some sense of how much 
it would cost a state to have the benefit of your services from 
soup to nuts, beginning to end?
    Mr. Thompson. Sure. Yes. It does vary significantly, 
because you will get some states that just don't have much of 
an infrastructure at all in terms of data, and when you are 
working with, you know, just paper base files, for example, it 
is a much more----
    Mr. Mollohan. When you do your assessments?
    Mr. Thompson. Right. I mean, so much of what our time is 
spent is analyzing data and pulling it from a number of 
different information systems. And you will take some states 
that are fairly sophisticated, like in Texas, for example, and 
other states where you are dealing with paper base files, and 
so that is a factor.
    The time, you know, it is typically 12 to 36 months, you 
know, because we want to make sure that there is some follow 
up, to make sure that the results that were projected were 
actually realized.
    So recognizing that there is all this variation, I would 
say on average, you know, we look at about 250- to $500,000 a 
state.
    Mr. Mollohan. What is your annual budget?
    Mr. Thompson. For the Counsel of State Governments Justice 
Center our budget is, we are expecting to close out this fiscal 
year at about $5.4 million.
    Mr. Mollohan. And so if I were to divide that by that 
number that would give me eight states you could deal with? Or 
is that----
    Mr. Thompson. Boy my math is not very good, but that is 
what we have all these expert researchers for.
    Mr. Mollohan. Well that is not a lot I guess is the point.
    Mr. Thompson. But I will say that we have a number of other 
projects. We do a lot of work around the mentally ill and other 
issue areas.
    Mr. Mollohan. Okay. Going back to a couple lines of 
questioning, Mr. Wolf's and a couple other folks here I think.
    I take it you feel that you have access to best practices. 
That is the way I think might be the best way to describe what 
you have.
    Mr. Thompson. Yes, sir.
    Mr. Mollohan. You have best practices that you can apply to 
a state situation after you conduct an assessment.
    Mr. Thompson. Yes, sir.
    Mr. Mollohan. And you then go into this interactive mode 
where you fashion recommendations based upon your best 
practices and the state circumstance. And I suggest that a one 
size fits all model just wouldn't quite work; is that correct?
    Mr. Thompson. That is right.
    Mr. Mollohan. Where are we on the best practices? If we 
don't have a model that works for everyone, where are we in 
terms of best practices?
    Do you feel comfortable that we currently have the best 
practices that, if states chose, they could apply and 
significantly improve their correctional systems and the issue 
of recidivism?
    Mr. Thompson. Yes, I do think we know a lot about what 
works. And Representative Madden referenced something that the 
Washington State Institute of Public Policy put out that talks 
about the effects of well designed interventions.
    The trick is, as Secretary Werholtz was saying, is making 
sure that the program that you provide actually adheres to all 
of the principles of that effective program, and then that you 
apply that program to the right population.
    So there are, for example, particular mental health 
interventions that are very effective. You need to make sure 
that that mental health service that you provide is being 
integrated oftentimes with substance abuse treatment. We need 
to make sure that there is integrated mental health and 
substance abuse treatment. But that treatment isn't often 
available in the community. And what oftentimes is you will pay 
for two parallel treatment models. Well that is not going to 
have the same impact.
    And then furthermore, we need to make sure we are targeting 
particular service models to the populations that need it. And 
too often what we find is people put together a service package 
and then they end up targeting a population that didn't need 
that particular service package, and then you do not see the 
results that had been projected.
    So I think we know a lot about what works, but actually 
then translating that into practice, both in terms of the 
program model and then targeting the right population, that is 
where we hit a snafu, and I think that is where the data 
becomes so important.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. If I may.
    Mr. Mollohan. Please.

                           Mr. Wolf Questions

    Mr. Wolf. Let me try and answer the question from a 
recipient's point of view, too.
    The experience that we had with Mike and his folks and some 
of the other resources that our benefactors brought to bear was 
that they were willing to come to the State of Kansas, spend a 
considerable amount of time, and help people think through what 
was best for us, both at the state, but even more importantly, 
the local level.
    Our probation system is a very fragmented one, and it is 
locally based. We have got 31 different community corrections 
programs. And we required with that $4 million addition that 
our legislature gave to us, that each of those community 
corrections programs identify for us how they were going to 
achieve the 20 percent reduction in recidivism that the 
legislation asked for. What strategies they were going to use 
to accomplish that. What the evidence was behind those 
strategies.
    And for folks that don't have a lot of built-in resources, 
just the fact that we could get folks to come in who really 
understood the business of analysis, and understood the 
business of facilitating thought around criminal justice issues 
moved us forward so much faster.
    I do have a research department now in my agency. It took 
me four years to recruit her.
    These people are so hard to find and they have so many 
choices. Getting them to come to a state that has--Kansas is 
not boring, but it has got a boring reputation. Getting an 
academic to consider coming to Kansas and work for us is no 
small feat. And the fact that Mike would bring people and the 
National Institute of Corrections would bring people to our 
state to help us think this through was enormously valuable.
    Mr. Madden. Mr. Chairman, if I may also add.
    On our Texas side just one of the things that we really 
need to do and the legislature is really looking at, and that 
is results. What results do you get from these programs?
    Because the research has got to be done, but then we have 
got to see what is working and be able to go in and remove the 
programs are aren't, strengthen and reinforce the ones that 
are, and work on the ones that need working on to be helped on. 
Because there are a lot of wonderful programs out there, but we 
got to know which ones they are.
    Mr. Mollohan. Yes.
    Mr. Madden. And the vast number of people that he is 
talking about and the vast number of programs, you have got to 
pick out which ones are really working and which ones are 
failing.
    Mr. Mollohan. Good point. Mr. Thompson, how much followup 
is there with the states, and do you ever let them go? Do you 
stick with them?
    Mr. Thompson. It is interesting. We think that the followup 
is very important. And I think, you know, you get people like 
Secretary Werholtz and Representative Madden who are really 
interested in tracking the results. And we found I think 
sometimes that the legislature in other states quickly wanted 
to run on to the next problem and the executive branch wanted 
to be sort of left alone to implement. And what we have 
realized as a result of that is that we need to start making a 
clear condition of our work. That there will be a phase three 
of this, which is, we are going to stick around for the next 
one to two years to make sure the results that were projected 
are actually realized.

                  CRIMINAL JUSTICE OVERSIGHT COMMITTEE

    Mr. Madden. One of the things we stuck in our legislation 
was a criminal justice oversight committee in the legislature, 
which specifically has the task of going in and looking at 
program to program results, analyzing the program, and 
eventually getting the results.
    The problem you have with recidivism studies is, hey it is 
three years after they left the prison. When they leave your 
prison today you have got at least three years before you get 
decent data on whether you have been successful or not.
    Mr. Mollohan. You know somehow I can just see you pulling 
these people together at the beginning and keeping them 
together and marshalling this and pushing them and prodding 
them in Texas. I can just see you doing that.
    Mr. Wolf.

                      OTHER STATES ASKING FOR HELP

    Mr. Wolf. Thank you, Mr. Chairman.
    In defense of Kansas though, and I know you meant it in 
defense.
    My daughter biked across America in Bike America, and when 
she got home she said, ``Dad, the people in Kansas were the 
nicest people'', in any state that she had been in. She stayed 
in churches. I mean, she said, ``It was just amazing.'' Now 
your mountains are not like the Shenandoah and the Blue Ridge, 
but the people are kind of nice. So I know you meant it as a 
compliment to the state.
    Has Virginia asked you for any help? Has Virginia been in 
touch with you?
    Mr. Thompson. We have gotten inquires from some folks in 
Virginia, yes.
    Mr. Wolf. I mean, but so they haven't asked you though to 
come in and help them.
    Mr. Thompson. Well we have not been persuaded that Virginia 
will meet all the criteria.
    Mr. Wolf. And why is that necessary? Because we are going 
to talk to that. What does that have to be?
    Mr. Thompson. Well, I think, you know, we need to get 
written requests from the leadership across state government.
    Mr. Wolf. Now what does that take? What--when you say 
leadership across, who?
    Mr. Thompson. Typically we look for a written request from 
the governor, the speaker, and the senate president, as well as 
some signal from whether the chief justice will be involved.
    And we have come down and presented before the legislature, 
as well as talked to the governor, and they are certainly aware 
that they are facing a significant challenge with the growth in 
their prison population.
    Mr. Wolf. We are. Yes. And you are pretty close. I mean, 
Richmond would be a piece of cake for you to be. So well, we 
will----
    Mr. Thompson. Yes, and I may be going back soon. 
[Laughing.]
    Mr. Wolf. No, I don't know, and maybe not. I mean, because 
they just adjourned, but I think I would as we go over the time 
talk to them and see if we could, you know, get them 
interested.
    You know, in closing I wanted to ask you about prison, 
prison rape.
    Bobby Scott and I were authors of the bill on prison rape, 
and this has been a great hearing, but in the reality of the 
warm sunshine of a Friday afternoon versus the cold reality of 
the rainy Monday morning, this is really pretty tough stuff.
    And I know when Mr. Scott and I put the bill in we had 
tremendous resistance from the states. We had tremendous 
resistance from the Justice Department in the previous 
administration. They didn't want to do it. And finally, you 
know, it passed.
    What are the conditions now in state prisons and prisoners 
with regard to the issue of prison rape, and has the 
legislation made an impact? Do you know anything about it? What 
has it meant?
    Mr. Werholtz. The legislation has made an impact both good 
and bad in my view. I am probably one of the people who was 
part of the resistance, and I need to be up front about that.
    I don't know of a corrections administrator, any of my 
peers, who would think that it is okay to do that kind of 
thing. And I think that as a group we have worked very hard to 
make sure that prisons are safe for the people who have to live 
in them, as well as the people who have to work in them. And we 
get very defensive when it comes across to us that people think 
that we are not paying attention to those issues.
    That being said, I think it is also disingenuous on our 
part if we say it doesn't happen, and that there are not places 
where serious attention needs to be given.
    One of the concerns that we have about--and when I say we I 
should say those of us--me and my peers have--are concerns 
about what the standards are going to be for the Prison Rape 
Elimination Act when they are issued and what the costs will 
be.
    And the version of the standards that we have seen are in 
our view so expensive that we think it may have the opposite 
result of what was intended. And it may cause states to simply 
say we will pay the penalty on the grant funds, because it is 
too financially burdensome to try and conform to the 
requirements as we have seen them.
    I have to emphasize, we haven't seen the final version.
    The other problem that we have had with the definition is 
what all gets categorized within the definition of rape.
    In my state it is a felony for any staff person to engage 
in any sort of sexual activity with an offender, either in 
prison or in the community. I think we have taken a very 
aggressive stance against that.
    It is also in our understanding defined that any sexual 
contact between offenders gets classified as rape, whether or 
not that contact was in quotes, ``consensual,'' because they 
don't have the ability legally to give consent.
    But it has gotten I think characterized as a power dynamic 
that we don't know whether in fact this is truly consensual, 
whether it is an exchange for goods and services, whether it is 
extorted, those kinds of things, but the definition has gotten 
so broad that--and the development of the standards now has in 
our view been so closed that we are frankly concerned about 
what the ultimate outcome is going to be.
    And my Association, the Association of State Correctional 
Administrators has asked for a couple of things to try and get 
what we think is a more balanced look that is really based on 
data as opposed to based on anecdotal testimony. And one of the 
things we have asked for is for the Centers for Disease Control 
to take a look at the transmission of communicable diseases, 
and particularly sexually transmitted diseases that occurs in 
prison.
    We think that that evidence will show that there is not a 
lot of that transmission occurring in prison, and that a lot of 
it came in with the individuals from the community.
    So I have got very mixed feelings about it. I think the 
motivation for it was well taken and it was something that was 
needed to draw attention to the issue, but I am more worried 
about how it is going to be operationalized at this point.
    Mr. Wolf. Do you have----
    Mr. Madden. In the state of Texas obviously legislative--I 
am talking the legislative side--we certainly do support the 
legislation and the intent of the legislation. And I think my 
problem----
    Mr. Wolf. One of the cases we based it on was a Texas case.
    Mr. Madden. I know, absolutely. And we do support the 
legislative intent and the desire you had there.
    I honestly have not spoken to my director--the corrections 
director specifically about it, other than to ask about the 
various things when the people were down and doing testimony on 
it this last time, and why did Texas not do as well in some of 
the performances and some information, and so that kind of 
conversation we have had with him.
    It was, in fact, one of the things that kicked me off into 
the thing when we had a little problem with our Texas Youth 
Commission two years ago when we had to completely restore 
them, put them in a conservatorship and everything else, was 
one of the first questions I asked, because I was asking the 
same questions to the Department of Criminal Justice I asked my 
Youth Commission, ``Where is your PRIA money?'' And they said, 
``Well we don't have any problems like that at the Youth 
Commission.'' And we quickly found out that looking at any 
kinds of data that they had that they clearly did and did not 
have that.
    So I want to commend you for the legislation and we will 
certainly get you some more information from Texas.
    Mr. Wolf. Good. Did counsel have any comment?
    Mr. Madden. Let me add one other thing, Mike.
    One of the things too we found when we dealt with the Youth 
Commission is what a great help cameras were in the facilities, 
and we put like 7- or 8,000 cameras in our Youth Commission 
facilities out of that to make sure the security----
    Mr. Wolf. Did that come out of the----
    Mr. Madden. That came out of the problems we had with the 
Youth Commission and the thing we also did two years ago.
    Besides all the other things we did in Criminal Justice, we 
did some major reforms in our Texas Youth Commission.
    But we also then started asking the questions to our 
Department of Criminal Justice, well how many cameras have you 
got? In our 15 youth facility locations we have about 8,000 
cameras watching. In our Texas Department of Criminal Justice 
we only have about three quarters of that, totally in our 112 
facilities.
    It is much harder to say that something did or did not 
happen if you don't have the capabilities to see that. That is 
one of the things we are pushing our Department of Criminal 
Justice on this time, at least in many of our facilities, is to 
expand the use and the monitoring of cameras within the 
facilities. Because it makes the prisoners safer, it makes the 
guards safer, it makes, you know, a lot of investigations a lot 
easier to do if you have got the pictures if something happened 
one way or the other. So it is a lot easier to prove that 
something did or did not happen.
    Because we had one of the witnesses came into us in 2007 
talking about prison rape, and the fact that we had like 60 
times more than Ohio and 30 times more than California. And we 
quickly found that we reported a lot more than Ohio and 
California did, and we did believe that despite the fact that 
we may have two or three--well, we did have the same number of 
prisoners in California roughly and about twice as many as 
Ohio, that there was any significant difference in the make up 
of the prisoners that would indicate that we have that much 
larger a problem in Texas than they did in any of the other 
prison systems. So we certainly look at reporting the incidents 
is extremely important also.
    Mr. Wolf. Does counsel have any comment?
    Mr. Thompson. Just that I would say that when the 
legislation was passed we worked very closely with your office 
and Congressman Scott's and others and were ultimately found 
that the legislation--we really appreciated how it was data 
driven and this comprehensive study that it authorized and set 
in motion and the way that it set up the commission, and so we 
were very supportive of it when it was enacted.
    Since then we have largely just deferred to our members to 
find out what is been going on. We have not had much on a 
conversation since then.
    Mr. Wolf. Okay, thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I don't have a 
question. I want with your permission to tell a quick story, 
which I think you might appreciate.
    About oh, ten years ago a group of people from the City 
University Community came to me and they said, ``We have been 
doing some research and we found out that you are the longest 
serving elected official in the history of the United States of 
Puerto Rican background, and we want to celebrate that, a whole 
weekend where students come in and they speak to you and you 
tell them what it is been like, and we want it to be an 
educational thing.'' So if you are early enough to remember the 
old Jack Benny show, another guy shows up who was invited and 
goes, ``Psst, don't do it.'' I said, ``Why not?'' He said, 
``You are going to be embarrassed.'' I said, ``Why is that?'' 
He said, ``Because you are not the longest serving.'' I said, 
``There is no one longer than me in Pennsylvania and New 
Jersey, Connecticut, and New York.'' He says, ``Yes, but there 
is one in Kansas.'' I said, ``Kansas, there is no Puerto Ricans 
in Kansas.'' He says, ``This one is.''
    Turns out that a young man from the Bronx or from New York 
City had joined the military after he got his degree--they know 
who it is, and I will mention the name, because I hope I am 
right. He had joined the military, he had landed in Kansas 
after he finished. He met a local girl, married her. Got 
involved in the community, served three years in the state 
legislature in the state assembly--the house--and 28 in the 
state senate.
    At that point I would have been embarrassed, I was not the 
longest running. Luckily he was promoted to the parole board 
[Laughing.]
    So it fits, and now I can have my party. Because now I beat 
him.
    But Paul Feliciano, am I right? I mean and when I told 
Senator Brownback he said, ``Yeah Paul.'' He says, ``He is 
Puerto Rican?'' I said, ``Well maybe he operated under don't 
ask; don't tell.'' [Laughing.]
    But I shared the same story with the Murgia family who have 
been at every White House you can think of, and I think there 
are what, three judges in the family or something? And they 
said, ``Paul's Puerto Rican?'' I said, ``Okay, I am not going 
to touch this.'' [Laughing.]
    That is my story.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Fattah.
    Mr. Fattah. To wrap up, Mr. Chairman, let me first of all 
commend Congressman Wolf for his legislation. I think it was 
right on point and I was pleased to be supportive of it.
    And Senator Webb from Virginia has just announced major 
legislation to have a look at our entire penal system in the 
country. Because he concludes what I think most right thinking 
people have concluded, is the fact that we imprison more people 
than any other country in the world. We still have not figured 
out any real connection between this imprisonment and lowering 
the crime rate, and we seem to be producing better criminals. 
Since 90 plus percent of whoever we imprison eventually come 
home, they don't seem to come home a lot better off than when 
they were sent, and we invested a lot of money in this deal.
    So I want to just say that I think that it must be 
something in the, I guess the water in Virginia, if Senator 
Webb is on this point now and Frank Wolf has been on this point 
for a long time.
    So I would thank the Chairman for having the hearing, and 
thank the witnesses.
    Mr. Mollohan. Thank you, Mr. Fattah.
    You have other resources. And I believe, Mr. Werholtz, your 
testimony referred to assistance you receive from the National 
Institute of Corrections; is that correct?
    Mr. Werholtz. Yes.

                                  NIC

    Mr. Mollohan. I know that in the '09 budget that was asked 
to be zeroed, which we didn't approve.
    But can you describe for the Committee the assistance that 
the state received from NIC and how it complimented what you 
received from the Justice Center, and how that all played in 
your reworking of your Justice System?
    Mr. Werholtz. I would be glad to. And speaking for my peers 
we are very glad that NIC is still around. It is a very 
important resource for us.
    Mr. Mollohan. Well that is good for you to get on the 
record. Thank you.
    Mr. Werholtz. Yes. The assistance that we get from NIC is 
very diverse. We have the ability to go to them with requests 
for, it typically comes in the area of technical assistance, 
bringing personnel to Kansas, or taking Kansas to observe 
something in another state.
    So most of the direct assistance that we receive from them 
is relatively modest in the amount. It may be somewhere between 
$5,000 and $25,000 at each iteration, but it is very easy to 
access. That is something that I think for us is really 
important. It is a phone call followed up by a letter. We need 
help in this area. We have a person in mind that we need to 
bring to Kansas. Or can you suggest people who can help us on 
the particular suggest?
    That quick response is something that is very useful, and 
they are very flexible. Because I may have something very 
different than Brad Livingston in Texas or Jeff Beard in 
Pennsylvania. You know, so they have tentacles out all over the 
place to the best practice people. The researchers in the 
country.
    And the other thing that NIC does for us, and I am really 
fortunate that I get to sit on one of the committees that 
guides that, is that NIC, Bureau of Justice Assistance, both of 
those agencies fund research, and so they help build the body 
of knowledge that we rely on to identify what the best 
practices are and how best to use them.
    I don't know if I am being directly responsive to your 
question, but they have been a great resource for us ever since 
I have been with the department.
    Mr. Mollohan. Well it is clear they have been a great 
resource to you, and that is good testimony.
    How has it been different than what the Justice Center has 
provided? And then we will ask the Justice Center and Vice 
Chair Madden to speak.
    Mr. Werholtz. They have brought some subject matter experts 
to us that aren't part of Mike's shop, and may have some very 
specific skills.
    For instance, to cite one example, bringing in experts who 
can help train our staff on cognitive behavioral interventions. 
Mike doesn't have clinicians in his organization. NIC can reach 
out to a group of clinicians or researchers around the country 
and help facilitate that knowledge transfer. I think that is 
one of the primary differences.
    What Mike did for us was a lot of data analysis and 
interpretation, and then expert testimony back to our 
legislature. And that was helpful because they didn't have a 
vested interest in putting forth one sort of policy option as 
opposed to another. Coming from me, some people might suspect 
my motives or my agenda, but they served as kind of an 
objective resource. I guess that is the best way I can describe 
some of the differences.
    Mr. Mollohan. Mr. Thompson.
    Mr. Thompson. Yes. I just want the underscore Secretary 
Werholtz' point about the crucial role that NIC plays in the 
field, and just to further illustrate the point in terms of how 
what they do compliments what we do.
    You know, one of the elements of the legislation--or 
provisions in the legislation enacted in Kansas called on 
community corrections, each of the local governments to reduce 
revocations by 20 percent. So that was the goal that the 
legislature set. We told them what would happen as a result of 
that and some key things to look for.
    To actually make that happen you need to change the 
behavior, as Secretary Werholtz is saying, of your aligned 
community corrections staff. And NIC can bring in those kinds 
of experts and actually do that. We don't do that. We will then 
track for the legislature what the results of it are.
    There is a second thing too that I want to flag. The 
National Institute of Corrections like you all has been very 
focused on the growing numbers of people with mental illness in 
the criminal justice system.
    We are extremely grateful to you for what you did in 
enacting the Mentally Ill Offender Treatment and Crime 
Reduction Act. It is an extremely important piece of 
legislation and we are grateful to you for putting money into 
it.
    The National Institute of Corrections actually, in a 
specific program that Secretary Werholtz is looking at, is 
trying to figure out how are we dealing with say parolees and 
probationers who have a mental illness, and what are we doing 
differently with them? That is a real sort of practice issue. 
We are doing some work with them to look into that. But it is 
another example of how NIC resources leveraging some of this 
real big picture stuff that we are doing in the state capitol.
    Mr. Madden. They were a major help also, if I may, Mr. 
Chairman, in dealing with things in our probation departments. 
Particularly they had great resources.
    Now unfortunately they had, Jett Foundation was down there 
helping us with some of the funding aspects that we had with 
some of the things we were doing within our counties with 
probation training, with the integration of progressive 
sanction models within the various probation departments that 
we were working on very hard as part of our overall strategy 
that actually is really part of this Justice Reinvestment 
program. And training the people how to do the programs and in 
the local areas. So that was an extremely important part. And 
the Bureau of Justice really could have done that.
    Mr. Mollohan. Typically, from the point you are contacted 
by a state, Mr. Thompson, how long is the process from that 
contact to implementation of changes in any particular state's 
correctional system?
    Mr. Thompson. You know, usually there is a period of time 
where we try to determine whether the state can meet all the 
criteria that we have. Then there is the period where we do 
this detailed analysis. I would say there is a few months to 
figure out whether the state will meet the criteria. And then 
there is this phase where we do this real detailed analysis 
talking to local government stake holders that I mentioned 
earlier. That tends to be another few months. Then there is the 
whole process with the policy makers of sorting it into actual 
policy options. That is another few months.
    I would say, you know, typically to see something enacted 
it takes anywhere from about 12 to 18 months. But then there is 
that crucial point afterwards that we were talking about and 
you were asking about, making sure that you stick with a state 
to make sure that the results that they reinvested in actually 
materialize.
    Mr. Werholtz. Can I give you another example?
    Mr. Mollohan. Yes, please.
    Mr. Werholtz. We have been working with CSG for at least 
four years now, and I was looking around to see if Dennis 
Schrantz from Michigan is still here, I think he is gone now, 
but we have had this conversation. If you ask us how far along 
we are in this process, I think both of us who have been 
engaged in this for four or five years, we would say 
optimistically we are half way done. This is a very long----
    Mr. Mollohan. It is a process not an event.
    Mr. Werholtz. And it is cultural. It is really changing the 
whole nature of your organization.
    Mr. Madden. Probably only one of us would say we have 
gotten three quarters of the way at least in doing the things 
that we needed to do. And he is right, it is a cultural change, 
because we changed the ship--the direction of the ship such 
that in this last budgetary cycle that we are now in, my 
corrections department came in and requested 400 beds on their 
own. We didn't have to do that as a legislature. They came in 
and said we need 400 more beds to expand this prison 
therapeutic treatment that we have for drug addicts. Hadn't 
been done in a long time.
    Mr. Mollohan. Yes, I was very impressed with that part of 
your testimony.
    Mr. Madden. And they also put in that they needed reentry 
officers, personnel with NTDCJ, not for parole, not for other 
purposes, but to assist the offenders with reentry.
    Mr. Mollohan. So this is the evidence of buy in.
    Mr. Madden. A buy in. Yes, they bought in. They truly 
bought it.
    And Mike's optimistic when he says 12 to 18 months, to get 
total buy in it is three, four years at least.
    Mr. Mollohan. We are wrapping up here. But are there any 
lessons learned here for the federal system? Or are you all 
able to speak to that?
    Mr. Thompson, do you want take a stab at that?
    Mr. Thompson. Well, you know, I don't know the ins and outs 
of the federal system, but you know, I will say that getting 
the same kind of information that we put in front of the state 
legislature, your situation does seem somewhat analogous in 
getting a really good data driven analysis of what is happening 
with the prison population there, and you know, asking the 
question, you know, as you all are asking now, how can we get a 
better return on our investment?
    Mr. Mollohan. Do you look to the federal government for 
best practices in any aspect of this?
    Mr. Thompson. Absolutely. I mean----
    Mr. Mollohan. In the practice of the federal prisons?
    Mr. Thompson. You know, I mean, to be honest, I am not as 
familiar maybe with some of the practices that----
    Mr. Mollohan. So you don't?
    Mr. Thompson. Well there is some things, and Roger has a 
lot of communication with Director Lapin and DOP.
    So there are some things with specialty case loads for 
probationers and stuff that we do find really intriguing, but I 
should familiarize myself more with the DOP.
    Mr. Werholtz. I think the short answer is sure. I think in 
every system there are things that each of us do well and 
things that we could all improve on, and we have looked to the 
federal system for some of the things that they could do, 
because you know, their resources are so broad. They have been 
able to try some things that the rest of us kind of look back 
and wait and see what the outcome is. And we have mimicked a 
number of those things.
    The one that comes to mind and most readily for me is 
around correctional industries issues.
    Mr. Mollohan. Mr. Madden.
    Mr. Madden. We are also looking at some things that may be 
cut backs in our prison industry programs too, so that is a 
possibility, too.
    From the legislative standpoint I will say that I didn't 
get a lot of input on the legislative side in doing the 
legislative changes when doing some of the other programs 
within the prisons, yes, certainly there is a lot of contacts 
that we have and a lot of things that they do well.
    Mr. Mollohan. Thank you, gentlemen. Any other questions?
    Mr. Fattah. I have one last question.
    Mr. Mollohan. Okay. Mr. Fattah.

                EDUCATIONAL ATTAINMENT LEVEL OF INMATES

    Mr. Fattah. Mr. Secretary, can you tell me anything about 
the educational attainment level of the inmates in Kansas?
    Mr. Werholtz. Yes. It is interesting. I think we are a 
little bit unusual in that the majority of inmates that come 
into our prison system actually have a high school degree or 
higher. I think that is probably different than most other 
states.
    Mr. Fattah. What about Texas?
    Mr. Madden. Texas is much lower than that. The numbers I 
have heard, and I didn't have any specific statistics that they 
have given me, just the general indications where they were 
three years behind the educational levels they were supposed to 
be at, which indicated they were somewhere between sixth and 
ninth grade levels.
    Mr. Fattah. Mr. Thompson, can you add anything to this 
answer here?
    Mr. Thompson. Just that there is huge variation among the 
different states, and that not only are a huge percentage of 
people incarcerated do not have high school degrees, but then 
you look at average eighth grade education level and then a 
very large number who are illiterate all together. And we know 
that illiteracy in particular is a huge predictor of 
recidivism.
    Mr. Fattah. Is there any good data on this that is 
available?
    Mr. Thompson. There is some, and I would be happy to get it 
for you.
    Mr. Fattah. Could you supply that to the Chair? Thank you.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Serrano.

                            VOTE FOR PRISONS

    Mr. Serrano. Yes, I just had a quick question which you 
touched on, the whole idea of what the legislature is presented 
with, in terms of the request.
    Twenty years ago I spent 16 years before that in the state 
assembly, and I always found in New York that it was easier to 
get people to vote for the building of prisons than it was to 
get them to vote for programs for folks coming out of prison 
and so on.
    Has that changed much? And it was the same throughout the 
country. Has that changed much?
    Mr. Madden. I think it would be fair to say it is changed 
in New York. Prison populations are down in New York. One of 
our board members is a good friend of mine who is also on the 
prison--chairman of the prison committee, and I guess what is 
the correction committee--is the chairman of corrections 
committee. Yes, it has also been easier to get votes to build 
prisons than it is to do programmatic things. That is a simple 
vote.
    Mr. Werholtz. I think in Kansas it is changing, and it is 
easier now to get money for programs than it is for prison 
expansion.
    Mr. Serrano. That is very encouraging.
    Mr. Madden. I would say that that is also true now in 
Texas. In the last two sessions we have changed that.
    Mr. Serrano. I remember how tough that used to be, so maybe 
we have seen the light.
    Mr. Thompson. I would just add. I mean, that is why with 
you gentlemen testifying and what you are hearing about Kansas 
and Texas is not necessarily indicative of what every state is 
experiencing. You are going to see states that it is probably 
easier to construct more and then start on distant programs. 
The main thing we can do is to deal with the issues you are 
talking about.
    Mr. Madden. I'm on the board of both of these corrections 
committees for both the National Conference of State 
Legislators and American Legislative Exchange Conference and we 
do see a lot more interest amongst the legislators in the types 
of things we are doing, because they recognize the cost 
drivers. The fact we can't imprison everybody. The fact that if 
we continue on the course we are on right now you will have a, 
you know, an unmanageable size in your prison populations in 
the not too distant future, and you can't do that. And so we 
have to do something that is intelligent, and many of them are 
reacting with intelligence to that question of what is the 
right thing to do.
    So it is being both smart and tough. There are people we 
obviously need to lock up and keep there as we have seen in 
every place, but the vast majority I talked about earlier, 
those that have those things that we are mad at and we want to 
figure out some way in making a difference in their lives.
    Mr. Fattah. Thank you.
    Mr. Mollohan. That was a great way of talking about it, I 
thought.
    Well it looks like the members have exhausted themselves, 
and we hope we haven't exhausted you. But we very much 
appreciate your being here today, traveling so far to do that, 
and for your expert insightful testimony. It has certainly been 
helpful to the committee as we work our bill this year. Thank 
you, gentlemen.
    The hearing is adjourned.


                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Amison, J. S.....................................................   359
Byrne, J. M......................................................   397
Davis, Hon. D. K.................................................   397
Glover, Phil.....................................................   153
Lappin, H. G.....................................................     1
Lattimore, Pamela................................................   229
Lowry, Bryan.....................................................   153
Madden, Jerry....................................................   481
Manley, Judge Stephen............................................   359
McDonald G. T....................................................   278
Nolan, Pat.......................................................   278
Schrantz, Dennis.................................................   278
Taxman, Faye.....................................................   189
Thompson, Mike...................................................   481
Travis, Jeremy...................................................   397
Visher, Christy..................................................   229
Werholtz, Roger..................................................   481

                                  <all>

</pre></body></html>
